<html>
<title> - REVIEW OF RESOURCES, PRIORITIES AND PROGRAMS IN THE FISCAL YEAR 2016 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-124]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-124

 REVIEW OF RESOURCES, PRIORITIES AND PROGRAMS IN THE FISCAL YEAR 2016 
                    STATE DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-627 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
   
   
   
   
   
   
   
   
      
      
      


                COMMITTEE ON FOREIGN RELATIONS         

                 BOB CORKER, TENNESSE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                              (ii)        

  
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. John F. Kerry, Secretary of State, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Bob Corker......................................    52
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Robert Menendez.................................    56
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator James E. Risch..................................   107
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Marco Rubio.....................................   108
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Barbara Boxer...................................   110
    Response of Secretary John F. Kerry to Question Submitted by 
      Senator Jeanne Shaheen.....................................   112
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator Edward J. Markey................................   112
    Responses of Secretary John F. Kerry to Questions Submitted 
      by Senator John Barrasso...................................   115
Hon. Robert Menendez, U.S. Senator From New Jersey...............     2

              Additional Material Submitted for the Record

Statement From Administration on No Boots on the Ground Submitted 
  by Senator Barbara Boxer.......................................   134
CRS Memorandum on the Meaning of ``Enduring'' Submitted by 
  Senator Barbara Boxer..........................................   135

                                 (iii)

  

 
 REVIEW OF RESOURCES, PRIORITIES AND PROGRAMS IN THE FISCAL YEAR 2016 
                    STATE DEPARTMENT BUDGET REQUEST

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Johnson, Flake, Gardner, 
Perdue, Barrasso, Menendez, Boxer, Cardin, Shaheen, Udall, 
Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Mr. Secretary, I know you have been doing a lot of 
traveling around the world and have a lot of important issues 
to deal with, and we appreciate very much you coming in today 
to talk about your budget.
    As you know, the purpose of this hearing is to learn more 
about the State Department's fiscal year 2016 budget request. I 
know that these hearings also become a time, in many cases, to 
talk about public policy issues. I think you know there may be 
some questions about the AUMF and other issues that you are 
dealing with at this time. So we appreciate you answering all 
of those.
    One of our top priorities is to complete a State Department 
authorization that helps the Department become more efficient 
and effective within a sustainable budget. Chairman Perdue will 
be taking on that effort. We met yesterday with Heather 
Higginbotham from the State Department, and had a good meeting 
to launch the authorization process. And I think all of us want 
to make sure, as we are dealing with the many crises around the 
world, that the State Department is set up in a way to leverage 
our efforts and to ensure that we are doing on a daily basis 
everything we can to continue to pursue our national interests. 
And that is the purpose of doing the authorization.
    Obviously, the President has sent forth a budget that 
increases spending $74 billion, and I think all of us 
understand that is not where we are going to be. I know you are 
here today to talk about your component of that, but we all 
know that that is not where the budget is going to end up. It 
is going to be at a greatly reduced number. So we know we have 
some challenges in front of us, and we appreciate again you 
being here for us to be able to talk with you about those.
    The State Department is also proposing some increases in 
foreign aid, not just in State ops. And yet, in many cases, 
there is difficulty in trying to evaluate the effectiveness of 
the aid. Again, I think that is one of the important reasons 
for having an authorization. Our overseas contingency 
operations funding still compose about 14 percent of spending, 
and at some point I think we all know we have got to move away 
from funding through OCO to getting things on an enduring 
budget. And again, that is something that through the budget 
process we are going to look closely at this year.
    I do have four things I would like to highlight. The State 
Department right now has an over-reliance on OCO and carryover 
balances, and I think there is a great concern that those 
carryover balances create a lack of discipline within the 
Department. The budget's misalignment with strategic planning 
efforts such as the quadrennial diplomacy and development 
review process--those not being linked up seems to miss an 
opportunity to make sure that we are aligned properly. We have 
a massive increase in peacekeeping that betrays previous 
agreements with the United Nations on the U.S. share of 
funding. And we have a failure to reprioritize resources in 
line with the Asia rebalance. There has been a lot of 
discussion about that, but it is very difficult to see the 
resources that are being put forth to deal with it.
    So we look forward to your testimony. I know there will be 
a number of questions not just about the budget but other 
activities that you have been dealing with. We thank you for 
your service to our country. We thank you for taking time out 
to be with us today.
    And with that, I would like to recognize the distinguished 
ranking member, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    Mr. Secretary, welcome back to the committee. I see you 
have a big binder there, so hopefully it has all the good 
answers that we want to hear.
    As we meet, it is a challenging time for State's budget and 
for the Nation. Negotiations are continuing with Iran even as 
it perpetuates the war in Syria. ISIL is expanding its 
territory and sphere of influence in the Middle East and North 
Africa, and Putin has again reneged on his commitments to solve 
the Ukrainian crisis. At the same time, China is rising, 
pressing for its own political and territorial advantages. In 
Africa, Ebola has caused nearly 10,000 deaths and remains a 
threat due in part to a lack of an adequate medical 
infrastructure and delivery system.
    So we have many challenges in the world, and I know that 
the State Department is at the forefront of trying to meet 
those challenges.
    The fact is that world history has taught us that no matter 
what the threat or challenge, dealing from a position of 
weakness is always a greater provocation than dealing from a 
position of strength.
    So I appreciate your total engagement, as evidenced by the 
fact that in 306 travel days, you have logged over 700,000 
miles to 59 countries, and we will be looking forward to being 
able to hear what we have accomplished in some of that travel.
    I just want to take one or two moments to talk about one or 
two issues as a framework.
    On Iran, I stand second to no one in my desire to see a 
negotiated solution that rolls back and dismantles Iran's 
illicit nuclear program. But a deal that allows Iran to 
continue as a nuclear threshold state, gives it relief from 
sanctions, potentially allows it to go from being a threshold 
to an actual nuclear weapons state is no deal at all. I am very 
concerned about the news that is leaking from the negotiations 
and that this entire deal will hinge on inspection and 
verification regimes while leaving Iran with the vast majority 
of its nuclear infrastructure. And if the facts--and we do not 
know whether they are facts or not, but various reports 
suggested in a matter of time that is far less than anybody 
would have envisioned.
    On Cuba, I think the deal was one-sided. The regime has not 
changed tactics. In fact, it is flaunting its success in the 
negotiations. Last week's congressional visits, which did not 
include any visits with human rights activists, political 
dissidents, or independent journalists, were followed by the 
arrests of more activists across the island. In Havana, 70 
members of the Ladies in White were arrested. Several dozen 
more were arrested for accompanying them. Prominent civil 
society leaders, Antonio Rodiles, Angel Moya, as well as 
independent labor leaders, Alexis Gomez Rodriguez, Pavel 
Herrera Hernandez, were also arrested. On the same day, in 
eastern Cuba, over 90 activists from the Cuban Patriotic Union 
were arrested in Santiago. Another 13 Ladies in White were 
arrested in Santa Cruz, along with Sakharov Prize winner, 
Guillermo Farinas. But that is not all. One of the Ladies in 
White was actually splashed with tar. Clearly the regime has 
not changed and, if anything, it seems that they can do this 
with impunity notwithstanding our engagement.
    And finally, on Ukraine, the most recent diplomatic efforts 
seem to have only emboldened Putin. Since Minsk II, there have 
been hundreds of cease-fire violations and the city of 
Debaltseve has fallen under rebel control. Putin's forces now 
threaten Mariupol, which could provide a land bridge to Crimea, 
and his intentions are clear. On February 9, the President said 
that providing lethal defensive weapons is one option being 
considered by his team. I look forward to hearing whether this 
option is more likely, given the failure of Minsk II. It is 
something that this committee in a bipartisan fashion sent to 
the President, signed by the President. I hope that we will 
help the Ukrainians be able to defend themselves. You know, 
sending them night vision goggles and being able to see your 
enemy does not do very much for you if you cannot stop them. 
And that is where we are at right now.
    I do want to say one very supportive thing in addition to 
recognizing your most recent comments on Ukraine, which I 
applaud. For the past several years, I have complained, 
cajoled, encouraged, pleaded, and pushed in every way I know 
how the United States needs to direct additional resources to 
foreign policy priorities in our own hemisphere. And the budget 
request for Central America focuses on the right priorities and 
is a very good start. We need to work with these countries and 
help create opportunities, which is in our own national 
security interests.
    I look forward to discussing those and other issues with 
you.
    And thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    And again, we want to thank you for being here. I think you 
know the drill. Your comments will be entered into the record, 
with no objection, your full comments. If you could keep your 
comments to about 5 minutes, I know there is going to be robust 
questioning. And with that, thank you again. We look forward to 
your testimony.

   STATEMENT OF HON. JOHN F. KERRY, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Kerry. Well, Mr. Chairman and Ranking Member 
Menendez and my good former colleagues. And I guess one person 
that I did not have a chance, Senator, Senator Perdue, to 
welcome this great committee. I am delighted to be have a 
chance to be here to share an important dialogue.
    I appreciate the comments that both of you have made. I am 
not going to pick up on all of them now because I am confident 
that during the questions, we will have a chance to dig into 
most of the things that you raised. And I will summarize to try 
to maximize our time and respect yours.
    But I want to just make it clear that since leaving the 
perch up there that you sit in, Senator Corker, as chair and 
having spent--what--29 years on this committee, beginning way 
over here, even further than my friend Ed Markey, I watched a 
lot of events unfold in the course of my service on this 
committee and in the Senate, a number of wars, major debates. 
It is interesting for me to see now serving as Secretary the 
reality, the degree to which what we choose to do is really 
important. And how the Congress acts makes just a gigantic 
difference to the sense of unity of purpose about our country. 
And this is about our country. It really should not be about 
party, the old saying that, you know, foreign policy concerns 
and national security interests should end at the water's edge.
    And what has come home to me more than anything is the 
degree to which we, the United States, are privileged and 
sometimes burdened with the responsibility of leading. I mean 
leading, making things happen, stepping in where others do not 
or cannot or will not. And I will say to you that I believe we 
legitimately--I mean, you may disagree with how we are doing in 
Libya at this particular moment or you may think something more 
should have been going on in Syria. But I will tell you I 
cannot think of a time--and I hear this from former colleagues; 
from former Secretaries--when we have had to deal with as many 
explosive, transformational moments historically than now.
    And I just want to respectfully suggest to all of you--and 
I will say this at some point and I will talk it at length. I 
hope I can get a chance to do so in classified session where I 
could say more about it. But we ask for 1 percent--1 percent of 
the Federal budget. One percent of the total budget of the 
United States of America goes into everything we do abroad. All 
of our efforts for our citizens, our visas, our embassies, our 
counterterrorism, our aid, our assistance, everything, 1 
percent. But I absolutely guarantee you that well more than 50 
percent of the history of this era will be written off that 1 
percent and off the things we do or do not choose to do in 
terms of foreign affairs.
    And when you look today at the challenge of Daesh--ISIS--
when you look at the clash of modernity with opportunity and 
culture and youth populations and bad governance, corruption, 
all the challenges that are out there, we have got our work cut 
out for us.
    Now, we are leading in putting together this unprecedented 
coalition. I say unprecedented because this is the first time 
in anybody's memory that anybody knows about five Arab 
countries, Sunni, engaging in proactive military operations in 
another country in the region, Syria, in order to go after a 
terrorist organization. And we have five major channels of 
effort, on foreign fighters, on humanitarian, on 
countermessaging, on counterfinancing, on the kinetic, all of 
which are geared to try to win this. And we will win it. I am 
confident of that, providing we all make the right choices. We 
certainly have the tools.
    In Iraq, we worked diplomatically to implement the 
President's policy to make certain that we did not take over 
that effort before there was a transitional government in 
place. And I am telling you we spent an amazing amount of time 
and hours and good diplomacy to help the Iraqis to make their 
own decisions about their leadership for the future, to 
transition away from Maliki to Prime Minister Abadi and a new 
inclusive, proactive, capable governance.
    We got, as you know, last year all the chemical weapons out 
of Syria. No small feat, particularly when you consider that if 
we had not done that, they would be in the hands of ISIL today.
    We have been leading the effort to curb Ebola. We took the 
risk. President Obama took the risk of sending 4,000 young 
American troops to build the infrastructure so we could deal 
with that. It was risky at the time he did it because nobody 
had all of the answers. But it worked. And America led an 
effort to bring people to the table to help keep this from 
providing the 1 million people dying that were predicted if we 
did not have the response that was provided.
    In Ukraine, we have worked hard to hold together a complex 
array of partners in the sanctions, and the sanctions have had 
a profound effect. The ruble is down 50 percent. Russia's 
economy is predicted to go into recession this year. There has 
been a capital flight of $151 billion. They may be able to 
pursue this short-term goal of stirring the waters of Ukraine, 
but in the long term, Russia is writing itself out of the 
future as a consequence of the choices it is making, falling 
behind in technology, in production, and a whole lot of other 
things.
    The fact is on Iran, sure, it is controversial and may have 
some risks. But we are daring to believe that diplomacy may be 
able to provide a better alternative to ridding Iran of the 
possibility of a nuclear weapon than war or then going first to 
the threats that lead you to confrontation. So we are trying. I 
cannot make a prediction what the outcome will be, but we are 
leading in that effort to try to help make that happen, 
together with our P5+1 partners.
    In the Western Hemisphere, the Senator from New Jersey 
mentioned what we are trying to do.
    In Korea, we are working--North Korea--we are working with 
the Chinese. We have been able to make certain changes I would 
rather talk about in classified session.
    On Afghanistan, we rescued a very complicated election 
process, negotiated a BSA, got a unified government, and now we 
are working on a transition with the potential even of some 
talks taking place with the Taliban.
    On global trade, we are pursuing two of the biggest trade 
agreements in memory: 40 percent of GDP in the TPP and 40 
percent of GDP in the TTIP.
    And the Asia Rebalance.
    In Africa, we hosted the summit of African leaders.
    AIDS and PEPFAR we have continued. We have ramped up. 
President Obama made a deeper commitment, and the result is 
that we are on the cusp of perhaps having the first AIDS-free 
generation in history in Africa.
    And in China, we came through with a historic climate 
agreement by which both of us have agreed what we can try to do 
within our executive powers to lower emissions and to begin to 
prepare to get an agreement in Paris this December. And that is 
leadership because by getting the two of us together and 
leading in that effort, we have about 45 percent of the world's 
emissions at the table agreed to reduce in a way that leads 
others to the table.
    So I had more prepared comments. These comments I am giving 
you are not the prepared comments, and I will submit them all 
for the record, Mr. Chairman. But there are other policies we 
need to talk about, and I am prepared to do so.
    But I want to just make the point to all of you. 
Sequestration. I was here when it happened, and I do not like 
it. And I did not like it then and I do not like it now. 
Sequestration is depriving the United States of America, the 
world's most powerful nation on the face of the planet and the 
world's richest nation. It is institutionalizing the notion 
that Congress is either unwilling or incapable of making a 
decision and choices. And it is arbitrarily winding up doing 
things to our budget that historically knocked our GDP down and 
lost a lot of jobs, not to mention that it deprives us of 
making the decisions about what we are going to do to make that 
1 percent--or hopefully more--have a greater impact in 
providing for the security and protecting the interests of our 
country. So I would plead with all of you to think about how we 
are going to meet this moment of challenge.
    I will end on this. We had a counterterrorism summit this 
past week, last week, which really underscored how big a 
challenge this is. It is a generational challenge. My parents, 
our parents' generation rose to the challenge of World War II. 
We spent the then-equivalent of about $3.--whatever--$9 
trillion. Today maybe about $30 trillion. But we rose to the 
occasion. We did what we had to do to beat back fascism. And I 
think it is a legitimate question to ask whether or not the 
rule of law, the norms of behavior that we fought for for all 
those years since World War II, that we are going to do our 
part to uphold them and to make it possible for other countries 
to not be subjected to the fascism and dictatorship and tyranny 
of a group like ISIL that rapes young girls and imprisons 
people, women, and burns books, and destroys schools and 
deprives people of their liberty, burns pilots, cuts off the 
heads of journalists and basically declares a caliphate that 
challenges all of the nations in the Middle East and elsewhere 
and threatens all of us with violence.
    So we face a challenge, and I hope everybody here will stop 
and think about all of the components of how we respond to 
that. It is not just kinetic. The next Secretary of State will 
be back here with a new acronym. The next President will be 
asking you to deal with somebody somewhere unless we start to 
think about how the world joins together to drain the pool of 
recruits that are readily accessible to people with such a 
warped and dangerous sense of what life ought to be like.
    So that is what this meeting--that is what these 
discussions about the budget are about. And I hope we are going 
to kind of pull ourselves together in a way that facilitates my 
visits with a lot of leaders around the world when I walk in 
and say how are you doing on your budget, and they look at me 
and I can tell what they are thinking. Or we say to them, hey, 
we ought to be doing this or that, and we advocate democracy. 
And we have to say, well, how is yours working. I have been 
asked that.
    So it is up to us, and that is my message for my opening 
statement. And I look forward to the hearing.
    [The prepared statement of Secretary Kerry follows:]

         Prepared Statement of Secretary of State John F. Kerry

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today regarding America's international 
leadership and the administration's budget request for the State 
Department and related agencies for the 2016 fiscal year.
    Last month, in his State of the Union Address, President Obama said 
that we ``lead best when we combine military power with strong 
diplomacy; when we leverage our power with coalition building; [and] 
when we don't let our fears blind us to the opportunities that this new 
century presents.''
    It is with that guidance in mind that we submit our budget to you 
this year and ask for its fair consideration and approval. We do so at 
a time and in a world that is marked both by stark tragedy and by great 
promise, a world where America's role is critical as are the resources 
that only Congress can provide. So we ask for your help. America must 
lead, but cannot do so on the cheap. The money we devote to the entire 
range of foreign policy programming, everything from embassy security 
to our counterterrorism and nonproliferation initiatives, amounts to 
only about 1 percent of the federal budget, yet it may impact 50 
percent of the history that will be written about this era. So we all 
have a job--to do everything we can, working together, to shape that 
history in ways that advance our Nation's interests and uphold the 
values of the people we represent.
    Mr. Chairman, within the FY 2016 President's budget request, the 
Department of State and USAID are seeking a total of $50.3 billion in 
discretionary funding, including $7.0 billion for Overseas Contingency 
Operations. Our requests for all accounts include:

  <bullet> $3.5 billion to counter the terrorist network known as ISIL, 
        address the crisis in Syria, bolster regional security, and 
        respond to the humanitarian catastrophe brought on by the 
        crises in Syria and Iraq;
  <bullet> $3.1 billion in continued support for our democratic 
        partner, Israel;
  <bullet> $639 million to help our friends in Ukraine, Georgia, and 
        Moldova as they seek to strengthen their democracies, withstand 
        pressure from Russia, and to integrate more closely into 
        Europe;
  <bullet> $1.4 billion to support our activities in and to implement 
        the President's strategy to rebalance to the Asia-Pacific 
        region;
  <bullet> $1 billion to address the root causes of illegal migration 
        from Central America to the United States, including the 
        inhumane and perilous migration of unaccompanied children;
  <bullet> $5.4 billion to finance our leadership and support for 
        international organizations and peacekeeping efforts and 
        thereby ensure that other nations will share the costs and 
        burdens of maintaining global stability and strengthening 
        consensus principles and norms;
  <bullet> $3.4 billion to reinforce our partnerships and diplomatic 
        engagement with Afghanistan and Pakistan;
  <bullet> $4.8 billion for Embassy Security that will enable the 
        Department to support overseas security requirements for our 
        personnel and facilities, and continue implementing the 
        recommendations of the Benghazi Accountability Review Board. 
        These critical investments make possible the work of our 
        diplomats to advance American interests worldwide, assist our 
        citizens, and promote our ideals;
  <bullet> $1.2 billion to support public diplomacy and exchanges;
  <bullet> $8.2 billion for global health, including programs to end 
        preventable child and maternal deaths; combat infectious 
        disease through the Global Health Security Agenda; and create 
        an AIDS-free generation;
  <bullet> $808 million to invest in clean energy, sustainable growth, 
        and measures to curb the harmful impacts of global climate 
        change; and
  <bullet> $978 million for the President's Feed the Future initiative 
        to promote agriculture-led development and help reduce poverty 
        and hunger.
  <bullet> $390 million for the President's Counterterrorism 
        Partnerships Fund to support counterterrorism activities, 
        countering violent extremism, and crisis response, as well as 
        provide enabling support to partners engaged on the front lines 
        against terrorism.
  <bullet> Over $2 billion for democracy, human rights, and governance 
        programs thatsupport governments and citizens to build 
        societies where people can address through strong civil 
        societies.

    Mr. Chairman, decades ago, in the aftermath of World War II, Dean 
Acheson wrote that the problems that bedevil American foreign policy 
are not like headaches that can be cured by taking an aspirin and 
getting a good night's sleep. ``They will,'' he asserted, ``stay with 
us until death. We have got to understand that all our lives the 
danger, the uncertainty, the need for alertness, for effort, for 
discipline will be upon us. This is new to us. It will be hard for us. 
But we are in for it and the only real question is whether we shall 
know it soon enough.''
    Secretary Acheson's words remind us that we long ago entered into 
an era of virtually nonstop danger, whether in one part of the world or 
another or regarding one type of challenge or another. The test for our 
leadership has never been to entirely eliminate those risks, because 
that is not possible; the test has been whether we can manage them 
decisively over time in ways that reduce the peril and strengthen the 
forces of democracy, humanity, justice, and law.
    That is precisely the task that confronts us today just as it has 
confronted earlier administrations and generations. And I believe that, 
once again, our country is answering the call. We can see that 
leadership in the brave service of our fighting men and women on duty 
in strategic outposts and waterways across the planet. We can see it in 
our citizens who contribute to international civil society and who work 
hard every day to address and ease global challenges from extreme 
poverty to women's rights and the protection of religious liberty and 
other precious freedoms. We can see it in the work of our development 
professionals who are helping millions of people overseas to build 
strong communities, expand markets, and contribute to shared 
prosperity. We can see it in the Members of Congress from both parties 
who devote countless hours to meeting with international partners and 
to thinking about how best to harness our resources and relationships 
to address shared problems. And we can see it in the daily efforts of 
our diplomats to defend America's interests, advocate our principles, 
and strengthen our country's position in the world.
    Mr. Chairman and members of the committee, there can be no question 
that our diplomatic engagement around the globe today is as deep and as 
strong as it has ever been. Let me point to just a few examples of 
where our leadership backed by our resources is making an important 
difference.
    To begin, our country's leadership is on display in mobilizing 
actions across the globe to counter and prevent violent extremism. Just 
last week, the White House convened a landmark conference to build 
solidarity and identify concrete plans to address both the immediate 
and long-term challenges. The United States is committed to helping 
countries in vulnerable regions to enhance their capacity to defeat 
terrorist networks and to rebut the radical ideologies that drive those 
networks. We have also taken the lead in a robust international effort 
to combat the terrorist group known as ISIL. Frankly, coalition-
building is a natural fit for the State Department--we're in the 
business of bringing other countries to the table to support mutual 
interests. And because ISIL is a threat to us all, this menace has 
galvanized a coalition with more than 60 members, a coalition that is 
as diverse as it is dedicated.
    Already, nine countries are contributing to air strike operations 
in Iraq and a dozen have committed to train security forces there. 
Coalition partner pilots are also flying strike missions in Syria, and 
hosting the train and equip program for the moderate opposition. 
Meanwhile, we're pooling information and resources to cut ISIL's 
profits from smuggling and to block access to banks. Our air strikes 
have reduced ISIL's ability to profit from oil sales. To slow 
recruiting of foreign terrorist fighters, we're engaged in capacity-
building in the Balkans, criminal justice reform in North Africa, 
helping high-risk communities in the Middle East, and tightening 
security at airports. These efforts are in addition to the humanitarian 
aid that the United States and many other countries have contributed to 
care for refugees and displaced persons in Jordan, Lebanon, Syria, and 
elsewhere in the region.
    We are doing much; but we're still in the early stages of a 
multiyear campaign. Going forward, we must turn up the heat. Thus far, 
whenever our local partners have engaged the enemy on the ground with 
coalition support from the air, we have prevailed. And the fact is that 
ISIL's momentum--which some called unstoppable just a few months ago--
has dissipated. A key supply line has been severed. Terrorist fighters 
can no longer mass and maneuver in large convoys due to coalition 
airstrikes.
    Throughout, the coalition has been working closely with the 
Government of Iraq and with moderate elements of the Syrian opposition. 
Success on the ground will depend on strong and legitimate local 
partners. That's why this year's request includes $355 million to 
support critical governance and security reforms in Iraq. Nothing will 
contribute more to the defeat of ISIL than an Iraqi Government that 
governs inclusively, respects the rights of and protects all of its 
citizens with the help of a professional security force, and as a 
result enjoys the full support of its people.
    Success will also be more likely if America is able to speak with 
one voice in our determination to defeat ISIL. Earlier this month, the 
President transmitted to Congress a draft Authorization to Use Military 
Force that provides just such an opportunity. As someone who served on 
Capitol Hill for almost 30 years, I welcome this step and look forward 
to discussing all aspects of this very important proposal with you. The 
approval of this authorization would provide a clear and powerful 
signal of American unity and resolve.
    The fight against violent extremism also continues in Central and 
South Asia.
    This year, Afghanistan will exercise full responsibility for its 
security forces, making possible a significant reduction in the U.S. 
military presence. We will, however, continue to consult with Kabul on 
security matters, and to administer a robust train, advise, and assist 
mission. We are also requesting $1.5 billion to support the new Afghan 
unity government as it strives to implement reforms and improve 
economic performance. This aid will be targeted at helping Afghanistan 
to move ahead through better governance, investments in health, 
education, and infrastructure, and the equitable treatment of women and 
girls.
    In Pakistan, the United States is working with the government to 
counterterrorist groups that threaten our shared security. Last month, 
I met with the country's leadership for our annual Strategic Dialogue 
and found--in the wake of the December 16 terrorist attack on the 
military school that murdered 132 children--a vigorous commitment to 
take on and defeat violent extremist groups. In recognition of our 
long-term engagement with the Pakistani people, we're also helping to 
promote development, energy security, health, and education.
    At the same time, through constant diplomacy and the exchange of 
historic visits by our heads of government, we've strengthened our ties 
with India, the world's largest democracy, on economic issues, security 
cooperation, science, and clean energy.
    Closer to home, in Europe, we have been steadfast in supporting 
Ukraine's recently elected government against illegal intervention by 
Moscow and violence from the armed separatists that Moscow backs. 
Working closely with our international partners, we have approved 
targeted sanctions--including against Russia's financial, energy, and 
defense sectors--that have imposed a clear cost on the Russian economy 
and brought Kremlin leaders back to the bargaining table. The package 
of measures signed earlier this month to implement the September 2014 
Minsk Protocol mandated a cease-fire and the pullback of heavy weapons. 
We have called for full implementation of the Minsk documents, 
including the withdrawal of all foreign equipment and troops from 
Eastern Ukraine, the full restoration of Ukrainian control of the 
international border, and the release of all hostages. To date, neither 
Russia nor the forces it is supporting have come close to complying 
with their commitments. If that failure continues, there will be 
further consequences--consequences that would place added strains on 
Russia's weakened economy.
    Meanwhile, the United States is backing Ukraine's economic reforms 
through a $1 billion loan guarantee (and the possibility of another if 
reforms continue) and support for a $17.5 billion financial package 
from the IMF. Although the situation in eastern Ukraine remains very 
difficult, we are working to help the country emerge from this crisis 
united, and with the chance to decide its own future in a Europe where 
NATO is reinvigorated and leaders in the Kremlin are judged solely by 
their actions, not their words.
    Mr. Chairman, President Obama has made it clear that Iran will not 
obtain a nuclear weapon. Since late 2013, we have been testing whether 
that goal can be achieved through determined multilateral diplomacy. 
The so-called P5+1 talks have made considerable progress but have not 
yet reached a satisfactory consensus on all critical questions. During 
our deliberations, for the first time in a decade, we've halted the 
progress of Tehran's nuclear program and even rolled it back in key 
respects. We will know soon whether we will be able to reach a 
verifiable and comprehensive plan to ensure that Iran's nuclear program 
is wholly peaceful. We will continue to consult closely with you as our 
efforts progress. Although I cannot predict the outcome, I do believe 
that an agreement of the type we seek would advance America's interests 
and that of our allies in the Middle East, strengthen the global 
nonproliferation regime, and serve the cause of international stability 
and peace.
    In our own hemisphere, we are requesting $1 billion to help our 
friends in Central America make the difficult reforms required to 
address the region's interlocking security, governance, and economic 
problems. In recent years, the combination of limited educational and 
employment opportunities, epic levels of violence, a lack of sufficient 
investment, and corruption have held these countries back while also 
spurring attempts at illegal migration to the United States. An 
estimated 6 million young Central Americans will enter the work force 
in the next decade. If opportunity isn't there, our entire hemisphere 
will feel the consequences.
    Last December, President Obama announced a change in U.S. policy to 
increase communications, commerce, and travel between our country and 
Cuba and to initiate the process--supported by this budget--of 
normalizing diplomatic relations with Havana for the first time since 
1961. In January, Assistant Secretary of State Roberta Jacobson went to 
the island for a first round of meetings with government officials and 
representatives of independent civil society. She conveyed the 
message--reinforced before and since by many Members of Congress--that 
America's support for democratic reforms, human rights, Internet 
freedom, and the release of political prisoners is absolutely firm. We 
believe very strongly that the time is right to deprive Cuban 
authorities of their long-standing crutch--so that they can no longer 
blame U.S. policy rather than their own failures for the hardships 
faced by the brave people of Cuba.
    This budget also supports the President's rebalance to the dynamic 
region of East Asia and the Pacific. Based on President Obama's 
strategic commitment, we have modernized our alliances with Japan and 
South Korea, strengthened our partnerships with other regional powers, 
and supported democratic progress and respect for human rights in 
Thailand and Burma. A key element of our policy has been to build a 
comprehensive relationship with China that supports its rise in a 
manner compatible with international law and respectful of the concerns 
and rights of its neighbors. The United States remains committed to the 
peaceful denuclearization of the Korean Peninsula and will continue--in 
close consultation with our allies--to bring pressure to bear on North 
Korea in support of that goal.
    Last August, President Obama hosted a summit attended by some 50 
African leaders, during which we discussed plans for future cooperation 
and progress. U.S. policy toward the region reflects the continent's 
diversity and includes the promotion of investment and trade, energy 
access, youth leadership, and the economic participation of women.
    Mr. Chairman, American leadership has also been evident in the 
fight to halt the deadly spread of Ebola--and it was a team effort. The 
State Department, the U.S. military, USAID, the Department of Health 
and Human Services (including the Centers for Disease Control and 
Prevention, and the National Institutes of Health, and the U.S. Public 
Health Service Commissioned Corps), state and city governments, civil 
society, citizen volunteers, and Members of Congress all contributed. 
Together, we worked with international partners and with the brave 
communities and caregivers of West Africa to confront and contain this 
virus. The struggle won't be over until new infections are reduced to 
zero. But consider that 5 months ago, experts predicted that the number 
of active cases in West Africa would be 1.4 million. The actual level 
is less than 2 percent of that number. This is still a terrible human 
tragedy--but it is also an impressive demonstration of what 
international partnerships can accomplish. We have committed over the 
next 3 years to build on these partnerships, through the Global Health 
Security Agenda, to strengthen health systems in these vulnerable 
countries to prevent a tragedy of this scale from happening again.
    We also serve our interests when we exercise leadership within the 
U.N. and other international organizations. The United States isn't 
everywhere and we shouldn't be everywhere, and so it's a great help to 
us when the U.N. is able to contribute to international security and 
stability through its peacekeeping and political missions, conflict-
resolution, development, and humanitarian activities. As we continue to 
press for reforms within the U.N. system, it is essential that we meet 
our own obligations to pay our bills in full and on time. We demand 
that of others; we should be consistent in meeting that standard 
ourselves.
    These are just some of the issues that we're focused on each and 
every day. But they're not the only ones. Programs to support 
democratic governance contribute to the development of societies that 
are peaceful, more prosperous and stable, and better partners for the 
United States. As more people around the world stand up for their 
fundamental freedoms, demands for U.S. support grow. Unfortunately, 
this has coincided with declining funding in recent years. This year, 
to meet the growing needs and advance our interests, the President has 
requested over $2 billion, a significant increase in democracy and 
governance funding.
    Our military training and education enhances our security 
relationships while exposing students from friendly nations to U.S. 
values and respect for internationally recognized human rights. 
Training foreign law enforcement and counterterrorism officials in 
American investigative techniques increases their capability and our 
security. Implementing stricter export controls, training weapons 
inspectors, improving global nuclear, biological and chemical security, 
and securing our borders allows us to guard against the most pernicious 
of threats: the possibility that terrorists might one day attack our 
homeland or our allies with a weapon of mass destruction.
    Our global presence does something else: it creates jobs. Through 
our contributions to international financial institutions like the 
World Bank, we don't just lift the economies of low-income countries; 
we open markets for American businesses. Foreign policy is economic 
policy, and so the State Department is fully geared toward helping 
American entrepreneurs to build prosperity at home and across the 
globe. To that end, we're pursuing ambitious, 21st century trade 
agreements such as the Transatlantic Trade and Investment Partnership 
and the Trans-Pacific Partnership that will establish landmark labor 
and environmental standards and help our manufacturers, farmers, 
ranchers, and service providers to increase what they are able to sell 
abroad.
    We're also leading on the environment, on the oceans and marine 
sanctuaries, and in addressing the potentially devastating consequences 
of climate change. In November, the leaders of the United States and 
China, the world's two largest emitters of greenhouse gases, came 
together to announce ambitious targets to limit carbon emissions in the 
post-2020 period. Our budget and our diplomacy are focused on helping 
nations to grow in sustainable ways, and to mobilize countries 
everywhere to achieve a truly meaningful agreement on climate change in 
Paris this December. And here I want to stress the connection between 
climate change and other goals. For example, our investments to protect 
global food and water supplies are critical. But none of those efforts 
will succeed over time if we don't also concern ourselves with what we 
put in the air; food security simply will not happen if we fail to curb 
the harmful effects of climate change.
    All this speaks to why our budget proposals aren't just a 
collection of numbers--they're the embodiment of our values and 
priorities. After serving in public life for over three decades, I am 
aware that there are few more reliable--or damaging--applause lines 
than promising to slash the budgets of the State Department and USAID. 
President Reagan once lamented that, ``Foreign aid suffers from a lack 
of domestic constituency.'' And it's true that, in Washington, long-
term goals can often lose out to more visible short-term projects. But 
that's exactly why we need your help--to take the long view and to 
recognize how the relatively modest investments we make now can improve 
the world and enhance our own security for generations to come.
    As we have learned through history, the success or failure of 
America's international leadership is not only relevant; it will be a 
determining factor in the quality of the lives of our citizens. Foreign 
policy can help our workers to find a job or lose one; it can start a 
war or forge a peace; it can safeguard our families or expose them to 
grave risk; it can enable us to look forward with confidence or it can 
place a shadow over the future in which our children and their children 
will grow up.
    Mr. Chairman and members of the committee, even though the globe 
seems at times to be awash in difficulties, the truth is that many 
international vital signs today are positive. Worldwide, extreme 
poverty is down and so is child mortality. More babies are being born 
healthy; more boys--and girls--are attending and staying in school; and 
with U.S. contributions leading the way, we are making welcome progress 
in protecting the vulnerable from HIV/AIDS and other infectious 
disease.
    Meanwhile, each day in diplomatic outposts across the globe, 
America's representatives make known the high value our people place on 
democratic institutions, human rights, religious liberty, and the 
freedoms of speech and press.
    So make no mistake, America is leading--with partners when 
possible, but alone when necessary. Leading against terror and 
proliferation. Leading in support of embattled friends from Ukraine and 
Afghanistan to Central America and Somalia. Leading to promote peace in 
the Middle East and Africa. Leading to create jobs domestically and 
protect the environment globally. Leading against the axis of 
suffering--hunger, ignorance, and disease. Leading to build a more 
free, just, and humane world. We are leading as one country, including 
the administration, Congress, our Armed Forces, our businesspeople, our 
citizen activists, and our volunteers.
    Scanning the horizon, we are under no illusions about how difficult 
the demands of leadership are. Like Secretary Acheson, we have had our 
share of headaches. Setbacks along the way are inevitable. Engagement 
on all fronts will be required. But we draw strength from our 
democratic ideals, inspiration from the example of our predecessors, 
and courage from the conviction that the values guiding us are the 
right ones. In an era of uncertainty, one thing remains sure: America 
will continue to answer the call.
    Thank you and now I would be pleased to respond to any questions 
you might have.

    The Chairman. Well, we appreciate those opening comments. 
And I know that people understand this is more of a budget 
hearing, but since you have moved into other policy issues, I 
am going to feel very free to move into those also.
    I would just ask a question. I assume if we only spend 1 
percent of our budget on State Department and foreign aid 
operations, you would think we need to do that in the most 
efficient way possible. Do you agree with that?
    Secretary Kerry. Of course, obviously.
    The Chairman. And I would think you would support then an 
authorization being put in place. We have not done one since 
2003. We actually did not do one the entire time you were 
chairman for reasons that I am not aware of. But you do support 
that now as head of the State Department. Is that correct?
    Secretary Kerry. We actually made a run at an authorization 
bill, Mr. Chairman. I would have loved to have passed one. In 
fact, the last authorization bill I think was passed--I did it 
when Senator Pell was chairman, and he deputized me to try to 
get an authorization bill through and we did.
    And I am delighted to see you take this bull by the horns. 
We have not seen a State authorization, I guess, enacted into 
law in 2002. It lapsed in 2004. There are the reasons of the 
way the Senate came to work that literally made it impossible 
to do. So I would love it if you can do it.
    The Chairman. I hear that, and I think that probably we 
will spend a lot more quality time, if you will, with Heather 
and others in the Department. I know you are dealing with a lot 
of other issues. We had a very good meeting yesterday, and I do 
sense that you support that and we appreciate that very much. 
And I am aware of the history regarding some of the 
complications, and certainly that was not meant as a criticism.
    Let us move on to then. I spent the last week in Baghdad 
and in Erbil up in Kurdistan and Ankara talking with Turkish 
officials along with ours.
    You have sent a request for an authorization for use of 
military force--the President has. But it is your belief today 
that the administration has the legal authority to conduct 
operations against ISIS with existing authorities. Is that 
correct?
    Secretary Kerry. Yes.
    The Chairman. That is correct.
    Secretary Kerry. We are looking for a separate authority 
under the AUMF.
    The Chairman. But you believe that you have the authority.
    Secretary Kerry. We believe we have the authority under the 
2001. That is the testimony that I gave you in December. 
Absolutely. And we do believe that.
    The Chairman. So one of the things that I know people are 
going to be looking for, if you are asking for a separate 
authorization--I know there is some debate among the committee 
here as to whether you do or do not have the legal authority. 
You believe you do. But one of the things that people are going 
to be looking to is, is there a real commitment by this 
administration to deal with ISIS? And I have to tell you, as I 
look at the authorization and I visit Turkey and understand 
what is happening in Syria, I have to ask this question. Do you 
believe that it is moral? Do you believe that it is pragmatic 
to spend a lot of money training and equipping people in far-
off places to come back into the fight in Syria and not protect 
them from the barrel bombs that Assad will be dropping against 
them? Do you believe that is a moral place for us to be in the 
country and a pragmatic place for us to spend money training 
people and yet not protecting them from the barrel bombs that 
Assad will be dropping on them?
    Secretary Kerry. I think it goes beyond morality, frankly, 
Senator. I think it is a matter of practicality. If we are 
training people and they have a goal and we are committed to 
the goal, I think it is important for them to be successful. 
And I think it is important since the Title 10 program that we 
have now joined into together, which is going to train folks 
partly to go after ISIL particularly, it seems to me that if 
Assad were to attack them or somebody attacks them in the 
course of the time that they are going after ISIL, that is part 
of the fight. And so we need to provide that.
    The Chairman. So our authorization should actually 
authorize the administration to go against Assad when they are 
doing things that take on the Free Syrian opposition that we 
are training.
    Secretary Kerry. That is not what I said. Assad is an 
entirely different component of this which then raises all 
kinds of challenges with respect to the management of the 
coalition itself. What I said was they have to be authorized--
the authorization is such that defending those who are engaged 
in the fight of ISIL, it seems to me, is an important part of 
defeating ISIL. But that is a debate as to how that is 
implemented that is taking place in the administration right 
now. The President has not made a final decision on that. I 
think we need to be discussing that as the AUMF comes together.
    But what is important is that the President have as much 
leeway as possible within the 3 years that he has asked for to 
be able to get the job done. Now, he has asked for 3 years 
partly because when he came in----
    The Chairman. If you could--I understand about the time 
limit.
    Let me just say this. On the ground and dealing with those 
people that we want to bring into this coalition in a more 
serious way, the fact that we are not willing to talk about an 
air exclusion zone above Aleppo or we are not willing to 
provide air support for Free Syrian folks that we are training 
against ISIL, by the way--this is what this Title 10 program is 
about--makes it appear that we are not serious in this effort, 
and it makes many of us on this committee concerned about the 
administration's commitment to this effort. And you can 
understand why that is the case.
    And I know that they are holding back--and you know this--
what they are doing until they find out whether we are 
committed to doing those things that would actually allow these 
people to be successful on the ground. And if we are not 
willing at this front end to say that we are going to protect 
them, after they are trained and coming in, especially around 
the Aleppo area, which is likely where they will enter, if we 
are not willing to protect them, it speaks to the fact that the 
administration does not really seem serious about taking ISIS 
on as it relates to Syria.
    Secretary Kerry. Senator, let me make it as clear as I 
possibly can. This President is absolutely determined to 
accomplish the goal that he set out, which is to degrade and 
destroy ISIS. Now, he has begun with a particular focus on Iraq 
because of the fragility of Iraq originally, because there is 
an army that is significantly trained and available but needs 
more training, and because there is an urgency, an immediate 
urgency, to try to restore Iraq in Anbar and in the Sunni 
province because of the impact on holding the integrity of the 
country together and ultimately driving ISIS out. That is what 
we believe we will do.
    At this point in time, we have flown some 2,500 strikes, 
about half and half in Syria and Iraq. At least huge numbers of 
ISIL top leaders have been taken off the battlefield. Almost 
1,000 ISIL fighters were killed in the course of the Khobani 
fight, which you may recall everybody heralded as the test of 
America's commitment, the test of the war. It was about to 
fall, and we, on the other hand, upped our strikes and 
negotiated diplomatically to be able to create a corridor to 
get the Peshmerga to come in and ultimately reinforce the 
people there and won. And ISIS had to admit it lost, and it 
admitted so publicly.
    So I think we have demonstrated a powerful commitment. We 
have already reclaimed--we--the Iraqis and their coalition 
folks on the ground have already reclaimed about 30 percent of 
the territory that had been held by ISIL. And ISIL can no 
longer move as easily. They cannot drive in convoys. They 
cannot communicate the way they were. We have gone after their 
financing. We had more than 60 countries here for the counter 
violent extremism meeting. We have major initiatives underway 
to deal with the foreign fighters, the counter-finance, so 
forth.
    So all I can say to you is every one of those things is a 
manifestation of the administration's total commitment to 
defeat and destroy ISIL.
    Now, as you move out of Iraq, then there is more to do in 
Syria. We understand, Senator, that it is going to take more on 
the ground and more capacity to do that. As you have seen, 
there has been some discussion of an Arab force in the region. 
There is also a discussion going on about how fast we can train 
up some of our opposition to be on the ground. And there are 
additional efforts going on with respect to what weapons, what 
methodologies may be undertaken, and those are the purview of a 
classified briefing. I can guarantee you no one in the region 
will have any doubt about our commitment to defeating ISIL.
    The Chairman. Well, I can guarantee you--and I am sorry 
this has taken so long. I appreciate your full answer. But I 
can guarantee you that today there are concerns. There are 
concerns about those most majorly needed in this coalition 
because of the very point that I just mentioned. I think you 
know that. I know the White House knows that. And I just hope 
that very soon the White House will not only make statements 
but make agreements relative to what I just discussed so that 
those who are going to be working with us in this fight 
understand that there is a real commitment and that 
negotiations about the Iran nuclear deal and other issues are 
not in some way holding us back from making those commitments.
    But I thank you for being here and I will turn it over to 
Senator Menendez.
    Secretary Kerry. Just 10 seconds, Senator. I would just say 
to you I really think if we get into classified session, then 
we can go through more of this. I think you will have a sense 
of the upgrading that has been taking place and the pressure 
that we have placed that will answer a lot of those questions.
    And I will be attending a GCC meeting this Friday--I think 
it is Friday--in London, and we will be discussing all of this 
with our friends.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, based on some recent press reports, which I 
have found on more than one occasion on this issue seems to 
have more meat than not--I often learn more about it through 
them. I want to share my deep concerns about where we appear to 
be headed in our negotiations with Iran if those reports are 
true.
    The essence that I have gleaned from reading various 
reports is that one variation being discussed with the Iranians 
would place a 10-year regime of strict controls on Iran's 
uranium enrichment, but if Iran complied, the restrictions 
would be gradually lifted over the final 5 years. The core idea 
would be to reward Iran for good behavior over the last years 
of any agreement, gradually lifting constraints on both its 
uranium enrichment and easing more economic sanctions, which in 
essence in my mind does not make it a 10-year deal. It really 
makes it a 5-year deal if you are going to ease up on the 
ability of them to pursue enrichment capabilities.
    Can you give us a sense? Are those reports accurate?
    Secretary Kerry. Mr. Chairman, I am absolutely going to 
answer your question.
    Senator Menendez. And you are not going to take all my time 
to do it.
    Secretary Kerry. I promise you unless the chairman might 
give an extra minute here.
    But I just wanted to say--because you raised the issue--
strike that. It was raised by the chairman. So I will wait and 
come back and I will not chew up your time.
    The answer is the proverbial do not believe what you read. 
And I am not going to go into the details of where we are and 
what we are doing.
    Senator Menendez. Okay. Since you are not going to go into 
the details, could you fathom doing something like that?
    Secretary Kerry. Let me make it clear to you. We are 
looking for a deal that will prove over the long term that each 
pathway to a bomb is closed off. There are four pathways. One 
is through Natanz with enrichment. One is through Arak through 
plutonium production. One is through Fordow through enrichment 
that is partly underground. And finally, the other is covert. 
Covert, of course, is the hardest. You need to have 
verification and intrusive inspection to be able to find 
covert.
    President Obama has made the pledge that Iran will not get 
a nuclear bomb.
    Senator Menendez. I have heard that pledge, and I believe 
that that is what he means. The question is for how long, under 
what set of circumstances, and when you let Iran ratchet back 
up and, in essence, give some future President maybe no choices 
but to pursue a military action--and it is very hard to try to 
get a global community together again when the sanctions have 
been released.
    Secretary Kerry. Sure.
    Senator Menendez. So I get you are not going to give us the 
specifics. But I want to raise my saber with you that I 
thought--and every time we have talked, we were talking about a 
20-year timeframe. Now we are talking about a 10-year 
timeframe, if it is true, and with relief in the 5 latter years 
of the 10 years. If that happens to be in the universe, that is 
problematic, and I just want you to take that back with you 
because I think it is really a great problem.
    Secretary Kerry. But the only thing I would say to you, 
Senator, is, first of all, I have told you it is not true. But 
secondly, I am not going to go into what is or is not the 
situation.
    But the one thing I would say to everybody on this 
committee--the Bush administration, George W. Bush 
administration, had a policy of no enrichment. And Iran in 2003 
had 164 centrifuges. With a policy of no enrichment--that would 
have been for 5 years, 6 years--they moved up to a place where 
they now have perhaps 27,000 centrifuges, 19,000 installed and 
you know the numbers that may be running. What happened? Who 
did what? Where was that administration with respect to the 
enforcement of a no enrichment policy?
    So guess what. They learned how to enrich. They are now 
enriching. And the question is whether or not one can now 
create a system where they have a peaceful nuclear program like 
other people who enrich that is manageable, controllable, 
verifiable, accountable, sufficient that they are living under 
the----
    Senator Menendez. Well, I am certainly not an advocate of 
what the Bush administration did. I criticized it during its 
period of time that Iran was pursuing this program, and that, 
in fact, the world was not responding in the aggressive way 
that we needed to which has now put us at this threshold 
position.
    Secretary Kerry. I know.
    Senator Menendez. But I just want to leave with you, 
because I want to move on to another subject, that if the 
parameters that are out there--you have said they are not true. 
Fine. It could be elements of it that are not true. It could be 
elements of it that are. If those are the parameters, that is 
problematic.
    Let me move to Ukraine. Putin took Crimea. He took Donetsk. 
He took Luhansk. He took Debaltseve. While he has paid somewhat 
of a price--and you mentioned it--in terms of sanctions, the 
price has not changed his behavior.
    The question is under the Ukrainian Freedom Support Act, we 
gave the President significant powers. We supported an effort 
of, yes, sanctions but also helping the Ukrainians be able to 
defensively protect themselves and I would argue change Putin's 
equation where there are consequences beyond economic sanctions 
to his continuous engagement. He is on a process that he is 
going to have a land bridge to Crimea, and when that happens, 
for all our talk of not forgetting Crimea, it will be gone.
    And so the question is, Is the administration ready to 
assist the Ukrainians in providing them with the wherewithal to 
defend themselves as the Ukrainian Freedom Support Act, passed 
by a broad bipartisan vote in the Congress, provides for?
    Secretary Kerry. Well, Senator, that is under active 
consideration. I think you know that.
    Senator Menendez. I do not know that, but I am glad to hear 
that.
    Secretary Kerry. Well, it has been written in the New York 
Times and elsewhere that this discussion is going on.
    Senator Menendez. Well, you just told me not to believe 
everything I read. [Laughter.]
    I do not know when it is good and when it is bad.
    Secretary Kerry. Of course, but it is the New York Times. 
Right? [Laughter.]
    Senator Menendez. Well, that is a whole other thing.
    Secretary Kerry. What I wanted to say is that I just talked 
over lunch with the German Foreign Minister who had just 
finished meeting in Paris with the Russian Foreign Minister, 
the Ukrainian Foreign Minister, and the French Foreign 
Minister. And they had a discussion about where they are in the 
implementation of Minsk. Whether or not the very aggressive 
breaches of the Minsk agreement are going to now be shifted 
into a compliance mode is critical to any decisions that are 
made by anybody as to what the next step is.
    The separatist movement is in our judgment a de facto 
extension of the Russian military and it is an instrument of 
Russian national power and that has been exercised in ways that 
we obviously have objected to.
    What we have done in our sanctions have had a profound 
impact. The ruble is down 50 percent. Capital flight is in the 
total of about $151 billion. The predictions are the Russian 
economy will be in recession this year. I think they are down 
to----
    Senator Menendez. I do not disagree with you. But I would 
also say----
    Secretary Kerry. The point I am making is they are paying 
the price now.
    Senator Menendez [continuing]. That he continues to send 
troops, armaments, and other assistance, heavy, significant 
assistance, to the rebels and sends people across the border. 
And at some point, you have to give the Ukrainians the 
wherewithal to defend themselves. I am glad to hear it is under 
consideration.
    Secretary Kerry. Well, it is under consideration. As you 
know, there are pros and cons on both sides of that argument, 
obviously. It is under consideration.
    Senator Menendez. Okay.
    Secretary Kerry. We will see where we wind up in the next--
you know, in the short term----
    Senator Menendez. One final followup on Ukraine. I know 
that there is a list of individuals, including individuals on 
the EU and Canadian-targeted sanctions list as it relates to 
the Ukraine, that do not appear on the American list. The most 
egregious example in my mind is Alexander Bortnikov, the head 
of the Russian FSB. He is not on the United States list in 
relation to either Ukraine or Magnitsky, but is on the EU and 
Canadian list. He was here, as a matter of fact, in the United 
States last week during President Obama's CVE conference. So I 
am puzzled, and could you shed any light on that?
    Secretary Kerry. Yes. We each had different choices about 
who we thought might be more effective to have a sanction on 
and what entity to sanction--individuals and entities. So we 
both agreed that each would take their steps, and that would 
place pressure on all. And the next step I think, if we take 
one in the next days, which is under consideration depending on 
what unfolds, will bring us into sync. So not only will we come 
into sync, but there will probably be additional sanctions to 
boot.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, welcome again.
    I want to go back to ISIL. I just want to ask a pretty 
simple question. What does defeat look like? What does 
``destroy'' mean specifically?
    Secretary Kerry. ``Destroy'' means eliminate their presence 
on the field of battle and their ability to threaten the United 
States and other people.
    Senator Johnson. Over what period of time?
    Secretary Kerry. As fast as possible. I cannot tell you 
what that will be, and most people have predicted it will take 
a fair amount of time.
    Senator Johnson. In Iraq only or in Syria as well?
    Secretary Kerry. Everywhere, wherever they are. That is 
what the President has said and that is what his policy is and 
that is why he has asked for no geographical limitation.
    Senator Johnson. Everybody, I think, has read ``The 
Atlantic'' article by Graeme Wood talking about really what 
ISIL is all about. They require territory. Does that defeat 
mean denial of territory?
    Secretary Kerry. Of course it does.
    Senator Johnson. So what number would be left? I am trying 
to get some sort of sense here.
    Secretary Kerry. I mean, I cannot tell you. Were there a 
few Nazis left after World War II? Sure. Did the war end and 
was there unconditional surrender? Yes. Did it eliminate the 
threat? Yes. Did we rebuild Germany and move on with Japan? 
Yes. But were there some Nazis around? You bet. Will there be 
some members lingering around as there are of other extremist 
groups? Most likely, but they will suffer the same fate.
    The point is as an organization, as an entity, as a viable 
sort of conglomerated threat to the United States and the West 
and the rest of the world, it will be destroyed.
    Senator Johnson. Pretty well decimated. Okay.
    Do you agree with, I think, most military experts that in 
order to achieve that decimation, that defeat, that 
destruction, it is going to require ground forces of some type?
    Secretary Kerry. I believe it will require some type of 
forces on the ground. Not ours, but some type.
    Senator Johnson. There are 30,000-40,000 members of ISIL 
right now. We are hearing reports that their numbers are 
growing faster than we are destroying them. They are not being 
degraded. They may be degraded in some places but growing and 
spreading in other places. How many ground troops do you think 
it is going to take realistically to decimate them, to defeat 
them?
    Secretary Kerry. It is not up to me to prognosticate on the 
numbers of ground troops. That is something that General 
Dempsey and Sandy Winnefeld and others----
    Senator Johnson. Fair enough.
    Secretary Kerry. But one thing I know is it is doable, and 
there are a number of different ways to do it. And we are 
looking at exactly what that structure and format may be, and 
there are a number of ways to come at it, by the way, some of 
which mix kinetic with diplomatic. You know, we have to see 
what happens in the course of the decisions that are made over 
the course of the next weeks and months as to what shape that 
approach takes.
    Senator Johnson. So we obviously have Arab states 
participating in airstrikes. Do you have commitments of other 
Arab states other than the Iraqi Security Forces and the 
Kurdish Peshmerga? Do you have commitments from any other 
states in terms of ground troops to join that coalition?
    Secretary Kerry. I have personally listened to affirmations 
of a willingness to do it under the right circumstances or 
under certain circumstances. I am not going to call them 
commitments until they are in a context, but it clearly is a 
potential under certain circumstances.
    Senator Johnson. Who would lead that ground effort?
    Secretary Kerry. Well, these are all the details that have 
to be worked out and an order of battle and a structure.
    Senator Johnson. I understand the details. But is there 
really somebody targeted in terms of one of those Arab states 
that would actually lead that ground effort, somebody capable 
of doing it?
    Secretary Kerry. Absolutely.
    Senator Johnson. Let me go on to Ukraine.
    President Poroshenko gave a very impassioned speech here in 
front of a joint session of Congress where he said that we do 
not need to provide the ground troops. They will take care of 
defeating the rebels but they have to have more than blankets.
    I know from discussions with a number of people that one 
reluctance of providing defensive weaponry is that if we 
provide defensive lethal weaponry, Russia will just up the 
ante. Is that one of the cons? Is that one of the things the 
administration is concerned about?
    Secretary Kerry. Well, I am not going to articulate the 
parameters of the debate in terms of what they are concerned or 
not concerned about. But an argument is certainly made by 
people that whatever you put in--not even Poroshenko, who I met 
with a week or so ago, a couple weeks ago--not even he believes 
that they can get enough material that they can win. He 
believes they might be able to raise the cost and do more 
damage. But there is not anybody who believes that Ukraine with 
the size of its military and its current structure is going to 
have the ability on its own to win a war against Russia. So 
there is an imbalance to start with here, and you have to try 
to sort of pin that in. Now, that does not mean it is not worth 
raising the cost, and there are plenty of people advocating 
that you ought to raise the cost no matter what. So those are 
the things that have to be balanced here.
    Senator Johnson. Another concern I have heard voiced--and I 
agree with this--is that the weaker Russia becomes, the more 
dangerous they are. Is that a calculation you agree with as 
well?
    Secretary Kerry. Not necessarily. It is certainly one of 
the theories that is put on the table. It is a calculation you 
have to analyze and weigh, but it does not necessarily have to 
be true, no. There are elements internally within Russia that 
ultimately could come to play. Who knows when and how? An 
economy by the summer that is still hurting could be an economy 
that some people predict could create internal dissention and 
different kinds of problems. There is chatter today about a 
very isolated Putin with an isolated group of people advocating 
this and people scared. I mean, there are different parameters 
to this. I am not going to sit here and analyze it at this 
moment except to say there are lots of different 
considerations.
    Senator Johnson. A quick budget-related question. I think 
everybody that has gone over to Ukraine and Eastern Europe is 
dismayed at really how effective Russian propaganda is. There 
is really no pushback. We have unilaterally disarmed in terms 
of the propaganda war. Is that something within your State 
Department budget that you are looking to increase and try to 
counter?
    Secretary Kerry. It is. You bet it is. But I have to tell 
you it is within the constraints that we are operating in and 
it is nowhere near what it ought to be. We are engaged in a 
major initiative. We are working with the Emiratis. There is a 
new center for disseminating information that is being put 
together that the Emiratis are helping to pay for--are paying 
for. And this will be a major center for use of social media to 
counter some of the propaganda that is being put out by ISIL 
itself. But Russia has resorted to a level--and you all see it. 
I mean, it floods the Baltic States. It floods Poland. It 
floods the frontline states, Bulgaria, et cetera, et cetera. It 
has a major impact. And we just frankly are not allocating the 
money to counter the way we ought to be. And we are fully 
prepared to go out there and undertake this.
    Senator, you mentioned at the beginning why we use OCO. 
This is one of the reasons. We rely on OCO because, frankly, 
the appropriations are not on time. And so we need multiyear 
authority to do multiyear tasks. And we need to get the 
resources to be able to respond to this kind of thing. We have 
about $7 billion in OCO, and we are putting a fair amount of 
that into Afghanistan, Iraq, Pakistan, and Syria, humanitarian 
assistance, Counterterrorism Partnership, countering Russian 
pressure. We have $350 million. So that is how we are 
bolstering Ukraine, Moldova, Georgia to actually go after this. 
It is not enough. I am just telling you bluntly. It is not 
enough.
    And they are spending hugely on this vast propaganda 
machine, which people believe in the places they get them 
because there is nothing countering it. So according to people 
in many of those states, we are the problem. Russia is there 
defending Russian-speaking people. There is no sense of Russian 
transgression across the border. The people in Russia do not 
even know how many soldiers are dying. It is completely hidden 
from them. And we need to be able to counter this and tell the 
story.
    Senator Johnson. My point exactly. Thank you, Mr. 
Secretary.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Secretary, it is always a pleasure to have you before 
our committee.
    Just on Ukraine, one point. Some of us have been there. We 
have seen the problems in the country. They have been asking 
for a capacity to defend their own borders. They know that they 
cannot stand up to the Russian military, but they do need the 
capacity in order to protect their borders from Russian 
incursion. And that is why we passed the authorization in this 
Congress.
    And I would just urge the administration with some urgency 
to look at an aid package that will allow the Ukrainians 
greater capacity to protect against the incursions continuing 
to be made by Russia. We cannot believe anything President 
Putin says about his intentions. He has shown by his actions a 
willingness to counter all the agreements that he has entered 
into. So I would just urge the administration to be more 
aggressive in providing the help to the Ukrainian people.
    The second point I want to make is that we had a hearing 
here on trafficking in persons, and we will have a markup later 
this week. During that hearing, we had Assistant Secretary 
Sewall who offered to help us in regards to using the leverage 
we have in the trade negotiations on the TPP to deal with 
improved labor conditions particularly in countries that we are 
negotiating with that have less than acceptable rights. I 
mentioned Malaysia, which is a Tier 3 country under the TIP 
Report, and I would just urge your personal attention as we get 
close to these negotiations to use that leverage to improve 
labor conditions on trafficking and all issues on trafficking 
in the countries that we are negotiating with the TPP.
    But the question I want to ask you about is the Summit of 
the Americas that will be taking place in April. President 
Obama, I understand, intends to participate in it. And there is 
a lot happening in our hemisphere. One of the initiatives that 
is included in the President's budget is a billion dollars of 
aid to three Central American countries to try to deal with the 
crisis that we experienced last year with the unaccompanied 
children. We have seen a law but I think most of us know that 
the conditions are still there and we are likely to see a rise 
of matters on our border as the weather changes.
    My question to you is we cannot just continue to layer aid 
programs. We need to make sure that our aid programs really are 
effective. And in conversations with some of the leaders in our 
hemisphere, they hope to use the Summit of the Americas to deal 
with the opportunity challenges in the region so that the 
people of our hemisphere have hope in their own countries for 
economic growth.
    Can you just share with us the role that the United States 
plans to take in the Summit of the Americas and how we can help 
try to provide real opportunities within not just the three 
Central American countries that are targets for emigration but 
also dealing with the security issues dealing with the areas 
that have been at the root cause of so many children leaving 
Honduras and El Salvador and Guatemala?
    Secretary Kerry. Absolutely. Thank you, Senator Cardin, 
very, very much, and thank you for your constant vigilance on 
these kind of critical issues of rights, human rights, and of 
security and opportunity.
    We are very, very focused on the Summit of the Americas. I 
went down to the Panamanian President's inauguration. We talked 
then about the lead-in. We have had any number of conversations 
since then. The Vice President has been engaged in this. We 
want to make sure there is a civil society component to the 
discussion there and human rights, and we pushed that. And that 
has been a sine qua non of our willingness to have any presence 
of Cuba or some others there. It has got to be an upfront 
discussion of these issues and it has got to be engaged in. 
That is number one.
    Number two, when I was in Mexico last year, I took 
advantage of that to have a meeting personally with the three 
presidents, Honduras, Guatemala, and El Salvador. And it was at 
the height of the unaccompanied children problem. And we had a 
very frank discussion in which we talked about the need for 
enforcement frankly for their help to close borders, to prevent 
people from moving. But obviously, in exchange, we also had to 
talk about reducing the incentives for people to want to do 
that, and they were very frank about that part of it. One of 
the principal reasons for those departures was the 
circumstances within which those folks were living, the 
violence, the fear, the narcotrafficking, the criminality, the 
bad governance, the corruption, and all of those pieces.
    So that is why we have put this $1 billion request together 
for you, and we are doing it with, I think, a healthy dose of 
humility and wisdom acquired through mistakes in the past--in 
other words, how you manage that money, where it goes, what the 
support system is underneath it, what the transparency and 
accountability is with respect to how and where it is spent.
    We have targeted three key areas.
    Security. So we will work with police. We will work with 
the judicial system. We will work with the parental and 
education and other components of trying to make sure we are 
reaching the kids and creating the security structure 
necessary.
    The second piece of it is governance itself.
    Senator Cardin. I would urge on the governance piece, which 
I think is going to be the most challenging considering the 
history of corruption, et cetera, that there be ways that we 
can evaluate whether progress, in fact, is being made. I think 
we all support the effort of safer countries and opportunity in 
the countries and good governance, but we have to have 
accountability in these programs. We have had many programs in 
Central America, and the results have been less than 
consequential.
    Secretary Kerry. You are absolutely correct. I do not 
disagree with that at all. And one of the first conversations I 
had with Rasha when I came in was how do we improve our 
development delivery system, how do we sort of blend the 
Millennium Challenge Corporation kind of goals without 
defeating the notion that sometimes you are going to have to do 
assistance that is not as economic-based, but it is more 
humanitarian. It has a genuine sort of other kind of purpose. 
And there will be some economic. There will be assistance like 
that.
    But what we decided is to put about $250 million in to 
reinforcing the democratic institutions, to increasing 
transparency and accountability, for instance, like making 
information available to people through Internet where it is 
available or a publication or otherwise, targeting corrupting 
specifically, which we can be particularly helpful with given 
our knowledge and law enforcement community input. We can 
strengthen efficiency, accountability of the judicial 
institutions. We know we can help them with improvement of the 
management of their funds by creating tracking systems, 
accounting systems, computerized systems, accountability, and 
so forth. And all of that is part of our goal.
    The key is who is doing it underneath. You are not just 
giving them money and saying go do it. You have got mentoring 
and implementers and experienced people coming in and working 
side by side and helping to make it happen. It is labor-
intensive, but it is probably the only way to have the 
accountability that I think everybody wants.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you to Secretary Kerry.
    You quoted in your testimony Dean Acheson from decades ago. 
I thought it was an apt quote saying that these problems that 
we have in foreign policy will stay with us until death. It is 
hardly a surprise or should be a surprise when contingencies 
come up. You said that his words remind us that, ``we long ago 
entered into an era of virtually nonstop danger, whether in one 
part of the world or another or regarding one type of challenge 
or another.''
    So that tells us that we have a lot of issues and we will 
continue to have. Yet, we are requesting OCO funds as if these 
are unforeseen, that pulling out of Afghanistan or out of Iraq 
or new problems in Syria or Iraq are somehow unforeseen and we 
cannot plan for them. If we have been in this kind of period 
since World War II, why is it that only now since 2012 has the 
State Department started requesting OCO funds? Now, prior to 
that, I understand there were supplemental appropriations that 
went to State for various contingencies, but it is only since 
2012 that these OCO funds have been requested.
    And in my view and I think the view that all of us has is 
that the State Department is becoming overly reliant on OCO 
funding. You have described these as temporary, as unforeseen, 
and something that we need to move away from. Yet, we seem to 
be overly reliant on them.
    Do you want to comment on that?
    Secretary Kerry. You are right. We are and it is because we 
cannot get the budget increase we need to institutionalize it. 
Put it in the budget. I mean, we are already asking for what I 
think is tantamount to--if you take all of our foreign 
assistance, because of the OCO, it is about a 14-percent 
increase--or an 8-percent increase. If you take just the parts 
of the USAID and State Department, which is about $50.3 
billion, that represents a 6-percent increase I guess.
    The point I am making is, Are you prepared to give us what 
would then amount, if we institutionalized OCO, the larger 
increase? That is how simple it is. If you want to 
institutionalize it, please do. And while you are at it, up it 
to the amounts we need to do the other things I have talked 
about.
    Senator Flake. And if we were to do that, then no more OCO 
funds would be requested? Is that what you are saying?
    Secretary Kerry. Well, no. Look, you are always going to 
have an emergency.
    Senator Flake. No. I understand.
    Secretary Kerry. Senator, there is no way for me to come in 
front of you and tell you that----
    Senator Flake. I understand that.
    Secretary Kerry. And that is going to require a kind of 
OCO.
    Senator Flake. And those have been dealt with with 
supplemental appropriations.
    Secretary Kerry. So I think it is important to have. I do 
not want to be flippant about this. I do think it is important 
to have an overseas contingency fund.
    Senator Flake. We have always dealt with issues like that 
with a supplemental. But the problem is with OCO, as I think 
all of us recognize, is it is kind of just an offline budgetary 
amount that we deal with and we just increase OCO funds. And so 
it is a layer that we should not have.
    Secretary Kerry. No argument from me. You know the way to 
deal with it is pass the authorization, and we will work with 
you to do it. And then we got to get the approps people to fill 
out the authorization, otherwise we will be right back here 
with another OCO request. And by the way, it would help if we 
had an actual budget rather than a continuing resolution, I 
think.
    Senator Flake. Thank you.
    Moving on, with regard to Cuba, as you know, I have been 
very supportive of what the administration has done. I am 
pleased that we are going to establish diplomatic relations. 
You mentioned that that is accounted for in the budget. It is 
not an increased budgetary amount, is it, to establish an 
embassy in Havana?
    Secretary Kerry. No. No, it is not.
    Senator Flake. Good. A lot of people do not realize we 
have----
    Secretary Kerry. We could find a prepainted sign in the 
basement of the current interest section and just put it up.
    Senator Flake. I say that only because some people do not 
realize that we have quite a vibrant mission there now that has 
been operating for quite a while.
    Secretary Kerry. And by the way, Senator, thank you for 
your thoughtfulness on this and your support for it. We 
appreciate it and we appreciate Senator Udall likewise being 
involved in this.
    Senator Flake. Well, I appreciate that, and I do think that 
there are still severe problems in Cuba, obviously, in human 
rights issues, but I think that they can most effectively be 
pursued if we have diplomatic relations. So I agree with the 
administration there.
    With regard to Iran for a minute, I have been also 
supportive of the administration pursuing negotiations, and I 
have withheld support for increased sanctions during that time 
because I think the administration needs and deserves the space 
to pursue every opportunity for an agreement. And I still am 
hopeful that a good agreement will come.
    Having said that, as one who served in the Senate for 
nearly 30 years, do you feel that the Senate and the House, the 
Congress, should have a vote on that agreement in the end or 
some kind of approval or disapproval as the chairman has 
suggested with legislation?
    Secretary Kerry. Well, I have no doubt that Congress will 
find plenty of ways to approve or disapprove. You have a vote 
because ultimately the sanctions that Congress has put in place 
will not be lifted unless Congress lifts them.
    Senator Flake. But they can be provisionally lifted or 
waved for a significant period of time.
    Secretary Kerry. Well, the President can wave them, but you 
ultimately are the ones who have to terminate them, and at some 
point in time, they have to make a decision whether that has to 
happen or not.
    But let me just go one step further philosophically and 
practically. This is much like a sort of labor agreement and 
TPA and things like that. If you are hanging out there as the 
sort of approval people, then that is another layer of 
negotiation. And fundamentally it complicates it. It hardens 
positions, makes the negotiating more difficult. There is this 
looming other entity out there.
    I think the President feels very strongly that you will 
have a sense of whether it is a good agreement or a bad 
agreement, and there are plenty of ways that Congress can weigh 
in on that. But we do not think it needs to be formalized in 
some prearranged way that makes the negotiation more difficult.
    By the way, you know, when we finish this, if we finish 
it--look, I am telling you we have got some tough issues in 
front of us. There are no guarantees here. Some very tough 
issues. And we are adamant about not doing a deal that cannot 
withstand scrutiny. And it is not just going to be your 
scrutiny. Every other country in this--we have France, Germany, 
Britain, China, Russia all at the table, all with powerful 
feelings about nonproliferation and what ought to be done here. 
That is sort of a first barrier.
    In addition, we have scientists all over the world. Our 
nuclear scientist community is going to have to look at this 
and say does it make sense. If they are clobbering this, then 
we have got a problem obviously.
    So we are being very thoughtful and very careful. We are 
running things by people. We are talking to them, what works, 
what does not. We are taking advice. We have had exchanges with 
all of you through this process. We are well warned as to sort 
of where the thresholds are and what is difficult. In the end, 
the President will have to make a tough judgment, if we get an 
agreement. But it is not certain yet that they are prepared to 
meet whatever we think this important standard is that has to 
be met to meet all of these judgments and conclude.
    But I am not going to go into all the pluses and minuses of 
this right now. There are powerful, powerful reasons for why 
this is better done diplomatically than otherwise, and there 
are powerful reasons for how this winds up being a better way 
to prevent them from getting a bomb than some other way. And 
when we get into that discussion, I look forward to it. But 
this is not the moment for it nor the place for it.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And I would just say that as you have said in the past, it 
does have to pass muster with Congress. You have been on the 
record in that way. And I doubt there is any body of any of 
these other countries that have actually passed through their 
parliament--we pass through Congress. It is a very unique 
situation, and I hope we will figure out a way to have a role 
in saying grace over this before the regime totally dissipates.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to Secretary Kerry for all of the great work 
that you have been doing and for being here today.
    I want to start first with asking about our humanitarian 
efforts to assist Syria in particular and Jordan and also 
Lebanon as we look at the threat from ISIS and the support that 
we have gotten particularly from partners like Jordan and 
Lebanon who are really struggling under the refugees in their 
countries and ask if you could talk a little bit about what we 
are requesting in the budget to address that and what we hope 
that will do.
    Secretary Kerry. Sure. Senator, I am really glad you asked 
that because I think this is one of the reasons why we all have 
to really buckle down and figure out how we are going to come 
together around the Syria component of this because the truth 
of the matter is that as Syria is disintegrating under the 
pressure of the sectarian struggle, three-quarters of the 
people of Syria are now displaced. And about half of those 
three-quarters are displaced in Jordan, Lebanon, and Turkey. 
Turkey can assimilate more effectively. Lebanon has a problem. 
Jordan has an even bigger problem. And this has a major impact 
on Jordan's economy, on its social structure, its politics. You 
know, you have these vast numbers, many of whom are in the 
camps, but many of whom are not in the camps. And so they are 
permeating Jordanian society and they go out and get a job. 
They work for a heck of a lot less. That puts pressure on the 
labor market, creates a lot of dissent. They come in 10 to an 
apartment and they all throw in whatever they have and they 
rent the apartment, but they will rent it for more than it 
would have been rented for to a normal person or family. So all 
of these distortions are taking place, not to mention that with 
them can come some dangerous politics in these places.
    So we believe that this pressure on Jordan is a reason to 
really try to work harder to find the way forward to get some 
kind of political resolution out of Syria.
    Now, we continue to believe and adamantly there is no 
military solution here. If you pursue some sort of real 
scatterbrain military solution, you could have a total 
implosion and ISIL could wind up with Syria or ISIL and Nusra 
together. You could have any number of outcomes that are very, 
very dangerous.
    So what we are trying to figure out is what is the road to 
that diplomatic outcome, and we are pursuing that. I will not 
go into the details with you, but we are actively talking with 
the players in the region. One of topics we will have at the 
GCC meeting this Friday is sort of how do we get there. And 
beating ISIL is a key part of that.
    Senator Shaheen. I appreciate that and certainly agree with 
what you are saying. My question really is more about what our 
humanitarian efforts look like. For example, just recently the 
State Department announced an additional $125 million in 
assistance to the U.N. World Food Programme, which as we know 
ran out of funding at the end of last year at a time when that 
funding was particularly critical to some of the humanitarian 
efforts in places like Jordan and Lebanon. So how can we avoid 
having that kind of situation happen again, and what kind of 
negotiations, pressure, whatever we want to call it are we 
entering into with the U.N. so that that does not happen again?
    Secretary Kerry. Well, the shortfall itself to the U.N. 
World Food Programme?
    Senator Shaheen. Right.
    Secretary Kerry. Unfortunately, people who have made 
pledges are not stepping up, and the demand is increasing. It 
is the largest humanitarian crisis on the planet today and it 
is going to get worse. And I am sitting here--this is part of 
the frustration. It is going to get worse.
    Now, we are the largest single donor in the world and we 
should be proud of that. More than $3 billion we have put on 
the table since 2011. It is more than any other donor, and we 
have got $2 million that just recently went into the Red 
Crescent, the Turkish Red Crescent, to provide hot meals to 
Syrians, the refugees from Khobani. We put $133 million into 
the World Food Programme and other partners because of the 
emergency needs. It is not sustainable, and it is one of the 
reasons why we are looking at this question of Syria and other 
things with great urgency right now as to what other 
alternatives may be available.
    Senator Shaheen. The 2016 budget requests $2.2 billion for 
work at our embassies, and I understand that that is in 
response to the recommendations of the ARB following the 
Benghazi attack. Can you talk about how that will get 
prioritized if sequestration goes into effect? Where does that 
happen or fall out on the list of priorities?
    Secretary Kerry. Our highest priority in the State 
Department is protecting our people. And we have closed on 25 
of the 29 ARB recommendations. There are four Benghazi ARB 
recommendations that remain open. We are actively working to 
close them. There are things that take longer to implement. It 
is not that they have not been attended to. It is just that 
they do not close because it takes a lot longer to do them.
    We have a major number of high-threat locations that are 
undergoing renovation in various places. Huge expenditures in 
Kabul right now to harden down that place, particularly given 
the drawdown. You know, you can run the list of places easily 
in your heads as to where most of this work is going.
    But I made the decision with the President's consent to do 
the drawdown in Yemen because we were not able to do diplomacy, 
and most of the people we had there were people protecting the 
few people who were trying to do diplomacy. It just did not 
make sense. So we are doing it from a distance. We are not 
going away.
    And by the way, our facilities are being used by the U.N. 
and protected. Our computers are not accessible. We destroyed 
all the classified information. It was done in a very orderly 
way over a period of 4 to 5 days with a very well managed exit 
that was done through commercial air not in some panic. You 
know, I am really proud of the people who pulled that off.
    But we are not going to leave people at risk in these 
chaotic kind of situations, which is the same thing we did in 
Tripoli. But in many of these places, before you get to that 
stage, we have got to take steps to increase perimeters, harden 
buildings, do things so that there is no risk of negligence 
with respect to anything that might flow. And that is where 
those priorities are going, into that subset.
    I would rather not talk about specific places in public 
because it begins to flag things.
    Senator Shaheen. Sure. I understand that.
    Thank you very much.
    The Chairman. Thank you.
    Senator Perdue.
    Senator Perdue. Mr. Secretary, thank you for being here and 
thank you for your illustrious service here over 30 years. It 
puts you in a unique perspective to talk to us today.
    I want to come back to your comments in your opening. I 
agree with you so much. I just believe we are at a moment of 
challenge. I see this as a very dangerous world. I respect so 
much what you are doing in this position to try to deal with 
that.
    You also mentioned that we need to lead, and I could not 
agree with that more.
    But I see two things you have also mentioned as well that 
really create challenges. And I sense the frustration in your 
testimony today relating to one of these. First of all, this 
national security crisis relative to the threats not just 
abroad but even here at home relative to the threats abroad 
between a nuclear Iran, an ISIL that is really running rampant 
around the Middle East and threatening even our homeland, and 
of course, what is going on in the Ukraine and Russia.
    But you mentioned also our fiscal irresponsibility and the 
questions that raises around the world relative to our ability 
to back up our agreement, our ability to fund our military, and 
our ability to really live up to the leadership role that has 
been thrust upon us.
    You know, you mentioned budget constraints. Listen, I 
recognize that frustration. As an outsider, I see this fairly 
uniquely as someone new to the process. But I would like to get 
your sense of priorities particularly--and just one example of 
how you see in this budgeting process relative to all that we 
just mentioned and all that you talked about--how do you 
determine priorities and our ability to really do what we have 
got to do against your objectives?
    And one is specific. I spent last week in Israel. And I 
stood on the Golan Heights and I looked across into Syria. I 
saw these three villages where fighting is going on, and it is 
a very confused space.
    But then I went to the West Bank and I saw both sides of 
that equation. You know, in the 2016 budget, the administration 
is requesting almost a half a billion dollars in aid to the 
Palestinian territories of both Gaza and the West Bank. Earlier 
this year, the Palestinian Authority was allowed access to the 
International Criminal Court. And this is a troubling position 
that they will, no doubt, attempt to use to bring charges 
against Israel.
    But independently yesterday--and this leads to my 
question--a Federal district court in Manhattan ruled that the 
Palestinian Authority independently and the Palestinian 
Liberation Organization were both liable for their role in 
knowingly supporting six terrorist attacks in Israel between 
2004 and 2006 actually in which Americans were killed.
    So my question is that half a billion dollars that is being 
requested there--could that be used in different ways to deal 
with some of the things that you are talking about, certainly 
one some of the social media counterbalance with ISIL and some 
of the cybersecurity issues you have talked about? It is a 
small number but it is the principle of the thing. And my 
question is, how do you see that very complex priority set as 
you try to develop the highest and best use for your budget?
    Secretary Kerry. Great question, Senator, and I want to 
tackle both parts of it.
    With respect to the $450 million that you talked about to 
the Palestinians, you asked bluntly could it better go to 
something else, and the answer is, no. Of the $450 million 
budget support for the Palestinian Authority, $425 million goes 
to Israeli institutions, including utilities and creditors of 
the PA. So effectively it is going to Israel. It is not going 
to the Palestinians, but it helps Palestinians to survive.
    Now, why is that important? It is critical. If the 
Palestinian Authority were to fail--and I warned about this in 
London the other day because they are not getting the transfer 
of the tax revenues because of their going to the ICC. But if 
they were to fail, what takes their place? Hamas, jihad? I do 
not know. I just know that as troublesome as they have been in 
certain respects at many times, that President Abbas remains 
committed to a nonviolent, peaceful approach to a two-state 
solution and he remains committed to the two-state solution.
    Now, that has to be put to the test at some point in time, 
and I understand the difficulties Israel has had with them and 
him and so forth having taken part in those negotiations for a 
long period of time. We objected. We do not believe 
Palestinians have the right to accede to the ICC because we do 
not believe they are a state in standing to be able to go the 
ICC. We made that argument, as did other countries, by the way. 
A number of other countries made that argument. But we lost.
    And we also forcefully advocated to the Palestinian 
leadership do not do this. It is a mistake. You are going to 
create all kinds of hurdles to the possibilities in the future. 
This is a mistake. But they are out of patience and we could 
not contain that. And as you know, they went to the U.N. And I 
spent 3 weeks over the Christmas holiday working to keep people 
that we would like to be working with constructively from doing 
something negative, and in the end by a vote--they did not get 
he nine votes at the U.N. And so we never had to exercise a 
veto.
    But there is a great deal of frustration building, and this 
is not the moment to go into it in any depths. We are very 
anxious not to get dragged into the election process. We are 
not going to. Israel has this important election coming up, and 
they need to do it without us kibitzing from the sidelines. So 
I am not going to go further on this.
    I will just say to you that we wish the Palestinians had 
behaved differently. And that is why they are not getting aid 
right now. We think others are going to step up and try to help 
bridge the gap in order to get them over the hurdle. But when 
the Israeli elections are over, there is going to be a need to 
quickly begin to try to decide where everybody is going 
thereafter so that there is not an irretrievable clash that 
takes place with respect to the ICC or otherwise and prevents 
any further activity.
    On the first part of your question, a very important part 
of the question, the Golan Heights--and you sort of talked 
about the budget as a whole and where we need to go. The need 
for the United States to--I went through that list of things in 
the beginning, Ebola, ISIL, Afghanistan, the Maghreb, the 
Sahel, Somalia, Mali, Boko Haram, Yemen, Houthis, the region, 
still al-Qaeda in the western part of Pakistan. I mean, you can 
run through the gamut of these challenges, and you got to 
recognize that it is the United States who usually helps to 
convene or becomes a central part of the convening, working 
with our key allies, Britain, France, Germany, other members of 
the P5.
    But we need to be able to make a difference to some of 
these countries. There is a different world we are living in 
now. After World War II, most of the world's economies were 
destroyed, and we were in great debt but we came out of the 
recession by virtue of the war machine that was built up. And 
for 50 years or so, there was a pretty polarized east-west--you 
know, a bipolar decision-making process. And it was a lot 
easier.
    Ever since the Berlin Wall fell and nations sprung up 
reclaiming their individuality and their personal aspirations 
and defining themselves differently and free and democratic, 
the economies of the world have changed. And now you have the 
BRICS. You have China, India, Brazil, Mexico, others, South 
Korea people all playing a different role with a different 
impact. And many of them are donor countries.
    So others are playing a more mercantilistic, voracious game 
in the marketplace of ideas and products than we are. And we 
have been hamstrung by this budgeting process here in 
Washington that is not allowing us to actually meet our own 
priorities and serve our own interests. And I could make a much 
longer--and I will not do it now--argument of how it 
specifically affects us in instance after instance.
    I will give you just one example. Recently the Prime 
Minister of a great country was here. I will not go into the 
details of who. The most we were able to do is provide a loan 
guarantee when what they really needed were billions of dollars 
to help them move forward and make a difference. And if they 
get them from other places, other places will actually wind up 
having greater impact and influence than we do.
    Senator Perdue. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I know 
it has been a long day of testimony. Some of us are getting our 
second shot at you today, those of us who are on the 
Appropriations Committee.
    Secretary Kerry. More than any Senator should go through. 
[Laughter.]
    Senator Murphy. We had the chance to have a good dialogue 
this morning about my belief that we need to be having a more 
holistic conversation about the ways in which your lack of 
capacity to fight corruption, build up rule of law in and 
around the Russian sphere of influence is preventing us from 
doing the real work to combat their march across their 
periphery, and I hope our committee will focus on that.
    But this may be the only chance that we get to talk to you 
before we have a fulsome debate about the authorization of 
military force that is pending before Congress. And so I wanted 
to just ask you a question or two to try to help us understand 
some of the terminology in the proposed draft that I think we 
are having trouble getting our hands wrapped around.
    Secretary Gates, I believe shortly after he left the 
Department of Defense, said that if any future Secretary of 
Defense advised a President to deploy major numbers of combat 
troops back to the Middle East, that they should have their 
head examined. And there are a number of reasons for that. The 
lessons that we learned from the Iraq war are that when 
hundreds of thousands of American troops are there, we let our 
allies in the region off the hook, that we kill a lot of bad 
guys, but we frankly allow for our enemies to recruit more than 
we kill into the fight because of the presence of American 
troops. And it is why many of us really believe in this 
prohibition or restriction within this AUMF on another major 
deployment of ground troops to the Middle East. And I know you 
agree and I know the President agrees, and I think our new 
Secretary of Defense agrees. That is why the authorization 
draft that you gave us has that restriction in it.
    But I think we are struggling to understand these two words 
in it, ``enduring'' and ``offensive,'' and trying to get a 
better understanding of when the next President--because I do 
not think this President will make the mistake of deploying new 
ground troops to the Middle East--crosses that line.
    So can you give us a little bit more color on what your 
understanding of those two words mean? What is the number of 
ground troops that trips the ``enduring'' limitation? What are 
the kinds of actions that would trip the defensive versus 
offensive juxtaposition? I know that you are not the Secretary 
of Defense, but you are intimately involved in these 
discussions and the ramifications, would we ever commit troops 
to the region. Help us just understand a little bit more about 
what those words mean and if they are true limitations because, 
as you know, many of us believe that those words are so 
malleable to actually be no limitations at all, and I trust 
that you believe something different.
    Secretary Kerry. I am not going to suggest to you that 
there is not in any terminology latitude for interpretation 
because there always is unless there is an absolute, 
horrendously proscriptive, broad prohibition, which everybody 
would counsel against I think. We are seeking to destroy this 
entity, and it is not a good message nor a good policy to place 
such constraints on yourself that you cannot do that.
    At the same time, the President wants to make certain that 
those who feel burned by prior votes or by prior experiences 
are not fearful that he is somehow opening up Pandora's box to 
that possibility again.
    So our feeling is--and we give kudos to you on this 
committee. I mean, I think Senator Menendez as chair is the one 
who produced this concept from your deliberations, and I would 
have hoped you would have said, God, they listened to us. I 
mean, we came up here. I testified in December and we did 
listen to you. And I think the President tried to come back to 
you with something that he felt did not constrain his ability 
to exercise his constitutional authority as President but at 
the same time respected Congress' role and right to shape this. 
And that is what you have done and what you are doing.
    Now, ``enduring'' in our mind means no long-term offensive 
combat of a large scale, which is what the President has 
defined. In other words, we are not asking you for 
authorization to give us the ability to build up to a new Iraq 
or a new Afghanistan. It is not what we are doing. What we are 
asking for--and offense versus defense--when a large number, 
you know, a battalion or whatever of forces are directed to go 
have a firefight with ISIL in a proactive way, that is offense. 
And that is prohibited and that is not what we are seeking to 
do. But it does not mean that there might not be instances 
where you have advisors who are helping people to understand 
how to properly do fire control or properly call in air support 
or something else. There is a special force operation that 
might be necessary for one thing or another to try to rescue 
somebody or close something. I mean, there are things that are 
not part of the larger offensive operation where you may well 
have reasons to have some people there. I would not consider 
that--even though they may be in a hostile area and on some 
occasion conceivably inadvertently take fire or something, they 
are not in proactive, offensive actions, and certainly not 
enduring. I mean, what we do not want to do is get into a 
ground war.
    Gates--I think he said it was Gates who said that. You 
know, the President is trying to make sure that he does not 
have to have his head examined. This is a pretty 
straightforward prohibition without curtailing exigencies and 
leaving that sufficient level of fuzz that the other side 
cannot decide, oh, we got a safe haven here. We can do whatever 
want. Or they are not going to be able to whack us if we go do 
this or that or the other thing. So I think there has to be a 
little bit of leeway there.
    But rest assured there is in our judgment no way possible 
for this language to be misinterpreted and allow a kind of 
mission creep that takes us into a long-term war.
    Senator Murphy. And speaking for myself, I do not have any 
doubt that you will live within the confines that you and the 
President believe to have limited yourself publicly and within 
your interpretation of these words. I think that we are just 
going to be debating the amount of fuzz that is created here, 
and if there is so much so that the next President, who may not 
believe in the same strategic limitations that this President 
believes in, has an interpretation that is much more expansive 
than yours is, I think that is why we want to entertain further 
discussion.
    Secretary Kerry. And let me just say, Senator, there have 
been authorizations previously which have had restraints in 
them, some more limiting than this. Obviously, there is a 
constitutional argument, which is powerful and important, to 
the effect that there should not be any, and the President 
ought set limits. And you can deal with the funding. You cut 
off the funding. You are managing what is going on, and you 
have the power of the purse.
    But it seems to me that what is important here also is for 
the world to see that the United States Congress is uniting in 
a significant vote to make it clear we are committed to degrade 
and destroy ISIL. That is critical. And so whatever you do--I 
think everybody is going to have to compromise a little bit. 
And I went through all your various positions, and there are 
little nuances of differences between almost everybody. And so 
it does require people kind of finding the common ground and 
coming together here. And we hope we can get the strongest vote 
possible that indicates the United States of America is 
committed to this policy.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Secretary, for being here today, your 
service to the country as Secretary of State, as well as in 
this body.
    I just wanted to follow up quickly on my colleague's 
question. You mentioned that there had been other AUMF's, 
authorizations, with restraints. Which ones were you referring 
to and what were those restraints?
    Secretary Kerry. On the chemical weapons recently passed 
authorization, there were restraints put into that.
    Senator Gardner. What were those restraints?
    Secretary Kerry. Let me check. There was a restraint of 
time limit of months and a limitation on a certain use of 
force.
    Senator Gardner. And what was the other example you said?
    Secretary Kerry. There was multinational force in Lebanon, 
1983, where there was a time limit. There were limitations on 
the use of force, et cetera.
    So I think what the President has tried to do here is 
tailor something, based on the AUMF hearing we had in December, 
that reflected the sensitivities of the committee. And 
obviously, you guys have to tackle that now, and the 
administration is prepared to sit and work with you and work it 
through.
    Senator Gardner. I want to follow up on the questions that 
Senator Flake had asked. When you were talking about the formal 
role of Congress and approval of any agreement, I believe you 
said that there was this other looming entity out there, that 
you were concerned about a possible approval by this other 
looming entity. Well, to me, that other looming entity is 
Article 1, the United States Congress.
    So two questions. Do you believe there should be a formal 
approval role by the United States Congress for the agreement? 
And two, will you be coming back to the United States Congress 
and asking us to lift sanctions against the regime?
    Secretary Kerry. No. I do not think there ought to be a 
formal approval process. I think there is a formal process of 
consulting and of input, and ultimately you have to vote to 
lift the sanctions.
    Senator Gardner. Will you be making that request to us?
    Secretary Kerry. Not immediately in our current notion of 
what we would be doing. There would have to be some period, I 
would think, of compliance and other kinds of things, and this 
is yet to be determined.
    Senator Gardner. And the reports--I believe I came in from 
a Commerce Committee hearing right as you were telling Senator 
Menendez you cannot believe everything that you read. So the 
reports in the AP and other places that have said this would be 
a 10-year agreement with a 5-year ramp-down--it is simply not 
true?
    Secretary Kerry. I already said that that is not our view 
of it, but we have not reached an agreement yet.
    Senator Gardner. Is that one of the considerations that you 
are making, a 10-year timeframe with 5 years out----
    Secretary Kerry. I do not want to get into what we are or 
are not. I am just telling you that is not where it is at 
today.
    Senator Gardner. Have you had conversations perhaps with 
Speaker Boehner and Majority Leader McConnell about the terms 
of the agreement?
    Secretary Kerry. I have not had direct conversations with 
them.
    Senator Gardner. Do you think that is appropriate, to speak 
to the leadership of Congress?
    Secretary Kerry. Well, what we are doing, Senator, is we 
are having very regular consultations. Wendy Sherman and the 
team have been up here in classified session with many of you. 
That has been going on for almost 2 years now. We have been 
consulting on a regular basis in a classified forum. I have 
personally telephoned the chairs and ranking members at the 
conclusion of negotiations, given them some indication of what 
we are doing, where we are. So there is a regular consultation 
taking place under the normal order of the U.S. Senate. And 
when the briefings take place down in the classified room, if 
the practice is continued, when I was here, the leaders are 
usually there and part of those briefings.
    Senator Gardner. Do you believe that that consultation is 
what will fulfill the role that Congress plays in this 
agreement?
    Secretary Kerry. I do.
    Senator Gardner. Just the hearings downstairs in the 
basement. That is basically our role.
    Secretary Kerry. In terms of the ongoing negotiating 
portion, yes. You certainly have a right to have whatever 
hearings and whatever further examinations you want to have if 
a deal is struck. I mean, that is your prerogative at any point 
in time, and ours is to respond to you and to----
    Senator Gardner. But no other role and feedback on this 
than straight congressional hearings.
    Secretary Kerry. No. I believe this falls squarely within 
the Executive power of the President of the United States in 
the execution of American foreign policy, and he is executing 
thoroughly all his responsibilities of consultation. But in the 
end, this is the President's prerogative. You can always decide 
to oppose it one way or the other, as you might. Our hope is 
that we will consult, work together, not set up predetermined 
barriers that make it difficult to get to an agreement. I mean, 
every nuance of what we do here, folks, I am telling you gets 
interpreted and usually in ways that make our negotiating life 
harder. I am very serious----
    Senator Gardner. Will you commit to us that you will not be 
asking us to lift sanctions?
    Secretary Kerry. I beg your pardon?
    Senator Gardner. Is there any commitment that you can make 
that would involve a commitment that you would not be asking 
Congress to lift sanctions?
    Secretary Kerry. I do not want to bind that at this moment. 
I know of nothing at this moment in time, but I am not going to 
bind myself. I do not know how this proceeds. I do not know 
where we wind up, and I am not going to take away, depending on 
what we got for it, some option. But that is not our current--
--
    Senator Gardner. I am running out of time here. I want to 
switch to the Asia rebalance. One of the signature policies or 
initiatives of the administration was the pivot or the 
rebalance in Asia announced November of 2011 in Australia. The 
President said that our new focus on this region reflects a 
fundamental truth the United States has been and always will be 
a Pacific nation. And I agree.
    I am serving as the new chairman of the East Asia and 
Pacific Subcommittee. I look forward to working with you and my 
colleague, Senator Cardin from Maryland, to ensure that our 
policies reflect the growing strategic importance of this 
region covering nearly two-thirds of the earth's population.
    But I am concerned that the administration's efforts to 
apply this whole-of-government approach to the Asia-Pacific 
region are faltering. Last year, this committee issued a report 
that highlighted some of these shortcomings, noting that the 
administration--and this is the quote from the report. The 
administration can improve the effectiveness and sustainability 
of the rebalance policy by increasing civilian engagement, 
strengthening diplomatic partnerships, and empowering U.S. 
businesses.
    I understand that the fiscal year 2016 request for 
diplomatic engagement within the East Asian and Pacific Affairs 
Bureau is up 6 percent this year, but is still 11 percent below 
2014 fiscal year levels.
    How do you explain the disparity in the administration's 
rhetoric and the seeming discrepancy in the budget request?
    Secretary Kerry. I am not sure I followed you completely on 
the what is up.
    Senator Gardner. So basically the East Asian and Pacific 
Affairs Bureau is up 6 percent, but that is still 11 percent 
below what the fiscal year 2014 funding levels were. So despite 
the efforts of the Asian pivot or the talk or the rhetoric of 
an Asian pivot, are we actually reaching that and does that 
remain a top priority for the administration?
    Secretary Kerry. Senator, I am not sure what figure you are 
balancing against what to come up with that because the 2016 
budget has a $1.4 billion increase not total in support of the 
rebalance, and that includes a 6-percent increase over 2014.
    And we are pursuing the Trans-Pacific Partnership 
voraciously. I mean, we have a major effort going with respect 
to the region. Under Secretary Wendy Sherman was over there 
about a month ago. Deputy Secretary Tony Blinken was over there 
2 weeks ago following that visit. I am going over in about a 
month to follow up on that visit. We have President Ji coming 
here for a visit in the fall. We have major presence with our 
negotiations right now with Vietnam, Malaysia. I have been 
talking personally with the Prime Ministers and Foreign 
Ministers of these countries.
    So we are deeply, deeply engaged in this rebalance. We have 
never had that many high-level visits taking place. We have had 
a revamping of our defense policy with Japan, with South Korea. 
We are engaged. The President was over there for his fifth 
trip. I think I have made seven since I have been Secretary. So 
I think that every step the East Asian and Pacific Bureau is 
taking and every step the higher level of the State Department 
is taking and the administration is following up on this notion 
of the rebalance and of its importance.
    Senator Gardner. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I would say on the consultation--I hate to jump in here. 
But at every one of these meetings where the numbers of 
centrifuges are generally laid out and we express concern, the 
next report, the numbers of centrifuges increase. And I would 
say that every time we get concerned about the length of time 
of the agreement being too short, at every report, the length 
of the agreement shortens.
    So I do hope we will have an opportunity to weigh in on the 
totality of the deal prior to sanctions being lifted. I do not 
think that is an undue burden when Congress put those in place 
in the first place.
    With that, Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    First of all, Mr. Secretary, I want to congratulate you on 
your naming of a special envoy for LGBT rights in the State 
Department. I think it is a historic moment. And I am just 
wondering what response you may have received over the past few 
days from other countries in your announcement.
    Secretary Kerry. Well, to be honest with you, Senator, I 
have been wrapped in the negotiations. I just got back late 
last night. So I have not had personally any response. I am 
told a very, very positive response. I read one article in the 
paper this morning which was very positive about it, but I have 
not seen----
    Senator Markey. I think it is an important step forward.
    Al-Shabaab has threatened the Mall of America, and that is 
clearly linking foreign policy to domestic homeland security. 
The President is constantly talking about countering violent 
extremism. And so I am just wondering if you could give us a 
little bit of an insight into what actions your Department--the 
Obama administration generally--is taking to counter this 
threat coming out of Somalia in terms of its potential threat 
to the homeland.
    Secretary Kerry. Well, Senator, we are engaged in the most 
massive day-to-day counterterrorism efforts that one could 
imagine, and it is consuming every aspect of Government. The 
President regularly convenes a national security meeting to get 
updates on where we are and what we are doing and particularly 
when we are in a moment of a particular threat or challenge.
    I think what the Department of Homeland Security was really 
talking about is sort of a generic set of threats and 
challenges that are out there that we are working to respond 
to. We have an unprecedented level of communication and 
information sharing and intelligence sharing taking place now 
with other countries. We have the Counterterrorism Partnership 
Fund, which we are requesting money from all of you to 
implement, and that is $390 million, which will be used to 
enhance border security among our foreign partners. We are 
working with the Europeans to move them now to sharing lists on 
passengers which they had not been doing. We are trying to 
increase the scrutiny of people moving in between countries and 
share more information about it. We are trying to stem the 
financial flow to these groups through nations and increased 
scrutiny of who is giving money how and how it flows.
    There is a Center for Strategic Counterterrorism 
Communications which has been set up, and that is at the State 
Department. It is playing a key role in our efforts to counter 
violent extremism, and it is coordinating and informing the 
whole-of-government public communications structure that is 
able to pass on information and counter rumors and deal with 
social media in Arabic, in Urdu, in Somali, and more recently 
English because of English-speaking countries which are at 
risk.
    So there is just a whole-of-government effort going on. It 
is taking shape. It is growing almost by the day and week.
    The counterterrorism, counterextremism session that we just 
had in the last 2 or 3 days--the first day of it at the White 
House was almost exclusively civil society, law enforcement, 
NGOs, people who are engaged in grassroots efforts to see how 
they can be augmented to this.
    Now, one thing I do not want to have come out of this. This 
is a challenge and it is a legitimate threat. And indeed, there 
are risks in certain places at certain times. But no one should 
doubt that notwithstanding that, we are actually living in the 
least loss-of-life, violent period in our history. There is an 
anomaly here. So I think what people need to do is be vigilant 
but not scared. People need to be always attentive but never 
fearful of doing something or going somewhere. And I think 
travel today is safer than it has ever been. I think people's 
ability to move--our SWAT teams are better, our sharing of 
information, FBI, all of our units. People have really gotten 
pretty good. It does not mean a lone wolf cannot come along and 
do something. If somebody wants to die, you can hurt people. I 
think it is important for people to recognize this is not a 
moment of turning inward and getting frightened.
    Senator Markey. Thank you, Mr. Secretary.
    The United States-China climate agreement was historic, 
though not universally well received. Could you tell the 
committee why this agreement serves America's interests and 
what you believe it contributes toward reaching a positive 
result in Paris later on this year?
    Secretary Kerry. Well, look, you are absolutely correct. Of 
course, it is not universally well received. On one side, you 
have people who do not receive it well because there are still 
people who do not think we have to do anything. On the other 
side, you have people who believe we ought to be doing more. I 
happen to be one of those. And I helped negotiate this deal. I 
would have loved to have seen it do more, but this is the most 
we could get. And we took a country--most people thought it was 
foolish and how could you possibly try to get China. Up until 
last year--you know this better than anybody--China was on the 
opposite side of the table and stopping us from doing anything. 
And we turned that around in a year to have a China that has 
publicly committed to set a standard for reduction of a 
dependency on fossil fuel by 2030 and begin to have a 20-
percent commitment internally to alternative renewable energy, 
clean energy. That is huge.
    And in our case, we set a goal of somewhere between 26 and 
28 percent reduction in our emissions by 2025 with the hope 
that we are going to actually do better and hit the 28 and do 
it sooner. China likewise committed to try to do it sooner if 
possible.
    Now, we believe the technology is going to help us do it 
sooner. If we get moving down that road, the technology curve 
always winds up producing faster and spinning out new ways of 
doing things cheaper and you get to your goal faster. So that 
is our bet.
    But we are still behind the curve of where we need to be in 
terms of meeting our obligation to deal with climate change and 
keep the rise of temperature on planet earth to 2 degrees 
Centigrade. We are not going to make it right now. And that is 
why we are still talking--a lot of people are talking about 
mitigation and dealing with the effects.
    But I will tell you this. I run into the effects of climate 
change in various parts of the world all the time now. There 
are tribes fighting each other over water in places that there 
used to be water, and there is not anymore. There are record-
level droughts, 500-year droughts. By the way, in California, 
as Senator Boxer knows better than anybody, not just in deserts 
in other parts of the world, we have had record levels of storm 
damage, of fires, the hottest year. Each year now is the 
hottest year since the last year for the last 10-12, whatever 
number of years. You know this better than anybody in the 
Senate, Senator Markey.
    So we are behind the curve, but what we are trying to do is 
create a critical mass of countries out of the major emitting 
nations that will then have an impact on everybody gathering in 
Paris. And when they see that the major countries are doing 
it--and the reason others have to do it is less developed 
countries now equal over 50 percent of all emissions. So they 
have to start coming on board because no one country can reduce 
completely. If everybody rode a bicycle tomorrow and nobody 
drove to work and had public transportation and if we did not 
emissions, we would still be in deep, deep trouble because of 
the rate of the promulgation of coal-fired power plants in 
various countries around the world.
    So we have a huge distance to travel and the great 
benefit--you asked about the benefit. The market we are looking 
at for clean, renewable, efficient energy is a $6 trillion 
market with 4 billion to 5 billion users, and that will rise to 
9 billion users as the population grows up to 2050 or so. The 
market that created the great wealth of our Nation, when every 
quintile saw their income go up in the 1990s, was a $1 trillion 
market with 1 billion users.
    So that is what we got: $6 trillion versus $1 trillion; 1 
billion users versus 4 billion to 5 billion now and more 
growing. This is the biggest market in all of human history. 
Countless people could be put to work. Countless technologies 
put in place, new grids, smart energy, all of these things. And 
the sooner we move to it, the sooner a lot of economies start 
to move and the sooner we deal with the crisis.
    The Chairman. Thank you.
    Senator Boxer.
    Senator Boxer. Thanks so much, Mr. Chairman and Ranking 
Member, for this.
    Thank you, Secretary Kerry. You are serving in very 
challenging times and you are doing it so well. You are making 
us proud whether we agree or disagree with you. And I think a 
lot of us agree with you sometimes and disagree with you 
sometimes. And I have to say you are a great diplomat, and 
those skills were on display today. And so I am very pleased to 
see you.
    You know, in light of the threats that you have laid out, I 
am not going to ask you about the looming shutdown of the 
Department of Homeland Security because that is not your 
bailiwick, that is Secretary Johnson's. But I think it ought to 
be another message to everybody that this is a ridiculous way 
to run a country at this difficult time.
    I also want to say I agree with your overarching comments 
at the beginning that there is not enough of a priority placed 
on the work of the State Department and the very brave men and 
women out there representing our great Nation and how important 
it is. And that is why I so strongly supported what the 
President did on Cuba because I find that when people meet 
Americans, they fall in love with America. And that is the way 
we are going to influence people--to have contact with them. I 
know that we are divided on this issue even within our own 
party and on the other side, which is okay. It is fine.
    But from my perspective, when I went there years ago, what 
I remember is that Cubans were so afraid to be seen with us, 
they ran away--ordinary folks. It had to be straightened out 
with the top people there because they were afraid that they 
would get harassed for even talking to us. So I just want you 
to know that I back what you did there.
    On Iran, this is a chance of a lifetime to do something so 
important. And I know how difficult it is. And I know you have 
said--and so has Wendy Sherman--in many of our meetings that 
this is a difficult thing, and it may not work. Maybe it is 50/
50. I do not know today if you would still say it is 50/50. But 
I think trying to get a deal here is a once-in-a-lifetime 
opportunity. And we have done it with other countries.
    And the most important thing to me--and I spoke with 
Senator Risch about this once--is the verifiability. We cannot 
trust these people in that government for 1 second. We can 
trust the people, but we cannot trust the government. So it 
must be verifiable. And for me, that is what I am looking for: 
the inspections, the unfettered ability to see if this is real. 
And also I would demand that there be constant reports to the 
Congress as to whether Iran is living up to the agreement.
    Now, I am working on something--I just want to know if you 
could make time for me in your busy life--that takes us 
somewhere between where some want to go, where I think Congress 
gets overinvolved, and where some others want to go, where they 
want Congress to be underinvolved. I think there is a sweet 
spot here that does deal with Congress getting involved on the 
sanctions we put in place and also on demanding reporting 
requirements. Would you make time for me or would your staff 
make time for me so I can go over some legislation I have been 
working on with Senator Paul?
    Secretary Kerry. Sure.
    Senator Boxer. Okay.
    Secretary Kerry. And by the way, Senator, thank you for 
flying back especially to do the hearing on Cuba with Senator 
Rubio. We really appreciate it.
    Senator Boxer. Listen, I was very happy to be part of that.
    Let me just close with this argument, and it gets to the 
AUMF. You and I are very close friends and allies most of the 
time. The one time we had a real difference was on the war in 
Iraq, and you remember that. And it had to do with wording and 
it had to do with approaches to an issue. And you were working 
on wording with Senator Biden and Senator Lugar, and it was a 
difficult meeting and we did not reach agreement on wording on 
the Iraq war.
    I asked the Congressional Research Service--CRS--if they 
could analyze this word ``enduring,'' and I want to say I asked 
my ranking member--when he put forward the idea of 
``enduring,'' he had a list of what it meant. The way you have 
approached this, Mr. Secretary, you do not have any definition. 
And the CRS--and I ask unanimous consent to put this report in 
the record, if I can, Mr. Chairman.
    The Chairman. Without objection.
    Senator Boxer. Here is what they say. This is incredibly 
important for you to hear. ``It seems doubtful that a 
limitation on, `enduring offensive ground combat operations,' 
would present sufficient judicially manageable standards by 
which a court could resolve any conflict that might arise 
between Congress and the executive branch over the 
interpretation of the phrase or its application to U.S. 
involvement in hostilities.'' This is the CRS. They do not have 
a dog in the fight.
    And this is really very important because I am not going to 
support this language. It is as open-ended as you can imagine. 
It is ridiculous. No one can define what it means. You said it 
is extended hostilities. CRS says it cannot be defined. I say 
it cannot be defined. This is just common sense because what is 
an enduring relationship to one person is not an enduring 
relationship to another. ``Enduring'' is a subjective term and 
it is not tested.
    So I am saying to you as someone who agrees with you and 
the President when you and he have said in the most beautiful, 
unequivocal terms--and I quote the President from June 19, 
2014, ``American combat troops are not going to be fighting 
again in Iraq.'' The President said in September 2014, ``these 
American forces will not have a combat mission--we will not get 
dragged into another ground war in Iraq.'' He also said, ``nor 
do we intend to send U.S. troops to occupy foreign lands.'' And 
in January 2015, the President said, ``instead of getting 
dragged into another ground war in the Middle East, we are 
leading a broad coalition . . . ''
    And Mr. Secretary, you have said the same thing: ``I think 
that is a redline for everybody here, no boots on the ground.'' 
You said that in September 2014. And then you said, ``President 
Obama has said repeatedly that U.S. ground troops will not 
engage in combat roles.'' And you said in December 2014, ``The 
President has been crystal-clear that his policy is that U.S. 
military forces will not be deployed to conduct ground combat 
operations against ISIL and that will be the responsibility of 
local forces.''
    So this is your clear statement of policy. Today you 
affirmed that that is the current policy.
    I would ask to put these statements in the record.
    The Chairman. Without objection.
    Senator Boxer. And yet, you send up here an AUMF with this 
giant loophole you could drive a combat truck through. And it 
is not going to get a lot of support among, I think, the 
Democrats on this committee. I do not speak for every one of 
them, but we have had many discussions.
    I am hopeful that you can take back to the President some 
of these comments.
    Now, on the other side of the aisle, you are facing another 
problem. I cannot speak for them. They want very few 
limitations.
    And I know this puts you in a bind, but the most important 
thing to me, when you send up an AUMF, is to have it reflect 
your own strategy. And I do not think this AUMF reflects your 
strategy. I think it reflects an attempt to bring people 
together to get something passed, but at the end of the day, I 
do not know what a future President is going to do. I know what 
this President is going to do, and I support that strategy 
strongly. I voted for an AUMF that was put together by our 
then-chairman. Every Democrat supported it, if I could say, 
Senators from the left to far left supported it. And then you 
come in with this one.
    I am just saying, I hope you will take back to the 
President the fact that the CRS says it cannot be--it is not a 
term that is definable and that many of us feel it is an open-
ended commitment. Will you take that back to him and tell him 
some of us feel that way?
    Secretary Kerry. Sure. I think he is well aware of that 
position among some people here, Senator. And you are 
articulate and clear about it as always.
    But I would just say to you that I think the policy that 
the President has defined--and all of the statements that you 
just articulated are contained within the language that Senator 
Menendez and the committee produced previously. We believe 
that.
    Now, you know, I think when you get into this process--and 
I am consistent with what I said here in December--of trying to 
list things, it gets difficult because of something that gets 
left out or something that was meant--you know, it just gets 
more complicated. But that is why there is a sunset----
    Senator Boxer. My time is running out. My time is running 
out.
    Secretary Kerry. Let me just finish.
    Senator Boxer. Nothing gets more complicated than the use 
of a word that no one can define. It is a disaster. The 
President is not going to be here after a year and a half or 
two.
    Secretary Kerry. Well, the President will be here for 
another year and three-quarters.
    Senator Boxer. And this would go for 3 years. So you are 
not talking about just this President.
    Secretary Kerry. Right. But I think that the language is 
such and the process is such with the sunset that the sunset 
could be executed in a way that you protect minority rights so 
that there has to be a coming together and a conclusion on it 
with respect to how that vote takes place so that a future 
President really cannot abuse it per se. They are going to have 
to deal with it. And I think in my judgment that is a strong 
protection because if you cannot get it renewed because there 
is not a willing majority to be able to do that, you have 
effectively asserted your rights and your position.
    Senator Boxer. Well, we just disagree. Thank you, though.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you.
    Secretary Kerry. Let me just finish one other thought. As 
we have said to you, this is an open process. I mean, this is 
now in the legislative arena. I think the goal is to get as 
many votes as you can, Senator Boxer. I think if you think you 
can bring 40-50 Republicans on board with language that is 
absolute prohibitory or more declarative, as long as it is not 
restrictive of things the President thinks he needs to guard, 
that is the give and take here. I doubt you can get there, but 
if you can, more power to you.
    Senator Boxer. You are not going to get there with this 
one.
    The Chairman. If we could, I mean, I think you all have had 
a chance to discuss it fully, and I appreciate the views of 
both of you. And I think Senator Udall would like to weigh in.
    Senator Udall. Thank you, Chairman Corker, and thank you, 
Senator Menendez.
    And not to beat a dead horse here, but on the specific 
subject that Senator Boxer brought up, I just want to tell you 
how much I appreciate you coming in December and outlining what 
it is that you felt the administration needed. And as you saw, 
with Senator Menendez at the chair, we did some very serious 
work, and we came up with a lot of what was very close to what 
you talked about. You know, on my part, I wanted to be more 
limiting, but I voted for the final product. Chairman Corker, I 
do not know the dynamic because we were in the majority at the 
time, but I think we all worked seriously. And there were 
Republicans that wanted to be more limiting. And so I think 
there is a lot of room to take that product and move forward 
and work with it.
    Secretary Kerry. That is what we are looking for, Senator. 
This is not a closed-out--this is not a take it or leave it, 
obviously. So we look forward to your work on it and ask you 
simply to work with us also to make sure that we are not put in 
a place that does not allow us to pursue the policy per se.
    Senator Udall. You have spoken several times about Cuba and 
what has happened in Cuba. And I just want to applaud the 
administration for normalizing relations. And Senator Flake and 
I were down there together just before--within about 6 weeks of 
when Alan Gross was released and then when the big 
announcements were made. And what I am wondering is what do you 
think. We know there are serious problems with this 
authoritarian government and all the things that they do. But 
what is your recommendation of the best steps forward to 
normalize and how we move down a path. There are all sorts of 
things that are being explored, but what is your----
    Secretary Kerry. The normalization process is effectively 
announced and now needs to be implemented. The theory of the 
normalization is that it is getting it in place that in fact 
begins to put us in a different position to be able to advance 
our interests. I mean, Senator Menendez and others are 
absolutely correct about what the problems are there. We all 
agree. There is maybe a slight difference about how you are 
going to get them to change. Our theory of the case is that the 
best change is going to come through families, through people, 
through travel, through information, through access and that 
normalization in fact leverages our ability to do what 50 years 
of isolation has not achieved. Now, obviously, the proof will 
be in the pudding. But we have seen what has not happened for 
this long period of time. So effectively we think we ought to 
try this difference.
    Now, we will have a meeting this Friday here in Washington 
that will take place which will basically be negotiating the 
normal pieces of negotiating the entry into normal diplomatic 
relations, in other words, how do your diplomats react, what 
are their rights of movement, you know, the visa situations, 
the travel, the access to equipment, goods. All those kinds of 
things have to be negotiated. And the components of the 
agreement which we understood were critical like the Internet 
and the business and so forth has to be articulated. That is 
being done now, at which point we hopefully are in a position 
to actually sign memorandums of--exchange diplomatic notes and 
engage in the process.
    Senator Udall. Shifting over to Iran, you talked earlier 
about the execution of American foreign policy. And I cannot 
think of a more dramatic area of the collision between the 
executive branch and the legislative branch than when a foreign 
leader--and the Constitution talks about who deals with foreign 
leaders--than what has happened here with this speech on March 
4 by Prime Minister Netanyahu. And I have said publicly that I 
believe that he should postpone that speech.
    Could you describe to people what is at issue here? You are 
the Secretary of State. You understand this issue. Do you think 
is a wise move on the part of the prime minister to come here 
when we are in the middle of these very delicate negotiations? 
Was it a wise move on his part to ignore the administration in 
terms of appearing in front of a joint session of Congress? 
What are your thoughts on that?
    Secretary Kerry. Well, my thoughts are that you as Senators 
have all the leeway in the world to make up your own minds 
about how you feel about this decision. My job is to work with 
the Prime Minister of Israel and with Israel to maintain its 
security, to honor our very, very strong relationship.
    I speak with the prime minister more than any other leader. 
I speak with him regularly, and it is an important part of our 
security and his security--I mean the security of Israel and 
the enduring relationship that we have, and nobody should 
question that relationship.
    You all have to make up your own minds about the propriety 
of the way this unfolded or what happened. We are going to 
proceed about our business which is protecting the country and 
maintaining the integrity of these relationships, and that 
includes Israel.
    You know, I have been focused on, obviously, Iran 
negotiations and Ukraine and Afghanistan and a bunch of other 
things, and actually I will be leaving I think on Saturday for 
meetings with Foreign Minister Lavrov on Syria and other 
things, then the Human Rights Council. I will not be here. I 
will be negotiating with Iran for the rest of that week, as a 
matter of fact. So during that period of time, I will actually 
be sitting there trying to get an agreement.
    Senator Udall. Secretary Kerry, just to conclude, I tried 
to have my staff research this. So I do not know of any other 
time that the administration has been ignored. Can you in your 
memory at all? And if you cannot answer that now, I hope you 
will try to answer that for me in terms of the history of our 
foreign relations.
    Secretary Kerry. I think that your staff should do some 
research for you, and I am not going to get into the history 
here now, one way or the other. As I said to you, my focus is 
on protecting the relationship between us and Israel and 
dealing with important issues in the region, and I do not want 
anything coming in between that.
    Senator Udall. And I understand that and I believe it is a 
tremendously important relationship, but I also believe what 
the Prime Minister has done by taking this action--he has 
created a very divisive situation.
    Thank you, Secretary Kerry, for all your hard work.
    I yield back.
    The Chairman. Thank you, Senator.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. I have a lot of questions 
about ISIL AUMF, but I am going to hold on those for the 
hearings that we will have on that.
    I want to talk to you about strategy, and I want to talk to 
you about security.
    On the strategy side, having been on this committee for 
about 2 years and just even as a citizen reading the news, it 
seems like we are always in crisis management mode because 
there are always crises. But just because there have always and 
will always be crises, it does not mean we need to define our 
job as crisis managers. And I think we ought to look big-
picture strategy and take advantage of some successes. I am 
going to commend you in both senses, thank you but also 
encourage you on one.
    I just got back from a CODEL to Mexico, Honduras, and 
Colombia. Mexico is now our number three trade partner. Net 
migration from Mexico is now zero. As many Americans migrate to 
Mexico as Mexicans migrate to the United States, which is a 
very dramatic thing. Even with significant security 
challenges--and we are working with Mexico on those--the 
increase in the Mexican middle class has been sizeable, and the 
trade relationship between the United States and Mexico has 
gone a long way in 20 years.
    Honduras, a very challenging situation. The administration 
has put on the table a significant Plan Central America 
investment, that is based on a plan the northern triangle 
nations put together. And this kind of investment, if we do it 
the right way, has the capacity to be a significant improvement 
in life for folks in that region and also slow the 
unaccompanied minor migration to this country.
    And then I went to Colombia, and I was there on the day 
that you announced Bernie Aaronson as the United States Special 
Envoy to the peace talks between the Colombian Government to 
accompany our ally Colombia in the negotiations with the FARC 
to end a 50-year civil war in Colombia. Colombia was a failed 
state in the late 1990s, but because of the U.S. investments--
and they will say because of the U.S. investments--and their 
own hard work, they have now become, next to Canada, our 
primary security partner in the hemisphere. They provide 
security on the border between Egypt and Israel. They provide 
security assistance to Central American nations, and their 
economy has grown in a significant way.
    People who have done your job as Secretary of State--you 
spend all your time traveling east and west, all your time on--
I am exaggerating a little bit. American foreign policy is 
about Europe and it was about the Soviet Union. Then it is 
about the Middle East. Now we are pivoting to Asia. It is as if 
the world has an east-west axis only when we know it has got a 
north-south axis. And what the Latin countries have told me on 
this visit and others when I lived there is that you pay 
attention to us when there is a crisis, but you ought to pay 
more attention to us because there are a lot of good things 
going on.
    I think from the big-picture strategic standpoint, I would 
commend you for the work that you have done with respect to 
Cuba, with respect to the Plan Central America, with respect to 
Colombia, but I would also encourage you to really focus on 
that north-south axis. We are 35 countries. We are a billion 
people. We share a name. We are all Americans, North Americans, 
Central Americans, South Americans. We have a unique culture 
that was formed by indigenous and European and African. We 
share that from the Yukon to Patagonia, and that unique culture 
has made us who we are, but it has also made us open to other 
cultures as the immigration to the Americas from Asia has 
shown.
    Trade is booming in this region between our nations. The 
prosperity of the continents has dramatically improved. It just 
not just Canada, the United States, and the 33 dwarfs anymore. 
It is significant, major economies that are doing some 
wonderful things. There are challenges, sure. But if this civil 
war in Colombia ends, we will be two continents at peace. There 
will not be a war in North or South America. You cannot say 
that about Europe with what is going on in Ukraine. You cannot 
say that about Africa. You cannot say that about Asia. But we 
are close to being able to say it about the Americas.
    So I just want to commend you for the work that you have 
already done. But let us not just focus on the Americas when 
there is a crisis and then turn our attention back to the east-
west axis. This billion people, 35 countries, two continents 
that could potentially be continents of peace could be some of 
the best inoculation that we would have against global security 
challenges if we are persistent, if we stick with it. And I 
would encourage you to do that.
    The last thing I will say I want to thank you on something 
else. The first time we had a hearing together after your 
confirmation and I was sitting as the newest guy on the 
committee, I asked you about the ARB recommendation with 
respect to embassy security. The State Department had had a 
multiyear search and had decided that they needed to do an 
embassy security facility to keep our people safe. And they had 
come up with that conclusion and picked a site in Virginia in 
the summer of 2012. A few months after the choice of the site, 
we had the horrible attack at Benghazi, and in the aftermath, 
the ARB report suggested that this site was needed.
    And yet, here we are. We are now nearly 3 years after the 
selection of the site, 2\1/2\ years after the horrible tragedy 
at Benghazi, and it has not really moved forward. But I was 
happy to see in the President's fiscal year 2016 budget a 
proposal to finally invest $99 million to build this embassy 
security facility.
    You mentioned that there are ARB recommendations that have 
been done and there are ARB recommendations that have not been 
done. One of the ones that has not been done was to provide 
state-of-the-art security training for those who serve in 
dangerous embassies around the world. And given that the State 
Department wisely recommended in the summer of 2012 that we 
needed to make this investment, I am a little chagrined but 
still excited to see that in fiscal year 2016 we might finally 
start to act on that awareness within the State Department.
    And I do not know if you have comments either about the 
strategy or the security point. Thank you.
    Secretary Kerry. I have comments about both, Senator.
    Let me just tell you on the latter, we are very, very 
excited about this. The Department of State and the General 
Services Administration looked at over 70 properties. There was 
a major property, obviously, down in Georgia that was 
considered. It is the enforcement training center, the Federal 
law enforcement training center, and there was a lot of talk 
about going there. But we made the right decision to go to Fort 
Pickett. Over a 10-year period, we will literally save--the 
cost would have been $91 million to do it in Georgia. It is $9 
million to do it and the cost of transportation back and forth 
to do it in Virginia. So this is a good decision. It is going 
to get implemented now. We are ready to go, and we are very 
excited about it. All the due diligence has been done and it is 
going to happen.
    On the policy, I could not agree with you more. And in 
fact, I think it was about a month ago--early January--I 
invited the Foreign Minister of Mexico and the Foreign Minister 
of Canada to come and join me in Boston for a day and a half/2 
days. And we had dinner at my house, and then we had a full day 
of meetings. I took them to a hockey game and had a lot of fun. 
And we talked about North America. We talked about the ability 
of Canada, the United States, Mexico, which are a huge part of 
the global economy, by the way, when you combine then, to be 
able to have a much greater impact and have a greater impact, 
by the way, on Central America and Latin America. So we have 
committed to that.
    And in fact, I have had a meeting in the State Department 
within the last month at which we sat with our Western 
Hemisphere Assistant Secretary, Roberta Jacobson, who is doing 
a great job, and others and talked about how we are going to 
implement a greater north-south complement over the course of 
the next 2 years of this administration.
    And the appointment of the special envoy to Colombia came 
out of my second visit to Colombia and my discussions with 
President Santos who asked us to get engaged and to become 
involved. And President Obama agreed to do that, and together 
we decided that Bernie is the fellow to help get the job done 
because he was intimately involved in the Nicaragua-El Salvador 
peace process and has great experience, served previously as an 
Assistant Secretary for the Western Hemisphere. In fact, I 
worked with him on the committee when I was chairman of that 
subcommittee.
    So we think we got something cooking and that, together 
with the Central America initiative and efforts to deal with 
Petrocaribe, with the fuel problems that the Caribbean may have 
depending on what happens with fuel prices in Venezuela and so 
forth--we are now putting together an entire energy connection 
strategy, which involves Mexico and others, which could begin 
to really change the economies of the region.
    So I appreciate your focus. We should work on it. Next time 
we head down there, maybe you want to come with me. And I will 
be heading down there shortly. We are very excited about the 
possibility of really defining this North America access, and 
you are right on target.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Very briefly. I want to thank Senator Kaine because as 
someone who for 23 years has been trying to create this focus 
on Latin America and the Caribbean, it is great to have another 
voice who is as equally as passionate about it.
    Mr. Secretary, three quick questions.
    One, speaking about Latin America, the situation in 
Venezuela continues to deteriorate. The Venezuelan Government 
arrested Caracas Mayor Antonio Ledesma on trumped-up charges. 
There are high-profile political prisoners in Venezuela like 
Leopoldo Lopez who have languished in prison for over a year. 
We had legislation passed, signed by the President, that calls 
for including mandatory implementations of certain sanctions.
    Can you give us an update of where the administration is at 
and how they intend to move forward?
    Secretary Kerry. Yes. We are perplexed by and disturbed by 
what is going on in Venezuela, Senator. I reached out to the 
Foreign Minister when I traveled the year before to Panama. I 
think it was in Guatemala I saw him. And we met. It was 
supposed to be a 15-minute meeting. It turned out to be 45. We 
agreed we were going to try to follow on and begin a new 
period. And the next thing I knew a couple of weeks later we 
were being attacked for this or that and accused of this and 
that.
    This seems to be the pattern. Whenever President Maduro or 
someone in Venezuela at the high level of their government gets 
into trouble or something is pressing politically, they blame 
America. And it is a repeated effort to trump up notions of 
coups which do not exist and to play to, frankly, a very old 
script. I mean, this is regrettable.
    So our policy is we are very supportive. You know, we 
continue to meet with and we encourage meaningful dialogue 
between all the sectors of Venezuelan society, political 
opposition, society, business, government, et cetera. We call 
on the government to release political prisoners, including 
dozens of students, and opposition leaders, Leopoldo Lopez and 
Mayor Daniel Ceballos and Enzo Scarano. And we are working with 
others to try to get them to live up to their defense of 
democracy. So we are working with the National Security Council 
right now and the Department of the Treasury and other agencies 
to implement the provisions of the law on sanctions and we are 
moving ahead as fast as we can.
    I have raised the issue of Venezuela in all my 
conversations with leaders in the surrounding countries.
    Senator Menendez. When we were proposing this, we were 
asked to withhold because there was an attempt by Colombia and 
others to try to engage. And unfortunately, that did not 
produce results. And it seems that President Maduro only 
continues to arrest those that either create opposition to his 
government and/or who he uses as scapegoats. At some point, I 
just hope that we can use the provisions of the law sooner 
rather than later, and I recommendation your attention to it.
    Secretary Kerry. Well, we are pushing that.
    Senator Menendez. Secondly, Turkey has gone into the 
exclusive economic zone of Cyprus. It put its ships there, 
followed with warships. It is pretty outrageous. And it is a 
country--Cyprus--that is part of the European Union. If this is 
the way we are going to have countries in that region affect 
others' economic exclusive zones, which are internationally 
recognized, and at the same time pressure a country which is in 
the midst of good faith negotiations to try to solve their 
longstanding problem in terms of the division of the country, 
it is a horrible set of circumstances.
    I hope we can be stronger with the Turkish Government that 
this just simply--I have read some statements and they have 
been positive in terms of criticizing what they have done. But 
they are still there. And at some point, there has to be--this 
is another one of these elements of violating international 
norms and not having any real consequence, and the message you 
send globally is you can do that if you happen to be the 
stronger party.
    Secretary Kerry. And we have raised this issue. I have 
raised this issue. I met with the President of Cyprus--the 
Prime Minister, and we have had various conversations. It has 
been raised with Turkey. I do not know when but in the not too 
distant future, I think I am slated to head in that direction, 
and this would be one of the conversations, is how do we move 
on Cyprus more effectively.
    Senator Menendez. Well, I hope we can be vigorous about the 
part that if you want to get a negotiation for it, you cannot 
have your warships off the coast of the country. That is just 
not a way in which to get parties--and I must say I have 
followed this issue as well for a long time. This Cypriot 
Government is more advanced, more forward-leaning in trying to 
get to a negotiated settlement, but you cannot do it at the 
point of a gun in essence. And it creates a real problem to try 
to move forward. So I hope when you are in the region or an 
Assistant Secretary----
    Secretary Kerry. We have been doing it even outside the 
region. I had meetings in Munich on it. We had meetings prior 
to that. I had meetings in New York on it. We have met 
frequently with all the players. We have people deeply engaged. 
We have an ambassador to the talks who is deeply engaged in it. 
And it did get in a bad place partly because of this but other 
ingredients also. I have had conversations with the Turkish 
Foreign Minister about it previously. Now Prime Minister 
Davutoglu and I are working quite closely on it. My hope is we 
could get back to an equilibrium that would allow us to move 
forward. But we specifically discussed the economic zone, the 
ship presence, and the gas rights, and so forth.
    Senator Menendez. One final comment. On Cuba, I noticed 
your comment about what did not work for 50 years and how we 
can apply leverage. What also has not worked for 50 years is 
the leverage of the international community that was all 
engaged with Cuba, and the Castro regime has had more political 
prisoners, more beatings, more repression, and no openings 
whatsoever. So the Europeans, the Latin Americans, the 
Canadians, and others who have traded with Cuba, visited Cuba, 
done all of those things that we think are going to be the 
turning point did absolutely nothing to change the course of 
events there.
    I hope--and I understand that at the President's direction, 
you are conducting a review of Cuba on the State list of 
terrorist sponsors. So as Assistant Secretary Jacobson was 
before the committee at that hearing, she confirmed that the 
Castro regime continues to provide sanctuary to Joanne 
Chesimard, who is on the FBI's top 10 list of wanted 
terrorists. We also know that Basque terrorists from ETA are 
there. We also know that even while negotiations are being 
hosted by Cuba with the FARC, that the FARC continues to 
conduct terrorist organizations even as they are in the midst 
of negotiations inside of Colombia, and the Colombian 
Government pushes back on them. And we know that Cuba sent the 
most significant violation of U.N. Security Council resolutions 
on North Korea--sent Migs, missiles, and tons of other military 
equipment to North Korea in violation of those sanctions.
    So when you are looking at removing Cuba from the list of 
terrorists, I am going to look at the provision of the law that 
specifically comes from the Export Administration Act that 
defines the term ``repeatedly provided support for acts of 
international terrorism, to include the recurring use of any 
part of a territory of the country as a sanctuary for 
terrorists or terrorist organizations.'' And I will be looking 
forward to how you are going to meet that threshold to remove 
Cuba from the list.
    Secretary Kerry. That is all part of the analysis that has 
to be made.
    The Chairman. Mr. Secretary, thank you for being here. I 
want to raise just a couple of small issues relative to some of 
the bigger issues that you have been talking about, and I will 
do so briefly. I know we all have places to go.
    I know hundreds of American families have adopted young 
ones in the DRC. They have suspended the process of those 
children leaving. I know it is an incredibly difficult thing 
for us to deal with the government that is in place there. But 
I want to raise this at this meeting just so that your 
Department will continue to work with us and others to try to 
break that loose and to also get some kind of lever in place to 
cause the DRC to act appropriately. I know there is a note that 
has just been slid to you there. But the fact is that these are 
kids that are actually adopted today by U.S. families and yet 
they are unable to get them out. I do not know if you want to 
respond to that or not.
    Secretary Kerry. Well, I have raised it personally with 
President Kabila, and Russ Feingold raised it with him. We have 
not had a result yet, but we are mindful of it.
    The Chairman. Obviously, in comparison to some of the other 
issues we have discussed today, it is minor. It is everything, 
obviously, to the families who are involved, and I hope that 
you will continue to raise that issue.
    Secretary Kerry. We agree, and we raise these, let me tell 
you, with the Iranians whether it is Saeed Abedini or Hekmati 
or Levinson or Jason Rezaian. I mean, these names are all in 
the front of my head because we constantly raise people who 
have been held in one place or another. We do not always talk 
about the names publicly because sometimes that works to a 
disadvantage. But there are folks in Pakistan, places where we 
are highly focused on these situations. And it is a daily 
concern of the State Department.
    The Chairman. We appreciate your commitment to the 
authorization process, and I think that in many ways it can 
help you significantly in what you are doing to leverage 
efforts and get Congress far more bought into some of the 
issues you are talking about today. And yet, there is almost no 
knowledge of those activities because of the lack of 
involvement that has taken place. So I look forward to working 
with you on that.
    Secretary Kerry. Okay.
    The Chairman. I appreciate very much your comments 
regarding the modern slavery initiative, and Senator Menendez 
and I introduced legislation today that hopefully will move 
through the committee later this week and on to the Senate 
floor. And I know you are committed to the same.
    And I just want to close with this. I think there is a 
concern, and I know we are going to have a lot of testimony. I 
know there is a concern. We are going to have a lot of 
testimony over the next several weeks regarding Syria. There is 
a sense of a lack of commitment. You are not going to dispel 
that today. But I do hope as witnesses come forth they will be 
open and transparent about the things that are underway because 
today I think there is a sense that, in essence, we have a 
containment strategy, that we are, in essence, riding the clock 
out until this President leaves office.
    We have the same concerns right now in Ukraine where we 
lured them West. They gave up 1,240 nuclear weapons. Obviously, 
Russia would not be moving into their territory today had they 
not done that. And yet, together with them and with the U.K., 
we made comments about their territorial sovereignty, and yet 
those are being invaded. And it does appear that the 
administration is not committed to doing those things that are 
necessary to cause Ukraine to be able to at least defend 
itself. We were slow on intelligence. We are providing 
blankets. We are providing MRE's, but we are not providing some 
of the defensive lethal support that is necessary. Let me just 
finish.
    Secretary Kerry. We have provided some counterbattery 
radars and other kinds of things that are defensive. But, 
Senator, I understand the debate.
    The Chairman. So I just want to say where it takes us on 
Iran is there is a strong sense of a lack of commitment, of a 
not willing to hold the line. And so I hope that we as a 
committee are going to be able to move forward on legislation 
that allows us to see that, to cause us to force a process 
where you will submit what it is you are doing with Iran. I 
know you have been working on it very heavily. I know you must 
be proud of that effort. And in the event you come to a 
resolution with Iran, I do think it is important that it is 
submitted, that we have the opportunity to approve it prior to 
sanctions being lifted and the regime actually dissipating. And 
I think the role of Congress to make sure that they are 
continuing to adhere to it is important.
    So those are comments I would leave you with. We thank you 
for your service. I do not know of anybody who has worked 
harder to try to deal with the many crises that we have around 
the world. We thank you for your service here as a former 
chairman, and we wish you well.
    Secretary Kerry. Thank you, Mr. Chairman. It is good to be 
with you. Thank you.
    The Chairman. Members will have until close of business 
Thursday to submit questions.
    The committee is adjourned.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Responses of Secretary John F. Kerry to Questions 
                    Submitted by Senator Bob Corker

    Question #1. This request seeks to compensate for depleted 
carryover balances from previous budget years. Doesn't this practice of 
relying on carryover balances breed poor fiscal discipline? How do you 
know the true budget requirement for a particular year if there are 
always carryover balances to dip into?

    Answer. The FY 2016 budget request for the Department of State and 
USAID prioritizes resources to support the U.S. foreign policy and 
national security interests. In formulating the budget request many 
factors are considered to identify the appropriate request level, 
including carryover balances relative to the timing and level of annual 
appropriations. The funds requested in the FY 2016 request will be 
executed in the year appropriated if there are no delays in the budget 
process outlined in the Congressional Budget Act of 1974, as amended.

    Question #2. OCO seems to have taken the place of making difficult 
choices in the enduring budget. I do understand that Congress has been 
part of the problem, and I am working to reverse that trend in my new 
assignment on the Budget Committee. I also commend you for transferring 
some enduring requirements out of OCO in this request. But how are you 
preparing for the eventual end of OCO and what are you doing to 
identify the enduring requirements that remain in OCO and move them to 
the base budget?

    Answer. The administration will release a plan this year that 
describes which OCO costs should endure as the United States shifts 
from major combat operations, how the administration will budget for 
the uncertainty surrounding unforeseen future crises, and the 
implications for the base budgets of the Department of Defense, the 
Intelligence Community, and the Department of State/Other International 
Programs. This plan is still in development, and will include a 
strategy to transition enduring costs currently funded in the OCO 
budget to the base budget beginning in FY 2017 and ending by FY 2020. 
For a transition strategy to be viable, congressional support is vital. 
Any transition of enduring OCO to base could only work if the caps on 
discretionary spending were lifted so as not to jeopardize ongoing, 
enduring efforts.

    Question #3. The second Quadrennial Diplomacy and Development 
Review (QDDR) was supposed to be completed in fall 2014, and we now 
hear it is delayed until the spring. When can we expect it? How well, 
if at all, does this budget request reflect the strategic direction 
established in the forthcoming QDDR?

    Answer. The report is near completion and will be released this 
spring. The process for this QDDR has been informed by the reforms 
initiated by the first QDDR, by the 2014-2017 State Department/USAID 
Joint Strategic Plan, and by the 2015 National Security Strategy. We 
also appreciate thoughtful input from your committee staff, and from 
others on the Hill. The current budget request is aligned with the 
strategic priorities identified in the forthcoming QDDR, which advances 
a set of recommendations to bolster our capabilities to prevent and 
mitigate conflict and violent extremism; promote inclusive economic 
growth; advance open, resilient and democratic societies; and reduce 
and adapt to the effects of climate change. The QDDR also addresses 
areas for strengthening our internal operations, with a focus on 
innovation, knowledge management, and investing in our workforce. Our 
QDDR team looks forward to briefing you on the report at your 
convenience.

    Question #4. You have requested a 38-percent increase in U.S. 
Contributions for International Peacekeeping, compared to FY 2015. This 
is also a 66-percent increase compared to FY 2014. The request includes 
arrears and a higher U.N. assessment. What steps is the United States 
taking at the U.N. General Assembly's Fifth Committee to reduce the 
U.S. peacekeeping assessment and the broader U.N. peacekeeping budget?
    Your peacekeeping request includes an additional $150 million for 
the proposed Peace Operations Response Mechanism in OCO for ``off-
budget cycle needs.'' Given the billions of dollars we already spend on 
peacekeeping, why do you feel the need for this additional fund, 
especially since extensive transfer authority already exists? And with 
reference to question 2, what is the justification for proposing that 
such a fund exist outside of the enduring budget, when it appears to be 
conceived as an enduring solution to an enduring challenge--that of 
unanticipated peacekeeping needs?

    Answer. The request is $2.93 billion (based on the 2015 assessment 
rate of 28.36 percent), of which $2.55 billion would fund the U.S. 
share of U.N. peacekeeping assessments during FY 2016 for 14 ongoing 
U.N. peacekeeping missions, a war crimes tribunal, and logistical 
support for U.N. Support Office for the African Union Mission in 
Somalia (UNSOA), as well as the monitoring of mission effectiveness. An 
additional $380 million is included to partially cover projected FY 
2015 shortfalls.
    The Department recognizes that this request represents an increase 
of $811 million (or 38.2 percent) over the amount appropriated in the 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act, 2015 (``FY 2015 Act'') for the Contributions for 
International Peacekeeping Activities (CIPA) account. However, the FY 
2016 request is based on an assumption that our U.N. peacekeeping 
assessment will be about equal to the FY 2015 estimated requirements of 
$2.55 billion.
    Peacekeeping missions are critical tools to maintain international 
peace and security, and to advance U.S. interests around the world, 
including in Somalia, South Sudan, the Democratic Republic of the 
Congo, Mali, Lebanon, and Haiti. International peacekeeping efforts are 
cost-effective means for countries to work together toward the same 
ends, resolve conflicts, contribute to international stability, and 
mitigate humanitarian crises. We continue to regularly review missions 
to determine where we may be able to downsize, close, or transition 
them to a peace-building or other arrangement, as appropriate, as well 
as encourage the U.N. to further pursue cost saving measures and 
efficiencies.
    A priority of the administration is to seek favorable changes to 
U.N. regular budget and peacekeeping assessment rates, which the U.N. 
General Assembly will set later this year. We will seek to make the 
scales methodology fairer, so that emerging powers that have an 
increasing share of the global economy pay their fair share of the 
U.N.'s expenses. We also will seek to reduce discounts that relatively 
wealthy developing countries receive on their peacekeeping assessments, 
which have contributed to the recent increases in the U.S. peacekeeping 
assessment rate.
    Having the Peace Operations Resource Mechanism (Peace Ops 
Mechanism) account in Overseas Contingency Operations (OCO) will ensure 
funding is available to respond expeditiously to unforeseen 
requirements without the risk of endangering critical, ongoing, 
budgeted peacekeeping efforts or other national security priorities. 
Existing authorities are limited in scope and require that funding for 
new peacekeeping efforts come at the expense of existing peacekeeping 
efforts or other high priority programs funded by Congress--such trade-
offs are not in the long-term strategic interest of the United States. 
The Peace Ops Mechanism would provide funding for transfer to the 
Peacekeeping Operations (PKO) and CIPA accounts to meet urgent and 
unexpected global peacekeeping requirements. The account limits 
availability of funds to new or expanded peace operations or activities 
above the level recommended in the President's budget. Funding for 
these types of contingencies is appropriate for OCO, with funding 
regularized where necessary in future year CIPA and PKO budgets. 
Additionally, the use of Peace Ops Mechanism funds would be subject to 
congressional notification procedures and we plan to consult with 
Congress on the use of this mechanism.

    Question #5. The Asia Rebalance is supposed to prioritize 
political, economic and diplomatic initiatives in the Asia-Pacific. But 
yet again, the budget requests for regional operations and foreign aid 
do not reflect this reprioritization. How do you justify not 
reprioritizing funds toward the Asia Rebalance in this request?

    Answer. The rebalance is built on a simple premise: the Asia-
Pacific is integral to the United States growth, and the United States 
is necessary for peace and stability in the Asia-Pacific region. Over 
the last 6 years, we've established that the ``new normal'' of U.S. 
relations with the Asia-Pacific region is extensive collaboration with 
our Asian allies and partners on important global issues and a high 
tempo of sustained engagement by the President, me and my team, and 
other Cabinet, and senior officials.
    We have dedicated significant diplomatic, public diplomacy, 
military, and foreign assistance resources to the region in a way that 
is commensurate with the growing importance of the region to the United 
States. The President's FY 2016 budget provides $1.4 billion in support 
of the rebalance, which includes Diplomatic Engagement and Foreign 
Assistance funding, representing a $75.4 million (6 percent) increase 
over FY 2014.
    This is a landmark year for this administration and for the United 
States. In 2015, finalizing TPP is the most important way to advance 
the rebalance. That's why the President, the U.S. Trade Representative, 
and the rest of the administration, including me, have repeatedly 
called for movement on TPA, and we're hopeful for movement on this in 
Congress at the earliest possibility.

    Question #6. Can you please describe your plans to more fully 
integrate economic policy interests and decisionmaking throughout the 
Department, particularly within the regional bureaus and between the 
regional bureaus and the E family? How do we ensure that economic 
policy interests and concerns are prioritized?

    Answer. Since the beginning of my tenure, I have said ``foreign 
policy is economic policy'' and the Department has worked hard to make 
his vision a reality. This vision of fully integrating economic policy 
throughout the Department includes leveraging the work of the entire E 
family, which encompasses economic growth, energy, and the environment.
    Tight coordination among regional bureaus and the E family is 
essential for prioritizing economic policy interests and concerns 
across all of our diplomatic efforts. Regional bureaus help E family 
bureaus advance economic interests in specific countries, and the E 
family bureaus help regional bureaus address the economic, energy, and 
environmental concerns that matter to our bilateral, multilateral and 
regional relationships.
    In addition to regular coordination at the working level among 
regional bureaus and the E family, the Under Secretary for Economic 
Growth, Energy, and the Environment meets every other week with Deputy 
Assistant Secretary-level officials in each regional bureau who lead 
for their bureaus on economic issues. These meetings ensure that the 
economic and political sides of the Department are knitted up across an 
exceptionally wide range of economic, environmental and energy related 
issues.
    E family bureaus also have internal programs to coordinate planning 
and strategy with the regional bureaus at the working levels. For 
example, each E family bureau has designated teams of experts on 
particular regions to track events and plan economic, energy, and/or 
environmental policy efforts, meeting regularly with regional bureau 
counterparts to share information and ideas.
    The recently released Quadrennial Diplomacy and Development Review 
(QDDR) further institutionalizes E family/regional bureau cooperation. 
The QDDR (on page 40) formalizes the designation of a Deputy Assistant 
Secretary (DAS) in each regional bureau to lead on E family issues and 
notes, ``To facilitate coordination, each designated DAS will be 
expected to liaise regularly with the three ``E family'' assistant 
secretaries, while continuing to be supervised by the regional 
assistant secretary.''
    Another key part of my economic focus is the Shared Prosperity 
Agenda, led by Senior Advisor to the Secretary David Thorne. The Shared 
Prosperity Agenda includes several active working groups that seek to 
elevate and improve how we conduct economic diplomacy at the 
Department, including work on entrepreneurship, knowledge platforms, 
and human resources. These groups include representation from the E 
family and regional bureaus, and the Shared Prosperity Agenda is an 
important means of integrating economic diplomacy across the entire 
Department.

    Question #7. The State Department is negotiating with the member 
states of the U.N. Framework Convention on Climate Change toward a goal 
of reaching an agreement by the December Paris Conference of Parties 
meeting (COP/ 21). The Lima Ministerial Declaration from December 2014, 
which provides a work plan for the next 10 months of these 
negotiations, refers to a ``protocol, another legal instrument or an 
agreed outcome with legal force under the Convention.'' As you know, 
the State Department's regulations and practice require you to consult 
with the Senate regarding the form of ``significant international 
agreements.''
    A protocol is clearly a treaty but can you please explain what the 
Lima Declaration means by ``another legal instrument or an agreed 
outcome with legal force''? Will such an agreement be legally binding 
on the U.S.?
    If a legally binding agreement is reached at the COP/21 in 
December, will it be referred to the Senate as a treaty under the 
Constitution requiring the Senate's advice and consent, yes or no?

    Answer. The 2014 decision of the Parties to the Framework 
Convention on Climate Change, taken in Lima, Peru, recalls a 2011 
decision of the Parties adopted in Durban, South Africa. That decision 
launched a process to develop a ``protocol, another legal instrument, 
or an agreed outcome with legal force under the Convention applicable 
to all Parties . . . .''
    The Durban mandate makes clear that the Paris agreement is to 
further the objective of the Convention (i.e., to avoid dangerous 
anthropogenic interference with the climate), yet leaves the Parties 
with substantial flexibility regarding its form and the legal nature of 
its provisions. At this stage, the international discussions are more 
focused on the substance of the agreement than on whether it should be 
a protocol, etc., or whether particular provisions should be legally 
binding.
    The United States seeks an agreement that is ambitious in light of 
the climate challenge; that reflects nationally determined mitigation 
efforts in line with national circumstances and capabilities; that 
provides for accountability with respect to such efforts; that takes 
account of evolving emissions and economic trends; and that promotes 
adaptation by parties to climate impacts.
    It is not possible to say at this stage whether the Paris agreement 
will be referred to the Senate as a treaty under the Convention. The 
appropriate domestic form of the Paris outcome, whether a protocol, 
another legal instrument, or an agreed outcome with legal force, will 
depend upon several factors, including its specific provisions.
    The administration will continue to consult with the committee 
regarding the negotiations. As I testified during my confirmation 
hearing, any international agreement brought into force for the United 
States will be done so consistent with the United States Constitution.

    Question #8. Is the USG going to meet its commitment to full 
compliance with the International Aid Transparency Initiative by 
December? If not, which agencies/departments are lagging behind? What 
will the Secretary be doing to speed up progress?

    Answer. The USG takes its IATI commitments seriously and has been 
making efforts to improve IATI reporting and compliance. Although no 
agency will be fully compliant by December 2015 over 90 percent of U.S. 
foreign assistance is reported to the IATI standard.
    Each USG agency that implements or funds foreign assistance is 
responsible for reporting qualitative and quantitative information 
about its programs to Foreign 
Assistance.gov (FA.gov) in accordance with OMB Bulletin 12-01 which 
incorporates the main elements of the IATI standard.
    All data reported to FA.gov is converted into and published in the 
IATI format. Reporting to FA.gov is the responsibility of each agency. 
Ten agencies are currently reporting some data to FA.gov, but at 
varying degrees of completeness and comprehensiveness. Under the 
Secretary's leadership, agencies are working toward better reporting. 
State, MCC and USAID, which constitute the bulk of U.S. Government 
foreign assistance, are all taking concrete steps to improve reporting. 
Others will be further behind, especially those agencies whose foreign 
assistance activities are only a small percentage of the agencies' 
portfolios, which are primarily domestic.

    Question #9. How will the Secretary ensure that the evaluations now 
being conducted under the International Aid Transparency Initiative 
will (a) be scientifically rigorous and of good quality; (b) be made 
public in their entirety, and not just their summaries; and (c) be used 
to guide decisionmaking?

    Answer. In November 2011, the U.S. became a signatory to the 
International Aid Transparency Initiative (IATI). As a voluntary, 
multistakeholder initiative that includes donors, partner countries, 
and civil society organizations whose aim is to promote a single global 
transparency standard and format to enable comparability of foreign 
assistance data, IATI is a common, open standard for the timely 
reporting of aid information. It does not create or suggest standards 
for evaluations. The U.S. published its IATI Implementation Schedule 
and the first set of IATI-formatted data in December 2012 on 
ForeignAssistance.gov. We continue to collect, format and publish data 
to meet our commitments under IATI through ForeignAssistance.gov. 
Evaluations are not conducted under IATI, but reported in a specified 
format agreed to by the signatories.
    (a) Regarding scientifically rigorous, good quality evaluations, 
both State and USAID have evaluation policies, USAID since 2011 and 
State since 2012. These policies set forth accepted standards and best 
practices for evaluation. Both policies emphasize that evaluations must 
use methods that generate the highest quality and most credible 
evidence that corresponds to the questions being asked, given time, 
budget and other practical considerations.
    (b) USAID publishes its evaluations in their entirety on the 
Development Experience Clearinghouse (DEC). State's policy requires 
every evaluation funded with foreign assistance that are not already 
available through other public Web sites, such as the DEC, to have a 
summary containing the elements listed in the bill to be made available 
for public posting on http://www.state.gov/f/evaluations/index.htm. 
This site is searchable by title, sector, bureau or region, and year 
published. A number of State bureaus were already posting full 
evaluation reports on their public Web sites. They will continue to do 
so. Those that were not posting full evaluations are now required to 
make summaries available.
    (c) State and USAID both have annual planning, budgeting and 
performance management cycles that use monitoring and evaluation 
results to inform decisionmaking. Bureaus and missions that have 
performed evaluations are also using them effectively to make 
improvements, plan program adjustments, and inform future program 
design.

    Question #10. According to U.S. and Azerbaijani NGOs, there are 
approximately 100 hundred political prisoners in Azerbaijan. How does 
the budget reflect our support for democracy and human rights activists 
at a time when the government is intensifying its crackdown on civil 
society?

    Answer. The United States is working with nongovernmental 
organizations to strengthen their ability to advocate for citizen 
interests, safeguard civil and political rights, and increase public 
participation in governance, especially at the regional level. The 
United States is assisting independent media to increase citizens' 
access to objective information, including through the use of web-based 
and mobile device news platforms. The funding level for programs that 
support democratic reforms and help improve the environment in which 
civil society can operate currently accounts for just over 40 percent 
of the FY 2014 State/USAID bilateral assistance budget for Azerbaijan, 
more than any other sector. The President's FY 2016 Request includes 
5.4 million for democracy programs, which is approximately 47 percent 
of the total request for Azerbaijan.

    Question #11. USAID has been funding a contract to clear areas of 
Nagorno-Karabakh from World War II era mines. What is the status of the 
demining program? Will the demining contract associated with this 
program be extended beyond 2016?

    Answer. The demining program has cleared nearly 27,500 hectares of 
the active mine fields within the Soviet-era boundary. It is estimated 
that 95 percent of antipersonnel and antitank mines have been cleared. 
While no decision has yet been made about specific funding beyond FY 
2016, USAID remains committed to providing humanitarian assistance to 
the people of Nagorno-Karabahk.
                                 ______
                                 

           Responses of Secretary John F. Kerry to Questions 
                  Submitted by Senator Robert Menendez

    Question. Some have compared the Obama administration's policy 
toward Iran as an attempt to duplicate U.S. efforts in the early 1970s 
to open up China.

  <diamond> Is a nuclear deal a first step in a reorientation of our 
        policies in the Middle East away from combating and containing 
        Iranian influence?

    Answer. Our negotiations with Iran are solely focused on Iran's 
nuclear program. We remain extremely concerned about Iran's support for 
terrorism, threats against our friends and partners, and violations of 
human rights. Even if we do reach a nuclear deal with Iran, we will not 
turn a blind eye to Iran's destabilizing activities and human rights 
abuses. As the President said after the Joint Plan of Action was 
signed, ``As we go forward, the resolve of the United States will 
remain firm, as will our commitment to our friends and allies--
particularly Israel and our gulf allies, who have good reason to be 
skeptical about Iran's intentions.''

    Question. Iranians already prioritizes funding for armed proxy 
groups which are destabilizing governments from Bahrain to Yemen to 
Lebanon. The Iranians are also directly funding and militarily backing 
the brutal dictatorship of Beshar Assad in Syria. Sanctions relief and 
improvements in Iran's economy associated with a nuclear deal will 
increase Iran's ability to fund terrorism and violence.

  <diamond> What actions can we take to counter an economically 
        empowered Iran's destabilizing and malign activities across the 
        region?

    Answer. Iran's destabilizing activities in the region are a top 
concern of the administration. An Iran with a nuclear weapon would make 
this aggressive behavior even more concerning. This is why the 
administration believes the first step is to prevent Iran from 
developing a nuclear weapon.
    Our ongoing efforts to combat Iran's destabilizing and malign 
activities across the region fall in the following broad categories:

  <bullet> First, we continue to improve our ability to defend against 
        any attacks by Iran or its proxies;
  <bullet> Second, we continue to restrict Iran's ability to move money 
        and material for illicit purposes;
  <bullet> Third, we remain committed to Israel's security and that of 
        our other regional allies and we continue to build up partners' 
        capacity to defend themselves against Iranian aggression;
  <bullet> Fourth, we are working unilaterally and with allies to 
        weaken Hezbollah's financial networks;
  <bullet> Finally, we publicize Iran's meddling wherever we can.

    Question. Anti-ISIL Coalition.--The military campaign against ISIL 
in Iraq has met with some promising success: ISIL's advance has been 
halted, in many places ISIL is in retreat, and in other places it is 
struggling to maintain the territory it holds. We also are hearing 
reports that ISIL's brutality and failure to govern has caused friction 
with communities in Iraq and Syria, opening the aperture for the United 
States and its coalition partners to peel away local support empower a 
moderate middle, and set the conditions for ISIL's defeat. However, 
there is a risk of catastrophic success--that the timeline for ISIL's 
defeat will outpace reconciliation efforts and before moderates are 
effectively empowered. Iraq's Prime Minister Abadi is saying the right 
things on reconciliation with Iraq's Sunni community, but there are 
powerful forces aligned against him from Iran to Shia politicians and 
militias to former Prime Minister Maliki who want reconciliation to 
fail.

  <diamond> (a) What can we do to accelerate and build support for a 
        program of national reconciliation in Iraq?

    Answer (a). Addressing the root causes of this conflict and 
supporting the GOI's effort to promote national reconciliation will be 
the only effective method to cement again battlefield gains against 
ISIL. As the President has stressed, this battle cannot be won by the 
military alone. Our Ambassador in Baghdad engages regularly with the 
senior-most officials in the Iraqi Government on these issues and 
regularly highlights national reconciliation as a precursor to long-
term stability in Iraq.
    We have seen Prime Minister Abadi's government make significant 
strides in improving governance as outlined in Iraq's National Program 
for reform and reconciliation and we continue to hold the Prime 
Minister accountable to the timelines his government set for reform. 
Through a combined strategy of steady diplomatic engagement, civil 
society and democracy promotion--which relies heavily on our foreign 
assistance programs--and prioritizing inclusion of Sunnis, Kurds, Shia, 
and minorities in the military offensive, we are building 
reconciliation into our entire counter-ISIL strategy.
    On February 3, Iraq's Council of Ministers approved two key pieces 
of draft reform legislation with significant implications for national 
reconciliation currently being reviewed by Parliament:
          1. A revision of the country's de-Baathification law; and
          2. A restructuring of Iraq's Security Forces (ISF) to 
        integrate local-community volunteers, including Sunni tribal 
        fighters, into provincially based ``National Guard'' (NG) 
        units.
The GOI has sought our assistance in developing the National Guard 
concept and our policy and military advisors continue to play an active 
role in helping the Iraqis to develop their security infrastructure in 
a manner which would facilitate the inclusion of all religious and 
ethnic groups into the counter-ISIL campaign. We also continue to meet 
with Iraqi leaders and tribal sheikhs to ensure that all parties have a 
seat at the table. A senior delegation of Sunni Sheikhs from Anbar 
province traveled to the United States just weeks ago, meeting with 
Vice President Biden and senior officials at the Department of State 
and the Department of Defense and we stressed the importance of all 
groups working in coordination on the counter-ISIL strategy.
    On February 10, Iraqi President Massum, a Kurd, signed Iraq's new 
budget law that included an important agreement on energy exports and 
revenue-sharing between the central government and Kurdistan Regional 
Government (KRG). The Department played a significant role in brokering 
the agreement between the central government and the KRG officials to 
reach the deal and continues to serve as a key interlocutor on 
reconciliation matters between both parties. Our commitment to Iraq's 
national unity has helped foster better coordination between the KRG 
and central government on the current military campaign against ISIL 
through joint planning sessions, effective transfers of military 
assistance, and shared intelligence; it is critical that we continue to 
work through the central government to further build this trust.
    Additionally, Prime Minister Abadi has issued a number of Executive 
orders to initiate other critical reforms, such as devolving authority 
over certain public services to local communities and expediting the 
release of prisoners held without charge--a key concern of the Sunni 
community, to the extent possible within his constitutional authority 
as Prime Minster. As part of our strategy, we continue to work 
aggressively to pressure the GOI to enact further reforms to unify 
Iraqis and promote human rights and the rule of law. The State 
Department's Bureau for Democracy, Human Rights, and Labor (DRL), 
Embassy Baghdad through the Ambassador's Fund, and USAID continue to 
carry out targeted interventions to promote reconciliation, the 
protection of minority communities, and respect for human rights. 
Notably, we are targeting over $10 million in FY 2014 DRL funding for 
programs which include activities to address human rights and rule of 
law as well as atrocities prevention and accountability issues--key 
areas for building reconciliation.

  <diamond> (b) In Syria, we need programs and policies that seek to 
        reach those who reject ISIL and empower them as a moderate 
        alternative in an eventual, post-Assad Syria. Do you agree and 
        if so, what more should we be doing to reach these communities 
        immediately?

    Answer (b). We wholeheartedly agree. The United States continues to 
support the Syrian people's aspirations for an inclusive, 
representative, and unified Syria free of terrorism and violence, and 
the extremist groups that promote it. The United States is seeking a 
negotiated political solution to the Syria crisis that brings Syrians 
together to support the center against the extremes of terrorism or 
dictatorship. Assad cannot be a part of that solution. The United 
States continues to support the moderate Syrian opposition, including 
the Syrian Opposition Coalition (SOC)--which the United States 
recognizes as a legitimate representative of the Syrian people.
    We are increasing our support to the moderate opposition to counter 
the threat posed by the Islamic State in Iraq and the Levant (ISIL) and 
other extremists, as well as to enhance the capacity of the moderate 
opposition to establish the conditions for a political solution to this 
conflict. To date, the United States has committed more than $330 
million in transition and nonlethal assistance to the Syrian 
opposition. This assistance includes support to the Syrian Opposition 
Coalition (SOC), including its interim governance structures, as well 
as local and provincial councils, civil society organizations and local 
security actors. U.S. assistance also include nonlethal support to 
vetted units of the moderate, armed opposition to help enhance their 
operational capabilities as they seek to protect their communities 
against the regime and extremist groups. Examples of assistance in 
Syria that counters ISIL and empowers moderate voices include:

  <bullet> Support for independent media through the training of 
        journalists and operational support for nine radio stations, 
        two satellite TV stations, and one media production studio 
        countering regime and extremist narratives and promoting free 
        speech.
  <bullet> Providing civil society actors, community and religious 
        leaders, women's networks, youth groups with advocacy, conflict 
        management and prevention tools to prevent sectarian violence 
        and foster reconciliation. U.S. programs work to mediate local 
        conflicts and equip members of communities to advance respect 
        for freedom of religion or belief and other civil and political 
        rights and promote an environment free from violence all to 
        prevent sectarian strife.
  <bullet> Assistance to Syrian governance structures and civil society 
        organizations at the national, provincial, and local levels. 
        This assistance connects moderate civilian opposition groups to 
        each other and to the citizens that they represent. These 
        activities include support to provide essential services and 
        robust outreach components to amplify the efforts of these 
        moderate governing bodies delivering assistance, to increase 
        their recognition and boost their legitimacy. Assistance to 
        dozens of local councils has resulted in the development of a 
        small network of provincial councils now functioning in Aleppo, 
        Idlib, and Hama governorates. U.S. assistance also includes the 
        provision of civil defense equipment that has contributed to 
        civil defense teams' ability to save over 12,000 lives. Civil 
        defense teams act as emergency responders to everything from 
        indiscriminate regime barrel bombings to winter storm relief 
        and firefighting. Education assistance has allowed moderate 
        civilian bodies to provide more than 55,000 backpacks filled 
        with supplies to students along with office and recreational 
        equipment for 73 schools. We have also provided food baskets, 
        winterization materials, and heavy equipment as a means to 
        demonstrate moderate civil authorities' governance capacity.

    In early Spring the Department of Defense plans to begin its train 
and equip (T&E) program for vetted members of the Syrian armed 
opposition to defend themselves and other Syrians from attacks, to 
prevent ISIL advances, to stabilize and strengthen secure opposition-
held areas of Syria, to provide protection for the Syrian people and to 
advance conditions for a political solution. Department of State and 
USAID assistance programs will complement the DOD T&E program by 
helping build a civilian structure into which the DOD-trained forces 
can integrate. The T&E program will encourage civilian-military 
cooperation and teaching armed actors how to interact constructively 
with and in support of civilian governance bodies. This will increase 
the likelihood that moderate civilian actors will be able to provide 
services to their constituents, preventing the return of extremist 
forces, and that newly trained forces will operate under civilian 
leadership.

    Question. Last year security conditions compelled us to suspend 
Embassy operations in Libya, this year we did the same in Yemen. In 
Tunisia, Egypt, and Bahrain our Embassies operate every day at a 
reduced level. In Iraq and Lebanon our diplomatic teams work under 
stringent security requirements without the opportunity to bring their 
families with them to their assigned posts. This trend demands that we 
take a step back and take a hard look at political and security 
developments over the past several years, and how we engage with the 
governments and people of the region going forward.

  <diamond> Four years after the Arab Spring, what trends do you see 
        across the region? How do we continue U.S. engagement in a 
        region that is increasingly unsafe for our diplomats, 
        development experts, and nongovernment organizations?

    Answer. The tremendous instability we see across the MENA region 
today has been a consequence of the widespread anger among the region's 
people at governments that have proven unable to meet popular 
aspirations for democracy and economic development. The inaction by 
sclerotic and corrupt governments and economies that produced few jobs 
and little confidence in opportunities for the future. The rapid 
decline in the security environment that has ensued as grievances--new 
and old--have opened across the region has presented serious challenges 
for our diplomatic engagement. Regrettably, countries throughout the 
Middle East will be struggling to face security challenges for the 
foreseeable future. Yet because our vital national security interests 
are at stake in the Middle East, American engagement and leadership 
will continue to be foreign policy priority.
    We have been working both bilaterally and multilaterally to extend 
a range of security, economic, and governance institution-building 
programs to governments in transition. And we remain ready to work with 
those governments that are willing to tackle these challenges.
    Despite the challenges to diplomatic engagement in the region, the 
Department has, and will continue, to find ways to advance U.S. 
interests. First, the Department has refined its process to assess and 
manage risk and to determine appropriate staffing by balancing threats, 
mitigating measures, and program implementation. This is not easy. But 
we must continue to weigh our national security interests and policy 
priorities against evolving security threats. In countries like Iraq, 
Lebanon, Tunisia, and Egypt, we are constantly mindful of security 
concerns for our personnel. We are continually assessing threats, and 
have taken a variety of security measures to allow our personnel to 
continue their important work on the ground while avoiding unnecessary 
risks. Nevertheless our diplomatic personnel fully understand the 
importance of our work to protecting U.S. national security--it is an 
assignment nearly everyone in the Near Eastern Affairs Bureau has taken 
on at one time or another. Our country can take great pride in their 
commitment to advancing U.S. foreign policy, sometimes in conditions of 
considerable risk.
    We also continue to advance our interests to bring stability in the 
region by working closely with our bilateral, regional, and 
international partners--this is especially true for countries where the 
security environment restricts or prohibits normal engagement work. By 
cooperating with our partners throughout the region, we strengthen our 
engagement strategy, achieve stronger results, and are able to better 
advance our interests.
    We have also learned to be more flexible in how we conduct 
diplomacy in the region. For example, our Ambassadors to Libya and 
Yemen are forward deployed in close proximity to both countries to 
continue engagement with key players and to shape productive outcomes 
to the ongoing conflicts there. We remain strongly committed to Yemen's 
democratic political transition. However Yemen's political actors, 
especially the Houthis, must commit to inclusivity, to negotiations 
without preconditions, and to a peaceful transition consistent with the 
Gulf Cooperation Council Initiative, National Dialogue Conference 
Outcomes, UNSC Resolutions, and Yemeni law. We continue to work with 
our regional and international partners to press all sides in Yemen to 
put the country back on the path to a peaceful transition.
    Regarding Syria, we suspended operations in 2012 due to security 
concerns as a result of the civil war. Nonetheless, our Special Envoy 
for Syria, Daniel Rubinstein, is actively engaged in diplomacy with a 
wide range of Syrian opposition actors, the members of the London 11, 
the United Nations Special Envoy Staffan de Mistura and others.

    Question. Prime Minister Abadi is saying the right things on 
reconciliation with Iraq's Sunni community, but there are powerful 
forces aligned against him from Iran to Shia politicians and militias 
to former Prime Minister Maliki who want reconciliation to fail.

  <diamond> (a) What specific policies, actions, and programs are you 
        considering to accelerate and build support for a program of 
        national reconciliation in Iraq?

    Answer (a). Addressing the root causes of this conflict and 
supporting the GOI's effort to promote national reconciliation will be 
the only effective method to cement again battlefield gains against 
ISIL. As the President has stressed, this battle cannot be won by the 
military alone. Our Ambassador in Baghdad engages regularly with the 
senior-most officials in the Iraqi Government on these issues and 
regularly highlights national reconciliation as a precursor to long-
term stability in Iraq.
    We have seen Prime Minister Abadi's government make significant 
strides in improving governance as outlined in Iraq's National Program 
for reform and reconciliation and we continue to hold the Prime 
Minister accountable to the timelines his government set for reform. 
Through a combined strategy of steady diplomatic engagement, civil 
society and democracy promotion--which relies heavily on our foreign 
assistance programs--and prioritizing inclusion of Sunnis, Kurds, Shia, 
and minorities in the military offensive, we are building 
reconciliation into our entire counter-ISIL strategy.
    On February 3, Iraq's Council of Ministers approved two key pieces 
of draft reform legislation with significant implications for national 
reconciliation currently being reviewed by Parliament:
          1. A revision of the country's de-Baathification law; and
          2. A restructuring of Iraq's Security Forces (ISF) to 
        integrate local-community volunteers, including Sunni tribal 
        fighters, into provincially based ``National Guard'' (NG) 
        units.
The GOI has sought our assistance in developing the National Guard 
concept and our policy and military advisors continue to play an active 
role in helping the Iraqis to develop their security infrastructure in 
a manner which would facilitate the inclusion of all religious and 
ethnic groups into the counter-ISIL campaign. We also continue to meet 
with Iraqi leaders and tribal sheikhs to ensure that all parties have a 
seat at the table. A senior delegation of Sunni Sheikhs from Anbar 
province traveled to the United States just weeks ago, meeting with 
Vice President Biden and senior officials at the Department of State 
and the Department of Defense and we stressed the importance of all 
groups working in coordination on the counter-ISIL strategy.
    On February 10, Iraqi President Massum, a Kurd, signed Iraq's new 
budget law that included an important agreement on energy exports and 
revenue-sharing between the central government and Kurdistan Regional 
Government (KRG). The Department played a significant role in brokering 
the agreement between the central government and the KRG officials to 
reach the deal and continues to serve as a key interlocutor on 
reconciliation matters between both parties. Our commitment to Iraq's 
national unity has helped foster better coordination between the KRG 
and central government on the current military campaign against ISIL 
through joint planning sessions, effective transfers of military 
assistance, and shared intelligence; it is critical that we continue to 
work through the central government to further build this trust.
    Additionally, Prime Minister Abadi has issued a number of Executive 
orders to initiate other critical reforms, such as devolving authority 
over certain public services to local communities and expediting the 
release of prisoners held without charge--a key concern of the Sunni 
community, to the extent possible within his constitutional authority 
as Prime Minster. As part of our strategy, we continue to work 
aggressively to pressure the GOI to enact further reforms to unify 
Iraqis and promote human rights and the rule of law. The State 
Department's Bureau for Democracy, Human Rights, and Labor (DRL), 
Embassy Baghdad through the Ambassador's Fund, and USAID continue to 
carry out targeted interventions to promote reconciliation, the 
protection of minority communities, and respect for human rights. 
Notably, we are targeting over $10 million in FY 2014 DRL funding for 
programs which include activities to address human rights and rule of 
law as well as atrocities prevention and accountability issues--key 
areas for building reconciliation.

  <diamond> (b) Human Rights Watch reports that Shia militias, allied 
        with Iraqi Security Forces, are inflaming sectarian tensions 
        and committing abuses against local populations. On December 
        17, the Wall Street Journal and other media reported that 
        militias were carrying out evictions, disappearances, and 
        killings in the Baghdad Belt after conducting military 
        operations against ISIL. What ground truth can you share about 
        the activities of Iraqi Shia militias? Has the U.S. Government, 
        at any point in the past year, received credible and accurate 
        evidence that U.S. military equipment provided to the Iraqi 
        Security Forces has been transferred to militias, or groups or 
        individuals outside the command of the Iraqi security force? If 
        so, what actions were taken in response to these developments?

    Answer (b). We share your concern about human rights abuses 
committed by the Shia militias and unregulated armed groups. However, 
Shia volunteers have been an important element of the fighting force 
against ISIL inside Iraq. Many of these volunteer forces formed last 
summer when Baghdad and other major cities were under an imminent 
threat from ISIL. We have heard reports that militias and other groups 
have razed civilian homes, conducted extrajudicial killings, and in 
some cases prevented the return of civilians to their communities. Such 
abuses are intolerable, threaten any gains made against ISIL, and will 
have a significant impact on post-conflict stabilization.
    We have stressed to the Government of Iraq, at all levels, the need 
for the militias to fall under the command and control of the Iraqi 
Security Forces. Prime Minister Abadi has stated that he has a zero 
tolerance policy of human rights abuses, perpetrators must be held 
accountable, and all armed groups and militias should be incorporated 
under state security structures. PM Abadi has launched several high-
level investigations into allegations of abuse. Grand Ayatollah 
Sistani, Iraq's senior-most Shia cleric, has also supported the Prime 
Minister's efforts by issuing repeated calls and religious edicts 
prohibiting such human rights abuses and sectarian violence.
    We have no credible information to indicate that the GOI has 
officially transferred U.S. military equipment to individuals outside 
the command of the Iraqi Security Forces. We take end use monitoring of 
all U.S.-provided equipment seriously. Our Office of Security 
Cooperation (OSC) works closely with senior Iraqi Ministry of Defense 
leadership to stress the importance of responsible use and stringent 
management of all weapons systems, and the Government of Iraq continues 
to strengthen its relevant security procedures. The OSC regularly 
conducts inspections on U.S.-provided systems already fielded in Iraq. 
We also continue to clearly and consistently communicate to the Iraqi 
leadership that any violations of any end-use agreement will have 
serious repercussions that will negatively affect not only our security 
cooperation, but our relationship, as well.
    We have urged Iraqi forces to avoid and prevent abuses of human 
rights, both because it is the moral thing to do, but also because 
abusive tactics will fuel sectarian fears and promote sectarian 
divides.

  <diamond> (c) Planning for the offense to retake Mosul is underway, 
        and, according to Defense officials, could begin as early as 
        May. Is the training we're providing in Iraq with coalition 
        partners appropriate for the heavily urban environment of 
        Mosul? Will Iraqi Shia militias participate in the Mosul 
        offensive? Will Sunni tribal fighters? What are the 
        implications for the broader anti-ISIL fight if the Iraqi and 
        Kurdish security forces lose the battle for Mosul?

    Answer (c). Ongoing coalition training efforts, to include Advise 
and Assist and Building Partner Capacity, is intended to generate an 
Iraqi security force ready to face the challenges of defeating ISIL, 
and restore Iraqi sovereignty. Along with our coalition partners, we 
are currently focused on getting these forces adequately trained and 
equipped for this mission. This training is not only critical in the 
short term, but also to generate an Iraqi Security Forces that are 
sustainable beyond our direct military engagements.
    We defer to DOD and the Government of Iraq for any details on Mosul 
operational planning, to include the potential composition of the 
force.
    The inability of the Iraqi Security Forces (ISF) to retake Mosul 
could negatively impact military morale, undercut PM Abadi's ability to 
successfully command his forces, and could potentially damage the 
coalition's cohesion. This underscores the importance that any action 
on Mosul must be deliberately planned and the execution well-
coordinated, only when the Iraqis are adequately prepared. Regardless 
of timing, our shared goal is clear: the defeat of ISIL and ensuring 
that ISIL can no longer pose a threat to the people of Iraq and to 
other countries in the region.

  <diamond> (d) I remain extremely concerned about the safety of the 
        residents of Camp Liberty. Ultimately, the safest place for 
        them is outside Iraq. What is the current condition of Camp 
        Liberty? When was the last time a U.S. official visited the 
        camp and inspected conditions? When will the resettlement 
        process resume and where would the residents be resettled? How 
        many residents are eligible to be resettled in the United 
        States?

    Answer (d). The relocation of the remaining 2,474 residents of Camp 
Hurriya outside of Iraq is a priority for the State Department and the 
Obama administration. On January 23, the Department of Homeland 
Security authorized 15 residents for parole into the United States, 
adding to two residents already paroled into the United States. The 15 
authorized candidates received their travel documents February 25 and 
are expected to have arrived in the United States by March 25. An 
interagency team has recently completed a deployment to Albania to 
interview the next group of candidates. The interagency process is on 
track to identify and vet additional candidates and to meet the 
administration's target of at least 100 individuals by September 2015.
    To date, 13 countries have accepted Camp Hurriya residents for 
resettlement. Albania has accepted 476 residents and has signaled 
willingness to accept more. Albania has also offered to allow countries 
to interview Camp Hurriya residents who have already been relocated to 
Albania for relocation elsewhere, substantially reducing the cost and 
logistical challenges for third countries associated with identifying 
candidates for relocation. Albania has offered to replace any residents 
who move on to a third country with new residents from Camp Hurriya. 
State Department Senior Advisor for MeK Resettlement Jonathan Winer is 
actively engaging the international community to accept Camp Hurriya 
residents. While countries that have already accepted some residents 
are logical possibilities for additional relocations, the State 
Department performed a strategic review in February to identify new 
options for resettlement and has begun the process of negotiating with 
those countries.
    U.N. monitors make daily visits to Camp Hurriya to inspect the 
facility and provide reports on those visits for the State Department. 
The monitors regularly observe the camp's stocks of supplies including 
food, water, fuel, and other essential items. The monitors consistently 
report that the camp is abundantly supplied with fresh food, potable 
water, fuel for generators and vehicles, and other supplies. The 
monitors regularly observe the Camp's medical and dental clinic and 
consistently report that Camp Hurriya residents have sufficient access 
to basic and specialized care.
    State Department personnel most recently visited Camp Hurriya on 
March 9 to assess the welfare of the camp. The observations made during 
the unannounced visit regarding supply stocks and access to medical 
care were consistent with U.N. daily reporting. State Department 
personnel are in regular contact with representatives of the Camp 
Hurriya residents and held discussions with them during the March 9 
visit. When appropriate, U.S. Embassy Baghdad conveys concerns over 
issues related to Camp Hurriya to senior leaders in the Government of 
Iraq.

    Question. What are the biggest risks facing Tunisia's democratic 
transition? How would the administration's increased request for 
Tunisia support that country in overcoming those risks?

    Answer. The Department's assistance seeks to support Tunisia's 
successful democratic transition by helping it build a participatory 
and pluralistic society supported by a growing economy, responsive 
government, and capable security services. Economic and security 
challenges pose the greatest risks to Tunisia's stability in the coming 
years and, if not addressed, could undermine the country's hard won 
democratic gains. Long-standing economic grievances and stagnation that 
sparked the 2011 revolution remain drivers of radicalization and 
widespread public frustration. The Department's increased foreign 
assistance seeks to fund programs that will complement and build on 
work we and other donors have done to address a range of economic 
challenges in Tunisia, programs which aimed to improve economic 
competitiveness, make better use of Tunisia's existing trade 
preferences, and promote legal and regulatory reforms needed to bolster 
foreign investment by improving Tunisia's business environment. We need 
to continue our work on expanding SME participation in public 
procurement, liberalizing and expanding franchising, as well as working 
with the Tunisian Government to promote more streamlined and consistent 
company registration laws. Our programs also seek to continue our 
sucessful demand-driven job training targeting Tunisian youth, whose 
unemployment rate (30 percent) is double the national average, and 
expand successful job creation models. Assistance programs will also 
sustain efforts to develop Tunisian democratic institutions at national 
and local levels, which will be key to continued stability by creating 
mechanisms for greater transparency, accountability, social inclusion, 
and citizen participation.
    Our requested increase in Foreign Military Financing in FY 2016 
will assist the country in reorienting its military forces to face a 
growing terrorist threat both within Tunisia and along its borders. 
These funds will bolster Tunisian security forces' capacity to 
effectively monitor Tunisia's borders, combat terrorism, and prevent 
the travel of foreign fighters. We also aim to improve the technical 
capacity and professionalism of the criminal justice system by 
improving crime scene investigations and criminal intelligence 
analysis, court administration, community relations, and crisis 
response.

    Question. How long will the United States support the U.N. process 
in Libya and what options are available if this process hits a dead 
end? What tools are you considering, including sanctions, to compel 
parties to participate in the political dialogue?

    Answer. The United States Government continues to support the 
efforts of the United Nations and Special Representative of the 
Secretary General Bernardino Leon strongly to facilitate formation of a 
national unity government in Libya and bring a political solution to 
the ongoing political, security, and institutional crisis in the 
country. The United Nations-led process provides the best hope for 
Libyans to return to building the strong and representative state 
institutions that can most effectively address the terrorist threat and 
to confront all violence and instability that impedes Libya's political 
transition and development.
    The United States urges all parties to come to the table to engage 
in constructive national dialogue. Those who choose not to participate 
are excluding themselves from discussions which are critical to 
combating terrorism as well as to the overall peace, stability, and 
security of Libya. At the same time, the United States is exploring a 
range of other options, including targeted sanctions under UNSCR 2174, 
to deter spoilers and encourage participation in the U.N.-led process 
from a broad spectrum of Libyan society.

    Question. Some Arab countries, including Egypt and Jordan, are 
calling for lifting the U.N. arms embargo on Libya. What impact should 
we expect to see on the ground in Libya if the arms embargo were to be 
lifted?

    Answer. The United States is concerned by the illicit flow of 
weapons in and out of Libya and continues to support implementation of 
the existing arms embargo to prevent illicit arms transfers. The 
existing U.N. arms embargo is not a ban on weapons transfers to the 
Libyan Government; rather, it allows the Security Council to guard 
against risks that weapons may be diverted to nonstate actors. We are 
engaged with our Council colleagues in looking at how to ensure that 
the existing U.N. sanctions regime can address concerns about the 
threat posed by unsecured arms and ammunition in Libya and their 
proliferation, which poses a risk to stability in Libya and the region, 
including through transfer to nonstate actors and terrorist groups in 
Libya, and best support the U.N.'s efforts to facilitate a political 
solution.

    Question. General Khalifa Heftar was named Chief of the Libyan Army 
by the Tobruk-based House of Representatives. Currently, U.S. 
assistance to build a Libyan General Purpose Force is on hold. How 
might General Heftar's new position factor into decisionmaking with 
respect to the disposition of U.S. assistance for the General Purpose 
Force?

    Answer. While the United States remains committed to training 
Libyan security forces, our GPF training program is necessarily being 
delayed as we reevaluate how to effectively work with the Libyans to 
advance this effort in light of the current situation on the ground. 
This delay predates the House of Representatives' decision to appoint 
Khalifa Hifter as General Commander of its armed forces.

    Question. The U.N. has brokered a ``People's Transitional Council'' 
to prevent Yemen from sliding into civil war and Yemeni President Abd 
Rabuh Mansour Hadi has escaped his house arrest under the Houthis and 
rescinded his resignation. The State Department has said on several 
occasions that it considers Hadi to be Yemen's legitimate president.

  <diamond> Is this still the case? If so, how will the U.S. Government 
        support him going forward?

    Answer. We still consider President Hadi to be Yemen's legitimate 
leader. The initial agreement on the formation of a transitional 
council is only one element within a broader political agreement that 
is still being negotiated by all Yemeni parties, under the auspices of 
the United Nations. We support these ongoing U.N.-mediated negotiations 
consistent with the Gulf Cooperation Council Initiative and the 
National Dialogue Conference Outcomes as the best way to solve the 
current crisis peacefully and return Yemen to its political transition.
    Although Embassy Sana'a's operations were suspended on February 10, 
our Ambassador to Yemen, Matthew Tueller, has since met with Hadi twice 
in Aden to underscore our support for Yemen's peaceful transition and 
to discuss issues of mutual interest. In addition, we are continuing 
senior level diplomatic engagement with key regional partners to help 
support President Hadi and press for a political transition.

    Question. The human rights situation in Bahrain remains troubling, 
an example being the recent decision of the Bahraini Government to 
strip citizenship from democracy activists under the clause of 
``causing harm to the interests of the kingdom'' and the arrest of 
Wefaq Secretary General Sheikh Salman on questionable charges.

  <diamond> What is your assessment of the Bahraini Government's 
        efforts to implement the recommendations of the 2011 Bahraini 
        Independent Commission of Inquiry (BICI)?

    Answer. The Government of Bahrain (GOB) has taken some important, 
initial steps in line with the recommendations in the 2011 BICI report, 
to include:

      <all>  Rebuilding mosques;
      <all>  Establishing the Ombudsman's Office;
      <all>  Establishing a Special Investigative Unit;
      <all>  Adopting a National Preventative Mechanism on Torture;
      <all>  Allowing independent prisons monitoring;
      <all>  Establishing the Commission on the Rights of Prisoners and 
            Detainees;
      <all>  Reestablishing the National Institution on Human Rights;
      <all>  Rescinding the Bahrain National Security Agency's law 
            enforcement/arrest capabilities;
      <all>  Training police in human rights standards;
      <all>  Reinstating dismissed workers;
      <all>  Welcoming a U.N. OHCHR technical team;
      <all>  Endorsing school reconciliation programs in cooperation 
            with UNESCO.

    We have not seen the GOB make meaningful progress on media 
incitement, accountability for abuses committed by security forces, or 
antitorture safeguards. The GOB has much more to do on BICI 
implementation, and we continue to press them on this. We also remain 
concerned about the arrest of individuals on charges relating to 
freedom of expression.

    Question. I understand that the Crown Prince and First Deputy Prime 
Minister Salman has formally requested that the administration lift the 
holds on the sale of certain military items.

  <diamond> Is this true? Why does the Crown Prince believe it is 
        necessary to lift these holds? Are you supportive of responding 
        favorably to the Crown Prince's request?

    Answer. We have made no decision at this time to resume the 
shipment of restricted items. We have maintained the same arms transfer 
policy toward Bahrain since 2012. The United States and Bahrain have a 
strong and long-standing defense partnership, and we will continue to 
work to advance our strong security partnership in the face of serious 
threats in the region.

    Question. I remain concerned about the well-being of Mohamad 
Soltan, an Egyptian-American who has been on hunger strike for over a 
year to protest his detention on questionable charges by the Egyptian 
Government. It was recently reported that Mr. Soltan had suffered a 
serious decline in his health. The State Department previously asked 
the Egyptian Government to release Mr. Soltan on bail on humanitarian 
grounds.

  <diamond> What else is the U.S. Government doing to bring about that 
        release and ensure that Mr. Soltan receives proper medical 
        care?

    Answer. We remain deeply concerned about Mr. Soltan's health and 
continue to provide Mr. Soltan with all possible consular assistance. A 
consular officer last visited him on April 2. We understand that Mr. 
Soltan is currently in the Intensive Care Unit in prison and receiving 
necessary care. We have raised Mr. Soltan's case at the highest levels 
in both Washington and Egypt requesting that he be granted parole on a 
humanitarian basis. Unfortunately, Mr. Soltan was given a life sentence 
on April 11. We are urging the Government of Egypt to take all measures 
to redress this verdict.

    Question. The FY15 Appropriations Act requires that you certify and 
report to Congress that Egypt has met benchmarks on democracy, human 
rights, and the rule of law.

  <diamond> Can you provide examples of cases where the Egyptian 
        Government has released individuals who you determine to be 
        political prisoners, has implemented laws or policies to govern 
        democratically, has taken consistent steps to protect and 
        advance the rights of women and religious minorities, and/or 
        has provided detainees with due process of law?

    Answer. In 2014, Egypt held a constitutional referendum and 
Presidential elections. Domestic and international observers concluded 
that the constitutional referendum and subsequent Presidential election 
were administered professionally and in line with Egyptian laws, while 
also expressing concerns that government limitations on association, 
assembly, and expression constrained broad political participation. 
Parliamentary elections under the new constitution were scheduled to be 
held in March, 2015, but an Egyptian court recently declared 
unconstitutional a redistricting law governing those elections. This 
has meant that the government must delay elections while the law is 
redrafted.
    The new constitution provides increased human rights protections as 
compared to the previous constitution, including a stipulation of 
equality before the law irrespective of religion, and provides for more 
seats to women and Christians than any other Parliament in Egyptian 
history. It also requires that Parliament pass a new law facilitating 
the construction and renovation of Christian churches, which is without 
precedent, and provides for the establishment of an antidiscrimination 
commission to eliminate all forms of discrimination. Al-Sisi became the 
first Egyptian President to attend Mass on Coptic Christmas. There have 
been some convictions for anti-Christian violence, which is also almost 
without precedent.
    However, the government continues to prosecute individuals for 
``denigrating religions,'' and accountability for former sectarian 
crimes remains problematic. The government has also issued new 
legislation that criminalizes peaceful dissent and imposes onerous 
restrictions on civil society.
    In an effort to combat incidents of sexual abuse, al-Sisi 
implemented a new law with penalties of prison and fines for sexual 
harassment; as a result, at least nine police officers were arrested in 
2014. He visited a rape victim in the hospital 2 days after being sworn 
in as Egypt's President.
    The Egyptian courts have issued hundreds of mass death sentences, 
mostly to Muslim Brotherhood supporters. Capital punishment cases are 
automatically reviewed by the Mufti and the Court of Cassation, which 
have commuted the majority of death sentences.
    Over 16,000 Egyptians remain in detention, primarily on charges 
related to membership in the now outlawed Muslim Brotherhood. Hundreds 
of others, including prominent secular activists, have been detained 
for violating the Demonstrations Law. In January, the public prosecutor 
ordered the release of 100 detained students ``out of concern for their 
academic future.'' In February, a prosecutor ordered the release of an 
additional 130 students, juveniles who had either been pardoned by 
al-Sisi or met the conditions of parole according to prison 
regulations.
    Australian Al Jazeera journalist, Peter Greste, was released in 
February 2015; the remaining two Al Jazeera journalists are out on bail 
pending a retrial. Al-Sisi has promised publicly to release these two 
after the trial is complete.
    The Government of Egypt has not enforced an NGO registration law 
that many members of the NGO community fear is meant to restrict or 
shut down NGO activities.

    Question. Recently, potential natural gas deals between Israel, 
Egypt, and Jordan have come undone as the Israeli Antitrust Authority 
announced a proposal that would require Noble Energy and Delek Group to 
sell some of their largest joint offshore gas holdings and to compete 
on gas sales with the rest of their current partners.

  <diamond> What impact might the current regulatory environment in 
        Israel have on potential energy deals with Egypt and Jordan?

    Answer. Prospective energy deals between Israel and Egypt and 
Jordan are an opportunity to strengthen peaceful relations between 
Israel and its neighbors, and demonstrate the potential for energy to 
be a key source of realignment and interdependence in the broader 
Eastern Mediterranean. Countries facing severe energy shortages like 
Egypt and Jordan now have regional options for meeting their energy 
needs with natural gas that is both cheaper and greener than heavy fuel 
oil. Israeli gas, therefore, remains critical to Jordan's continued 
economic growth and political and economic stability. Equally 
important, Egypt recognizes the political and commercial necessity of 
increasing domestic energy supplies, which could include gas from 
Israel.
    Since the Israeli Anti-Trust Authority's December 22 announcement, 
senior officials at the Department of State, including Secretary Kerry, 
Under Secretary Sherman, Special Envoy Hochstein, and U.S. Ambassador 
to Israel Dan Shapiro, have engaged the most senior leadership of the 
Government of Israel on this issue. While acknowledging the importance 
of not interfering with the independent Anti-Trust Authority, these 
officials have shared concerns over the potential negative impact on 
Israel's strategic interests if Israel fails to develop and export its 
gas to regional markets including Egypt and Jordan.
    The United States is not involved in the legal debate in Israel, 
but continues to believe that it is important for all countries to have 
a strong investment climate, including a consistent and predictable 
regulatory framework. Energy discoveries in the Eastern Mediterranean 
can and should be used to strengthen collaboration and cooperation in 
the region. We continue to closely monitor the situation as well as 
engage and support all parties to move forward with the natural gas 
deal signed between Noble Energy and partner entities in Jordan and 
Egypt.

    Question. Palestinian efforts to seek unilateral recognition at the 
United Nation Security Council through imbalanced resolutions, and the 
bid to join the International Criminal Court (ICC), call into question 
President Mahmoud Abbas' commitment to direct negotiations for a two-
state solution. In response to these and other actions, the Israeli 
Government is withholding the transfer of tax revenue to the 
Palestinian Authority (PA).

  <diamond> (A) Without this revenue, how much longer will the PA be 
        able to operate?

    Answer. We have strongly opposed the Palestinians bid to join the 
ICC and we have opposed one-sided resolutions in the UNSC. We are, 
however, deeply concerned by Israel's decision to withhold the transfer 
of monthly tax revenue to the PA for December 2014 and January 2015. 
These transfers of tax revenue historically have averaged $150 million 
per month, or about 75 percent of all regular PA revenues. In the 
absence of revenues, the PA had only been paying 60 percent of 
employees' salaries from January to February 2015.
    According to the PA, it is unclear how they will be able to pay 
salaries in April and beyond unless Israel resumes transferring PA tax 
revenues or international donors significantly advance their planned 
2015 budget support to the PA. Local borrowing is effectively 
exhausted, as the PA already reached its borrowing limit of $1.47 
billion. In the continued absence of tax revenue transfers, Palestinian 
officials maintain the PA may have to resort to furloughs and staggered 
work schedules for its employees, including security forces. The 
payment of partial salaries and shortages of food and fuel has already 
impacted the operational readiness and morale of the security forces. 
We are concerned that financial damage to the PA can undermine security 
for both Israelis and Palestinians.

  <diamond> (B) What is the impact of withholding this revenue on 
        Palestinians living in the West Bank?

    Answer. Rising poverty rates, food insecurity, and private sector 
layoffs are just some of the economic and humanitarian impacts of the 
PA's financial difficulties that are already being felt by 
Palestinians. A continuation or deepening of the financial crisis will 
likely result in the PA no longer being able to pay even partial 
salaries, provide services, or carry out the normal functions of a 
government authority. These difficulties are building upon an already 
deteriorating economic and political environment, generating a crisis 
in the West Bank that threatens to unravel the economic, security, and 
humanitarian gains of the past 10 years. Given that the PA makes up 
about one quarter of the Palestinian economy, its demise--or even its 
reduction--will have severe negative economic and humanitarian 
consequences.

  <diamond> (C) If the Palestinians introduce another resolution to the 
        U.N. Security Council this year, will the United States use its 
        veto?

    Answer. The United States has consistently opposed every effort to 
delegitimize Israel or undermine its security, including at the United 
Nations. We uniformly and firmly oppose one-sided actions designed to 
punish Israel in international bodies and will continue to do so.
    In most cases of unfair and unbalanced texts introduced in the 
Security Council, we have been able to advocate successfully for the 
U.S. position during negotiations and, if necessary, form a coalition 
of like-minded countries to stop such resolutions from moving forward.
    For example, on December 30, 2014, the United States successfully 
rallied a coalition to join us in voting against an unbalanced draft 
resolution on the Israeli-Palestinian conflict that was hastily put 
before the Security Council. We made clear to the other members that 
the draft text was deeply imbalanced and should not be supported. 
Through outreach by Secretary Kerry to multiple leaders represented on 
the Security Council, as well as Ambassador Power's tireless work in 
New York, the resolution failed to achieve the nine UNSC member votes 
in favor required for adoption. Separately, the administration used its 
veto power to defeat another one-sided resolution in 2011.
    We will continue to work with our partners, including in the 
Council, to advance the prospect for future negotiations and provide a 
horizon of hope for Israelis and Palestinians, while opposing all 
efforts that would undermine that goal.

  <diamond> (D) Given his recent efforts at the U.N. and ICC, is 
        Palestinian President Mahmoud Abbas still a partner that Israel 
        and the United States can work with to reach a negotiated 
        peace?

    Question. We have made very clear our opposition to Palestinian 
action at the ICC. We also worked hard to defeat a one-sided 
Palestinian UNSCR this past December. These actions damage the 
atmosphere with the very people with whom they ultimately need to make 
peace, and will do nothing to further the aspirations of the 
Palestinian people for a sovereign and independent state. We will 
continue to oppose such counterproductive actions at the ICC and U.N. 
We do believe that President Abbas remains a partner for peace, and he 
continues to reaffirm the PA's commitment to the principles of 
nonviolence and recognition of the State of Israel.
    We will continue to consult with you as we move forward on these 
issues.

    Question. Current U.S. law prohibits economic assistance to the 
Palestinian Authority if the Palestinians initiate an ICC investigation 
of Israeli nationals or ``actively support such an investigation.'' I, 
along with other Members of Congress, have called for a review of U.S. 
assistance in light of these legal requirements.

  <diamond> Please describe the process and methodology by which the 
        State Department is undertaking this review, what conclusions 
        (if any) have been reached, and when you expect to complete 
        this review.
  <diamond> Are Palestinian security forces still committed to 
        cooperating with Israel?

    Answer. The State Department, in conjunction with USAID, is 
examining U.S. assistance to the Palestinians to determine how it can 
best be used moving forward. Although our view is that the legislative 
restrictions related to Palestinian initiation or active support for an 
ICC judicially authorized investigation have not been triggered to 
date, we intend to maintain pressure on the PA not to take additional 
destabilizing action at the ICC.
    Any decisions related to assistance will be made in consultation 
with Congress, as we remain committed to maintaining an open dialogue 
with lawmakers. We continue to believe that U.S. assistance to the 
Palestinian people is an important tool in promoting regional 
stability, economic development, and increased security for both 
Palestinians and Israelis. U.S. assistance to the Palestinian Authority 
is fundamental to support U.S. national security interests.
    Both Israeli and Palestinian leaders attest that the Palestinian 
security forces' remain committed to security coordination. As 
President Abbas has said many times, security coordination between 
Israel and the Palestinian Authority serves the interests of the 
Palestinian people. It has been instrumental in preserving security in 
the West Bank and in reducing threats to Israelis and Palestinians 
alike.
    Our support and engagement has helped to strengthen security 
coordination. Although we continue to see a political will to maintain 
security coordination, we are very concerned about the continued 
viability of the Palestinian Authority--including the security forces--
if they do not receive their tax revenues soon. If we cannot find a 
solution and the Palestinian security forces can no longer operate 
effectively, the result could be the breakdown of basic law and order 
in the West Bank--and a real danger that extremists could exploit the 
situation.

    Question. Turkey remains a linchpin to turning off the flow of 
foreign fighters into the region, as well as to a significant portion 
of ISIL's financing--along with the Assad regime--based on sales by 
ISIL of confiscated petroleum.

  <diamond> What more can the Turkish Government do to contribute to 
        degrading ISIL?
  <diamond> Why hasn't Turkey joined the coalition's air campaign 
        against ISIL?
  <diamond> Is Turkey stemming the flow of foreign fighters through its 
        territory to Syria and Iran?
  <diamond> Considering Turkey's geostrategic importance, what strategy 
        are you putting in place to deal with the increasingly 
        authoritarian actions of President Erdogan, including cowing of 
        the Turkish judiciary, imprisonment of critical journalists, 
        and propagation of anti-Semitic rhetoric, which put them in a 
        divergent position relative to our other NATO allies?

    Answer. Turkey is a NATO ally and valuable partner in the counter-
ISIL coalition. Turkish leaders have made clear that they reject ISIL. 
For example, on March 5, President Erdogan criticized the terrorist 
group for ``destroying everything in Islamic civilization, culture and 
roots.'' Turkey has made significant contributions to coalition 
efforts, including:

      <all>  Hosting a Department of Defense train and equip program 
            for the moderate Syrian opposition;
      <all>  Providing an overland corridor to the Syrian city of 
            Kobane for Iraqi Kurdish peshmerga and Free Syrian Army 
            units defending against ISIL attacks;
      <all>  Providing military, economic, and humanitarian assistance 
            to support the Iraqi Government and Kurdistan Regional 
            Government in their fight against ISIL;
      <all>  Taking increased measures to restrict oil smuggling;
      <all>  Cochairing with the United States a Financial Action Task 
            Force (FATF) initiative to address how ISIL raises, moves, 
            and uses its funds;
      <all>  Hosting nearly 1.7 million refugees from Syria and 130,000 
            from Iraq. Turkish officials report having spent over $5 
            billion caring for the refugees, through 23 high-quality 
            camps and provision of social services such as health care 
            and education.

    On foreign fighters, Turkey has made noteworthy progress in 
improving screening procedures, including implementing an expanded ``no 
entry list'' and turning back or detaining suspected foreign terrorist 
fighters. Turkey continues to work with the United States and other 
coalition partners to enhance intelligence cooperation on terrorism. 
For example, on March 12, we signed a declaration of intent with Turkey 
to negotiate in coming months an agreement to share foreign terrorist 
fighter identity information.
    Turkish leaders have stated their intention to contribute even 
further to coalition military operations. As each partner country 
brings unique capabilities, we will continue to work with Turkey and 
the other 61 members of the coalition as part of a broad international 
campaign against ISIL.
    As NATO allies, the United States and Turkey share many strategic 
interests. In this context, we continue to encourage Turkey to take the 
necessary steps to uphold its own stated democratic commitments. We are 
concerned by government actions that weaken the independence of the 
media and judiciary, and we have conveyed these concerns through 
private meetings with Turkish officials, public statements, and our 
annual human rights report.
    We are deeply concerned by anti-Semitic statements made by Turkish 
leaders and engage directly at all levels to express our disapproval of 
such statements. For example, President Obama discussed the importance 
of building tolerant and inclusive societies and combating the scourge 
of anti-Semitism with President Erdogan during their September 5, 2014, 
meeting in Wales. Our Ambassador and Embassy officers also meet 
regularly with the Jewish community and other representatives of 
religious minorities in Turkey to discuss their concerns over religious 
freedom and security, and to promote interfaith dialogue.

    Question. Property Claims and Judgments in U.S. Courts.--I am very 
troubled by the fact that the administration has seemed to downplay the 
fact that there are thousands of American citizens and businesses that 
hold over $6 billion in unresolved claims for properties confiscated by 
the Castro regime, and that there is an additional $2 billion in 
unsettled judgments rendered by U.S. courts. Furthermore, Section 
103(a) of the LIBERTAD Act states ``Notwithstanding any other 
provisions of law, no loan, credit, or other financing may be extended 
knowingly by a United States national, a permanent resident alien, or a 
United States agency to any person for the purpose of financing 
transactions involving any confiscated property the claim to which is 
owned by a United States national as of the date of the enactment of 
this act, except for financing by the United States national owning 
such claim for a transaction permitted under United States law.''

  <diamond> What assurances can you, given the American citizens and 
        businesses hold these claims and judgments, that the 
        administration will use all means necessary to pressure the 
        Castro regime and ensure their prompt resolution? What specific 
        steps will the administration take?

    Answer. The Department is committed to a resolution of claims and 
firmly believes the reestablishment of diplomatic relations, including 
opening an embassy in Havana, will allow the United States to engage 
more effectively on a range of important issues, including claims. 
During the January talks in Havana with the Cuban Government, we 
proposed, and the Cubans agreed, to begin a dialogue on claims in the 
months following the reestablishment of diplomatic relations and 
reopening of our respective embassies.
    The discussion of claims will be part of our broader normalization 
efforts, and may take some time. As in all claims settlement 
discussions, there is a range of issues that will need to be 
considered.

    Question. When the U.S. interested [SIC] into a process of 
normalization with Libya during the last decade, Secretary Rice 
committed that she would not travel to Libya until there was a complete 
resolution of the claims held by the families of the victims of the 
Lockerbie bombing.

  <diamond> Will you make that same commitment to the U.S. citizens 
        that have been victims of the Castro regime?

    Answer. The Department is committed to pursuing a resolution of 
claims and firmly believes the reestablishment of diplomatic relations, 
including opening an embassy in Havana, will allow the United States to 
engage more effectively on a range of important issues, including 
claims. During the January talks in Havana with the Cuban Government, 
we proposed, and the Cubans agreed, to begin a dialogue on claims in 
the months following the reestablishment of diplomatic relations and 
reopening of our respective embassies.
    Claims are not necessarily addressed as part of the reestablishment 
of diplomatic relations. In fact, diplomatic relations are generally in 
place when governments embark on claims discussions. In Libya, we had 
not severed diplomatic relations; claims discussions were simply part 
of normalizing our bilateral relationship, along with discussing other 
pressing matters such as weapons of mass destruction.

    Question. On Sunday February 22, the Cuban Government arrested 
nearly 200 activists across Cuba, including over 80 members of the 
Damas de Blanco (Ladies in White), 90 members of the Union Patriotica 
de Cuba (Cuban Patriotic Union), and prominent democratic activists 
such as Sakharov prize winner Guillermo Farinas, Angel Moya and Antonio 
Rodiles.

  <diamond> What is the State Department's assessment of these arrests? 
        Will U.S officials raise this unacceptable wave of arrests in 
        their talks with the Cuban Government on February 27?

    Answer. The Department consistently monitors human rights in Cuba 
and, as the President said on December 17, we will continue to raise 
our differences on issues related to democracy and human rights 
directly with the Cuban Government. We have no illusions that the Cuban 
Government will change its behavior overnight. We want to work closely 
with Congress on such arrests and on bringing positive change on human 
rights in Cuba. Human rights are central to our discussions with the 
Cuban Government and we will continue to press for greater respect of 
fundamental freedoms and an end to these practices.

    Question. February 24, 2015, marks the 19th anniversary of the 
shoot-down of two civilian aircraft over international waters by Cuban 
MiG fighter jets, which resulted in the murder of three Americans and a 
permanent resident of the United States. This shoot-down over 
international waters has been named an act of state terrorism, 
including by the United States Congress. An August 2003 federal 
indictment remains open for three senior Cuban military officials for 
the murder of these Americans.

  <diamond> Should Cuba be removed from the list of State Sponsors of 
        Terrorism prior to these senior Cuban military officials facing 
        justice for an act of terrorism that resulted in the murder of 
        three Americans?

    Answer. The Department is reviewing Cuba's designation as a State 
Sponsor of Terrorism (SST). We are undertaking a serious review of 
Cuba's designation based on all relevant, applicable information and 
the statutory standard. We will not prejudge the outcome of that 
process.

    Question. In May 2003, the U.S. Government expelled 14 Cuban 
diplomats for having engaged in espionage against the United States, 
including diplomats stationed at Cuban mission to the United Nations 
and the Cuban Interests Section in Washington, DC.

  <diamond> As the U.S. State Department prepares to host talks with 
        Cuba on February 27, will any of the 14 Cuban diplomats 
        expelled in 2003 participate in these discussions?

    Answer. None of the 14 Cuban diplomats expelled in 2003 
participated in the February 27 discussions with the Cuban Government 
in Washington, DC.

    Question. On December 17, 2014, President Obama announced that, as 
a result of negotiations between the United States and Cuba, the Cuban 
Government would permit greater access to the Internet. On February 20, 
Cuba's First Vice President Miguel Diaz-Canel announced that a process 
to increase Internet access would take place under the leadership of 
Cuba's Communist Party, and include the full involvement of all 
institutions of the Cuban Government. Diaz-Canel also said that any 
such process would include close collaboration with the Governments of 
Russia and China, which are known to censure and limit access to 
internet content.

  <diamond> What is the State Department's assessment of Diaz-Canel's 
        call for Internet access governed by the Communist Party of 
        Cuba? Would such access meet the United States expectation for 
        the Cuban people to have greater access to the Internet, as it 
        was set forth by President Obama on December 17, 2014?

    Answer. Internet access in Cuba is expensive, of very poor quality, 
and available to a relatively limited number of people. According to 
Cuban press reporting, the Cuban Government used the country's first 
national ``computerization and cybersecurity'' workshop in February to 
publicize its new information and communication technology (ICT) 
strategy, which includes upgrading 70 percent of the country's telecom 
equipment, increased training, and greater access to technology by 
Cubans, i.e., easing import restrictions and digitizing public 
registries, services, and payments.
    Greater access to information through the Internet and other means 
is a U.S. priority in Cuba and around the world. Greater connectivity 
for the Cuban people is essential to empower them in their efforts to 
build a democratic, prosperous, and stable Cuba. Ambassador Daniel 
Sepulveda, U.S. Coordinator for International Communications and 
Information Policy, will travel to Cuba at the end of March to begin a 
dialogue on broadening telecommunications and Internet on the island 
with the objective of expanding Internet access for the Cuban people. 
In addition, we continue to work with Cubans, including independent 
civil society actors, to promote the free flow of information to, from, 
and within the island. This is an important part of our efforts to 
enhance and strengthen the fundamental rights of all Cubans to freely 
exercise their freedom of speech and expression.
    In January, the Department of Treasury promulgated regulatory 
changes authorizing transactions incidental to the establishment of 
telecommunications facilities not just directly linking the United 
States and Cuba, but also within Cuba and linking Cuba to third 
countries. Under a new Department of Commerce license exception, the 
export of items for Cuba's telecom infrastructure is also permitted 
under certain conditions. Under the new policies, U.S. companies may 
also export personal communication devices and software (e.g., 
telephones, computers, and Internet technology/applications) to Cuba 
for commercial sale or donation, and can also export certain tools, 
equipment, and supplies to private enterprises in Cuba. We are 
informing U.S. companies of these changes and continuing to work to 
address their questions.

    Question. In his op-ed in the New York Times, Vice President Biden 
noted that one of the challenges facing Central America today is 
pervasive corruption, often linked to transnational drug trafficking 
syndicates and organized crime. Guatemala has addressed corruption by 
hosting the U.N.'s International Commission Against Impunity in 
Guatemala (CICIG, pronounced SEE-sig) and Honduras recently signed an 
agreement with Transparency International.

  <diamond> What steps will the administration take to encourage that 
        CICIG's mandate be renewed, and that the Honduran agreement 
        with Transparency International is successful? What other steps 
        will the administration take to help Central American 
        governments confront corruption?

    Answer. Citizens and investors will trust Central American 
institutions after these institutions establish a pattern of 
transparency, accountability, and effectiveness. The result will be 
improved security and broad-based economic growth. The quality of 
institutions will determine the quality of results.
    The International Commission Against Impunity in Guatemala (CICIG) 
has been a vital institution for promoting accountability and justice. 
We have raised the importance of a CICIG extension past September 2015 
at the highest levels of the Guatemala governments and emphasize that 
an extension would be a crucial demonstration of Guatemala's commitment 
to the objectives outlined in the Alliance for Prosperity.
    We are pleased that the Government of Honduras, on its own 
initiative, signed an agreement with Transparency International to 
promote public sector transparency and accountability as well as to 
reduce corruption. We will coordinate closely with the international 
community, civil society, and the Government of Honduras to ensure that 
this agreement is fully implemented.
    We are committed to combating corruption throughout the region. 
CICIG and Honduras' agreement with Transparency International are two 
examples where these countries are working to address these complex 
issues. Our support to the region under the U.S. Strategy for 
Engagement with Central America will include working with Central 
American governments to implement internal control systems and 
institutional checks and balances that reduce the potential for 
corruption. In addition to working with audit and fiscal control 
bodies, we will work with the police, prosecutors, and judges to help 
ensure transparency in the justice system. Likewise, we will work with 
the executive branch and electoral management bodies to identify and 
limit illicit funding in political and campaign finance systems.
    Civil society must be involved in efforts to improve accountability 
and fight corruption. We will support the work of citizen watchdogs, 
civil society, and the media. An engaged, informed, independent civil 
society is an important accountability mechanism and government 
motivator. We look forward to working with all sectors of society to 
improve the effectiveness, accountability, and transparency of 
institutions in Central America.

    Question. Growing Narco Threat.--The U.S. Department of Treasury 
has designated over 10 senior Venezuelan Government officials as drug 
kingpins, members of Venezuela's National Guard and military act as a 
de facto cartel, and in testimony before this committee in May of 2014, 
Assistant Secretary Jacobson stated that the situation in Venezuela 
constitutes a national security threat to the United States.

  <diamond> Can you please provide your assessment of this threat and 
        describe U.S. strategy to address it?

    Answer. It is a concern not only for the United States, but also 
for the rest of the hemisphere, that Venezuela remains a key transit 
country for the shipment of illegal drugs from South America. The 
majority of illicit narcotics that transited Venezuela in 2014 were 
destined for the Eastern Caribbean, Central America, the United States, 
West Africa, and Europe. Colombian drug-trafficking organizations 
facilitate the transshipment of narcotics through Venezuela and media 
reports indicate that Mexican drug-trafficking organizations also 
operate in Venezuela.
    Venezuelan authorities do not effectively prosecute drug 
traffickers, in part due to political corruption. Additionally, 
Venezuelan law enforcement officers lack the equipment, training, and 
resources required to impede the operations of major drug trafficking 
organizations. The U.S. Government and its regional partners have 
repeatedly said more effective counternarcotics efforts by the 
Venezuelan Government are necessary to curb the flow of drugs into and 
out of the region.
    Since the Venezuelan Government ended formal cooperation with the 
U.S. Drug Enforcement Agency in 2005, bilateral counternarcotics 
cooperation has been conducted on a case-by-case basis, including 
informal information exchanges and maritime interdiction activities 
with the U.S. Coast Guard. However, a lack of sustained, high-level 
cooperation reduces the ability of our U.S. law enforcement partners to 
investigate and prosecute violators of U.S. law residing or operating 
in Venezuela. We nonetheless encourage our U.S. law enforcement 
partners to work as closely with their Venezuelan counterparts as is 
permitted by the Venezuelan Government.
    We will continue to support drug interdiction programs throughout 
the region, including programs in Colombia, Peru, Central America, and 
the Caribbean. We will urge those partners to encourage the Venezuelan 
Government to step up its efforts and fulfill regional commitments and 
responsibilities to combat drug trafficking.

    Question. For many years U.S. foreign policy--under Presidents of 
both parties--has paid insufficient attention to the countries in the 
Western Hemisphere--whether it is Canada to the north or Latin America 
to the south. Yet 12 of the 20 countries with which we currently have 
free trade agreements are located here in our hemisphere. And, 
throughout the last decade, as the region posted strong growth figures, 
U.S. economic integration with Latin America and the Caribbean also 
rose sharply. By 2012, the United States exported more products to 
Latin America than to Europe, almost twice as much to Mexico as to 
China, and more to Chile and Colombia than to Russia. U.S. natural gas 
is increasingly sold to Mexico, with natural gas exports increasing 
tenfold since 1999.

  <diamond> Given these trends and the fact the well-being of the U.S. 
        economy is inherently linked to our ability to identify and 
        gain access to overseas markets, in your opinion, should our 
        neighbors in the Western Hemisphere receive a greater degree of 
        our time and attention? And, what can be done to galvanize 
        greater focus on the opportunities here in our own hemisphere?

    Answer. The United States seeks a hemisphere that is a model of 
economic prosperity, education and social inclusion, citizen security, 
and democracy and human rights. In order to remain competitive globally 
we are also working with regional partners to build the Americas into a 
shared, integrated platform for global success with a market of nearly 
1 billion people.
    U.S. partnership is based on jobs, education, energy, prosperity, 
innovation, democratic values, and keeping our people safe. We are 
focusing our diplomatic engagement and assistance resources where they 
can have an enduring impact. Addressing issues of citizen insecurity, 
economic opportunity, economic integration (especially in the energy 
sector), and effective governance with Central American partners could 
be transformative. We are supporting the Colombian Government's efforts 
to seek a durable peace. High-level meetings and working groups are 
strengthening the United States-Mexico partnership and driving a more 
competitive North America. We are working to reenergize our 
relationship with Brazil. Negotiations to reestablish diplomatic 
relations with Cuba have seen our partners in the region reengage on 
issues previously off limits. Our drive on energy reform in the 
Caribbean will help these countries adapt to reductions in PetroCaribe 
assistance. Efforts to expand trade and investment opportunities 
through broader initiatives like the Trans-Pacific Partnership and 
increased cooperation with the Pacific Alliance also hold great 
potential for forming stronger economic partnerships in the region. 
Finally, the United States is also firmly committed to advancing reform 
of the Organization of American States (OAS) in order revitalize and 
strengthen the institution and preserve its leadership role as this 
hemisphere's premier multilateral organization, and bolster OAS' 
ability to promote and uphold the values at the core of this 
hemispheric union, consistent with the principles enshrined in the 
Inter-American Democratic Charter.

    Question. As you're aware, our economic statecraft agencies--like 
the Export-Import Bank, Overseas Private Investment Corporation (OPIC), 
and the Trade & Development Agency (TDA)--play vital roles in promoting 
U.S. economic and political goals abroad while helping foreign 
countries achieve their development objectives. One particularly 
interesting case is that of a New Jersey company which was awarded a 
contract to build a facility in Ukraine to store the used nuclear fuel 
from its commercial nuclear reactors. When complete, this facility will 
free Ukraine from its current dependence on Russia to accept current 
annual rail shipments of Ukraine's used fuel without which Ukraine 
would be forced to shut down its nuclear fleet. Ex-Im had originally 
been a sponsor of this project, but recently had to withdraw given the 
instability in the country. But in any case, you can clearly see how 
these kinds of projects, backed by our economic statecraft agencies, 
can generate U.S. exports, and achieve critical foreign policy 
objectives, while simultaneously promoting economic development and 
security abroad.

  <diamond> My question to you is: How do you think we should best use 
        these institutions to further our foreign policy objectives and 
        how could this Congress strengthen them?

    Answer. In today's world, foreign policy and economic policy are 
mutually reinforcing. That's why business and economics are top 
priorities. We're taking a number of steps to facilitate more trade and 
investment. We know that when American businesses invest abroad, we 
benefit here in the United States. Our firms cannot survive without 
exports. Fully 95 percent of the world's market is outside the United 
States. We know that U.S. business leaders are some of the finest 
ambassadors that we have, sharing their practices in transparency, 
innovation, technology, social responsibility with every country in 
which they invest.
    U.S. companies have some of the world's most competitive products 
and services. Our embassies around the world advocate on a daily basis 
for U.S. companies, helping them find opportunities, supporting their 
bids on projects, helping in disputes, and promoting legal and 
regulatory reforms that create a level playing field on which they can 
compete on quality and service. But when they go after sales and 
contracts internationally, their European, Japanese--and increasingly 
Chinese and Brazilian--competitors are armed with their own 
governments' financing and other support, which they build directly 
into their sales pitches.
    That is why the U.S. Export-Import Bank (Ex-Im), is critical for 
helping U.S. businesses succeed. In FY 2014, it supported 164,000 
American jobs and $27.5 billion in U.S. exports, and provided $675 
million in revenue to the Treasury to reduce the budget deficit.
    While Ex-Im is not an aid or development agency, its funding often 
has the added benefit of contributing to economic development and 
security abroad. Ex-Im provides financing support for the purchase of 
U.S. goods and services by foreign buyers. Its lending fills market 
gaps by assuming credit and country risks that the private sector is 
unable or unwilling to accept without support. To support a level 
playing field for U.S. businesses, Ex-Im matches financing that other 
governments within the Organization for Economic Cooperation and 
Development (OECD) provide to their exporters. Ex-Im can also match 
financing terms that are outside the OECD Arrangement when there is 
documentation on the offers by foreign export credit agencies.
    We cannot afford to unilaterally disarm in the international trade 
arena, which is what we would be doing if we did not reauthorize the 
U.S. Export-Import bank. For Ukraine, we are encouraging an economic 
reform process that will help restore stability and enable Ex-Im to 
reopen in support of U.S. exports and Ukrainian growth and prosperity.
    Another federal agency that is actively helping out in Ukraine is 
the Overseas Private Investment Corporation (OPIC), whose mission is to 
advance U.S. development, foreign policy, and national security goals 
by facilitating U.S. investments in developing countries. OPIC operates 
on a self-sustaining basis at no net cost to American taxpayers. OPIC-
supported projects address critical development challenges--clean 
water, sustainable energy, infrastructure, education and access to 
finance. OPIC is focused on lending for long-term, commercial projects 
and can also insure U.S. investment against political risks--currency 
inconvertibility, expropriation, and political violence. Operating in 
over 160 countries, OPIC has financed more than $200 billion of 
investment in more than 4,000 projects, generating $76 billion in 
exports and supporting 278,000 American jobs.
    A third agency, the U.S. Trade and Development Agency (USTDA), 
helps companies create U.S. jobs through the export of U.S. goods and 
services for priority development projects in emerging economies. USTDA 
links U.S. businesses to export opportunities in sectors where U.S. 
expertise is particularly strong: energy, transportation, and 
telecommunications. Examples include early-stage project planning 
activities--such as feasibility studies, pilot projects, and other 
technical assistance--as well as reverse trade missions that bring 
foreign buyers to the United States in order to observe the design, 
manufacture, and demonstration of U.S. products and services in 
operation. USTDA's programs are responsible for generating over $25 
billion in U.S. exports to emerging markets--supporting an estimated 
110,000 U.S. jobs--over the last 10 years. That equates to $76 in 
exports of U.S.-manufactured goods and services for every $1 
programmed.
    Congress can strengthen the trade and investment facilitation 
agencies by fully funding the President's request for FY 2016. 
Moreover, Congress should provide reliability to U.S. businesses and 
our partners overseas by reauthorizing the Export-Import Bank for 5 
years or longer, in order to assure predictability and confidence that 
their vital support will be available when opportunities are on the 
line.

    Question. For the second year in a row now, the administration did 
not request funding to pay our arrears to the Inter-American 
Development Bank's Multilateral Investment Fund (MIF). This lack of 
funding is sure to undermine the MIF's operations. The MIF does 
critical work in promoting private sector-led economic development in 
Latin America and the Caribbean and I believe it deserves the full 
support of the U.S. Government.

  <diamond> Could you please explain why the administration did not 
        request any funding at all for the MIF?

    Answer. The MIF currently has sufficient resources. The 
administration did not request funding for unmet commitments to the MIF 
for FY16, as we prioritized reducing unmet commitments to other 
multilateral development banks where we are at risk of losing 
shareholding.

    Question. I greatly appreciated Secretary Clinton's focus on 
economic statecraft and bolstering the State Department's ability to 
grow U.S. jobs and exports and fully applaud your work in continuing 
this effort through the Shared Prosperity Agenda. Efforts like these 
are a clear example of how the State Department can contribute to 
strengthening our economic recovery at home.

  <diamond> Given the tremendous importance of exports in generating 
        American jobs and economic growth, could you please explain the 
        status of the State Department's Shared Prosperity Agenda and 
        what concrete steps the Department plans to take over the 
        coming year to elevate the importance of economic issues in our 
        diplomatic engagement?

    Answer. My commitment to elevating economic issues in our 
diplomatic engagement focuses on both policy priorities and reforms 
within the Department of State. Our policy priority is to promote 
inclusive, job-rich, sustainable economic growth in the United States 
and overseas. Internal reforms emphasize the increased use of data and 
advanced analytics, better knowledge management tools, strengthened 
internal and interagency cooperation, and improved incentives and 
training to better inform the Department's decision making. These 
priorities and initiatives will be reflected in detail in the 
forthcoming 2014 Quadrennial Diplomacy Development Review document.
Inclusive Growth
    Trends in inequality and structural underemployment around the 
world compel us to define the goal of our economic diplomacy as 
sustainable, job-rich, inclusive economic growth pursued in an 
environmentally responsible manner. This approach complements our 
current commercial advocacy efforts, which aim to expand foreign market 
opportunities for U.S. companies. American companies conducting 
business abroad provide jobs (at home and abroad) as well as social and 
environmental benefits. State is an active partner with USTR in the 
effort to negotiate new trade agreements such as TPP and TTIP, as well 
as Trade and Investment Framework Agreements, and Bilateral Investment 
Treaties.
    At U.S. embassies and consulates around the world, State continues 
to collaborate closely with our Foreign Commercial Service (FCS) 
colleagues as we work to grow U.S. jobs and exports. Where the FCS is 
not present, State Department economic officers fill in at over 56 
posts, offering the same package of support services to U.S. exporters 
and investors as FCS officers do.
    We also support accountable governance and continue to combat 
corruption in economies abroad: the World Economic Forum (WEF) 
estimates corruption reduces global GDP by more than 5 percent each 
year. We are using a variety of tools, including bilateral diplomacy, 
multilateral engagement, enforcement, and capacity building assistance, 
to advance our anticorruption agenda. Through initiatives such as the 
Ukraine and Arab Forums on Asset Recovery, we help build capacity to 
ensure motivated governments have the ability, and in some cases, the 
resources to effectively combat corruption. Beyond providing technical 
assistance, we also work to generate the political will to respond to 
corruption by creating trade incentives for reform, celebrating good 
performers in venues like the Open Government Partnership, and 
supporting citizen organizations, journalists, and prosecutors holding 
public officials accountable.
    Finally, we are specifically promoting entrepreneurship and 
innovation as drivers for the creation of new businesses and increased 
employment abroad. Academic research reveals that while small and 
medium sized businesses contribute approximately half of U.S. GDP, it's 
actually new and young businesses which create all net new jobs in the 
United States. This is true abroad as well: SMEs account for 97 percent 
of all jobs in emerging markets according to the World Economic Forum. 
We are doing this work with specific emphasis on the next generation of 
economic actors, on skill building, but also on making sure that the 
environment for doing business is strong and vibrant.
State Department Reforms
    Addressing several key cultural, process, and technological 
challenges within the Department will help accelerate progress toward 
the above goals. The forthcoming QDDR will address these in detail, 
focusing on the following themes:
    Our strategic and tactical decisions in pursuit of inclusive growth 
need to be informed by the best data, diagnostic tools, and research 
available. We are working to improve State's capacity and resources in 
these areas and in doing so are aligning with best practices on data 
already adopted by MCC, USAID, and many multilateral institutions.
    We are also pursuing improved knowledge management practices and 
systems so that we can better build on and benefit from the 
institutional knowledge of the Department. This includes an effort to 
modernize our contact relationship management systems and improving our 
capacity to archive, discover, and search our work products.
    Finally, we are pursuing a refreshed emphasis on performance 
outcomes and training for our Civil and Foreign Service colleagues, 
including recognizing and rewarding economic expertise. We are also 
expanding opportunities for private sector details for Department 
employees, and more short-term but impactful Department opportunities 
for the best and brightest from the private sector.

    Question. International Monetary Fund (IMF) Quota Reforms.--About 
this time last year, the Foreign Relations Committee passed a bill with 
a strong bipartisan vote, which in addition to providing aid to Ukraine 
authorized U.S. acceptance of the 2010 IMF reforms. When that bill 
ultimately reached the Senate floor, however, the IMF reform provisions 
were removed due to the opposition of some members who apparently 
disagree that these reforms are in the interest of the United States. 
I'm glad to see that the administration reiterated its request for 
congressional approval of the 2010 reform package in its FY16 budget, 
but several of my colleagues and I wish the administration would do 
more to advance this issue.

  <diamond> Could you please state for the record the administration's 
        position on why approving the 2010 IMF reform package is in our 
        national interest, and what you think the impact of our failure 
        to approve the reforms would be--to U.S. credibility and 
        international leadership and to the IMF's ability to respond to 
        global financial crises?
  <diamond> Does the administration plan making passage of the 2010 IMF 
        reform package a priority for this year?

    Answer. The administration strongly calls for congressional 
approval of the 2010 IMF quota reform. The U.S. delay in ratifying the 
2010 reform has eroded our leadership and capacity to influence 
international development financing. Giving important developing 
economies a greater vote in the IMF would preserve the integrity of the 
existing international financial infrastructure without increasing U.S. 
monetary commitments or endangering the U.S. veto over important IMF 
decisions. To preserve U.S. influence, we need to work to recognize the 
legitimate aspirations of several growing economies to become 
responsible pariticpants in the Bretton Woods institutions. Delay will 
ultimately affect the IMF's ability to respond to geopolitical and 
economic crises in a way that serves our vital national interests.
    Despite the fact that the United States championed the 2010 IMF 
quota and governance reforms, we are now the only major IMF member 
country that has not yet ratified them. The U.S. failure to ratify IMF 
reforms is generating criticism abroad and eroding our credibility in 
the G20, with emerging economies, and with international financial 
institutions. At the 2014 World Bank/IMF spring and fall meetings, an 
increasing number of countries called for moving forward on IMF quota 
and governance reforms without the United States. The November G20 
Brisbane Summit Joint Communique stated that the G20 will begin to 
engage the IMF in 2015 to discuss how to advance the reform process if 
the United States fails to ratify the proposed reforms by the end of 
2014. The International Monetary and Financial Committee (IMFC), the 
policy advisory arm of the IMF, and G20 communiques over the last year 
tasked the IMF with discussing options for next steps, and significant 
work has been done to date to outline interim steps to move in the 
direction of the 2010 reforms. Participants at the April 17-19, 2015, 
World Bank and IMF Spring Meetings criticized the United States for our 
inability to agree to quota reform, and discussed other ways to 
implement quota reform.
    Our inaction has fueled momentum for alternative institutions. 
While we recognize the need for additional development financing around 
the world, we believe it is also important that all such efforts 
advance standards for governance and environmental and social 
safeguards that institutions like the IMF and the World Bank have 
helped establish over the decades.
    The administration will continue to make passage of the 2010 IMF 
reform package a priority for this year.

    Question. I want to commend you and the administration for the 
historic climate announcements with China and India. I believe these 
agreements have forever changed the dynamic of international climate 
negotiations and developed and developing countries will henceforth act 
in tandem to lower climate emissions. It is truly a remarkable 
accomplishment and one that deserves universal praise. Unfortunately, 
we have already seen efforts in the Senate to undermine the 
administration's efforts to work with developing nations to lower their 
emissions.

  <diamond> If the majority were to somehow block the United States-
        China announcement, and other such efforts, how would U.S. 
        interests be harmed?

    Answer. Blocking U.S. implementation of elements of the joint 
announcement would harm U.S. interests at home and abroad and 
dramatically weaken our ability to encourage strong commitments from 
other major economies. Specifically, the United States-China joint 
climate change announcement has had a profound effect on the 
international climate talks. As the world's largest economies, the 
United States and China sent an unmistakable signal to the world that 
the Paris agreement would be forged by both developed and developing 
nations alike. For example, the announcement has helped catalyze action 
from other developing economies like Mexico, which on March 27 made a 
strong pledge to peak emissions by 2026 and emit 22 percent less carbon 
in 2030 compared to a business-as-usual baseline. Without the momentum 
created by the United States-China announcement, the United States 
would lack a powerful tool with which we can shape the commitments and 
attitudes of other nations around the world.
    The joint announcement also benefited our bilateral relationship 
with China. The United States-China relationship is one of our most 
important bilateral relationships. If Congress were to walk back 
implementation of the pledges embodied in the announcement, it would 
give China an opening to backpedal on its historic climate pledge. For 
China to achieve its carbon emissions peak around 2030 or earlier, 
China will need to take significant additional action now. 
Additionally, in the joint announcement, China said that it intends to 
strive to peak even earlier than 2030, which will require a more 
targeted effort. Before this announcement, many major academic analyses 
predicted that China would peak emissions in 2040 or later.
    Further, achieving China's announced goal of a 20-percent nonfossil 
energy share by 2030 will require China's large-scale deployment of 
nonfossil energy capacity on the order of 800-1000 GW. These are 
remarkably substantial goals, even for China. The entire U.S. 
generation capacity in 2012 was a bit less than 1000 GW, and the 
Chinese have committed to add that much clean energy capacity over the 
next 15 years. Action by China on climate change and clean air will 
ultimately reduce the costly effects of climate change, thus benefiting 
the United States and our ability to protect the public health of 
American citizens.

    Question. Over 1.3 billion people worldwide lack access to reliable 
electricity, including nearly 600 million people in sub-Saharan Africa 
and over 300 million people in India. This is a major barrier to 
development. The most successful projects to provide electricity to 
these communities in recent years have been private companies selling 
or leasing off-grid solar panels. For instance, a company in Kenya 
called M-KOPA has provided nearly 100,000 customers access to 
electricity in the last year.

  <diamond> (a) What more can be done to provide financing and break 
        down regulatory barriers for these new, successful, sustainable 
        companies and help them grow even faster?

    Answer (a). Power Africa is focused on removing the barriers that 
have long impeded or stalled energy project and private sector 
development across the African Continent and limited the number of 
people who have access to electricity. Using a ``toolkit'' approach 
Power Africa offers the combined technical and financial resources of 
12 U.S. Government agencies, the World Bank Group, the African 
Development Bank, the Government of Sweden, our partner governments, 
and many other Power Africa public and private sector partners. Power 
Africa also provides technical advice and transactional support through 
regional- and country-focused transaction advisors.
    Different from other initiatives, Power Africa is headquartered in 
the field with teams located in several locations in sub-Saharan 
Africa. U.S. Government officials from several agencies are focused on 
identifying specific obstacles to power deals and to recommend tools to 
overcome these obstacles in order to advance President Obama's 
ambitious electricity access and generation goals. These field teams 
and transaction advisors have already assisted with regulatory reform 
to enable the first instance of private sector power generation in 
Ethiopia, regularization of tariff structures for small off-grid 
producers in Tanzania, and tariff reform to better support the recently 
privatized electric utilities in Nigeria.
    Through these field teams and the interagency coordination team in 
Washington, Power Africa also facilitates private sector access to 
numerous finance tools offered by the U.S. Government. These include 
USAID's Development Credit Authority, the U.S.-African Clean Energy 
Finance initiative funded by State Department and executed by OPIC and 
USTDA, as well as the more conventional OPIC and Ex-Im financing and 
risk mitigation tools. This coordinated access to technical assistance 
and financing has led to successful private sector ventures ranging 
from off-grid access via stand-alone solar photovoltaic systems, to 
grid integrated multimegawatt solar installations, to large-scale 
natural gas fired generation.

  <diamond> (b) I applaud the President's Beyond the Grid initiative to 
        get private sector commitments from the private sector for off-
        grid energy investments in Africa, but when will we see large 
        financing commitments from EXIM or OPIC in this sector in 
        Africa?

    Answer (b). Ex-Im and OPIC are dedicated to supporting the types of 
small-scale transactions critical to energy development in emerging 
markets. In partnership with the State Department, USTDA, and USAID, 
OPIC has implemented the U.S.-African Clean Energy Finance Initiative 
to support early-stage projects and catalyze private sector investment 
in the renewable energy sector in sub-Saharan Africa. Since the 
program's launch, OPIC and USTDA have committed funds to 30 renewable 
energy projects across 10 African countries that span a wide breadth of 
activities designed to address Africa's energy challenges, including 
small-scale projects that serve rural, off-grid communities.

  <diamond> (c) Is the State Department committed to continued strong 
        funding of the U.S.-Africa Clean Energy Finance Initiative 
        (ACEF) to facilitate small, clean energy projects getting into 
        the OPIC pipeline?

    Answer (c). The State Department is committed to funding the U.S.-
ACEF initiative. In June 2012, former Secretary Clinton announced the 
U.S.-ACEF at the U.N. Conference on Sustainable Development (Rio+20) 
with an initial funding of $20 million for OPIC and USTDA to provide 
grant funding to support 25-30 African renewable energy projects. The 
initial round of the U.S.-ACEF program received funding from FY11 and 
FY12 ESF funds, with $15 million from FY11 funds obligated to OPIC and 
$5 million from FY12 funds to USTDA.
    U.S.-ACEF has seen strong demand, with more than 400 project 
applications received. While original estimates were that it would take 
5 years to deploy the original $20 million commitment, the initial 
tranche has already been deployed to support 30 projects across 10 
African countries. During the U.S. African Leaders Summit in 
Washington, DC (August 2014), Secretary of State Kerry announced an 
additional $10 million in funding, bringing total State Department 
support to date to $30 million. This $10 million pledge represents a 
commitment to continued funding of the initiative.

    Question. Last year, the President committed to ``increasing 
electricity access by at least 60 million household and business 
connections'' as part of the Power Africa Initiative. Some have 
expressed concerns that large, centralized power plants might count 
toward that goal even if they are not associated with any new 
connections to the grid.

  <diamond> Will the Power Africa initiative count power plants that 
        provide energy ``equivalent'' to a certain number of households 
        being connected to the grid or will Power Africa only count 
        those who are actually receiving first-time access to 
        electricity whether on or off grid?

    Answer. Power Africa is setting out to add 30,000 megawatts (MW) in 
generation capacity and--as you note--increase access with 60 million 
new household and business connections. All new generation in sub-
Saharan Africa is linked to access because it will help remove capacity 
as a constraint to grid expansion, thereby enabling utilities to 
increase access more than would otherwise be possible. Estimating how 
many new connections would result from each new MW of generation--i.e., 
the inferred access--is not an exact science, especially because people 
tend to consume more power as grids gain access to additional 
generation and costs come down. Also, power consumption rates vary from 
country to country.
    Power Africa makes an inferred access calculation by estimating the 
average number of households that can be served with additional MWs of 
new generation capacity. The methodology is based on World Bank 
estimates and takes into account existing residential and per capita 
consumption, household size, capacity factors for various forms of 
generation, and other relevant metrics to derive these estimates.
    Additionally, in June 2014 Power Africa launched the Beyond the 
Grid (BTG) subinitiative, under which millions of households and 
businesses are expected to achieve varying levels of new electricity 
service. BTG is focused exclusively on unlocking investment and growth 
for off-grid and small-scale energy solutions on the African Continent. 
The subinitiative is defining access in line with the United Nations' 
Sustainable Energy for All (SE4ALL) definitions for access, which 
starts with a minimum level of ``task lighting'' and cell phone/radio 
charging. While that first electron or light source is the most 
valuable, BTG also strives to achieve community level solutions that 
will offer ``access'' above that first tier of task lighting. As BTG 
develops and Power Africa continues to expand, Power Africa will 
further refine and develop in a transparent manner the methodology for 
assessing progress toward meeting the access goals, both on and beyond 
the grid.

    Question. The rapid fall in oil prices over the past year from 
increased production, lower demand, and increased efficiency has 
profound geopolitical implications. Increased U.S. energy security, for 
example, may lead some to reconsider some of our obligations and 
commitments around the globe. And while falling oil prices are putting 
pressure on Russia, Iran, and Venezuela, who now find themselves in 
extreme financial distress and less power, it is far from clear whether 
each country will react by lashing out further, or by seeking 
reconciliation with others in the international community. Further, 
falling oil prices have contributed to U.S. economic growth, but they 
have also helped contribute to deflationary pressure in the Eurozone, 
and may undermine Europe's ability to play a robust role on the world 
stage.

  <diamond> What is your assessment of how these changes in world 
        energy markets will affect geopolitical cooperation and 
        competition in the years and decades to come?

    Answer. The integrated nature of global energy flows creates a 
shared interest in stable and well-supplied markets. The shale 
revolution certainly helps the U.S. economy through greater production 
but the benefits to energy security are shared worldwide instead of 
being isolated to just the United States. New U.S. supply has already 
helped make up for geopolitical supply disruptions, which are still at 
historic highs due to instability in Libya, Iraq, Syria, Sudan and 
South Sudan, Nigeria, Venezuela, and due to international sanctions on 
Iran. Now, in a time of lower oil prices and greater global economic 
integration, it is more important than ever that we work diligently to 
ensure that energy resources are used to drive economic growth, 
stability, and cooperation, rather than conflict.

    Question. Arctic Council.--The United States has assumed the 
chairmanship of the Arctic Council for 2-years, presenting an 
opportunity to engage with our Arctic partners on a wide variety of 
issues, including a changing climate, maritime transportation, fishing, 
and protection of indigenous peoples, among others.

  <diamond> What are your priorities for the U.S. chairmanship? What 
        opportunities does our chairmanship provide for increased 
        geopolitical cooperation with our Arctic partners?

    Answer. The United States is assuming the chair of the Arctic 
Council at a critical time. Changes in the Arctic have created 
significant challenges and opportunities for every Arctic nation and 
the region is quickly becoming a global focus for scientific and 
academic research, trade, and tourism. The Arctic Council has proven 
itself to be an effective and cooperative forum where the eight Arctic 
States and the Permanent Participants, who represent the interests of 
indigenous peoples of the Arctic, come together to address circumpolar 
issues. International cooperation in this region is essential, which is 
why the theme for the United States Arctic Council chairmanship is One 
Arctic: Shared Opportunities, Challenges, and Responsibilities. We have 
developed a robust program for our chairmanship in line with the 
priorities laid out in the National Strategy for the Arctic Region and 
its subsequent Implementation Plan. Priority initiatives of our 
chairmanship fall generally under three main areas.
Arctic Ocean Safety, Security, and Stewardship
    The acceleration of maritime activity in the Arctic enhances risk 
in an already harsh and challenging environment. We plan to prioritize 
collaborative search and rescue and oil pollution preparedness and 
response exercises. Our chairmanship will build upon the existing 
science of ocean acidification in the Arctic and raise awareness of 
this important global change. We will also seek to improve 
international coordination in the Arctic Ocean through a regional seas 
program similar to regional seas programs in other oceans.
Improving Economic and Living Conditions
    During the U.S. chairmanship, we will strive to bring tangible 
benefits to communities across the Arctic. In particular, we will seek 
to assist remote Arctic communities to adapt to the rapid changes that 
are altering traditional ways of life. The United States aims to 
increase water security for remote Arctic communities through a better 
understanding of freshwater availability and community vulnerability, 
as well as through improved community sanitation. We plan to work 
toward better access to renewable energy sources to reduce community 
dependence on diesel generators while at the same time reducing 
emissions of black carbon in the Arctic. The United States also plans 
to continue advancing suicide intervention and awareness programs to 
reverse disturbing trends that disproportionately affect Arctic 
communities.
    In addition, as indicated in the Implementation Plan for the 
National Strategy for the Arctic Region, the United States hopes to see 
an Arctic telecommunications infrastructure assessment that would serve 
as the basis for the eventual build-out of the telecommunications 
infrastructure necessary to support ever-increasing human activity 
throughout the Arctic region. Building telecommunications 
infrastructure across the Arctic will provide critical support to 
navigation, offshore development activities, search and rescue 
operations, environmental and humanitarian emergencies, and will make 
online tools for Arctic communities, such as telemedicine, education, 
and adaptation, more accessible and useful.
Addressing the Impacts of Climate Change
    Our chairmanship will continue the ongoing, high-level focus on the 
impacts of climate change, especially the drivers of change and the 
ways and means of addressing on-the-ground impacts. To minimize the 
prospect of irreparable, long-term harm to the Arctic--and the globe, 
as changes in the Arctic reverberate around the world--we need to take 
sustained, quantifiable measures to reduce greenhouse gas emissions and 
increase community resilience and preparedness.
    During our chairmanship, we will continue the Council's work on the 
subject of black carbon, and we will press for full implementation of a 
new, voluntary arrangement that will include development of national 
black carbon emission inventories, national reporting on domestic 
mitigation efforts, and data collection efforts. Another path forward 
is to examine key industrial practices, such as oil and gas flaring, to 
share best practices, policies and technologies among technical 
experts, industry and policymakers. The Department of State aims to 
lead the Arctic Council through an assessment of how we can improve 
emissions estimates of black carbon and other air pollutants from gas 
flares.
    Finally, we hope to be joined by other Arctic States in efforts 
that build climate resilience into national policies and promote 
community- and ecosystem-based climate adaptation through improved 
information, tools, and best practices. The U.S. chairmanship program 
will further underpin these climate change efforts through science 
initiatives that will allow for remote access to high-resolution 
mapping information and indices of future climate in the Arctic.

    Question. A week in advance of Nigeria's general elections, the 
head of the Independent National Elections Commission, Attahiru Jega, 
announced a 6-week delay in the face of pressure from the nation's 
security chiefs who cited the inability to provide security due to the 
focus on ongoing operations against Boko Haram. And just last week, Dr. 
Jega told members of the Nigerian Senate that the new March 28 date may 
not hold. These delays significantly threaten the legitimacy of the 
contest. You personally met with both Presidential candidates in 
January and urged INEC to hold the elections as scheduled.

  <diamond> What is the administration doing to discourage further 
        delays, and what actions will we take if the Presidential polls 
        are not held on March 28?

    Answer. The United States, in a whole of government effort, has 
engaged at the highest levels with Nigerian candidates, political party 
leadership, civil society, business leaders, and other prominent 
individuals to promote peaceful and credible elections in March and 
April 2015. In a statement following the announcement of the 6-week 
delay in February, I expressed that the ``United States is deeply 
disappointed by the decision to postpone'' the elections. It is 
imperative that the new elections timeline holds. Through frequent 
outreach to key stakeholders in Nigeria, the State Department has 
continued to press for the adherence to March 28 and April 11 for the 
national and state-level elections, respectively. Our outreach extends 
beyond Nigeria as well. We work closely with British, European Union, 
and other African counterparts to maintain focus on this critical issue 
of timely elections.
    While a further short delay from March 28 and April 11 is 
permissible under Nigeria's Constitution, we have advised against any 
additional postponements. In any case, we have received multiple 
assurances from senior members of the ruling Peoples Democratic Party 
that the May 29 inauguration date, which is set by the constitution, is 
``sacrosanct.''

    Question. Boko Haram has threatened to disrupt elections at all 
costs, but there is also the threat of ordinary civilians engaging in 
election-related violence should they believe the polls results are 
flawed, or their candidate is not declared the winner. Given past 
instances of fraud and political violence as well as the contentious 
nature of the Presidential race, elections violence is likely to occur.

  <diamond> Are you concerned about sustained widespread electoral 
        violence, and what--if anything--has the administration been 
        doing to support efforts to prevent and mitigate such violence?

    Answer. We have emphasized the importance for the Nigerian people 
that Nigeria's 2015 elections be peaceful and credible, and that the 
results reflect the will of the Nigerian people. Given Nigeria's 
political and economic importance within Africa, as well as Nigeria's 
increasingly prominent role on the global stage, the quality of these 
elections will have serious implications for Nigeria's and Africa's 
future. It is vital that the outcome reinforce citizens' confidence in 
the legitimacy of their elected representatives.
    Nigeria historically has had election-related violence and could 
again. But the degree of violence could be determined by how fair and 
free the elections are. That is why we opposed the postponement of the 
elections from February 14 and I met with Presidential candidates 
Jonathan and Buhari in Nigeria in January to caution against violence. 
We also have engaged civil society, business leaders, and other 
prominent individuals to promote peaceful and credible elections in 
March and April 2015. Mindful of the risk of political violence in 
Nigeria, U.S. funded programming incorporates measures intended to 
prevent and mitigate as much conflict as possible.
    The U.S. mission has conducted intensive outreach throughout the 
country, resulting in widespread Nigerian press coverage of numerous 
speeches, round tables, and interviews on the subject of elections, 
particularly emphasizing the message regarding antiviolence. The 
Ambassador has called upon all members of the political leadership, 
Nigerian Government, and civil society to publicly eschew violence on 
many occasions, including direct discussions with the main candidates--
President Jonathan and General Buhari.
    We have been providing assistance to Nigeria to strengthen its 
electoral systems since 1999, and have been consistently working toward 
this objective since the last Nigerian General Elections in 2011. U.S. 
Government assistance has been provided in three basic areas: (1) 
strengthening of the Independent National Electoral Commission (INEC) 
to organize and carry out elections; (2) training of civil society 
organizations (CSOs) to conduct domestic election observation, engage 
with INEC to ensure proper voter education and information, and monitor 
electoral processes to see that they are fair and adequate; and (3) 
supporting major political parties to enhance their inclusiveness and 
to develop strong issues-based platforms.
    Mindful that inaccurate and sensationalist reporting may contribute 
to post-electoral violence, as in 2011 when an estimated 800 Nigerians 
were killed over the course of 3 days, the U.S. Government funds 
programs to help professionalize the media and strengthen the reporting 
skills of journalists. Additionally, U.S. Government entities have 
partnered on a conflict prevention and mitigation initiative to reduce 
the risk of destabilizing election-related violence in the Niger Delta.
    The U.S. Government has engaged the Nigerian Government, the 
Independent National Electoral Commission (INEC), and civil society to 
emphasize the need for a clear and well-coordinated elections security 
plan, and to offer assistance. The U.S. Government has provided a full-
time elections security consultant to directly support INEC security 
operations, supplemented by an additional expert who is regularly 
deployed to Abuja to support elections security planning. We are also 
funding a program to strengthen the capacity of target communities and 
leaders to prevent and respond to religious, ethnosectarian, and 
political conflict before, during, and after the 2015 elections.

    Question. Boko Haram.--The African Union recently authorized an 
8,700-strong force to combat Boko Haram. What material support, if any, 
does the United States plan to provide to this force? How does this 
assistance fit in with our overall counterterrorism strategy for the 
region? How will this AU-authorized force be funded and sustained and 
what financial support is the United States planning to provide?

    Answer. The countries of the Lake Chad Basin Commission (Cameroon, 
Chad, Niger, and Nigeria) and Benin agreed on February 27, 2015, to 
establish a 10,000-strong Multilateral Joint Task Force (MNJTF) to 
combat Boko Haram. The MNJTF was earlier authorized by the African 
Union. The United States is committed to supporting the MNJTF once it 
is stood up.
    Meanwhile, the United States is providing bilateral support to 
MNJTF countries Benin, Cameroon, Chad, and Niger, including 
information-sharing, advisors, equipment, and training. We are 
identifying remaining gaps and engaging our P3 (Permanent UNSCR members 
United Kingdom and France) and other partners to determine how best to 
fill those gaps and whether such assistance will be through 
contributions to a potential voluntary U.N. trust fund, contributions 
from a potential donors conference, or from the MNJTF countries 
themselves, especially Nigeria.
    To date, State has obligated approximately $4.5 million of 
Peacekeeping Operations (PKO) funds to provide equipment and/or 
training support to the following countries by amounts ($1 million for 
Cameroon, $2.4 million for Chad, and $1.1 million for Niger). 
Separately, State has identified $15.5 million in PKO funds, which is 
currently notified to Congress and is in the process of identifying 
additional funding.
    This approach supports our existing counterterrorism strategy to 
focus on building the capacity of willing partners to address regional 
threats. The region has experienced a series of security challenges 
during the past several years spilling over from North Africa, Mali, 
and Nigeria, but the collective and individual country responses to 
United States support, for the most part, have been positive and 
receptive. Primarily through the Trans-Sahara Counterterrorism 
Partnership (TSCTP), the United States has provided bilateral and 
regional counterterrorism assistance to: (1) enable and enhance the 
capacity of North and West African militaries to conduct 
counterterrorism (CT) operations; (2) promote and facilitate regional 
CT cooperation; (3) enhance border security capacity to monitor, 
restrain, and interdict terrorist movements; (4) strengthen the rule of 
law, including access to justice, law enforcement service delivery, and 
law enforcement's ability to detect, disrupt, respond to, investigate, 
and prosecute terrorist activity; (5) counter the financing of 
terrorism; and (6) reduce sympathy and support within communities for 
violent extremism. Separately, DOD, with State concurrence, has 
provided bilateral assistance through section 1206 (now 2282) funds to 
increase the capabilities of military partners in North and West Africa 
to counter the various terrorist threats. Finally, the Global Security 
Contingency Fund (GSCF) program is contributing training and equipment 
to bolster regional border patrol operations, CT efforts and logistics 
capabilities for Cameroon, Chad, Niger, and Nigeria.

    Question. Talks held on the margins of the African Union summit at 
the end of last month did not yield a final peace accord between 
President Salva Kiir and former Vice President Riek Machar. Final 
negotiations for a comprehensive settlement--led by the Inter-
Government Authority on Development--resumed on February 20, with a 
deadline to resolve all out-standing issues by March 5.

  <diamond> What can the U.S. Special Envoy for Sudan and South Sudan 
        and his team do to ensure that substantive issues--such as the 
        objectives and tasks of the transitional government, a plan for 
        the demobilization of forces, and the timeline for an inclusive 
        reconciliation process--are discussed rather than focusing 
        solely on how the two main actors will divvy up positions among 
        themselves in the transitional government?

    Answer. Since the beginning of the Intergovernmental Authority on 
Development (IGAD) mediation efforts to broker peace between the 
Government of South Sudan and the opposition, the United States has 
worked to ensure that substantive issues beyond power-sharing 
arrangements are fully integrated into the peace talks.
    We believe that the path to real, broad-based and lasting peace in 
South Sudan cannot be obtained without fundamental reforms to the 
security sector, public financial management and the constitutional 
process, as well as a firm commitment to a robust reconciliation 
process that focuses on healing the deep wounds caused by the current 
crisis.
    We will continue to work in close coordination with IGAD, the 
African Union and other key partners to support the peace process, and 
to continue to use all means available to us to apply collective 
pressure on the parties to focus on broad-based reforms and to overcome 
the remaining obstacles to a comprehensive agreement and agreement on 
the formation of a transitional government.

    Question. I met with South Sudan President Salva Kiir in August and 
was shocked by his apparent lack of concern for suffering his people 
are enduring due to the conflict. I hear that the same can be said of 
Mr. Machar. President Obama issued an Executive order last April 
authorizing sanctions against those who obstruct the peace process, yet 
only four low ranking individuals have been named. IGAD and the African 
Union (AU) Peace and Security Council have proposed asset freezes, 
travel restrictions, and other punitive measures should Kiir and Machar 
fail to reach an agreement, and I understand that a U.N. Security 
Council resolution calling for such is in the works.

  <diamond> Is the administration planning to put additional bilateral 
        sanctions in place? In your estimation, what in addition to 
        sanctions can be done to encourage a sustainable peace 
        agreement?
  <diamond> How robustly is the administration engaging IGAD member 
        states on the imposition of sanctions? Should March 5 pass 
        without a peace agreement, do you believe the regional states, 
        particularly Kenya and Uganda, will follow through with their 
        efforts to pursue punitive measures?

    Answer. The United States has utilized its targeted sanctions 
Executive order to designate four individuals to date, two from the 
Government of South Sudan and two from opposition forces. We will 
continue to use the authority under the Executive order to hold 
accountable those who commit human rights abuses or obstruct the peace 
process, and can provide more detail on these plans in a classified 
staff briefing. This has been a necessary and effective tool to 
demonstrate the importance that the U.S. Government places on resolving 
this conflict and our commitment to hold accountable those who 
undermine peace and security in South Sudan.
    Intergovernmental Authority on Development (IGAD) regional 
leadership requested that increased external international pressure be 
brought to bear on the parties in order to support their mediation 
efforts. Based on our extensive engagement with regional leadership and 
other international partners, we drafted a U.N. Security Council 
sanctions regime that allows for asset freezes and travel bans on those 
who hinder the South Sudanese peace process or commit human rights 
violations, mirroring our own Executive order. The resolution passed 
unanimously on March 3, an important step in demonstrating the 
international community's resolve in helping end the needless suffering 
of millions of South Sudanese.
    This Security Council resolution is specifically designed to 
enhance the IGAD mediation efforts by coordinating deadlines with those 
established in the IGAD process, and to allow for the adoption of 
further punitive measures beyond targeted sanctions as deemed 
necessary. This incremental approach increases the efficacy of measures 
imposed and ensures continued buy-in and support from IGAD regional 
leaders. The resolution was designed so that the Council can gradually 
ratchet up the pressure on the parties over a period of time. According 
to the resolution, the United National Security Council will closely 
monitor the situation in South Sudan and impose calibrated measures as 
needed, including consideration of an arms embargo.

    Question. The President's Budget includes funding to support the 
``Asia Rebalance'' which among its major initiatives is the Trans-
Pacific Partnership free trade agreement. Ambassador Froman has 
repeatedly told the Congress that the agreement will have strong labor 
rights provisions in it.

  <diamond> Can you tell me how the State Department and USAID programs 
        will build the capacity of local civil society including trade 
        unions to take advantage of these provisions so as to ensure 
        that international labor standards are enforced and that gains 
        from trade are widely shared?

    Answer. Targeted technical assistance on labor issues, including 
capacity-building of trade unions to promote internationally recognized 
labor rights, supports our broader diplomatic engagement through 
bilateral and multilateral channels and is an integral part of the 
State Department's and USAID's labor diplomacy and assistance efforts. 
The State Department's Bureau of Democracy, Human Rights, and Labor 
(DRL), for instance, supports several programs in the Asia-Pacific 
region that foster the development of democratic and representative 
worker organizations as well as the promotion of internationally 
recognized labor rights. In Malaysia, DRL supports a program to empower 
migrant workers and local organizations to take effective action to 
protect and promote their rights by strengthening outreach and 
communication mechanisms; in Vietnam, DRL supports efforts to assist 
union officials, women union leaders, and workplace-level unions in 
developing the practical knowledge and skills needed to support workers 
in organizing grassroots unions. USAID is supporting labor rights and 
trade union capacity-building programming in one Trans-Pacific 
Partnership country, Mexico, through its Global Labor Program. USAID 
also is working with USTR to develop new labor programming in a second 
TPP country, Vietnam.
    Trade capacity-building programs in these areas have been key to 
supporting the implementation of previous trade agreements, in 
particular the CAFTA-DR. As we look toward the completion of the Trans-
Pacific Partnership, we anticipate growing demand for technical 
assistance on legal and institutional reform, the training of trade 
union leaders, and the training of legal experts to support trade union 
activities, among other matters. We look forward to working with 
Congress and other stakeholders to support its implementation and build 
off of the State Department's, USAID's, and the Department of Labor's 
ongoing labor diplomacy and assistance efforts.

    Question. As I look at China's track record over the past several 
years I am increasingly concerned that China's foreign policy 
orientation is not, in fact, that of a state supporting the 
international order but rather one seeking to overturn it. Whether in 
the South China Sea or in its trade practices--let alone in its human 
rights practices at home--we see a nation that is aggressively seeking 
to overturn the accepted tenets of the international system, and not 
afraid to use coercion and force to get its way.

  <diamond> How do you characterize Chinese foreign policy and assess 
        these actions that appear, in some respects, to be aggressive 
        and potentially revisionist in their tendencies?
  <diamond> How should the United States construct its approach to 
        China--including both incentives but also making clear 
        potential costs--if we hope to see the emergence of a China 
        that plays a positive and constructive role on the world stage?

    Answer. The United States welcomes the rise of a peaceful, 
prosperous China that adheres to international norms and standards. 
There are some security concerns in Asia that require our sustained 
engagement with China, however. These concerns include tension between 
China and its neighbors over territorial and maritime disputes, respect 
for human rights, and adherence to the principles of free trade. Our 
most senior leaders consistently and frankly discuss these issues with 
Chinese leaders, and the United States is clear-eyed about growing U.S. 
and regional concerns in these areas.
    The United States-China relationship contains elements of both 
cooperation and competition. The United States will continue to make 
clear and promote our values, interests and principles; work with China 
to manage our differences; and seek to build a cooperative partnership 
across the range of bilateral, regional, and global issues that 
confront us today. U.S. actions will inevitably continue to include 
both costs and incentives to shape Chinese behavior.

    Question. Given its ``whole of government'' approach to human 
rights, how is the administration preparing to raise human rights in 
the forthcoming U.S.-China Strategic and Economic Dialogue, to be held 
in Washington this June? Or in the context of Chinese President Xi 
Jinping's visit to Washington, tentatively expected in September? Have 
senior State Department officials continued to ask their Chinese 
counterparts about the individual cases President Obama raised with 
President Xi in November 2014 and if so, to what end?

    Answer. The President and the administration remain committed to 
raising human rights across the spectrum of U.S. Government engagement 
with the Chinese Government. The United States is fundamentally 
committed to the universal rights of all people--including freedom of 
speech, freedom of assembly, freedom of religion, freedom of the press, 
and freedom of expression--including online. The President believes 
that respect for these rights strengthens nations, and that respect for 
the rule of law and protection of universal human rights will enhance 
China's prosperity, security, and stability.
    Senior U.S. officials regularly raise both systemic concerns and 
individual cases with Chinese counterparts. The administration will 
continue to press for individuals such as Gao Zhisheng and Dhondup 
Wangchen to be permitted to leave China. We will continue to press for 
Nobel Peace Prize winner Liu Xiaobo to be freed from his 11-year 
sentence for ``subversion of state power.'' We also will continue to 
call for Uighur Professor Ilham Tohti's release from prison. The 
administration will continue to voice its concern for the human rights 
activists, lawyers, journalists, bloggers, and all others who have been 
arrested or detained for peacefully questioning official policies and 
actions in China.
    As is customary, the administration also will use upcoming senior-
level exchanges to press for progress on broad human rights and rule of 
law concerns, including at the U.S.-China Strategic and Economic 
Dialogue (S&ED) and President Xi's planned state visit to the United 
States later this year. Also this summer in Washington, women's rights 
will be on the agenda for the Consultation on People to People 
Exchange. Ahead of this year's S&ED, Special Advisor for Disability 
Rights Judith Heumann will host a Chinese delegation in April for the 
first U.S.-China Coordination Meeting on Disability--an agreed upon 
outcome from the 2014 S&ED. While we continue to have key differences 
with China on human rights issues, we also have demonstrated our 
ability to address these issues frankly and directly with Chinese 
counterparts, and will continue to do so.

    Question. Can you share your understanding of why President Obama 
recently chose not to meet with, or speak directly to, the Dalai Lama 
at the National Prayer Breakfast? Doesn't that undercut U.S. support 
for Tibet?

    Answer. The President has a good relationship with the Dalai Lama. 
They have met three times, including in February 2014. The President is 
a strong supporter of the Dalai Lama's teachings and preserving Tibet's 
unique religious, cultural, and linguistic traditions. The President's 
strong support was evident at the National Prayer Breakfast, where he 
acknowledged from the dais the Dalai Lama's presence and stated in his 
remarks that the Dalai Lama is ``a powerful example of what it means to 
practice compassion [who] inspires us to speak up for the dignity and 
freedom of all.''
    The President and the administration remain committed to protecting 
Tibet's distinct religious, cultural, and linguistic identity. We 
continue to urge China to resume dialogue with the Dalai Lama or his 
representatives, without preconditions. We also urge China to reform 
counterproductive policies that are a primary cause of grievances among 
Tibetans and allow Tibetans to express their grievances freely, 
publicly, and without fear of retribution. The United States also 
supports Tibet through our humanitarian assistance and educational 
exchange programs.

    Question. During the last Congress, our committee held two hearings 
on labor rights and safety practices in the Bangladesh garment 
industry. I and many others in the Congress continue to pay great 
attention to these issues as serious concerns remain. One of the things 
that we learned during the hearings is that labor rights abuses do not 
stop at one country's border but are found throughout the global 
economy and that they are not just present in one sector. Recent 
hearings held by the Chair on forced labor, trafficking, and migration 
speak to this point. My understanding is that the multiyear USAID 
Global labor program will conclude next January.

  <diamond> What is the State Department's understanding as to the 
        timing to compete a new 5-year grant? Can you assure us there 
        will be no gap between the old and new programs, and given the 
        needs that are present, and that USAID is now willing to commit 
        to funding the new award at no less than $10 million a year?

    Answer. The State Department and USAID have a strong tradition of 
supporting international labor programs designed to foster democratic 
development and inclusive economic growth. Our ongoing priorities for 
U.S. foreign assistance include the promotion of labor rights in 
context of our trade priorities. Our labor programming directly serves 
these priorities by strengthening independent and democratic trade 
unions and promoting international labor standards. USAID will release 
the solicitation for a follow-on award to USAID's current Global Labor 
Program (GLP) on a timeline that will avoid any programming gaps 
between the end of the current award and the start of the new 5-year 
GLP. The final estimated total value of the award will be determined 
based on FY15 and FY16 actual funding levels as well as projected 
future funding requests. USAID will continue robust support for global 
labor programs when the current GLP expires in January 2016.

    Question. We know that among the major administration goals in the 
coming months for Africa is the reauthorization of the Africa Growth 
and Opportunity Act which has bipartisan support in the Congress. Can 
you lay out for us how State and USAID will support the role of civil 
society to ensure the gains from this trade preference program are 
widely shared among nations that are to benefit from it. We know for 
example that only a few sectors have benefited from the program in the 
past and that with regard to the garment industry, while workers 
secured new jobs, wages, and conditions of work were often substandard.

    Answer. While we recognize that civil society must necessarily 
operate autonomously from U.S. and African Governments, the U.S. 
interagency has actively supported both American and African civil 
society, particularly labor groups, in better taking advantage of AGOA 
and ensuring labor has a strong voice. Our Trade Hubs have also been 
active in addressing African supply-side barriers and promoting 
economic diversification, value addition, and greater utilization of 
AGOA, in sectors such as shea butter, horticulture, and cut flowers. 
Trade Africa and USAID's East Africa Trade Hub, with input from the 
private sector, has already helped to lower trade barriers, promote 
investment in regionally interlinked infrastructure, and streamlined 
regional border administration to facilitate increased exports from the 
East African Community (EAC). On February 28 the United States and EAC 
member states signed a technical cooperation agreement that provides 
for U.S. Government assistance to harmonize agricultural and industrial 
trade standards and implement the WTO Trade Facilitation Agreement, and 
agreed to negotiate their first ever Regional Investment Treaty. As 
announced at the U.S.-Africa Leaders summit, we are further enhancing 
trade and investment capacity-building (TICB) to support trade 
facilitation and export growth through Trade Africa and our regional 
trade hubs.
    The Department of State coordinates closely with the Department of 
Labor and USTR on a whole-of-government effort to monitor respect for 
workers' freedom of association and assembly, child labor, the vestiges 
of slavery, and human trafficking in AGOA member countries. In the last 
year the team has visited Swaziland, Niger, and Mauritania, engaging 
intensely with host government decisionmakers and labor unions to 
develop benchmarks for progress toward better fulfilment of AGOA's 
labor-related criteria. We have seen success in Niger, where the 
government has taken concrete action to prosecute instances of slavery 
and provide legal and material redress for former victims. Swaziland 
was suspended from AGOA last year due to the government's failure to 
take committed action to fully implement the benchmarks we had laid out 
over the course of more than a year addressing workers' freedom of 
association. We continue to engage with these and other governments via 
our Ambassadors and Labor Officers in the field. State's Office of 
International Labor Affairs (ILA) in the Democracy, Human Rights, and 
Labor (DRL) bureau funds various civil society organizations to 
implement projects aimed at addressing labor rights violations in AGOA 
beneficiary countries, raising awareness among all stakeholders about 
AGOA eligibility criteria, developing trade union leadership capacity, 
and encouraging beneficiary countries to adhere to the statutory AGOA 
requirements. DRL/ILA also coordinates annually with the American AGOA 
Civil Society Network in the United States to organize civil society 
side events at the annual AGOA Forum, where a range of topics relevant 
to benefiting from AGOA are discussed, resulting in better-informed 
AGOA stakeholders.
    As USAID's trade programs have matured and expanded, the agency has 
prioritized building industry alliances, such as the African Cotton & 
Textile Industries Federation, African Cashew Alliance, and Global Shea 
Alliance, which have implemented certification schemes for standards 
such as quality, organic, labor, women-owned, etc. State, USAID, and 
Commerce have coordinated on efforts to bring African suppliers to U.S. 
trade shows and facilitate matchmaking with potential U.S. customers. 
USAID continues to subsidize the cost of bringing qualified and vetted 
African civil society leaders to the AGOA Forum each year as resources 
permit, and helps to facilitate dialogue between U.S. and African civil 
society, especially in the lead-up to the civil society side event at 
the Forum. At this year's Forum, we plan to address the needs 
articulated by African and American civil society with concrete 
programming to facilitate business matchmaking, professional 
networking, better design and marketing to the U.S. consumer, and 
navigation of U.S. import regulations, in order to help drive increased 
African utilization of AGOA. We also plan to address labor standards at 
the Forum, and have already solicited input from civil society 
stakeholders such as the ILO, Solidarity Center, the Global Fairness 
Initiative, and the International Labor Rights Forum.
    State's African Affairs Bureau engages frequently with the American 
AGOA Civil Society Network to share information, promote action and 
input toward the renewal of AGOA, and solicit feedback. We will host 
members, in particular small, minority-owned, and diaspora businesses 
at an event March 27 to promote awareness of, and participation in, the 
AGOA Forum. We also regularly convene African civil society 
stakeholders with their American counterparts via digital video 
conference in order to facilitate dialogue and planning for the civil 
society component of the AGOA Forum.
    State has also driven the impressive growth of the African Women's 
Entrepreneurship Program, AWEP, through visitor exchange programs, 
public-private mentoring and supplier development initiatives, and 
expert speaker programs, with excellent results in terms of diversified 
sales, impactful business networking, and healthy profits for the women 
members.
    The concerns of African civil society are taken into consideration 
during the annual AGOA eligibility review process, and the U.S. 
Government requests countries that are not meeting the AGOA standards 
to develop a plan to address and correct those issues. Last year 
several warning letters and demarches were delivered to AGOA countries 
to convey U.S. Government concerns about political pluralism; human 
rights, including equal protection for LGBT citizens; and freedom of 
assembly and expression for workers and other citizens. The U.S. 
Government regularly meets with trade unionists, civil society, 
journalists, and opposition members throughout the year to monitor and 
measure AGOA governments' commitment to upholding the AGOA criteria.

    Question. U.N. humanitarian agencies are currently dealing with a 
number of emergency situations around the world. In addition to their 
ongoing work in Syria, South Sudan, and the Central African Republic, 
the U.N. is also working to reach hundreds of thousands of civilians 
who have been displaced this year by violence in Iraq.

  <diamond> Given the current strains on the U.N. humanitarian system 
        caused by these crises, can you describe how the United States 
        is working to support them in their work, and what are the 
        current funding shortfalls in these crises? What gaps are not 
        being met in these emergency situations and what more can we do 
        to ensure a robust global response?

    Answer. The U.S. Government is the largest single donor to global 
humanitarian needs, providing over $6 billion in FY 2014 in 
humanitarian assistance to the U.N. and other international and 
nongovernmental partners for needs around the world. While generous 
congressional appropriations have allowed the USG to respond to an 
unprecedented number of mega-crises, global needs continue to rise. In 
2014, U.N. appeals, which are based on assessments of humanitarian 
need, totaled nearly $17 billion, the highest total ever.
    Despite strong USG financial support, the international community 
faces significant challenges. In 2014 some of the U.N.'s largest 
operations were only partially funded. For example:

  <bullet> In Syria, 2014 appeals were only 58 percent funded;
  <bullet> 2014 appeals for South Sudan were 54 percent funded;
  <bullet> The 2014/2015 Iraq Strategic Response Plan is only 38 
        percent funded; and
  <bullet> 2014 appeals for the Central African Republic were 71 
        percent funded.

Funding shortfalls translate into insufficient shelter and food, and 
limited provision of health services, education, and livelihoods 
opportunities for people displaced by conflict.
    Cultivating new donors is crucial to making a dent in underfunded 
U.N. appeals. The USG has ramped up outreach to potential donors. After 
several years of diplomatic engagement, the State Department and USAID 
are pleased to see the Gulf States making sizeable contributions to 
U.N. agencies to support L3 crises. In 2014, Kuwait hosted a second 
Syria pledging conference and contributed $300 million; a third 
conference will be held on March 31, 2015. The UAE pledged and 
contributed $60 million to the U.N. for Syria last year. Saudi Arabia 
has contributed $500 million to the U.N. for the crisis inside Iraq.
    In addition to providing significant financial resources, the USG 
has been a leader in working with other donors to strengthen leadership 
and coordination within and among U.N. organizations to improve the 
overall response to these crises. Through our influence on U.N. 
executive boards, we urge U.N. agencies to implement their 
responsibilities under the ``Transformative Agenda'' aimed broadly at 
improving coordination and overall effectiveness. For example, we have 
championed efforts to reform and improve the U.N. Humanitarian 
Coordinator system so that the most effective and qualified leaders are 
deployed. Similarly, the USG is strengthening partnerships with local 
and national NGOs, particularly in places where international NGOs face 
serious barriers to operating.

    Question. On November 2014, the Government Accountability Office 
published a report on efforts to combat trafficking on U.S. Government 
contracts overseas--``Human Trafficking: Oversight of Contractors' Use 
of Foreign Workers in High-Risk Environments Needs to Be 
Strengthened.'' GAO investigators spoke to migrant workers on U.S. 
contracts overseas who had paid an equivalent of 1 year's wages to 
unsavory recruiters in order to secure their jobs.

  <diamond> (a) How does the Department of State ensure that U.S. 
        Government contracts overseas are not used as a vehicle for 
        trafficking workers?

    Answer (a). The State Department takes seriously its responsibility 
to ensure that its contracts overseas are not being used as a vehicle 
for trafficking workers. Since 2011, the State Department has issued 
Procurement Information Bulletins (PIBs) to provide guidance to its 
Contracting Officers (COs) and Contracting Officer Representatives 
(CORs) on how to monitor contracts for compliance with antitrafficking 
provisions, and it has enhanced its training as well. The State 
Department and the Department of Homeland Security developed online 
training for acquisition professionals across the U.S. Government; a 
35-minute course is currently available on the Federal Acquisition 
Institute's Web site. (Federal agencies are working to update this 
training now that the FAR rule implementing Executive Order 13627, 
Strengthening Protections Against Trafficking in Persons in Federal 
Contracts (E.O. 13627), has been released.)
    The State Department revised its COR course to include a detailed 
discussion on COR responsibilities for managing antitrafficking 
requirements, and updated its COR Handbook in the Foreign Affairs 
Handbook to reflect these requirements. A webinar on preventing 
trafficking in persons was developed specifically to target posts 
identified by the GAO as needing additional guidance.
    The State Department strengthened contract review and staff review 
of procurement files at posts during periodic visits to verify that an 
antitrafficking clause is included. Contracts sent to Washington from 
posts for approval are reviewed by Washington staff for inclusion of 
the antitrafficking clause.
    The State Department was an early advocate of prohibiting the 
charging of recruitment fees to employees because of the potential for 
abuse. This prohibition was incorporated into E.O. 13627. The Federal 
Acquisition Regulation rule implementing E.O. 13627, and similar 
provisions in laws make clear that federal contractors and 
subcontractors (and their employees) are prohibited from deceiving 
employees about key terms and conditions of employment; charging 
employees' recruitment fees; and denying employees' access to identity 
documents. They are also prohibited from using forced labor and from 
procuring commercial sex acts during the period of the performance of a 
contract or subcontract. Federal contractors performing work outside of 
the United States worth over $500,000 need to maintain compliance plans 
and certify to the best of their knowledge that neither they, nor any 
of their subcontractors, have engaged in trafficking or trafficking-
related activities. The State Department was instrumental in 
implementing the GAO report's recommendation to define recruitment fees 
more clearly through the development of a new government-wide FAR 
definition. That change will be promulgated through a pending FAR case.
    Finally, the U.S. Government is using all available tools to better 
assist procurement officers, federal contractors, and other interested 
corporations. For example, this includes a global project the State 
Department has funded to Verite, an award-winning labor rights NGO, to 
research the key sectors and commodities at risk for human trafficking, 
draft an extensive report summarizing its findings, and develop a set 
of online, public-facing tools. These resources will enable federal 
contractors and other businesses to adopt responsible sourcing 
guidelines and compliance plans that align with E.O. 13627, and will be 
available in 2015.

  <diamond> (b) How is the Department of State working with transit 
        countries, such as in the Middle East and the gulf, to improve 
        conditions for workers and oversight of contractors recruiting 
        and employing workers in these countries? How much funding is 
        the Department of State providing to these efforts?

    Answer (b). It is the responsibility of governments to hold 
employers accountable for adhering to labor laws and prevent the 
trafficking of workers. Visa sponsorship systems, including the kafala 
system in effect in many countries in the Middle East, can place 
significant leverage in the hands of employers and recruitment agencies 
and create the potential for exploitation. Additionally, labor laws in 
many parts of the region do not fully apply to migrant workers, in 
particular migrant domestic workers. The Department continues to 
encourage governments to pursue reforms of such systems and labor laws. 
Some governments in the region have announced plans to make such 
reforms. The Department also continues to encourage governments to 
better enforce existing laws that prohibit employers from withholding 
workers' passports and restricting workers' movements, including by 
denying exit visas, as a means of preventing trafficking abuses.
    In 2012, sending and receiving countries agreed--through the Abu 
Dhabi Dialogue, a collaboration between gulf countries and South and 
Southeast Asian nations involved in the Colombo Process--to a framework 
that aims to increase intergovernmental partnerships in a number of 
areas, including through guidelines on labor recruitment, enforcement 
of labor standards, and training and support throughout the migration 
process. The Bureau of Democracy, Human Rights, and Labor (DRL) funds 
technical assistance efforts to improve labor governance and respect 
for internationally recognized worker rights as a key part of 
preventing extreme abuses, such as trafficking in persons. DRL funds a 
$2.5 million, multicountry, regional program in the Middle East to 
strengthen workers' organizations through social, economic, and legal 
literacy and is reviewing submissions for a $500,000 labor migration 
program to protect the human and labor rights of workers migrating from 
the Asia-Pacific Region to the gulf.
    The Office to Monitor and Combat Trafficking in Persons (TIP 
Office) is currently providing $500,000 to the American Center for 
International Labor Solidarity (Solidarity Center) to implement a 2-
year project in Jordan to reduce the risk of forced labor for 
vulnerable migrant workers in the textile and domestic work sectors. 
The program links a rights-based approach to victim protection and 
partners with trade unions in the key sectors to conduct outreach and 
education activities to identify victims, to create effective referral 
networks for services, and to advocate for improved migrant worker 
legal protections, increased prosecutions, and enhanced prevention 
efforts.
    The TIP Office also funds the Daem Observatory for Consultation and 
Training ($650,000) to implement a 3-year project in Jordan to increase 
the protection of vulnerable migrant workers. The project is analyzing 
existing antitrafficking frameworks and drafting recommendations to 
enhance protections for migrant workers, conducting awareness and 
capacity-building activities, and providing direct services to victims. 
Additionally, DRL provides $198,000 in funding for an ILO project that 
works to protect the rights of migrant workers through organizing, 
empowerment activities, enhanced cooperation and trade union support in 
several countries, including Nepal.
    In Nepal, USAID is funding a 5-year project that includes creating 
Safe Migration Networks and training Network members to increase their 
ability to promote safe migration. The Department has coordinated with 
other government and private donors to enhance use of foreign 
assistance funding and reduce duplication--to more effectively work 
toward ending these practices that contribute to human trafficking from 
the region.

  <diamond> (c) How is the Department of State working with its 
        partners to strengthen source country policies, such as in 
        Bangladesh and Nepal, including the regulation of recruiting 
        agencies?

    Answer (c). In source countries, the Department advocates, as a key 
priority, that governments sharply reduce and eventually prohibit 
recruitment fees charged to workers and criminally prosecute those 
suspected of fraudulent recruitment--two practices that increase the 
vulnerability of migrant workers to forced labor. The Department also 
advocates for governments to take action to ensure that those intending 
to migrate for work are informed of their rights and protected 
throughout the migration process. The Department is currently exploring 
ways to empower sending countries to have more leverage to protect 
their workers overseas, for example through effective and transparent 
MOUs.
    Programmatically, the Department targets foreign assistance 
programming toward these objectives. In Bangladesh, the TIP Office is 
funding the Solidarity Center, which in partnership with local 
implementing partners has integrated basic antitrafficking training 
into the curriculum of the Dhaka Technical Training Center for Migrant 
Workers, disseminating valuable information on the rights and 
obligation of migrant workers, the telltale signs of trafficking, and 
mechanisms for recourse if they find themselves in exploitative and 
abusive situations overseas. Every month an estimated 1,000 migrant 
workers receive such training, and so far more than 7,000 migrant 
workers have benefited from the program.
    DRL is reviewing submissions for a program in Bangladesh that will 
promote core labor standards, including freedom of association and 
occupational safety and health, and raise the standard of living and 
promote inclusive economic growth for all Bangladeshi citizens. 
Additionally, DRL provides $198,000 in funding for a program that works 
to protect the rights of migrant workers through organizing, 
empowerment activities, enhanced cooperation and trade union support in 
several countries, including Nepal.
    In Nepal, USAID is funding a 5-year project that includes creating 
Safe Migration Networks and training Network members to increase their 
ability to promote safe migration. The Department has coordinated with 
other government and private donors to enhance use of foreign 
assistance funding and reduce duplication--to more effectively work 
toward ending these practices that contribute to human trafficking from 
the region.

  <diamond> (d) How much funding is the Department of State providing 
        to programs working in source countries to address these 
        issues?

    Answer (d). The TIP Office is currently providing more than 
$3,650,000 to fund programs in source countries aimed at strengthening 
governments' antitrafficking policies, including on policies that 
address the regulation of recruiting agencies.

  <bullet> South and Central Asia Region:

      <all>  $500,000 to Solidarity Center for work in Bangladesh, and
      <all>  $450,000 to IOM for work in Sri Lanka.

  <bullet> Africa Region:

      <all>  $500,000 to IOM for work in Ethiopia;
      <all>  $750,000 to UNODC for regional work with Southern African 
            Development Community (SADC) Member States;
      <all>  Global Programs (Projects to Implement the Executive order 
            re Supply Chains): $500,000 to ILO for work on global 
            recruitment;
      <all>  $500,000 to UNODC for work on global recruitment; and
      <all>  $1,400,000 to Verite for work on supply chains and global 
            recruitment.

    DRL funds programs to protect the rights of migrant workers in the 
following source countries through worker organizing, empowerment 
activities, enhanced cooperation, and trade union support:

  <bullet> Southeast and South and Central Asia Regions:

      <all>  $495,000 for activities in Vietnam, Cambodia, Burma, and 
            Laos, and
      <all>  $198,000 for activities in Indonesia, Burma, and Nepal.

    Question. How are we utilizing our humanitarian assistance dollars 
to graduate programs from relief to early recovery, particularly in 
chronic crises such as DRC and Sudan? Throughout the Obama 
administration, OMB has been advocating for greater emphasis on relief 
to development transitions (RTDT) to increase the efficiency of U.S. 
assistance dollars. In chronic crises such as DRC and Sudan (two of the 
largest recipients of U.S. humanitarian assistance in Africa over the 
last decade), we need to be shifting toward resilience building efforts 
that start to change the status quo rather than repeating the same 
humanitarian interventions year after year. How are we doing this?

  <diamond> In DRC specifically, do USAID and State have the funding 
        necessary to implement their new country strategy? What could 
        Congress do to be more supportive of the new mission strategy?

    Answer. The State Department's Office of U.S. Foreign Assistance 
Resources and USAID's Bureau of Resource Management work together to 
identify U.S. aid recipient countries ripe for Relief to Development 
Transitions (R2DT). These countries receive humanitarian assistance 
coupled with forward-leaning developmental assistance in underserved 
areas.
Sudan
    The Special Envoy for Sudan and South Sudan, Ambassador Donald 
Booth, has pressed the Sudanese Government and the armed and unarmed 
opposition to reach a negotiated resolution to Sudan's conflicts. The 
African Union High Level Implementation Panel's (AUHIP) ``one process, 
two tracks'' mediation presents the best opportunity to secure 
synchronized Cessations of Hostilities (CoH) agreements in Darfur and 
the ``Two Areas'' (Southern Kordofan and Blue Nile States) which would 
open the way to a fuller discussion of the root causes of Sudan's 
conflicts, of political and economic reform, and of national identity 
through an inclusive and comprehensive National Dialogue. We continue 
to encourage the political leadership to deliver on their promise of a 
genuine, holistic, and truly inclusive dialogue that will include the 
armed and unarmed opposition, as well as civil society.
    Even as we pursue peace, conflict continues in Darfur and the Two 
Areas. For this reason, the U.S. Government continues to provide 
lifesaving humanitarian assistance to people in need.
    The humanitarian environment in Darfur has deteriorated over the 
past 2 years. Conflict between government forces and armed groups, as 
well as intercommunal conflict over limited resources, forced more than 
450,000 people from their homes in Darfur in 2014, bringing the total 
number of internally displaced persons (IDPs) to over 2.5 million. We 
also remain gravely concerned about the worsening humanitarian 
situation in the Two Areas, where hundreds of thousands of Sudanese 
have been displaced and over 1.7 million people are in dire need of 
humanitarian assistance.
    Increased conflict and insecurity have diminished optimism and the 
chances for early recovery in Sudan. Nevertheless, USAID will continue 
to support efficient, feasible, and appropriate early recovery 
activities. Most of these will be small-scale and build on established 
activities in areas that are secure and accessible.
Democratic Republic of the Congo
    In the DRC, USAID and State are implementing a new country 
strategy. It seeks to build a durable peace in eastern DRC by 
identifying solutions to specific drivers of conflict, fostering 
stability, and providing humanitarian aid and protection programs where 
still needed.
    The persistent insecurity in eastern DRC has forced almost 440,000 
refugees 
and more than 2.7 million IDPs to flee over the last two decades. The 
Congolese Armed Forces have started the final campaign to disarm and 
eradicate rebel groups, namely the Democratic Forces for the Liberation 
of Rwanda (FDLR), operating in the region. The fighting may take place 
near areas inhabited by unarmed civilian populations, posing a threat 
to refugees in the region. Moving Rwandan civilian refugees from FDLR-
controlled territory would protect them and weaken the FDLR's false 
claim to be defending them. To protect vulnerable populations, the 
State Department's Bureau of Population, Refugees, and Migration (PRM) 
is supporting the U.N. High Commissioner for Refugees' (UNHCR) program 
to register and accelerate the voluntary repatriation of Rwandan 
refugees in the east. In addition, State/PRM directly contributes to 
UNHCR's and the International Committee of the Red Cross' country-wide 
efforts to protect and aid refugees, refugee returnees, IDPs, and other 
victims of conflict.
    Though the Congolese Government has made gains in eliminating some 
of the causes of instability in the region, coordinated and targeted 
humanitarian programs will help set a solid foundation for a successful 
transition to economic development. The United States and the 
international community, in support of the Congolese Government, must 
remain engaged to ensure that security prevails in the region and that 
civilians can resume their lives in a safe and stable environment.

    Question. Funding.--How much funding are the Department of State 
and USAID committing to atrocities prevention programming globally? 
Which offices and bureaus implement this funding and how?

    Question. The FY 2016 State/USAID Request includes support for 
atrocity prevention and response programs. Funding to address these 
important efforts is incorporated within both bilaterally budgeted and 
centrally managed programs that target prevention, response, and 
recovery, which makes it difficult to disaggregate a specific funding 
request for atrocity prevention programs. Programs are context-specific 
and may be included within those that advance security sector reform; 
support peacekeeping operations; build law enforcement capacity; 
provide humanitarian assistance; promote conflict prevention, 
mitigation, and resolution; support post-conflict stabilization and 
reconstruction; and strengthen the democratic institutions and 
processes that help to ensure good governance, citizen participation, 
and redress of grievances that might otherwise lead to violent 
conflict. Conflict mitigation, human rights monitoring, and atrocity 
prevention programs are integrated into these activities as 
appropriate. In addition to these planned and ongoing efforts, State/
USAID contingency resources provide a mechanism to respond to, emerging 
needs, unanticipated crises, and critical periods of transition. 
Precise funding levels for atrocity prevention from contingency 
accounts are not determined in advance due to the unknown, specific 
needs.
    The State Under Secretary of Civilian Security, Democracy, and 
Human Rights (J), the J bureaus, and USAID's Bureau of Democracy, 
Conflict, and Humanitarian Assistance (USAID/DCHA) constantly work to 
integrate atrocity risk assessment, prevention, and early warning 
systems work with technical leadership in conflict management and 
mitigation assistance. An example of recent atrocity prevention 
programming is the almost $5 million of FY 2014 CCF provided for 
Burundi. The programs were designed to discourage political violence 
and provide a counterweight to political parties' manipulation of 
Burundian youth through the promotion of leadership and constructive 
engagement for youth in their communities.
    As part of a comprehensive strategy to improve foresight, 
prevention, and response to mass atrocities, the Department also leads 
quarterly consultations with senior staff of the U.N. Secretariat and 
ongoing diplomatic efforts during U.N. Security Council and Human 
Rights Council sessions to work with member states and seek to better 
protect civilian populations, including by strengthening the capacity 
of the U.N. system to prevent and respond to atrocities, and by 
improving women's participation in political transitions to reinforce 
their contributions to atrocity prevention.

    Question. Diplomatic Training.--What training is in place to train 
our Foreign Service officers as it relates to atrocities detection, 
early warning, and prevention, including materials available through 
the Foreign Service Institute?

    Answer. The FSI courses listed below include training on atrocities 
detection, early warning, and prevention.

  <bullet> A 2-day classroom course on the protection of civilians and 
        atrocity prevention within a multilateral framework. The 
        course, ``Policy Priorities in Multilateral Diplomacy: The 
        Prevention of Genocide and Mass Atrocities (PP230),'' responds 
        directly to Presidential Study Directive 10 on the Prevention 
        of Mass Atrocities and Genocide, and the QDDR.
  <bullet> A 5-day classroom course titled ``Promoting Human Rights and 
        Democracy (PP530).'' This course focuses on broad range of 
        human rights issues, including atrocity prevention. The 
        training includes a half-day training exercise called 
        ``Shrouded Horizons.'' Developed by the National Defense 
        University, this experiential exercise focuses on an escalating 
        ethnic conflict in two fictitious countries. Participants work 
        collaboratively to identify tools/strategies for U.S. 
        engagement, mobilize effective international action, prevent 
        mass atrocities and reduce the risk of a growing humanitarian 
        crisis.
  <bullet> A 4-day classroom course on ``Diplomacy at High Threat Posts 
        (RS251).'' Many of the designated high threat/high risks posts 
        are similarly on the watch lists for potential mass atrocities. 
        As part of this course, designed to prepare personnel for 
        service in high threat/high risk posts, FSI incorporates 
        instruction on the mass atrocities prevention board, warning 
        signs, and techniques for identifying the potential for mass 
        atrocities.

    Question. President Obama released the PSD-10 in 2011. What 
elements of the directive have been implemented? What has yet to be 
implemented?

    Answer. Since the release of PSD-10, a number of elements of the 
directive have been implemented, including the establishment of the 
interagency Atrocities Prevention Board (APB). Since the Board first 
convened in April 2012, State and USAID have helped oversee a number of 
lines of effort in support of PSD-10, including:

  <bullet> Building our civilian surge capacity and enhancing our 
        bilateral and multilateral partnerships for purposes related to 
        atrocities prevention. For example, we have established 
        quarterly dialogues with U.N. partners, including the U.N. 
        Office for the High Commissioner for Human Rights, and with 
        civil society partners, including the Prevention and Protection 
        Working Group.
  <bullet> The development of an atrocity assessment framework tool for 
        decisionmakers and field officers to analyze and understand the 
        atrocity risk factors and dynamics that could lead to 
        atrocities.
  <bullet> The piloting of a system to ensure that lessons-learned 
        reviews are performed following any significant mass atrocity 
        prevention or response engagement.
  <bullet> New training modules to existing curricula at the State 
        Department and a library of resources on atrocities prevention, 
        including lessons learned from past cases. A new online 
        training, which will be required for all USAID technical 
        officers working in high-risk countries, as well as a field 
        guidance manual.
  <bullet> Increased authority to offer financial rewards for 
        information leading to the arrest or conviction of persons 
        indicted by international criminal tribunals for atrocities, 
        thanks to bipartisan legislation signed by the President in 
        2013, which expanded the War Crimes Rewards Program.
  <bullet> The launch of a technology challenge to identify innovative 
        uses of technology in the service of atrocity prevention.
  <bullet> There is still significant work to be done. State and USAID 
        are continuing to work to reduce atrocity risk in a targeted 
        set of countries through robust diplomatic engagement with our 
        bilateral and multilateral partners, as well as programmatic 
        interventions focused on reducing risk and building 
        resiliencies in communities where risks are present. We also 
        continue to institutionalize atrocities prevention by expanding 
        our tools, lessons learned, and training opportunities for 
        those officers in countries at risk.

    Question. What early warning systems to mitigate potential mass 
atrocities are in place across the agencies?

    Answer. To identify emerging risks, the Atrocities Prevention Board 
(APB) relies upon a range of resources to identify countries at 
different levels of risk and assess opportunities for impact. The 
National Intelligence Estimate on the Global Risk of Mass Atrocities 
(and Prospects for International Response), completed in 2013, and 
other resources provides a rigorous analytical framework that allows 
the Board to anticipate and prepare for mass atrocities in the coming 
years.
    The State Department shares concerns and raises awareness about 
countries at risk across the most appropriate channels of government. 
The State Department and USAID have also developed an atrocities 
assessment framework, which helps identify and assess countries at 
risk. In addition, we have developed training specifically aimed at 
sensitizing officers to early warning signs for atrocities. As in other 
agencies, channels have been identified to allow Department officials 
in the field or in Washington to share relevant unreported information 
about mass atrocity risks with others in the Department and with 
interagency colleagues.
    Outside of the U.S. Government, we have strong relationships with 
partner nations, the U.N., and the NGO community to share resources, 
tools, and information on atrocity prevention and countries of concern. 
The State Department has been the focal point for U.S. Government 
support of the U.N.'s Human Rights up Front initiative, which aims at 
improving the U.N.'s capacity to assess and respond to risks of mass 
atrocities. The State Department and USAID also meet quarterly with the 
NGO community to discuss countries and situations of concern and to 
share early warning information, to the extent possible.

    Question. Aside from the Atrocities Prevention Board as an 
interagency process, how is the U.S. Government collaborating across 
agencies to undertake early warning and prevention programming?

    Answer. State and USAID collaborate across agencies to develop 
joint assessments of countries at risk for atrocities and plans that 
respond to this risk. Agencies play an important role in helping U.S. 
missions identify the ways in which existing policies and programs may 
be used to support prevention in specific contexts. This whole-of-
government approach has resulted in more comprehensive early warning 
and prevention programming since we have access to information about 
risk from different agencies. For example, State and USAID coordinate 
closely to identify diplomatic engagement and programming on the ground 
that is complementary. The Intelligence Community assists with analytic 
support; DOD provides support relating to the security sector, and DOJ 
the justice sector.

    Question. How is the State Department utilizing money appropriated 
to the Complex Crises Fund through Overseas Contingency Operations to 
address unforeseen crises, particularly the prevention of atrocities 
and violent conflict?

    Answer. The $20 million in FY 2014 funding and $30 million in FY 
2015 funding Congress appropriated to the Department of State in the 
Complex Crises Fund (CCF) account via the Overseas Contingency 
Operations (OCO) title has been held in reserve with funds from other 
accounts to support the U.S. Government's response to unanticipated 
contingencies and opportunities where additional resources are needed 
to achieve important foreign policy, development, or national security 
objectives. In the past, we have used such reserves to enable a quick 
response to crises, for example, emergency peacekeeping requirements in 
Mali, the Central African Republic, and South Sudan; immediate 
reconstruction needs in the Philippines following Typhoon Haiyan; and 
loan guarantees for Jordan and Ukraine.
    The Department's intention is to use the FY 2014 and FY 2015 CCF 
resources held in reserve consistent with the purposes of this account. 
We are in the process of making final deliberations on the disposition 
of the FY 2014 funds and intend to notify Congress in the near future 
regarding the programs they will be used to fund.

    Question. With the high-level prioritization on preventing violent 
extremism, how does the State Department see this work intersecting 
with the prevention of mass atrocities, recognizing that the drivers of 
conflict are often the same? How are you working to ensure that both 
are being prioritized?

    Answer. The State Department views violent extremism and mass 
atrocities as overlapping areas of concern that often share many of the 
same underlying drivers. Both challenges are best addressed through a 
preventive approach that mitigates the underlying conditions that give 
rise to these problems before they grow and spread. We are working to 
hone our understanding of the drivers of extremism and atrocities in a 
wide range of countries, and to implement targeted, effective 
interventions to prevent and mitigate them, whether these acts are 
motivated by religious beliefs, ethnic or other political conflict, or 
other factors.
    Both issues are priorities of the President and the Department, and 
our work on both is coordinated closely among the relevant bureaus, 
particularly the country-specific experts and the functional bureaus 
focused on various aspects of these prevention challenges. The 
existence of policy processes and mechanisms focused on each of these 
distinct, but related, challenges helps us ensure we do not neglect 
either in a given country or region.
    Our atrocities prevention agenda is advanced at the interagency 
level through the whole-of-government Atrocities Prevention Board, 
which helps us ensure that emerging risks are given appropriate 
attention and consideration, as well as through numerous efforts within 
State and USAID to reduce risk in a targeted set of countries and to 
institutionalize atrocities prevention in our agencies through the 
development of tools, lessons learned, and training.
    Building on the success of the White House summit in February, 
preventing violent extremism is being prioritized through the 
international action agenda launched by delegates from more than 60 
governments, civil society representatives from more than 50 countries, 
and more than two dozen private sector leaders. This process is 
building toward a Leaders' summit on the margins of the U.N. General 
Assembly, where heads of governments, organizations, and corporations 
will announce the programs and policies they have undertaken to address 
the drivers of violent extremism and implement the action agenda.

    Question. The new National Security Strategy elevates the need to 
increase U.S. efforts to ``Build U.S. Capacity to Prevent Conflict'' 
and highlights conflict prevention as a core pillar of U.S. foreign 
policy. Does the FY 2016 budget request increase funding for conflict 
prevention? What bureaus or offices are primarily responsible for 
elevating the U.S. efforts to ``Build U.S. Capacity to Prevent 
Conflict?

    Answer. Our FY 2016 request of $342.6 million for conflict 
mitigation and reconciliation is an increase of $101.5 million (42 
percent) above the FY 2014 level of $241.1 million, which reflects the 
administration's increased support for conflict prevention. The request 
includes funding in the Complex Crises Fund, Development Assistance, 
Economic Support Fund, and Transition Initiatives accounts. There are 
large increases requested for Burma, Central Asia, Democratic Republic 
of Congo, Georgia, Lebanon, Somalia, Syria, and Ukraine, countries at 
elevated risk of conflict.
    The Under Secretary for Civilian Security, Democracy and Human 
Rights (J) and constituent bureaus, along with USAID's Bureau for 
Democracy, Conflict and Humanitarian Assistance (DCHA), have primary 
responsibility for U.S. Government efforts in building capacity to 
prevent conflict. The Quadrennial Diplomacy and Development review 
specifically created the Bureau of Conflict and Stabilization 
Operations (CSO)--part of the J family--to advance conflict prevention, 
including analysis and planning, in support of U.S. policy and program 
development. Mass atrocity prevention is a special area of focus. State 
and USAID conflict prevention efforts, as requested in FY 2016, advance 
U.S. national security by breaking cycles of violent conflict and 
mitigating crises in priority countries, aiming to address the 
underlying causes of destabilizing violence. Conflict prevention is a 
key pillar of our work, and reinforces effectiveness in other security 
challenges ranging from human trafficking to preventing and combating 
violent extremism.

    Question. In FY14, the U.S. Government mobilized a rapid and robust 
response to prevent mass atrocities against civilians in the Central 
African Republic under the auspices of Presidential Study Directive-10 
to Prevent Genocide and Mass Atrocities (PSD-10). I am concerned that 
U.S. attention to CAR has waned and that if efforts are not sustained 
in this critical transition period, the Congress will be asked to once 
again mobilize huge amounts of resources to prevent atrocities and save 
human lives.

  <diamond> How are we sustaining engagement in the Central African 
        Republic to ensure that we build the foundations necessary for 
        sustainable recovery once and for all?

    Answer. Our national interest is in seeing the Central African 
Republic (CAR) become a stable, well-governed regional partner whose 
citizens live in peace with one another and without the specter of 
violence and hate has intensified, not waned. We are working with the 
people and leaders of CAR and other international partners to stabilize 
the country and put it on a trajectory toward long-term recovery and 
prosperity, understanding that this effort requires helping CAR to 
tackle the root causes of conflict, including intolerance and impunity, 
lack of governance, and lack of economic development.
    In support of these goals, we resumed operations at U.S. Embassy 
Bangui in September 2014, after American staff had been absent for 
almost 2 years due to security concerns. Our Embassy plays a key role 
in establishing contacts and engaging with the CAR Government and 
political, religious, civil society, and business leaders to promote 
national reconciliation, a democratic political transition process, and 
economic revitalization. In addition, senior U.S. Government leaders 
remain closely engaged in CAR, including through the U.S. Special 
Representative for the Central African Republic. USUN Ambassador 
Samantha Power has visited the country and other high-level visits are 
anticipated in the near future.
    Major U.S. investments in humanitarian aid and peacekeeping support 
in CAR have already saved lives, alleviated human suffering, and helped 
address the current crisis. In FY 2014 and 2015, the United States 
provided $195.7 million in humanitarian aid to address the CAR crisis. 
We have provided $100 million to support the force contributing 
countries of the Multidimensional Integrated Stabilization Mission in 
CAR (MINUSCA), in addition to our assessed contributions for the 
mission.
    To promote longer term national reconciliation and good governance, 
we have invested $7.5 million in local-level peacebuilding and 
community cohesion work to help reknit the communal ties that once held 
disparate communities in CAR together. We have invested over $600,000 
to support and expand the courageous work of CAR's faith leaders, who 
have come together across religious lines to advocate for peace and 
tolerance. We have dedicated $7 million to a CAR peace-building 
partnership that will leverage additional private sector funding for 
community-level peace and reconciliation work. We are investing $15.5 
million to help reestablish CAR's criminal justice system, including 
bolstering its capacity to address sexual and gender based violence. We 
will continue to support CAR's planning for and execution of security 
sector reform.
    To support accountability and avoid repeating the long history of 
impunity that has contributed to cycles of violence in CAR, the United 
States supported the establishment of a U.N. Commission of Inquiry, and 
supports the urgent consideration by the CAR Government of legislation 
which would establish a domestic Special Penal Court to investigate and 
hold accountable those responsible for war crimes, crimes against 
humanity, and genocide.
    I note that the Prosecutor of the International Criminal Court 
(ICC), at the request of national authorities, will investigate 
atrocities allegedly committed in the country since August 2012. The 
United States has also implemented U.N. Security Council and targeted 
U.S. sanctions against key individuals responsible for obstructing the 
political process and violating human rights. These sanctions send a 
powerful message that impunity will not be tolerated and that those who 
threaten the stability of the CAR will face consequences.
    To help support the political transition process leading to 
elections, we have provided $300,000 to help CAR implement needed 
technical fixes to its electoral code. A separate $300,000 program is 
helping ensure that CAR's constitutional reform efforts--another key 
element of the transition process--are as inclusive as possible.
    We will continue to work with CAR and its international partners to 
ensure that while addressing the crisis and saving lives, we help CAR 
build the foundations for sustainable peace and prosperity by 
addressing the underlying drivers of conflict.

    Question. Embassy Management.--Agencies operating overseas continue 
to express concerns about rising ICASS costs and low satisfaction with 
the service provided. As ICASS costs are spread across numerous 
agencies, many of which no longer can ``opt out,'' there is minimal 
incentive to reduce costs.

  <diamond> What changes are being made to establish incentives to 
        manage ICASS cost increases for State and all agencies? What is 
        State doing to continually improve the quality of ICASS service 
        provision for its customers? How is State expanding the 
        utilization of alternative service providers where it may be 
        more cost effective for some or all agencies at post?

    Answer. Survey data show that customers at post are satisfied with 
the quality of ICASS services. The average customer satisfaction score 
for the last 5 years is 4.09 on a scale of one to five, with five being 
the highest. Satisfaction is trending up over the same period from 4.03 
in 2011, to 4.16 in 2015. The average number of responses is 52,864 per 
year over the last 5 years. The annual survey, sponsored by the 
interagency funded ICASS Service Center, is administered by an 
independent nonprofit quality management organization to all ICASS 
customers worldwide. Policy supervision on the survey instrument is 
provided by the interagency ICASS Working Group.
    ICASS is a cooperative cost distribution system intended to lower 
overall costs for the U.S. Government. It is a voluntary system with 
the exception of medical, security, badging and credentialing, and 
family support services. That being said, most agencies opt in to the 
majority of services, including building operations, financial 
management, building and residential security, and others, because they 
lack the interest or the expertise to provide these services. The 
system, according to GAO, produces positive economic benefits for the 
U.S. Government. GAO's analysis of ICASS cost and workload data shows 
that significant economies of scale can be achieved through greater 
participation in ICASS.
    The GAO concluded in 2012 (http://www.gao.gov/products/GAO-12-
09317) that agencies opting out of ICASS because they believe they can 
obtain less costly services on their own may actually increase the 
overall cost to the U.S. Government. The GAO found that agencies that 
withdraw from services do not usually provide any formal rationale to 
ICASS management and often have not conducted any cost analysis to 
justify their decisions; a September 2014 policy decision by the ICASS 
Executive Board now requires agencies to complete an analysis before 
withdrawing from services.
    There are very strong incentives for the Department of State, as 
the principal bill-payer, to contain the cost of services. The 
Department of State accounts for an average of 72 percent of the annual 
ICASS invoice. Thus, 72 cents of every dollar of cost containment 
benefits the Department of State.
    The Department has a history of innovating in order to provide 
cost-effective, high quality administrative services around the world, 
often in dangerous, remote, or inhospitable locations that may lack 
basic infrastructure. The GAO closed a recommendation (effective March 
14, 2014) in its duplication tracker concerning the issues of cost, 
quality, and innovation. For example, State implemented a furniture 
pool policy in 2012 that was adopted by the interagency in 2014, which 
allowed for greater consolidation, and has already reduced or 
eliminated warehouse facilities at six posts abroad. In addition, State 
has contained the number of American and locally employed service 
providers at high-threat posts in Afghanistan, Iraq, and Pakistan--
where services are more expensive than at other posts within the 
region--by expanding regional support models to provide administrative 
services from safer and less expensive locations. Specific examples 
include a unit created to provide administrative services for personnel 
in Iraq from the U.S mission in Amman, Jordan, and providing some 
information technology support services to the U.S. mission to 
Afghanistan remotely from the U.S. mission in New Delhi, India. State 
is promoting further consolidation of some human resource and 
vouchering activities.
    Along with interagency participation, State continues to improve 
its processes through an ongoing initiative that involves reviewing the 
levels of transactions and customer feedback for services. To date, an 
interagency committee has recalibrated 10 service standards--or 
criteria for effectively delivering services--for the four service 
areas that represent the most highly requested services in the field 
based on data collected over the last 4 years. State officials 
indicated that these efforts are intended to ensure maximum 
transparency to users regarding ICASS services, increasing customer 
satisfaction and cost-effectiveness.
    The option to select an alternative service provider (ASP) is a 
customer-driven decision that is a long-standing policy in ICASS. 
Interagency ICASS councils at overseas posts select and evaluate 
service providers. Any agency can make a proposal to post-level ICASS 
councils provided that they can service all agencies at that location. 
This long-standing policy was restated in an official cable to all 
missions in February 2012. State supports the use of ASPs when it is in 
the best interest of the U.S. Government. USAID began providing 
building services at a facility it recently opened in Pretoria, though 
recent experience in Juba and Almaty--two posts that are converting to 
State ICASS--indicate the challenges that smaller agencies have 
providing the full spectrum of cost-effective, high-quality 
administrative services to the entire USG population in remote 
locations.

    Question. In 2010, GAO reported that the comparatively larger size 
of new embassy compounds and the complexity of their building systems 
have resulted in higher operations and maintenance costs than at the 
facilities they replaced. However, State's Long Range Plan does not 
provide insight into operating costs, such as the costs for utilities, 
which would be paid for through ICASS.

  <diamond> What actions has State taken to provide better information 
        on the operating costs of embassy buildings?

    Answer. Providing safe, secure, and functional facilities for the 
U.S. Government overseas requires the colocation of all U.S. Government 
staff onto one secure compound. In many cases these posts had 
previously been working in scattered, leased properties. In addition, 
the modern security systems required in our new embassy and consulate 
facilities operate 24-hours a day and require significant energy to 
operate.
    Despite these challenges, the Department has analyzed options and 
implemented actions to reduce facility operating costs. For all new 
construction, the Department requires a minimum Leadership in Energy 
and Environmental Design (LEED<SUP>'</SUP>) silver certification and, 
where possible and cost effective, gold and platinum are the goal. By 
Earth Day (April 22) we will reach a milestone of 31 LEED Certified 
facilities, which are modeled to use 27 percent less energy, 35 percent 
less potable water, and 75 percent less irrigation water than industry 
standard benchmarks as well as produce 41 percent less waste during 
construction. For existing facilities we have implemented cost-
effective technologies for renewable energy sources such as solar and 
wind power and rainwater harvesting and have provided more efficient 
lighting and devices for reducing water use.
    As noted, State and other agencies at overseas posts are 
responsible for funding operations through the International 
Cooperative Administrative Support Services (ICASS) process. The Bureau 
of Overseas Buildings Operations (OBO) as part of the planning/design 
process provides estimated costs to operate an NEC to its stakeholders 
prior to opening a new facility.
    Three major cost components are used in the development of the 
buildings operating expense estimates for NEC/NCCs: 1. Local 
Maintenance Labor Costs; 2. Local Service Contract Costs; and 3. 
Utility Cost Estimates.

    Question. Terrorists' ability to use fraudulent travel documents to 
travel to the United States remains a national security concern. State 
and other agencies try to address this by training foreign partners to 
identify and interdict fraudulent travel documents. However, in 2011 
GAO found that these training efforts are sometimes fragmented and not 
well coordinated, including in key countries such as Pakistan.

  <diamond> What steps has State taken to improve coordination 
        regarding improving our foreign partners' capacity to identify 
        fraudulent travel documents?

    Answer. The Department works closely on an ongoing basis with our 
partners in the law enforcement and intelligence communities to review 
the tools at our disposal to hinder the use of fraudulent documents and 
foreign fighter travel, while not interrupting legitimate travel.
    The State Department, together with these interagency partners, has 
in particular identified a mechanism for coordinating interagency 
fraudulent document training efforts, in accordance with GAO findings. 
At the same time, the U.S. Government continues to work closely with 
our foreign partners--including our Visa Waiver Program (VWP) 
partners--to resolve the identities of known or suspected violent 
extremists and potential foreign fighter threats emanating from Syria 
and Iraq, and continues to prioritize USG coordination of foreign 
partner trainings abroad to ensure coordination of our diplomatic 
efforts. Conducting trainings such as these improves the capacity of 
partner countries to stem the flow of foreign fighters, identify them 
in transit, and apprehend those who facilitate their travel.

    Question. State's Anti-Terrorism Assistance (ATA) program is a 
critical component of U.S. efforts to build our foreign partners' 
capacity to combat terrorist organizations including al-Qaeda, Boko 
Haram, and al-Shabaab. State is requesting $165 million in new funding 
for this program. However, this past year, GAO reviewed 
counterterrorism efforts in East and Northwest Africa and found that 
State managers were unaware of unobligated balances in ATA funding over 
several years, totaling millions of dollars.

  <diamond> Has State taken steps to address these deficiencies so we 
        can be confident that the ATA funds are well spent?

    Answer. In order to enhance assurance that ATA program funds are 
being spent wisely and delivering effective outcomes in building 
civilian sector counterterrorism capacity, the Department has enhanced 
its program management and monitoring and evaluation efforts, including 
improved financial tracking and assessment of program outcomes. 
Specifically, the Department is now collecting semiannual financial 
data, as well as quarterly narrative reports to track results. It is 
worth noting that a significant percentage of the ATA funding 
referenced in the GAO reviews of the Trans-Sahara Counterterrorism 
Partnership (TSCTP) and the Partnership for Regional East Africa 
Counterterrorism (PREACT) was ultimately deobligated due to factors 
beyond the Department's control, including security challenges and 
political turmoil.

    Question. Mr. Secretary, last year Congress passed substantial 
legislation on both Ukraine and Venezuela, both bills calling for the 
imposition of significant new sanctions as part of a broader U.S. 
policy response to the significant acts of violence and human rights 
abuses that were at play in both nations. I am concerned that in both 
cases the situation has continued to deteriorate--and challenges to 
U.S. interests and values continue to mount--yet the administration has 
not yet availed itself of the tools that Congress, in these pieces of 
legislation, has provided. While I would not suggest that these 
sanctions are, or can be, the entirety of U.S. policy, surely they 
represent an approach and effective leverage that must be part of the 
U.S. response.

  <diamond> Can you please tell us where things stand with 
        implementation of these bills (the Venezuela sanctions were 
        mandatory, I would note) and what more the administration 
        intends to do to use the authorities Congress has provided--and 
        wants to see used?

    Answer. The United States remains deeply concerned by Russia's 
continued violation of Ukraine's sovereignty and territorial integrity, 
and its increasing support for pro-Russia separatists in eastern 
Ukraine. Additionally, we remain opposed to Russia's efforts to 
increase its administrative, political, and economic control over the 
Crimean peninsula. Crimea is sovereign Ukrainian territory and the 
United States does not recognize Russia's attempted annexation.
    The United States stands with Ukrainians as they forge a brighter 
future for their nation and succeeding generations. In their October 
2014 parliamentary elections, the people of Ukraine made a bold and 
clear choice for democracy, reform, and European integration, showing 
enthusiasm and support for parties with strong proreform agendas. The 
United States remains committed to Ukrainian sovereignty and 
territorial integrity and to increasing the costs for Russia should it 
fail to implement its Minsk agreements fully. In close cooperation with 
our international partners, we enacted a strong regime of targeted 
sanctions on key sectors of the Russian economy including energy, 
financial services, and defense. These sanctions, combined with 
structural weaknesses in Russia's economy and low oil prices, have 
produced undeniably negative effects--Russia suffered approximately 
$150 billion of capital flight in 2014, the ruble is trading at all-
time lows against the dollar, and Russia's credit rating is at junk 
level. Foreign investors are being frightened away and Russian economic 
growth remains near zero and is projected to go into recession in 2015.
    With respect to additional sanctions mandated by the Ukraine 
Freedom Support Act (UFSA), President Obama determined that the 
sanctions already imposed, including those against Rosoboronexport and 
other Russian defense companies, satisfy the requirements of this 
statute. We will continue to assess the situation in Ukraine to 
determine whether additional sanctions are warranted, including under 
the UFSA.
    On March 9, the President announced a new Executive Order (E.O.) 
``Blocking Property and Suspending Entry of Certain Persons 
Contributing to the Situation in Venezuela,'' which implements and goes 
beyond the Venezuela Defense of Human Rights and Civil Society Act of 
2014 (the Act) signed into law by President Obama on December 18, 2014. 
We are committed to advancing respect for human rights, safeguarding 
democratic institutions, and protecting the U.S. financial system from 
the illicit financial flows from public corruption in Venezuela.
    This measure targets persons involved in or responsible for: 
actions that limit or prohibit freedom of expression or peaceful 
assembly; significant acts of violence and human rights violations; and 
abuses in response to antigovernment protest. It also covers those 
involved in actions or policies that undermine democratic processes or 
institutions, and public corruption within the Government of Venezuela. 
The E.O. neither targets the people nor the economy of Venezuela.
    Individuals sanctioned under the E.O., including the seven named in 
the Annex to the E.O., will have their property and interests in 
property, subject to U.S. jurisdiction, blocked. U.S. persons, wherever 
located, are generally prohibited from engaging in any dealings with 
listed individuals. The E.O. suspends the entry into the United States 
of any individual designated pursuant to the E.O.
    We will continue our investigations pursuant to these authorities 
and stand prepared to take action against others as additional 
information becomes available and is assessed.
    We will continue to work closely with Congress and others in the 
region to support greater political expression in Venezuela, and to 
encourage the Venezuelan Government to live up to its commitment to 
democracy, as articulated in the OAS Charter, the Inter-American 
Democratic Charter, and other relevant instruments related to democracy 
and human rights.

    Question. With respect to Ukraine, I understand that there are 
individuals on the EU and Canadian targeted sanctions list who do not 
appear on the American list. Why is this the case? Perhaps the most 
egregious example is Alexander Bortnikov, the head of the Russian FSB. 
Mr. Bortnikov is not on the U.S. lists in relation to either Ukraine or 
the Magnitsky act, but is on EU and Canadian lists. To make matters 
worse, Mr. Bortnikov was in the United States last week for President 
Obama's CVE conference.

  <diamond> Could you please explain the administration's policy as it 
        relates to Mr. Bortnikov and others who clearly belong on the 
        U.S. targeted sanctions list?

    Answer. The United States has been working closely with our G7 and 
European partners and allies to design measures that are coordinated 
and well-aligned. Together we have already enacted a strong regime of 
sectoral sanctions on key sectors of the Russian economy including 
energy, financial services, and defense that are imposing serious costs 
on Russia.
    While we do not comment on specific cases, we have designated many 
of those directly involved in destabilizing Ukraine, including senior 
Russian officials such as FSB Colonel-General Sergey Beseda, head of 
the FSB's Fifth Service, also known as the Service for Operational 
Information and International Communications.
    While the measures the EU has taken are not identical to ours, the 
clear message is that both we and the EU have determined that Russia's 
actions require us to impose costs. EU travel restrictions do not apply 
to U.S. travel, much in the same way that U.S. travel restrictions 
would not apply to travel to the EU. We continue to consult with our 
European partners on further sanctions pressure should Russia fail to 
implement Minsk.

    Question. The new IMF program for Ukraine will bring the Fund's 
total assistance to that country to more than $22 billion. The IMF has 
indicated that it expects foreign assistance for Ukraine to total $40 
billion over the next 4 years.

  <diamond> Where concretely is the rest of that money coming from? How 
        confident are you that Ukraine will actually receive the full 
        sum?
  <diamond> If Congress was to make additional funding available for 
        assistance to Ukraine, how do you believe the money would best 
        be allocated between economic and military assistance?

    Answer. On February 12 the IMF announced a 4-year Extended Fund 
Facility (EFF) of $17.5 billion. The IMF expects its program will be 
complemented by additional $10 billion in bilateral and multilateral 
assistance, including from the World Bank, the European Union, and the 
United States. The United States has pledged up to $2 billion in loan 
guarantees in 2015 to contribute to this effort, contingent upon 
Ukraine's continued progress implementing its IMF program and the 
support of Congress. The United States will work with various 
stakeholders to ensure Ukraine receives the assistance it needs to 
implement its reform agenda.
    Ukraine also anticipates that upcoming consultations with creditors 
will free up $12.5 billion or more through the 4-year EFF, though 
details of the arrangements are not yet known.
    If Congress were to make additional funding available, the 
administration could use it to help Ukraine meet its financing needs as 
well as to address a range of other urgent priorities. This would 
include assistance to help Ukraine strengthen its sovereignty and 
territorial integrity, address pressing humanitarian needs, enhance its 
economic resilience, increase its energy security, fight corruption, 
and advance key democratic and economic reforms.

    Question. There are reports that the administration is using back 
channels to Russia as a means toward finding areas of common interest 
and perhaps an ``off ramp,'' as they call it, for Russia with respect 
to sanctions over its aggression in Ukraine.

  <diamond> Do you think there is an appropriate ``off ramp'' to the 
        current tension between the United States, Europe, and Russia? 
        Have you seen any indication that the Russian position on 
        Ukraine has changed, or that it will be less assertive in its 
        so-called ``near abroad''?
  <diamond> How do we both find an off-ramp and at the same time uphold 
        the proposition, which I agree with strongly, that a country 
        can't simply be allowed to slice off a part of another country?

    I am concerned that sanctions pressure, particularly among the 
Europeans, will diminish before we see a significant change in the 
Russian stance in Ukraine, across Eastern Europe or elsewhere in the 
former Soviet space . . . and that unless we see a change and a 
willingness by Putin and Russia to be part of the solution, not the 
cause of the problem, the broader implications for stability in Europe 
are deeply troublesome.

    Answer. Our focus from the outset of the crisis has been on 
supporting Ukraine and on pursuing a diplomatic solution that respects 
Ukraine's sovereignty and territorial integrity. What we have clearly 
seen over the past year is activity by Russia that flagrantly violates 
the territorial integrity of the sovereign nation of Ukraine, including 
Russia's occupation and attempted annexation of the Crimean peninsula, 
and its actions in support of pro-Russia separatists in eastern 
Ukraine.
    Russia and the separatists continue to fail to fulfill all of the 
commitments to which they have signed up in the Minsk agreements and 
the February 12 implementation plan, which is simply unacceptable. If 
their failure to comply with these commitments continues, there will be 
further consequences that would place added strains on Russia's already 
troubled economy. We will work closely with our allies and partners to 
ensure that additional costs are imposed together, which greatly 
magnifies their impact.
    If, on the other hand, Russia and the separatists it backs fully 
implement their commitments under the Minsk agreements of September 
2014 and the commitments under the February 12 implementation plan, we 
will begin to roll back sanctions. This includes the complete 
withdrawal of all heavy weapons and foreign fighters from Ukraine, full 
and unfettered access by international monitors to separatist-
controlled territory to verify cease-fire and withdrawal compliance, 
and the release of all hostages. Crucially, the conditions for rolling 
back sanctions also include the restoration to Kiev the control of its 
side of the border with Russia.

    Question. As a Senator, you condemned the recall of U.S. Ambassador 
to Armenia, John Evans, in 2006, after he spoke honestly about the 
Armenian Genocide. I understand that at the business meeting to confirm 
Ambassador Evans' replacement, you voted against the nominee on 
principle stating, ``For us to recall an ambassador because he utters 
the word ``genocide,'' is to cow-tow, to cave-in to those who change 
history, something we are witnessing today with [President] Ahmadinajad 
in Iran who says the Holocaust didn't exist. So it is even more 
important that we say something to the contrary. We are not going to 
allow revisionism. We are not going to allow people to push the United 
States of America around and say what you can and can't say about 
what's happening with respect to history. We honor history and we honor 
the truth. I don't think we do so if we allow this administration to 
take the contrary policy.''

  <diamond> On this 100th anniversary of the Armenian Genocide, will 
        you allow our U.S. Ambassador to Armenia, Richard Mills, to 
        ``honor history'' and ``honor truth'' by allowing him to speak 
        frankly, openly and honestly about the Armenian Genocide?

    Answer. The United States recognizes the events of 1915 as one of 
the greatest tragedies of the 20th century. This year's commemoration 
will have special resonance, as Armenia and the world mark the 
centenary of the atrocities, when 1.5 million Armenians were massacred 
or marched to their deaths in the final days of the Ottoman Empire. Our 
objective is to honor this centenary by standing in solidarity with the 
Armenian people to acknowledge the tragic events of 1915, honoring 
those--including the many Americans--who reached out to assist the 
victims. Acknowledging the painful elements of the past will help lead 
to the reconciliation needed to heal the wounds of the past so the 
Turkish and Armenian peoples can move forward together in a shared 
future of security and prosperity in the region. No decision has yet 
been made on who will officially represent the U.S. Government at this 
year's memorial events in Yerevan, but Ambassador Mills will certainly 
participate.

    Question. The renewal of the mandate for the U.N. Peacekeeping 
Force in Cyprus (UNFICYP) will occur in July 2015. The United States 
contributes funding to support this and other important U.N. 
peacekeeping operations globally. As part of the U.N.'s mandate in 
Cyprus, it participates in the peace negotiations between the Greek and 
Turkish Cypriots, which restarted in February 2014 but have been 
suspended until Turkey withdraws its research vessel Barbaros from 
Cyprus' Exclusive Economic Zone.

  <diamond> What is the administration's policy on Turkey's continued 
        provocations in Cyprus' EEZ? How is the administration working 
        with all parties to create an environment that is conducive to 
        restarting peace talks aimed at fulfilling the bizonal, 
        bicommunal federation that was agreed to by both parties in the 
        joint communique of February 2014?

    Answer. The Obama administration remains strongly committed to 
supporting efforts to reach a just and lasting settlement to reunify 
the island as a bizonal, bicommunal federation. We support the Republic 
of Cyprus' right to develop its hydrocarbon resources in its exclusive 
economic zone and believe that revenues from the resources should be 
shared equitably between both communities within the context of an 
overall settlement. Reducing tensions and getting the parties back to 
the negotiating table as soon as possible are critical to advancing the 
peace process.
    The administration continues to engage actively with all 
stakeholders, and in support of United Nations Special Advisor Espen 
Barth Eide's efforts to reduce tensions, move past the current impasse, 
and resume talks. Recent senior-level engagement includes Vice 
President Biden's November 2014 visit to Turkey, where he discussed 
Cyprus with government leaders. Following a meeting with Turkish 
President Erdogan, the Vice President emphasized the need to ``focus on 
de-escalating tensions and returning to the negotiating table.'' In 
addition, Secretary Kerry met with Cypriot President Anastasiades on 
the margins of the World Economic Forum in Davos in January 2015.

    Question. How much does the United States spend on anti-Semitism 
programs in Europe? Please provide information on programs conducted 
through the Special Envoy's office as well as those conducted by all 
other U.S. Government-funded implementers. Which countries in Europe 
have appointed Special Envoys to combat anti-Semitism abroad and within 
their own countries? Which countries in Europe have dedicated funding 
to confront anti-Semitism internally and abroad?

    Answer. DRL is currently spending approximately $796,000 on 
programs worldwide that seek to: combat public and online anti-Semitic 
rhetoric; create coalitions of NGOs to combat anti-Semitism; and 
promote Holocaust education. We do not delineate this data by region. 
In order to protect program participants, DRL does not share details 
about the programs it is funding in writing. However, DRL would be 
happy to provide an in-person briefing on all of its activities related 
to monitoring and combating anti-Semitism.
    The Special Envoy for Anti-Semitism, Ira Forman, routinely travels 
to Europe to meet with elected officials, religious leaders, and 
leaders within civil society to discuss ways to monitor and combat 
anti-Semitism in Europe. Furthermore, the Office of the Special Envoy 
for Holocaust Issues works with European-based international 
organizations, such as the European Shoah Legacy Institute, the 
International Holocaust Remembrance Alliance, and the International 
Tracing Service, and it manages the State Department's $15 million 
contribution to the Auschwitz-Birkenau Foundation. The Special Envoy 
for Holocaust Issues engages these organizations to ensure they are 
effective multipliers in teaching the lessons of the Holocaust and in 
using Holocaust education to combat anti-Semitism. The European members 
of the International Holocaust Remembrance Alliance include: Austria, 
Belgium, Croatia, Czech Republic, Denmark, Estonia, Finland, France, 
Germany, Greece, Hungary, Ireland, Italy, Latvia, Lithuania, 
Luxembourg, Netherlands, Norway, Poland, Romania, Serbia, Slovakia, 
Slovenia, Spain, Sweden, Switzerland, and the United Kingdom.
    The Department of State is aware of special envoys that focus on 
the Holocaust and anti-Semitism in the United Kingdom, France, Germany, 
Spain, and Greece. Additionally, the European Parliament has a Working 
Group on Freedom of Religion or Belief and anti-Semitism. Through the 
Organization for Security and Cooperation in Europe (OSCE), the United 
States actively supports the Chairmanship's Personal Representatives on 
Tolerance and other programs to combat anti-Semitism and other forms of 
intolerance throughout the OSCE area. In November 2014, the United 
States sent a Presidential delegation led by Samantha Power, the U.S. 
Permanent Representative to the United Nations, to attend the 10th 
anniversary commemoration of the OSCE Berlin Conference on Anti-
Semitism. This was followed by the adoption of a declaration to enhance 
efforts to combat anti-Semitism during the OSCE foreign ministerial 
meeting in Basel, Switzerland, in December 2014.

    Question. When Turkey entered Cyprus' Exclusive Economic Zone (EEZ) 
last October with its seismic vessel the Barbaros accompanied by 
Turkish warships, I sent a letter to Vice President Biden calling on 
the administration to join the European Union and the United Nations in 
publicly condemning Turkey's actions and call for the immediate 
withdrawal of the Barbaros from Cyprus' EEZ. I have not yet received a 
response to my letter. As stated in your testimony before the Senate 
Foreign Relations Committee on February 24, you have had several 
meetings on this issue. Unfortunately there has been no discernable 
progress. Peace negotiations between the Greek and Turkish Cypriots 
have been suspended until Turkey withdraws its ships.

  <diamond> What is the administration's policy on Turkey's continued 
        provocations in Cyprus' EEZ? What specific diplomatic steps 
        will the administration take to encourage Turkey's withdrawal 
        from Cyprus' EEZ?

    Answer. The Obama administration remains strongly committed to 
supporting efforts to reach a just and lasting settlement to reunify 
the island as a bizonal, bicommunal federation. We support the Republic 
of Cyprus' right to develop its hydrocarbon resources in its exclusive 
economic zone and believe that revenues from the resources should be 
shared equitably between both communities within the context of an 
overall settlement. Reducing tensions and getting the parties back to 
the negotiating table as soon as possible are critical to advancing the 
peace process.
    The administration continues to engage actively with all 
stakeholders, and in support of United Nations Special Advisor Espen 
Barth Eide's efforts to reduce tensions, move past the current impasse, 
and resume talks. Recent senior-level engagement includes Vice 
President Biden's November 2014 visit to Turkey, where he discussed 
Cyprus with government leaders. Following a meeting with Turkish 
President Erdogan, the Vice President emphasized the need to ``focus on 
de-escalating tensions and returning to the negotiating table.'' In 
addition, Secretary Kerry met with Cypriot President Anastasiades on 
the margins of the World Economic Forum in Davos in January 2015.

    Question. How do you evaluate the socioeconomic impact on the 
countries of Central Asia of the economic downturn in Russia? Will the 
United States provide additional assistance to help ameliorate these 
consequences and, if so, will any new assistance include human rights/
democratization conditionality?

    Answer. We recognize the impact that the economic downturn in 
Russia is having on the peoples and economies of Central Asia and are 
working with our Central Asian partners to support strong and 
diversified economic development. Central Asian economies are closely 
linked to the Russian economy--from business and financial ties to the 
remittances many Central Asian migrant workers send home to their 
families. Russia's downturn, coupled with the depreciation of the 
ruble, has reduced Russian demand for imports from Central Asia and 
made Russian nonoil exports more competitive in Central Asian markets. 
It has also reduced remittance flows, particularly to Kyrgyzstan, 
Tajikistan, and Uzbekistan, where governments must deal not only with 
the challenge of reduced financial flows but also with providing social 
support and employment opportunities for workers returning from Russia.
    To address these challenges, we have encouraged Central Asian 
countries to adopt economic reforms to make their markets more 
competitive and attractive to foreign investment, while also supporting 
efforts to build diverse trade linkages among Central Asian economies 
and with the growing economies of South Asia. This is a key goal of our 
New Silk Road initiative, including support for projects like CASA-
1000. USAID's Regional Economic Cooperation program (REC) has organized 
successful trade fairs and forums to introduce businesses from Central 
Asia to those in South Asia.
    Through a U.S. grant to the European Bank for Reconstruction and 
Development (EBRD), we assisted 76 small and medium enterprises of the 
region in meeting requirements of more sophisticated markets, including 
those in Western Europe and North America. Companies receive mentorship 
from local and international experts in their sector. As a result of 
this project, these companies successfully raised $87 million of 
external financing, including $26 million from EBRD.
    Membership in the World Trade Organization can also deepen Central 
Asia's links to the global economy, and we welcome Kazakhstan's efforts 
to join Kyrgyzstan and Tajikistan as a WTO member, as well as 
expressions of interest from Turkmenistan and Uzbekistan. We regularly 
address these and other issues through the Trade and Investment 
Framework Agreement discussions with Central Asia and through working 
groups targeting customs reform, nontariff barriers to trade and 
phytosanitary standards.
    Additional resources have been requested in the President's FY 2016 
budget to build on past programs and further increase the economic 
resiliency of the Central Asian countries. The additional funds will 
focus on supporting job creation activities to address the growing 
number of unemployed returned migrant workers from Russia, and the 
decreasing flow of remittances.
    Meanwhile, human rights and good governance will remain central 
components of our bilateral relationships with our Central Asian 
partners. We consistently press our partners to take an approach that 
is more responsive to human needs and more accountable to the 
citizenry. Those goals will be integral to any assistance we provide in 
response to the current economic downturn as well and, in fact, built 
into program design. For example, to address concerns about 
transparency and accountability in the Central Asian states, we prefer 
to utilize technical assistance, training and exchanges in these 
countries, rather than providing budget support to government agencies. 
We also use our programs to promote constructive interaction between 
government and civil society organizations, as a way of providing 
models for government transparency and illustrating the useful role 
civil society plays in a developed, democratic society.

    Question. Sri Lanka.--The recent historic elections in Sri Lanka 
could serve as an important inflection point for U.S. relations with 
the country, but concerns remain with respect to accountability 
following the end of the country's brutal civil war. I am concerned 
that pressure on Sri Lanka for accountability will diminish in the 
coming months. I am very cognizant of the pressures that the new 
government is under, but the United States cannot in any way diminish 
the constructive role that it has played in recent years in support of 
human rights and the democratic process.

  <diamond> (a) Will the United States continue to support the U.N.'s 
        investigation into Sri Lanka's civil war?

    Answer (a). The United States fully supports the U.N.'s 
investigation, and we look forward to reviewing the investigation's 
findings and recommendations.

  <diamond> (b) Does the administration support the release of UNHRC's 
        report in September? Are there any circumstances under which 
        the United States would not support the release of the report 
        in September?

    Answer (b). The administration supports the release of the U.N. 
investigation's report in August, as well as the presentation of the 
report to the U.N. Human Rights Council during the September 2015 
session. We have emphasized to U.N. High Commissioner Zeid, U.N. Human 
Rights Council member states, and the Sri Lankan Government that the 
report must be presented at the September 2015 session.

  <diamond> (c) If the Sri Lankan Government does not implement a 
        credible domestic investigation, how would this impact U.S. 
        relations with the country?

    Answer (c). We commend the important steps already taken by the 
Sirisena Government and welcome its pledges to address reconciliation 
and accountability issues. The United States will continue to encourage 
and support credible, transparent, and independent justice mechanisms. 
We will not waver from our commitment to supporting efforts to ensure 
respect for human rights and the promotion of justice, accountability, 
and reconciliation for all Sri Lankans.

  <diamond> (d) How much funding does the USG and NED currently provide 
        for democracy programs in Sri Lanka? Will the administration 
        increase democracy and governance programs to Sri Lanka in the 
        wake of this political opening?

    Answer. The United States Government currently provides $1.6M in 
FY14 assistance for democracy and governance programs that support 
training for investigative reporting with a focus on the parliamentary 
elections and post-election accountability, as well as advocacy for the 
Right to Information Act. USAID currently provides $1M in FY14 within 
the democracy and governance sector, primarily supporting civil 
society's work with vulnerable groups to protect human rights, enhance 
civic dialogue and peace-building, combat gender-based violence, 
document land claims, and provide legal aid services. USAID is 
currently reviewing its FY15 contributions based on the changed 
political environment after January's change in government.
    NED is providing $670,000 in FY 2014 assistance on grants in Sri 
Lanka. The Endowment grants will focus on the rollback of authoritarian 
practices and reestablishment of institutions that promote democratic 
governance. NED will continue to focus on programs promoting a 
democratic reform agenda within both majority and minority communities, 
including promoting tolerance; addressing wartime accountability and 
reconciliation; encouraging greater civic participation in political 
processes; promoting good governance at the local level; and 
strengthening the rule of law and independence of the judiciary. The 
U.S. Government continues to assess the situation in Sri Lanka to 
determine what additional resources are necessary to support democracy 
and governance and how they might best be directed.

  <diamond> (e) I am very concerned that the United States will move 
        too quickly in enhancing security assistance and programming 
        with the Sri Lankan military in the wake of these political 
        changes. Please provide a full summary of current U.S. 
        programming in this area. Are there plans to expand this 
        programming in FY15 or FY16? If so, please provide a detailed 
        description of what is planned.

    Answer (e). There is no Foreign Military Financing programmed for 
Sri Lanka in FY15 or FY16. Decisions have not yet been made about out-
year funding. We continue investing in the enhanced International 
Military Education and Training (IMET) program in Sri Lanka to deepen 
respect for democracy and human rights in the military. For FY15 we 
requested $500,000 IMET for Sri Lanka and for FY16 the OMB submission 
was also $500,000.
    Current defense engagement with Sri Lanka is limited to a few key 
areas, including maritime security, human rights education, demining 
support, and classroom training focused on peacekeeping and disaster 
response. The United States is closely monitoring changes to the Sri 
Lankan military under the Sirisena administration, including changes to 
personnel, policies, and military culture. We can envision benefits to 
both our countries, and to peace and security in the Indian Ocean 
region as a result of a strengthened military relationship in tandem 
with progress on reconciliation, accountability, and human rights. 
Future security assistance and programming will also be greatly 
influenced by efforts to hold human rights violators accountable as 
well as greater institutional reforms, and Leahy and other human rights 
vetting procedures will continue. We will continue to urge reforms to 
ensure the Sri Lanka military functions as a professional, peacetime 
force.

  <diamond> (f) Will the United States continue to support the U.N.'s 
        investigation into Sri Lanka's civil war?

    Answer (f). The United States fully supports the U.N.'s 
investigation, and we look forward to reviewing the investigation's 
findings and recommendations.

  <diamond> (g) Does the administration support the release of UNHRC's 
        report in September? Are there any circumstances under which 
        the United States would not support the release of the report 
        in September?

    Answer (g). The administration supports the release of the U.N. 
investigation's report in August, as well as the presentation of the 
report to the U.N. Human Rights Council during the September 2015 
session. We have emphasized to U.N. High Commissioner Zeid, U.N. Human 
Rights Council member states, and the Sri Lankan Government that the 
report must be presented at the September 2015 session.

  <diamond> (h) If the Sri Lankan Government does not implement a 
        credible domestic investigation, how would this impact U.S. 
        relations with the country?

    Answer (h). We commend the important steps already taken by the 
Sirisena Government and welcome its pledges to address reconciliation 
and accountability issues. The United States will continue to encourage 
and support credible, transparent, and independent justice mechanisms. 
We will not waver from our commitment to supporting efforts to ensure 
respect for human rights and the promotion of justice, accountability, 
and reconciliation for all Sri Lankans.

  <diamond> (i) How much funding does the USG and NED currently provide 
        for democracy programs in Sri Lanka? Will the administration 
        increase democracy and governance programs to Sri Lanka in the 
        wake of this political opening?

    Answer (i). The United States Government currently provides $1.6M 
in FY14 assistance for democracy and governance programs that support 
training for investigative reporting with a focus on the parliamentary 
elections and post-election accountability, as well as advocacy for the 
Right to Information Act. USAID currently provides $1M in FY14 within 
the democracy and governance sector, primarily supporting civil 
society's work with vulnerable groups to protect human rights, enhance 
civic dialogue and peace-building, combat gender-based violence, 
document land claims, and provide legal aid services. USAID is 
currently reviewing its FY15 contributions based on the changed 
political environment after January's change in government.
    NED is providing $670,000 in FY 2014 assistance on grants in Sri 
Lanka. The Endowment grants will focus on the rollback of authoritarian 
practices and reestablishment of institutions that promote democratic 
governance. NED will continue to focus on programs promoting a 
democratic reform agenda within both majority and minority communities, 
including promoting tolerance; addressing wartime accountability and 
reconciliation; encouraging greater civic participation in political 
processes; promoting good governance at the local level; and 
strengthening the rule of law and independence of the judiciary. The 
U.S. Government continues to assess the situation in Sri Lanka to 
determine what additional resources are necessary to support democracy 
and governance and how they might best be directed.

  <diamond> (j) I am very concerned that the United States will move 
        too quickly in enhancing security assistance and programming 
        with the Sri Lankan military in the wake of these political 
        changes. Please provide a full summary of current U.S. 
        programming in this area. Are there plans to expand this 
        programming in FY15 or FY16? If so, please provide a detailed 
        description of what is planned.

    Answer (j). There is no Foreign Military Financing programmed for 
Sri Lanka in FY15 or FY16. Decisions have not yet been made about out-
year funding. We continue investing in the expanded International 
Military Education and Training (e-IMET) program in Sri Lanka to deepen 
respect for democracy and human rights in the military. For FY15 we 
requested $500,000 IMET for Sri Lanka and for FY16 the OMB submission 
was also $500,000.
    Current defense engagement with Sri Lanka is limited to a few key 
areas, including maritime security, human rights education, demining 
support, and classroom training focused on peacekeeping and disaster 
response. The United States is closely monitoring changes to the Sri 
Lankan military under the Sirisena administration, including changes to 
personnel, policies, and military culture. We can envision benefits to 
both our countries, and to peace and security in the Indian Ocean 
region as a result of a strengthened military relationship in tandem 
with progress on reconciliation, accountability, and human rights. 
Future security assistance and programming will also be greatly 
influenced by efforts to hold human rights violators accountable as 
well as greater institutional reforms, and Leahy and other human rights 
vetting procedures will continue. We will continue to urge reforms to 
ensure the Sri Lanka military functions as a professional, peacetime 
force.

    Question. I am very concerned about the political deadlock and 
associated violence in Bangladesh. I strongly support a robust dialogue 
between the two main parties in order for political disagreements to be 
discussed around a table and not violently fought in the streets.

  <diamond> How are you using all the democracy and governance 
        programming tools at your disposal to ensure that the United 
        States can play an objective, nonpartisan, and constructive 
        role in supporting more nonviolent and constructive Bangladeshi 
        political process?
  <diamond> Do I have your commitment that the State Department and 
        USAID will continue to conduct robust programming in support of 
        freedom of association in Bangladesh?
  <diamond> I have been a strong supporter of the deployment of a 
        Department of Labor attache to work on freedom of association 
        issues in Bangladesh. The State Department should continue this 
        important program and I urge you to consider it elsewhere in 
        posts where freedom of association is under assault. Is the 
        State Department considering similar arrangements elsewhere? If 
        so where and in what capacity?

    Answer. We share your concerns and are working to foster an end to 
the current political violence, which has killed innocent Bangladeshis 
and disrupted daily life throughout the country. We condemn violence by 
any party toward political objectives, which is unacceptable in a 
democracy. We also urge the Government of Bangladesh to ensure the 
necessary space for peaceful political disagreement. Such space for 
free association and expression must be used responsibly by the 
opposition.
    We continue to use all of the tools at our disposal to support 
Bangladesh's democratic traditions. Our democracy and governance 
programs bolster the independent institutions and civil society 
organizations that underpin a democracy and empower youth to serve as 
agents of positive social change. Following the January 5, 2014, 
elections, USAID restructured the Bangladesh Election Support 
Activities project to withdraw direct support for members of the 
government and promote constructive engagement of civil society and 
media, as well as women and youth across the political spectrum. 
USAID's $12 million, 5-year Democratic Participation and Reform project 
works to improve leadership roles by women and youth in political 
parties; helps political parties with research-based data in 
decisionmaking; and assists parties in messaging and media outreach, 
organizational best practices, and compliance with electoral law.
    The administration remains committed to robust programming in 
support of freedom of association in Bangladesh. U.S. programs on labor 
empower Bangladeshi workers to organize, help strengthen the 
independence and good governance of trade unions, and facilitate modern 
industrial relations.
    The State Department and Department of Labor work together closely 
on labor diplomacy, including the labor attache program in Bangladesh. 
The State Department has over 30 designated labor officer positions 
overseas who promote respect for labor rights, but the State Department 
and Department of Labor are looking to further expand the labor attache 
program. We have established a labor attache position at U.S. Embassy 
Bogota, whose duties will include helping to facilitate full 
implementation of the Labor Action Plan, and we will continue to 
identify future positions.

    Question. Over the last year it has become clear that the GOB has 
refused to protect the rights of garment workers to organize 
independent unions and has instead blamed outside conspirators and 
foreign elements for trying to destroy the country's garment industry. 
We know that our Embassy has worked with other Embassies in Dhaka to 
press the GOB to enforce its labor laws but progress has been slow.

  <diamond> What strategy does the State Department have to increase 
        pressure on the GOB? For example, would the Department consider 
        a joint mission with Assistant Secretary level envoys from 
        Europe to press the issue with officials in Dhaka?
  <diamond> We know the problems of the Bangladeshi garment industry 
        did not arise over night and will not be solved easily. 
        Congress over the past 2 years has made it clear that the State 
        Department and USAID need to have a long-term commitment to 
        fighting worker exploitation--we know that conditions in other 
        countries will not improve as long as Bangladesh sets the floor 
        for global garment production. Has the State Department adopted 
        a strategic approach to fighting worker exploitation?
  <diamond> How is this reflected in the State Department and USAID 
        budget?

    Answer. The U.S. Embassy in Dhaka is working closely with our 
partners in the international community toward greater progress on 
worker safety and labor rights by engaging with the Ministries of 
Commerce, Foreign Affairs, and Labor. In Washington, the State 
Department is working strategically with counterparts in USAID, USTR, 
and the Department of Labor to provide technical expertise and funding 
for Bangladesh. Together with the EU we are exploring the options for a 
joint high level meeting in Dhaka to follow up on the commitments 
Bangladesh made in the EU-U.S.-Bangladesh-International Labor 
Organization (ILO) Sustainability Compact. We will continue to use the 
Compact and the Generalized System of Preferences (GSP) Action Plan to 
urge the Government of Bangladesh to ensure free association and 
protect workers' rights and safety.
    Assistant Secretary for South and Central Asian Affairs Nisha 
Biswal regularly raises labor issues in her meetings with senior 
government officials, including her visit to Dhaka in November 2014 and 
during the visit of Foreign Minister Ali in February 2015, and will 
continue to do so on future trips to Dhaka. Assistant Secretary for 
Economic and Business Affairs Charles H. Rivkin traveled to Bangladesh 
in November 2014 to encourage labor, business, and government leaders 
to address labor rights. Newly appointed State Department Special 
Representative for International Labor Affairs, Sarah Fox, will play an 
important role to promote workers' rights and improve economic security 
and working conditions, and stands ready to visit Bangladesh as needed.
    In accordance with FY14 appropriations legislation, the State 
Department, through our Bureau of Democracy, Human Rights, and Labor 
Rights (DRL), and USAID have allocated funding for programs to carry 
out a strategy based primarily on a 2014 joint USAID-Department of 
State-Department of Labor assessment to address worker exploitation. 
USAID is in the process of evaluating proposals for a new $5 million 3-
year ``Workers' Empowerment Program'' on labor concerns such as 
protection of labor organizers, workplace safety, mitigation of 
environmental hazards, and lack of enforcement for accurate and timely 
payment of wages. The $3.2 million USAID Global Labor Program trained 
workers and provide legal and technical assistance on labor laws and 
organizing, while $4.7 million from USAID and the Department of Labor 
supports the ILO's efforts to improve workers' rights and factor 
safety. DRL is reviewing submissions for a program to promote core 
labor standards, including occupational safety and health, in 
Bangladesh.
    Beyond Bangladesh, the U.S. Government globally advances freedom of 
association and respect for internationally recognized labor rights by 
promoting inclusive economic growth, supporting freedom of association 
and healthy industrial relations systems, pursuing trade policies that 
support more widely shared prosperity, and advocating for business to 
respect human rights.

    Question. What further steps can we take to ensure a more stable 
operating environment for international civil society groups in 
Pakistan?

    Answer. The ability of civil society groups to operate in a 
predictable, transparent, and legal basis in Pakistan is important for 
Pakistan's stability and democratic growth, and is an issue we take 
very seriously. A handful of U.S.-based INGOs have sought U.S. 
intervention with the Ministry of Finance's Economic Affairs Division 
(EAD), which is responsible for implementing the Government of 
Pakistan's relatively new policy on international nongovernmental 
organization (INGO) registration that came into force in 2013. In 
recent meetings with Prime Minister Nawaz Sharif and Interior Minister 
Chaudhry Nisar, I raised issues faced by INGOs. Other U.S. officials, 
including Special Representative for Afghanistan and Pakistan Feldman 
and Ambassador Olson, have also raised specific concerns, including the 
slow registration process and the need for timely issuances of No 
Objection Certificates (NOCs), with relevant Pakistani officials on a 
number of occasions over the last several months. The Department, in 
all appropriate channels, will continue to engage on this issue.
    While the registration process is unacceptably slow, it is moving. 
As of late February, the Pakistani Government has finalized memoranda 
of understanding with 19 out of 59 INGOs that have applied under the 
2013 Registration Policy. While it is likely all INGOs are undergoing 
additional scrutiny under the current registration process, we have no 
reason to believe the Pakistani Government is targeting specific INGOs 
only due to their particular work in-country. Pakistani officials have 
also stated this position clearly to us, in response to our specific 
questions. The bureaucracy associated with the new policy has 
absolutely resulted in a slowdown in the registration process for all 
INGOs operating in Pakistan. We recognize the importance of this issue, 
will monitor further developments as they unfold, maintain close 
contact with affected INGOs, and continue to work with like-minded 
countries to push for a positive resolution.

    Question. With the U.S.-Pakistan partnership now on better footing 
and the war in Afghanistan over, it would seem the administration's 
need to maintain the status quo with Uzbekistan has diminished. As you 
know, that country has a particularly appalling record on religious 
freedom and human rights, which has led the State Department 
designating it a ``Country of Particular Concern'' (CPC) annually since 
2006. Despite the tools available, there's been no further action 
outside the annual designation due to a waiver that's been in place 
since January 2009. In light of the larger geopolitical changes, how do 
you justify the continued use of this waiver given that Uzbekistan 
still regularly arrests, imprisons, and tortures people for the 
peaceful exercise of their religious beliefs?

    Answer. The United States has enduring national security interests 
in Central Asia, including Uzbekistan, that go beyond the effort to 
stabilize Afghanistan. We seek to ensure that the region does not 
become a safe haven for terrorists that could threaten the United 
States. As with the rest of the Central Asian states, we support 
Uzbekistan's independence and sovereignty, and would like to see it 
develop as a stable and prosperous nation, better integrated into the 
broader region. Our strongly held belief is that these goals can only 
be achieved if Uzbekistan also develops a more open, accountable, and 
democratic system, that respects fundamental human rights, including 
the right of its citizens to worship freely. For this reason, we 
constantly raise human rights concerns with the highest levels of the 
Government of Uzbekistan.
    CPC designations and accompanying sanctions are a valuable tool to 
advance our religious freedom agenda, but in addition to sanctions, 
there are many other tools at our disposal, such as our bilateral and 
multilateral engagement. We frequently recommend policy and legislative 
changes, and offer our support to achieve these changes. Progress has 
been very slow, but Uzbekistan is aware of our priorities and that, 
without progress, we cannot realize the full potential of our bilateral 
relationship. Religious freedom equities are an integral component of 
our U.S.-Uzbekistan Annual Bilateral Consultations, where we discuss 
opportunities for progress in the coming year. This year, we anticipate 
some exchanges that should allow us to discuss the technical aspects of 
our recommendations in further detail.
    One recent positive development was the release of a number of 
religious prisoners in February 2015 as part of Uzbekistan's annual 
humanitarian amnesty, including journalist Khayrullo Khamidov, whose 
case has been mentioned in the State Department's International 
Religious Freedom Report. Additionally, based on the latest reports 
from the human rights community, we have also heard reports of up to 50 
religious prisoners released in this year's general amnesty.
    On July 28, 2014, the Secretary of State waived sanctions for 
Uzbekistan pursuant to the International Religious Freedom Act of 1998, 
determining that ``the important national interest of the United States 
requires the exercise of such waiver authority.'' Though our relations 
with Pakistan have improved since the disruption of the supply lines 
for our troops in Afghanistan in 2012, it is critical that the United 
States maintain alternative routes for supplies to and from Afghanistan 
for as long U.S. troops remain on the ground there. Although the U.S. 
combat mission has concluded, we continue to have roughly 10,000 U.S. 
troops in Afghanistan supporting the NATO mission to train, advise, and 
assist the Afghan National Security and Defense Forces (ANSDF). It is 
also important that the United States maintain the ability to support 
the ANSDF with supplies and equipment. Uzbekistan remains a vital link 
in the Northern Distribution Network, and as such, is an important 
partner in the region.

    Question. Overall declining funding levels for democracy and 
governance assistance by USAID--from $2.2 billion in FY 2009 to $1.4 
billion in FY 2014--are deeply concerning. It is good to see that this 
year's budget includes a $1 billion initiative to address root causes 
of social, political, and economic instability in Latin America, 
including democracy, human rights and governance (DRG) funding as well 
as proposed doubling of the DRG budget for Africa from FY 2014 levels. 
In advance of FY 2016, the administration is now determining the FY 
2015 653(b) level and we hope to see $1.8 billion for DRG funding which 
is the level that was provided for the Omnibus appropriations bill. If 
the global decline is not reversed, the United States will forfeit its 
leadership role on democracy issues, resulting in further democratic 
setbacks in the developing world. Our overall foreign aid objectives 
are going to suffer unless our programming reflects the direct linkages 
between political and economic development.

  <diamond> What levels do you expect to see for global DRG funding 
        through the FY16 request? How would you propose to ensure to 
        match these resources with the areas where they can make the 
        greatest impact in mitigating crises and solidifying democratic 
        progress?

    Answer. For FY 2016, the administration has requested $2.9 billion 
for global DRG assistance, the same as the FY 2014 request, but an 
increase of nearly $1.0 billion (50 percent) over the FY 2014 Actuals, 
reflecting a strong support for democracy, human rights, and governance 
around the world. As in past years, once the FY 2016 appropriation is 
finalized, the Department of State and USAID will develop an allocation 
of FY 2016 resources that balances foreign policy priorities, including 
DRG programs, while ensuring we have met statutory congressional sector 
directives included within the bill. In the past, annual appropriations 
bills have reduced funding for the key foreign assistance accounts that 
support DRG programs, which has made it difficult to fully fund DRG 
programs included within the President's Request.
    When formulating the FY 2016 request, the administration leveraged 
knowledge from experts to match resources to areas where strategies 
have identified opportunities to make the most impact. We also apply 
this analysis to develop 653(a) allocations for DRG programs to ensure 
that available funds are used in the highest priority and highest 
impact areas.
    We know that it requires many years of strategic effort on the part 
of countries, with the assistance and support of the United States and 
other nations, to achieve well-functioning democracies and market-based 
economies. The FY 2016 DRG funding request corresponds to the reality 
that a country's success in democracy and governance is a crucial 
underpinning to its security, its development, and to our initiatives. 
More robust democracy programs will be better placed to promote 
democratic institutions, support transparent and accountable 
governments, and protect and expand civil and political rights and 
freedoms around the world.
    To ensure that resources are matched with areas that will have the 
greatest impact in mitigating crises and solidifying democratic 
progress, each overseas mission creates a whole-of-government, 
multiyear Integrated Country Strategy, a coordinated and collaborative 
effort among all U.S. Government agencies in each mission that 
incorporates the USAID Country Development Cooperation Strategy. These 
strategies enable us to align foreign assistance programming to the 
specific needs and challenges of a country, reflect the development 
agenda of the host nation itself, and align U.S. efforts with host 
nation, international, and other bilateral donor programs working in 
the country. Nearly every strategic planning document includes a 
country-specific DRG strategy that takes into account the particular 
country context, resources, political system, key actors and 
institutions, and other relevant factors that may influence the 
determination of the most appropriate approach to solidifying 
democratic progress.
                                 ______
                                 

                Responses of John F. Kerry to Questions 
                  Submitted by Senator James E. Risch

    Question. Ukraine.--Corruption has been a central concern of the 
Ukrainian people since the beginning of protests in 2013. Western 
nations have provided substantial support to the Ukrainian Government, 
but we have seen little movement from the European Union or others to 
help the Ukrainians tackle this issue.

  <diamond> What do you believe the European Union and the United 
        States can do to help the Ukrainians begin to tackle this 
        endemic problem?

    Answer. The Ukrainian Government has set an ambitious reform agenda 
in response to the economic crisis brought on by Russian aggression and 
decades of corrupt mismanagement. We will continue our diplomatic 
engagement with the Government of Ukraine, partners, and the 
international donor community to assist Ukraine in implementing its 
reform agenda and to fight corruption.
    We are providing $38 million in assistance to help Ukraine counter 
corruption and strengthen the rule of law. This includes deploying 
technical advisers for reform of the Ministries of Justice and Internal 
Affairs; support for the new anticorruption agencies (National Agency 
for Prevention of Corruption and Anti-Corruption Bureau), reform of the 
Prosecutor General's Office and recovery of stolen assets; police 
reform and the establishment of the new Patrol Police; civil society 
and media to monitor and publicize the government's anticorruption 
efforts. In addition to these efforts, we are also providing technical 
advisors to the financial sector and the state oil and gas company.
    We are working with European partners through international 
financial institutions to help Ukraine address corruption by 
conditioning financial support on reforms and to involve Ukraine more 
closely in multilateral institutions that counter corruption and offer 
guidance on reforms and best practices. In addition, the EU bases its 
anticorruption efforts on the principles of openness, accountability, 
and effectiveness, and is providing a total of =365 million in 
development assistance over the period of 2014-2020 to support 
Ukraine's transition, including anticorruption efforts. The European 
Commission also is committed to helping Ukraine build institutions that 
promote a healthy social contract between the people and accountable 
government at all levels by fighting corruption. Among other things, 
the Commission is discussing with Ukrainian authorities the creation of 
a joint, independent body to investigate fraud and corruption-related 
matters.

    Question. In recent months, we have seen an increasingly assertive 
Russia challenge our Eastern European allies, from kidnapping an 
Estonian officer on Estonian soil, warning Latvian officials of 
``unfortunate consequences'' for alleged mistreatment of ethnic 
Russians, increasing probes by Russian military aircraft of NATO 
countries' airspace, to holding extensive military exercises along the 
borders of NATO countries.

  <diamond> Do you believe Russia has violated the NATO-Russia Founding 
        Act with these and other provocative actions?
  <diamond> Is President Putin's strategic objective to undermine the 
        credibility of NATO's Article V guarantee?

    Answer. The greatest responsibility of the NATO alliance is to 
protect and defend our territories and our populations against attack, 
as set out in Article 5 of the North Atlantic Treaty.
    If President Putin's goal is to undermine NATO's credibility, he 
has failed. NATO's actions in the face of Russia's aggressive actions 
against Ukraine and elsewhere in the region demonstrate the allies are 
united, our commitment to Article 5 remains ironclad, and we are ready 
and able to defeat any attack against any of the 28 allies.
    At the September NATO summit in Wales, allied leaders agreed to 
measures to ensure NATO will be able to respond quickly and effectively 
to current and future threats to the NATO space, wherever those threats 
may arise. Allied leaders also decided that in view of Russia's 
continuing aggression against Ukraine and its breach of the commitments 
it made under the NATO-Russia Founding Act, NATO will continue to 
suspend all practical civilian and military cooperation with Russia; 
the sole exception to the suspension is political dialogue that is 
first and foremost about the situation in Ukraine.

    Question. European Energy Security.--While South Stream was 
cancelled by Gazprom, there is still a need to assure a more diverse 
supply of energy sources for Europe away from Russia. What sources and 
routes do you believe provide the best opportunity to increase European 
energy security?

    Answer. Energy security in Europe has been a long-standing U.S. 
foreign policy priority. Efforts to establish the Baku-Tbilisi-Ceyhan 
pipeline in the 1990s, steadfast support for a Southern Gas Corridor in 
recent years, and our current work to assist Ukraine end the gas crisis 
with Russia and address Ukraine's immediate and long-term energy needs 
attest to our commitment.
    We continue to advocate for increased energy security in Europe 
through diversification of fuel types, supply sources, and delivery 
routes. We advocate a project-based approach to energy diversification 
in Europe; our top priorities include: the completion of the southern 
Corridor to bring gas from Azerbaijan to Europe, the construction of 
the Greece-Bulgaria Interconnector which would allow Bulgaria, and 
possibly also Serbia, Romania, and Hungary, to access to non-Russian 
pipeline gas and liquefied natural gas (LNG) via Greece, an LNG 
terminal in Croatia, and completion of interconnections to interconnect 
Baltic electricity infrastructure with Sweden and Poland.
    We also support full implementation of the EU's Third Energy 
Package, which provides a legal basis for deeper power and gas sector 
integration in Europe, and we are following the EU's new Energy Union 
proposals with interest.

Additional information:

  <bullet> Vice President Biden noted the strong role of U.S. energy 
        diplomacy and the need for Europe to identify and build the 
        most important infrastructure projects in his November 22, 
        2014, speech in Istanbul (http://www.whitehouse.gov/the-press-
        office/2014/11/22/remarks-vice-president-joe-biden-european-
        energy-security-atlantic-counc).
  <bullet> In the Joint Statement of the U.S.-EU Energy Council on 
        December 3, 2014, Secretary Kerry and his European counterparts 
        noted the joint U.S.-EU prioritization of many of these 
        projects (http://www.state.gov/r/pa/prs/ps/2014/12/234638.htm).
                                 ______
                                 

                Responses of John F. Kerry to Questions 
                    Submitted by Senator Marco Rubio

    Question. Last Tuesday, Venezuelan leader Nicolas Maduro visited 
Cuba for consultations with the Castro brothers. Upon his return, 
Maduro began a new wave of repression, including the violent arrest of 
Caracas Mayor Antonio Ledezma.

  <diamond> What consideration do you give Cuba's continued efforts to 
        subvert democratic institutions in Latin America, including 
        within your review of the state-sponsors of terrorism list, on 
        which Cuba was placed in 1982 precisely for its subversive 
        tactics in the Western Hemisphere?

    Answer. The Department is reviewing Cuba's designation as a State 
Sponsor of Terrorism. We are undertaking a serious review of Cuba's 
designation based on all relevant, applicable information and the 
statutory standard. We will not prejudge the outcome of that process.

    Question. Do you believe FARC, ELN and ETA should remain listed as 
``Foreign Terrorist Organizations'' by the U.S. Government? If so, how 
would you justify removing Cuba from the state-sponsors of terrorism 
list while it continues to provide sanctuary to members of these FTOs? 
Wouldn't you be putting the cart before the horse?

    Answer. The FARC, ELN, and ETA are Foreign Terrorist Organizations 
as designated by the Secretary of State in accordance with section 219 
of the Immigration and Nationality Act (INA), as amended.
    The Department is reviewing Cuba's designation as a State Sponsor 
of Terrorism (SST). We are undertaking a serious review of Cuba's 
designation based on all relevant, applicable information and the 
statutory standard. We will not prejudge the outcome of that process.

    Question. February 24 marked the 19th anniversary of the shoot-down 
of two civilian aircraft over international waters by Cuban MiG fighter 
jets, which resulted in the murder of three Americans and a permanent 
resident of the United States. This shoot-down over international 
waters has been named an act of state terrorism, including by the U.S. 
Congress. A 2001 federal indictment remains open for three senior Cuban 
military officials for the murder of these Americans.

  <diamond> Do you think Cuba should be removed from the State Sponsors 
        of Terrorism list prior to these senior Cuban officials facing 
        justice for an act of state terrorism that resulted in the 
        murder of three Americans?

    Answer. The Department is reviewing Cuba's designation as a State 
Sponsor of Terrorism. We are undertaking a serious review of Cuba's 
designation based on all relevant, applicable information and the 
statutory standard. We will not prejudge the outcome of that process.

    Question. In the last two weekends, over 300 Cuban dissidents have 
been arrested by the Castro regime. Yet, you have issued no 
condemnation. Can you explain if this silence is because you don't want 
to ``offend'' the Castro regime before the new rounds of talks this 
week or is such silence part of the administration's new Cuba policy?

    Answer. We frequently speak out on human rights issues in Cuba and 
other countries, and we will continue to do so. The Department is 
constantly monitoring reports of arrests of human rights activists. 
Human rights are central to our discussions with the Cuban Government 
and we continue to press for an end to practices that contravene 
international human rights commitments in our conversations with the 
Cuban Government.
    We have no illusions that the Cuban Government will change its 
behavior overnight. At the same time, we are convinced that, through a 
policy of sustained engagement, we can more effectively stand up for 
our values and help the Cuban people help themselves.

    Question. Secretary Kerry, would you provide our office with 
written confirmation that the U.S.'s Cuba democracy programs will 
continue to be executed independently from the Castro regime--as 
mandated by law--pursuant to the administration's changes in U.S.-Cuba 
policy?

    Answer. We will continue to use U.S. foreign assistance funds to 
support democratic principles, human rights groups, and the free flow 
of information to, from, and within Cuba and to provide humanitarian 
assistance to the victims of political repression and their families. 
Our efforts are aimed at empowering independent civil society and 
promoting the independence of the Cuban people and reducing their 
reliance on the Cuban state, if they so choose.

    Question. Will the United States guarantee the direct participation 
of Cuba's independent civil society in the Summit of the Americas 
scheduled in April in Panama?

    Answer. The United States strongly supports the participation of 
independent civil society from throughout the hemisphere in the summit, 
including from Cuba. We are working closely with the Panamanian 
Government, the host of the 2015 summit of the Americas, to ensure it 
reflects our hemisphere's continued efforts to support democracy, 
promote human rights and social inclusion, and empower an active, 
independent, and vibrant civil society.
    The Department has held extensive discussions with the Panamanian 
hosts and other governments on the need to focus on core democratic 
principles and the role of civil society at the summit, and have 
established a Civil Society Forum that promotes an agenda ensuring 
meaningful engagement among government leaders and civil society 
representatives. The United States, Panama, and our key partners are 
committed to the participation of independent Cuban civil society at 
the summit, along with civil society from all other countries in the 
hemisphere. Panama has made clear that the Organization of American 
States(OAS) registration guidelines for civil society organizations do 
not apply to the summit; therefore, governments are unable to block--in 
effect--the registration of NGOs or social actors to attend the summit. 
Any civil society representatives may apply for registration, 
regardless of their registration status before the OAS. Cuban civil 
society groups have already begun applying to attend the Civil Society 
Forum.

    Question. Can you please provide an update on whether Argentina has 
done anything to normalize relations with its private creditors, and if 
so, what it has done?

    Answer. Following its approximately $100 billion sovereign default 
in 2001, the Argentine Government made attempts to normalize its 
relationship with its private creditors. In all, an estimated 92 
percent of its bondholders participated in debt restructurings in 2005 
and 2010.
    Argentina has failed to agree on terms with creditors who did not 
exchange their bonds, including investors who initiated litigation 
against Argentina in U.S. Federal Courts. The United States is not a 
party to that litigation, which remains active, nor to any discussions 
with the special master appointed by the Federal District Court to 
conduct and preside over settlement negotiations.
                                 ______
                                 

                Responses of John F. Kerry to Questions 
                   Submitted by Senator Barbara Boxer

    Question. On October 2, 2014, I led eight of my Senate colleagues 
in a letter to you urging the United States to resume funding for the 
United Nations Trust Fund to End Violence against Women. While I was 
pleased that the President's Fiscal Year 2016 Budget Request proposes 
an increase in funding for U.N. Women, I was disappointed it did not 
include funding for the Trust Fund.

  <diamond> Can you address why the administration did not include 
        funding for the Trust Fund in its budget request?
  <diamond> Does the administration support the resumption of funding 
        for the United Nations Trust Fund to End Violence against Women 
        in fiscal year 2016?

    Answer. The administration strongly supports U.N. efforts to end 
violence against women, including the work of U.N. Women and the U.N. 
Trust Fund to End Violence against Women. The creation of U.N. Women in 
2010 was part of the U.N. reform agenda, bringing together resources 
and mandates for greater impact. It merged and built on the important 
work of four previously distinct parts of the U.N. system, which 
focused exclusively on gender equality and women's empowerment. U.N. 
Women works for, among other things, the elimination of discrimination 
and violence against women and girls.
    For this reason, following the creation of U.N. Women, the 
Department has focused on supporting efforts to eliminating violence 
against women through our annual contributions to U.N. Women's core 
budget. So while the FY 2016 IO&P request does not include a 
contribution to the U.N. Trust Fund to End Violence against Women, our 
support for eliminating violence against women and girls is reflected 
in our request for $7.7 million for U.N. Women. The FY 2016 IO&P 
request for U.N. Women is an increase of $200,000 from the level that 
the Appropriations Committees specified in the Statement of Managers 
explaining agreement by House-Senate conferees on the FY 2015 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act.

    Question. Azerbaijan has threatened to shoot down any aircraft that 
fly into the airport in Nagorno-Karabakh. What has the State Department 
done to respond to this threat and to any new acts of aggression from 
Azerbaijan?

    Answer. The United States opposes any steps by the sides that would 
escalate tensions or increase the risk of violence in the region. As a 
cochair of the OSCE Minsk Group, along with Russia and France, the 
United States has consistently urged the sides bilaterally and through 
the Minsk Group process to avoid provocations and threats of violence. 
We remain committed to working with the sides to reach a peaceful and 
lasting settlement to the Nagorno-Karabakh conflict.

    Question. I was proud when in August 2012 President Obama announced 
the release of the first-ever U.S. Strategy to Prevent and Respond to 
Gender-based Violence Globally. The Strategy states that it will 
provide ``Federal agencies with a set of concrete goals and actions to 
be implemented and monitored over the course of the next 3 years'' and 
that ``At the end of the 3-year timeframe, the agencies will evaluate 
the progress made and chart a course forward.''

  <diamond> With the 3-year deadline fast approaching, how will the 
        administration continue to build on and enhance efforts to 
        combat gender-based violence?
  <diamond> Will you commit to updating and continuing to implement the 
        Strategy to Prevent and Respond to Gender-based Violence 
        Globally after the expiration of its 3-year timeframe?

    Answer. Preventing and responding to gender-based violence (GBV) is 
a cornerstone of the Obama administration's commitment to advancing 
gender equality. The United States recognizes that GBV significantly 
hinders the ability of individuals to fully participate in and 
contribute to their families, communities, and societies--economically, 
politically, and socially. This is why the administration launched the 
U.S. Strategy to Prevent and Respond to Gender-Based Violence Globally 
in August 2012.
    In December 2013, the White House launched three interagency 
committees to implement the strategy and the accompanying Executive 
order from President Obama. The Department of State and USAID are 
playing a leading role in these committees in collaboration with other 
government agencies. The committees are currently working to identify 
pilot countries, which will be critical to ensuring that GBV prevention 
and response efforts are holistic, multisector, and based on best 
practices. Department of State and USAID are also working on an 
evaluation of the strategy, which we hope to submit to the White House 
later in 2015. The Department continues to be committed to preventing 
and responding to GBV globally and will look to incorporate lessons 
learned into future updates to the Strategy.

    Question. How will you work to ensure that this year's 
comprehensive review of the U.S. National Action Plan on Women, Peace, 
and Security includes an evaluation of the metrics being used to 
monitor and evaluate the State Department's implementation plan?

  <diamond> How will the State Department's review of the U.S. National 
        Action Plan on Women, Peace, and Security incorporate the 
        perspectives of local women-led civil society organizations 
        that have received U.S. support to evaluate the strategy's 
        effectiveness?

    Answer. Recognizing the influential role women can play in 
advancing international security, the Department of State is fully 
committed to supporting the United States unqualified commitment to 
protect and empower women in countries threatened and affected by war 
and conflict, violence, and insecurity. Given the Department's 
leadership role in U.S. diplomatic engagement, its foreign assistance 
programming, and robust relationships with civil society across the 
globe, it remains a key U.S. Government implementer of the United 
States National Action Plan on Women, Peace, and Security (NAP).
    In line with Executive Order 13595, the Department and several 
other interagency actors, including the U.S. Agency for International 
Development (USAID) and the Department of Defense (DOD), will lead a 
periodic review of the NAP, informed by consultations with women and 
relevant civil society organizations throughout 2015.
    Moreover, the year 2015 marks several opportunities to take stock 
of global commitments on gender equality, development, and conflict 
resolution. In addition to an interagency review the NAP, several 
multilateral events and processes will elevate gender in international 
security and development in 2015, including the 15th anniversary of 
U.N. Security Council Resolution 1325, the 20th anniversary of the 
Beijing Platform for Action, and the ongoing process to develop a new 
set of Sustainable Development Goals (to succeed the Millennium 
Development Goals). Given this backdrop, 2015 is truly the year for the 
Women, Peace, and Security (WPS) agenda--and it must be a year of 
resounding affirmation that including women in decisionmaking is not 
just a nice thing to do; it is the strategic thing to do.
    The Department plans to leverage the review to identify gaps, 
challenges, and recommendations regarding NAP implementation. An 
important part of this process will be a survey of metrics used to 
monitor, evaluate, and track implementation--measuring not only foreign 
assistance activities but also diplomatic engagement.
    Additionally, the Department accords high priority to incorporating 
the perspectives of international civil society and grassroots civil 
society groups, especially women, in countries affected by conflict and 
insecurity in its efforts to advance peace and security. In 
collaboration with USAID and DOD, the Department has already launched 
consultations with international civil society constituencies and U.N. 
actors, including women, and plans to host further in-depth, issue-
specific consultations with international civil society groups and 
grassroots civil society in conflict-affected countries to inform a 
review of the NAP.

    Question. A legacy of this administration has been its focus on 
women and girls as a cornerstone of foreign policy. I was pleased that 
the President's Fiscal Year 2016 Budget Request continues to prioritize 
investments in international family planning and reproductive health.

  <diamond> How is the United States working to expand access to 
        voluntary family planning services as part of broader efforts 
        to support the goals of equality and empowerment of women and 
        girls worldwide?

    Answer. With the help of Congress, the United States continues to 
be the largest bilateral donor for voluntary family planning around the 
world. This further demonstrates the U.S. Government's firm commitment 
to helping men and women across the globe meet their reproductive 
health needs. Enabling an individual or couple to decide whether, when, 
and how often to have children is vital to safe motherhood, healthy 
families, and prosperous communities. USAID-supported research shows 
that voluntary family planning could prevent up to 30 percent of the 
estimated 287,000 maternal deaths that occur every year, because women 
can delay their first pregnancy and space later pregnancies at the 
safest intervals.
    Through USAID, the U.S. Government advances and supports voluntary 
family planning and reproductive health programs in more than 45 
countries around the globe. As a core partner in the Family Planning 
2020 Initiative, USAID is committed to working with the global 
community to reach an additional 120 million women and girls with 
family planning information, commodities, and services by 2020. These 
services empower individuals to choose the timing and spacing of their 
pregnancies, bear children during their healthiest years, prevent 
unintended pregnancies, and nurture healthier families and communities.
    The U.S. Government will continue to show leadership on this issue 
in multilateral fora such as the U.N. Commission on Population and 
Development, the U.N. Commission on the Status of Women, and the U.N. 
Human Rights Council. We persistently make the argument at these venues 
and elsewhere that sexual and reproductive health services, especially 
voluntary family planning, are essential to promote sustainable 
economic development, advance gender equality, and contribute to the 
U.S. Government's goals of Ending Preventable Child and Maternal Deaths 
and Creating an AIDS-free Generation.
    Additionally, the U.S. Government actively supports the U.N. 
Population Fund (UNFPA), the U.N. High Commissioner for Refugees 
(UNHCR) and many other development and humanitarian organizations to 
provide reproductive health services in crisis settings. This includes 
training staff, offering community education, establishing client 
followup, providing a variety of family planning methods, and 
maintaining a contraceptive supply chain system. These life-saving 
interventions help women, girls, and entire communities recover from 
crises and conflict.
    Furthermore, as we take stock of the 20-year review of the 
International Conference on Population and Development (ICPD) Program 
of Action and focus on the 20-year review of the 1995 Beijing 
Declaration and Platform for Action and the review of the Millennium 
Development Goals in 2015, the U.S. Government will continue to work 
toward advancing these goals.
                                 ______
                                 

                 Response of John F. Kerry to Question 
                  Submitted by Senator Jeanne Shaheen

    Question. Each year, an estimated 22 million women and girls have 
an unsafe abortion, almost all in the developing world. As a result, 
the World Health Organization estimates that 47,000 lose their lives, 
and millions more suffer serious injuries. In places where women cannot 
get a safe abortion, they end their unwanted pregnancies unsafely. 
Furthermore, according to WHO, legal restrictions, in addition to other 
barriers, contribute to the likelihood of women seeking unsafe abortion 
care. The Helms amendment, appended to the U.S. Foreign Assistance Act 
in 1973, prohibits the use of U.S. funds for the performance of 
abortion ``as a method of family planning.'' Under the law, foreign 
assistance funds could legally be used to support abortion services in 
the cases of rape, incest, or where the pregnancy threatens a woman's 
life--as these cases do not constitute a family planning act. However, 
relevant U.S. Government agencies, including the State Department and 
USAID, will not fund abortion services in these cases, even where local 
law allows it. This is particularly disheartening for the 30 million 
women and girls around the world who access U.S.-funded programs for 
their reproductive health care.

  <diamond> What steps is the administration taking to apply the Helms 
        amendment correctly and allow foreign assistance funds to 
        support abortion services in the cases of rape, incest, or if 
        the life of the woman is in danger due to pregnancy?

    Answer. The administration takes this issue very seriously. We know 
the value of providing survivors of sexual violence with much-needed 
sexual and reproductive health and psychosocial services and believe it 
essential to helping them recover from trauma so that they can rebuild 
their lives and their communities. As such, the administration 
regularly reviews our policies to ensure we are taking all appropriate 
measures to improve the health and status of women and girls around the 
globe, including survivors of sexual violence.
                                 ______
                                 

                Responses of John F. Kerry to Questions 
                 Submitted by Senator Edward J. Markey

    Question. You recently named Randy Berry to serve in the newly 
established position of ``Special Envoy for the Human Rights of LGBT 
Persons'' at the Department of State. I have expressed the need for 
such a position for some time, having reintroduced S. 302 the 
``International Human Rights Defense Act of 2015'' on January 29, 2015, 
with support from 26 original cosponsors. I am pleased that the 
position is coming to fruition.

  <diamond> What resources are now available to support this position 
        that will ensure foreign policy includes a coordinated effort 
        to defend LGBT rights around the world?
  <diamond> How many full-time employees will be dedicated to the 
        Special Envoy's efforts?
  <diamond> What additional resources do you anticipate will be needed 
        in the future to ensure that the Special Envoy is adequately 
        equipped to advance LGBT rights abroad?

    Answer. The Special Envoy for the Human Rights of LGBT Persons will 
coordinate the Department's diplomatic engagement on advancing the 
human rights of LGBT persons. Within the Bureau of Democracy, Human 
Rights and Labor, four employees are engaged full-time on LGBT issues 
and approximately a dozen other staff spend a significant portion of 
their time on these issues. There are numerous others within the 
Department and at our overseas missions who also work to advance this 
agenda in the context of the U.S.'s bilateral and multilateral 
relationships. The Special Envoy will continue and deepen the efforts 
already underway in the State Department, including coordinating and 
shepherding implementation 
of the Department's strategy on human rights for LGBT persons, adopted 
in 2011, 
and the Presidential Memorandum issued later that year. He will also 
work to strengthen our relationship with like-minded countries, 
including through coordinated diplomacy and programming, and with those 
governments that see things differently. The Department's work with 
LGBT persons, allies, and activists abroad will be an important 
component as well.
    The Special Envoy will have a direct role in leading assistance 
efforts as part of the DRL-managed Global Equality Fund, which since 
its founding in 2011 has programmed over $17 million in 50 countries. 
He will play an integral part in identifying needs of LGBT communities 
and developing appropriate programmatic responses. While a number of 
governments, including our own, have made substantial contributions to 
the Fund, the number of viable program applications well exceeds the 
budget available, so the Special Envoy will also seek additional 
resources as part of his overall outreach.

    Question. The President's Emergency Plan for AIDS Relief (PEPFAR) 
is regarded as one of the most successful global health programs in 
history. It is currently helping to provide lifesaving HIV treatment to 
7.7 million people and has provided HIV testing and counseling for more 
than 56.7 million people. The UNAIDS has set up some laudable targets 
that call for 90 percent success rates in three categories by the year 
2020:

    (1) 90 percent of all people living with HIV should know their 
status;
    (2)  90 percent of all those who are diagnosed HIV positive to be 
on antiretroviral treatment (ART); and
    (3)  90 percent of those on antiretroviral treatment should have an 
undetectable viral load.

  <diamond> Do you expect that the current U.S. investments will 
        achieve the UNAIDS target of 90-90-90 in that timeframe? If 
        not, what is needed to meet these goals by 2020?

    Answer. Achieving the Joint Unite Nations Programme on HIV/AIDS 
(UNAIDS) global goals of 90-90-90 by 2020 requires a shared 
responsibility by partner countries, PEPFAR, and the Global Fund to 
Fight AIDS, Tuberculosis, and Malaria (Global Fund). PEPFAR is shifting 
the way it does business to help reach the UNAIDS ambitious 90-90-90 
global targets, have the greatest impact, and accelerate progress 
toward an AIDS-free generation. PEPFAR can best contribute to achieving 
the UNAIDS targets of 90-90-90 and controlling the epidemic by 
employing a data-driven approach that strategically focuses resources 
on geographic areas, at the subnational level and populations that have 
the highest burden of HIV/AIDS.
    In FY 2016, PEPFAR's efforts will be driven by five action agendas: 
Impact, Efficiency, Sustainability, Partnership, and Human Rights. 
These agendas--combined with PEPFAR's overriding commitment to 
transparency, accountability, and impact--will continue to guide our 
work.
    PEPFAR will focus on doing the right things, in the right places, 
and at the right time to control the HIV/AIDS epidemic and, ultimately, 
achieve an AIDS-free generation. This will entail using the best 
available data to direct PEPFAR resources toward bringing evidence-
based interventions (e.g., ART, prevention of mother-to-child 
transmission [PMTCT], voluntary medical male circumcision [VMMC], and 
condoms) to scale for populations at greatest risk and in geographic 
areas of greatest HIV incidence. PEPFAR will prioritize reaching scale 
quickly and with quality because an expanding HIV epidemic is not 
financially sustainable.

    Question. I continue to be concerned by the number of families in 
the United States who are trying to bring home their legally adopted 
children from the Democratic Republic of the Congo but are being denied 
exit permits. Secretary Kerry has engaged on this matter personally, 
and yet our partners in the DRC Government have made limited progress 
on the existing cases.

  <diamond> Please explain what steps we are taking to resolve this 
        issue, including any consideration of limiting the issuance of 
        U.S. visas for visiting members of the DRC Government?

    Answer. Our strategy in the Democratic Republic of the Congo (DRC) 
has been threefold. First, we have pressed the DRC Government at every 
opportunity and at the very highest levels, including during Secretary 
Kerry's meetings with President Kabila last May and August, to lift the 
suspension immediately for families who have already completed the 
adoption process in good faith under existing Congolese adoption laws. 
Second, we have pressed the DRC Government to consider the issuance of 
exit permits on an expedited basis for those adopted children requiring 
urgent, life-saving medical care abroad. Third, to address Congolese 
concerns about significant flaws in their current system, we have 
offered technical consultations aimed to improve the Congolese 
intercountry adoption process.
    Since the start of the suspension in September 2013, our efforts 
have led to the issuance of exit permits to more than 30 families that 
had completed their adoptions prior to the start of the suspension or 
had children with life-threatening medical conditions that required 
immediate treatment outside of the DRC. However, the list of families 
adopting in the DRC despite the suspension continues to grow, and the 
Department will not cease its efforts until all the families receive 
relief.
    Ambassador Swan and the team at Embassy Kinshasa continue to engage 
regularly on this issue with the DRC Government as well as with the 
families. We are pressing the DRC Government to hold a previously 
promised interministerial meeting to address the adoption suspension, 
including the question of how to manage already completed adoptions 
once new adoption legislation is enacted. Embassy Kinshasa recently 
submitted to the DRC Ministry of Foreign Affairs a list of children 
whose adoptions were final prior to the suspension. The accompanying 
diplomatic note reiterates that our families have already legally 
adopted their children, and that the rigorous process and 
investigations completed by the State Department and USCIS mitigate any 
deficiency in the DRC system. The note requests that these children 
receive exit permits to join their adoptive families in the United 
States immediately. In December 2014, Special Advisor for Children's 
Issues, Ambassador Susan Jacobs, led a delegation to the DRC to discuss 
pending adoption cases and proposed adoption reforms. In March 2015, 
the State Department and USCIS plan to send a followup technical team 
to consult on adoption reforms in the DRC and to encourage the DRC 
Government to pass and implement new adoption-related legislation.
    The Department continues to press the DRC Government at every 
opportunity to lift the suspension. We do not believe unilateral 
restrictions of visas for Congolese officials would be effective in 
helping to resolve the complex issues underlying the adoptions 
suspension and could, in fact, trigger reciprocal restrictions against 
U.S. officials seeking to visit the DRC. We also have specific treaty 
obligations for individuals traveling to the United Nations. Broad visa 
restrictions imposed by the DRC in response to U.S. restrictions on 
visas could harm vulnerable populations by affecting the travel of U.S. 
aid workers and even the adoptive families themselves, who need 
Congolese visas to visit their children.

    Question. 2015 marks the final year of the Millennium Development 
Goals. While we have made incredible and important progress in the last 
15 years, there is still so much work to be done--especially to improve 
the health and well-being of women. The world has not yet achieved MDG5 
to improve maternal health by reducing maternal mortality and providing 
universal access to reproductive health.

  <diamond> How are U.S. global health programs working to deliver on 
        this unfinished business of preventing maternal mortality and 
        expanding reproductive health access?

    Answer. USAID and other U.S. Government global health programs 
remain committed to ending preventable maternal mortality and 
increasing access to reproductive health services. Maternal and 
reproductive health programs are key to achieving the U.S. Government's 
goal of Ending Preventable Child and Maternal Deaths. USAID focuses its 
maternal and reproductive health programs in countries where the need 
is the greatest. With the support of Congress, the United States 
continues to be the world's largest bilateral donor for international 
family planning. USAID supports voluntary family planning and 
reproductive health programs in more than 45 countries around the 
globe, and to date, has helped 24 countries increase their modern 
contraceptive use and decrease fertility rates to levels that qualify 
them for graduation from family planning assistance. Our 24 priority 
countries for maternal health and voluntary family planning and 
reproductive health programs represent 70 percent of the burden of 
maternal deaths, and approximately half of the unmet need for family 
planning, worldwide. In the USAID 24 priority countries, the percentage 
of births in a facility have increased from 20 percent in 1990 to 47 
percent in 2013, and skilled birth attendance in both home and facility 
deliveries has increased from 32 percent in 1990 to 60 percent in 2014.
    The Millennium Development Goals have an end date of 2015, and the 
international community is in the process of developing the Post-2015 
Development Agenda--likely to be called the Sustainable Development 
Goals, which will be adopted at a Presidential summit in September 2015 
in New York. The U.S. Government has strongly advocated for a focus on 
sexual and reproductive health and reproductive rights as part of any 
stand-alone gender goal, recognizing the crucial link with maternal 
health outcomes. USAID has aligned with partners to ensure that 
maternal and reproductive health continue to be global development 
priorities. USAID, with other international organizations, has proposed 
two key benchmarks for maternal and reproductive health to be achieved 
by 2030: (1) a global maternal mortality ratio of less than 70 per 
100,000 live births, with no country level greater than 140 per 100,000 
live births; and (2) at least 75 percent of demand for family planning 
is satisfied with modern contraceptives in all countries.
    USAID will continue to harness proven high-impact practices and 
innovative approaches to: empower individuals to choose the timing and 
spacing of their pregnancies; bear children during their healthiest 
years in a clean, safe, and respectful environment; prevent unintended 
pregnancies; and nurture healthier families and communities. In 
addition to our maternal health and voluntary family planning programs, 
USAID supports a range of related reproductive health interventions, 
including post-abortion care, transformation of gender norms, 
elimination of female genital mutilation/cutting, and fistula 
prevention and repair.
                                 ______
                                 

           Responses of Secretary John F. Kerry to Questions 
                   Submitted by Senator John Barrasso

    Question. Lethal Assistance to Ukraine.--On February 3, 2015, I 
joined 14 U.S. Senators in sending a bipartisan letter to President 
Obama on Ukraine. It explains that Ukraine needs an immediate infusion 
of effective defensive military equipment including antitank weapons, 
counterbattery radars, armored Humvees and increased training.
    The Ukraine Freedom Support Act, which passed Congress and was 
signed into law in December, authorizes military equipment to Ukraine.
    On February 21, 2015, you responded to a question about lethal 
assistance to Ukraine by stating, ``No decision has been made by the 
President at this time, and I think we have to see what happens in the 
next few days with respect to the events that are taking place now on 
the ground.''

  <diamond> In light of the recent events on the ground, is the 
        administration now willing to provide lethal assistance to the 
        Ukraine? If not, what additional economic sanctions does the 
        administration plan to impose on Russia?

    Answer. The United States remains deeply concerned by Russia's 
continued violation of Ukraine's sovereignty and territorial integrity, 
its continuing occupation of Crimea, and its support for pro-Russia 
separatists in eastern Ukraine. Russia and the separatists it backs 
continue to fail to fulfill the commitments they made in the September 
Minsk agreements and the February 12 implementation plan.
    The United States has provided significant nonlethal defensive 
security assistance to Ukraine to help address the crisis, committing 
over $120 million in 2014, but our focus remains on finding a 
diplomatic solution. We continue to monitor the situation closely and 
remain in constant contact with our Ukrainian counterparts on our next 
steps in defense cooperation.
    If Russia fails to implement Minsk agreements, there will be 
further consequences. If, on the other hand, Russia and the separatists 
it backs fully implement their commitments under the Minsk agreements 
of September 2014 and the commitments under the February 12 
implementation plan, we will roll back significant sanctions. 
Fulfilling Minsk commitments includes the complete withdrawal of all 
heavy weapons and foreign fighters from Ukraine, full and unfettered 
access by international monitors to separatist-controlled territory to 
verify cease-fire and withdrawal compliance, and the release of all 
hostages. Crucially, the conditions for rolling back sanctions also 
include restoring to Kiev the control of its side of the border with 
Russia.

    Question. International Climate Change Negotiations.--In November 
2014, President Obama announced a pledge of $3 billion to create a 
brand new Global Climate Fund. His fiscal year 2016 budget request asks 
for $500 million to start funding that pledge.

  <diamond> a. What was the process the administration used for 
        determining the appropriate commitment to the Global Climate 
        Fund? What consultations did the administration have with 
        Congress on this commitment?

    Answer (a). The United States pledged to contribute $3 billion to 
the GCF, not to exceed 30 percent of total confirmed pledges to the 
GCF. The GCF has so far received pledges totaling $10.2 billion from 31 
countries, including eight non-traditional donors: Chile, Colombia, 
Indonesia, Mexico, Mongolia, Panama, Peru, and Republic of Korea. More 
are expected to pledge in the future. The U.S. pledge currently 
represents 29% of all pledges. We expect that to decrease as more 
contributors make pledges, possibly later this year or in 2016.
    The amount of the U.S. commitment to the GCF is calculated to build 
on prior support to similar multilateral funds (i.e. Global Environment 
Facility (GEF) and Climate Investment Funds (CIFs)) while remaining 
within a percentage range traditionally provided by the U.S. to such 
funds. By way of example, in 2008, the Bush administration spearheaded 
the establishment of the CIFs, a set of World Bank trust funds with 
nearly $8 billion in total contributions, of which $2 billion was 
pledged by the Bush administration. The CIFs were intended as a 
transitional mechanism until the GCF becomes fully operational. 
Developed countries established the GCF in recognition that the kind of 
support provided by the CIFs would need to continue and would require a 
more inclusive governance structure.
    Prior to the President's announcement of the pledge, staff from the 
Department of the Treasury and the Department of State met with HACFO 
staff to consult on the pledge.

  <diamond> b. What impact evaluations have been completed on the 
        previous $2 billion in U.S. funding for international climate 
        change already provided to the Climate Investment Funds? Why is 
        it responsible for the administration to recommend closing down 
        the current Climate Investment Funds and creating a larger 
        brand new Global Climate Fund if no evaluations have been done 
        on the impact and results of U.S. funding to the current 
        international climate change programs?

    Answer (b). The establishment of the GCF was a central provision of 
the Copenhagen Accord, an important agreement that recognized the need 
for developing countries to take action to reduce their carbon 
emissions and combat climate change. In contrast to the Kyoto Protocol, 
in which only developed countries have emission-reduction obligations, 
the Copenhagen Accord contains commitments by a wide range of emerging 
economies, including major emitters like China, India, Brazil, and 
Indonesia.
    The Climate Investment Funds (CIFs) were intended as a transitional 
mechanism and are expected to sunset once the GCF is fully operational 
and our obligations to the CIFs are complete. The U.S. has an 
outstanding $230 million commitment to the CIFs. Beyond this, the 
administration is not planning to make additional pledges to the CIFs, 
and if our FY 2016 request is fully appropriated, we do not plan to 
make a funding request in FY 2017. Treasury, through the CIF Trust Fund 
Committees, is already engaged in a discussion with the CIFs' 
Administrative Unit and Trustee as to when and how to sunset the CIFs. 
Once the sunset is decided, the CIFs will stop accepting new funds and 
will only approve new projects to the extent that they have funds on 
hand.
    An independent evaluation of the CIFs was released in June 2014 and 
is available on the Internet at http://www.cifevaluation.org. Because 
of the early stage of most CIF investments (many of which are of very 
long duration), the evaluation focused more on institutional issues 
such as the process for developing country investment plans. We expect 
further CIF level evaluations to be conducted in the future. Each 
multilateral development bank that participates in the CIFs is 
including CIF programs or projects into their evaluation work program.

    Question. On August 26 of last year, the New York Times had a story 
entitled ``Obama Pursuing Climate Accord in Lieu of Treaty.'' The 
article states, ``The Obama administration is working to forge a 
sweeping international climate change agreement to compel nations to 
cut their planet-warming fossil fuel emissions, but without 
ratification from Congress.'' It also talks about the administration 
working on a ``politically binding'' deal to cut emissions rather than 
a legally binding treaty that would require approval by two thirds of 
the Senate.

  <diamond> a. What form of an international agreement is the United 
        States pursuing at the international climate change 
        negotiations?

    Answer (a). The 2014 decision of the Parties to the Framework 
Convention on Climate Change, taken in Lima, Peru, recalls a 2011 
decision of the Parties adopted in Durban, South Africa. That decision 
launched a process to develop a ``protocol, another legal instrument, 
or an agreed outcome with legal force under the Convention applicable 
to all Parties. . . .''
    The Durban mandate makes clear that the Paris agreement is to 
further the objective of the Convention (i.e., to avoid dangerous 
anthropogenic interference with the climate), yet leaves the parties 
with substantial flexibility regarding its form and the legal nature of 
its provisions.
    At this stage, the international discussions are more focused on 
the substance of the agreement than on whether it should be a protocol, 
etc., or whether particular provisions should be legally binding. The 
United States seeks an agreement that is ambitious in light of the 
climate challenge; that reflects nationally determined mitigation 
efforts in line with national circumstances and capabilities; that 
provides for accountability with respect to such efforts; that takes 
account of evolving emissions and economic trends; and that promotes 
adaptation by parties to climate impacts.

  <diamond> b. Will the agreement be legally binding on the United 
        States and other countries, including funding commitments for 
        any provision contained within the agreement?

    Answer (b). See answer to question (a) above.

  <diamond> c. Can the administration enter into a ``politically 
        binding'' international agreement without congressional 
        approval?

    Answer (c). To the extent that the referenced NY Times story used 
the term ``politically binding'' to describe a nonlegally binding 
outcome, it would follow that such an outcome would be within the 
authority of the executive branch to conclude.

  <diamond> d. What state, local governing entity, or community would 
        not be subject to a ``politically binding'' treaty?

    Answer (d). To the extent the question refers to a nonlegally 
binding outcome, such an outcome would not take the form of a treaty.

  <diamond> e. Why would this administration bypass the Senate on any 
        climate change deal?

    Answer (e). The appropriate domestic form of the Paris outcome, 
whether a protocol, another legal instrument, or an agreed outcome with 
legal force, will depend upon several factors, including its specific 
provisions.
    As Secretary Kerry testified during his confirmation hearing, any 
international agreement brought into force for the United States will 
be done so consistent with the United States Constitution.

  <diamond> f. If Congress is not going to be allowed to ratify any 
        climate change agreement that results from the Paris 
        negotiations, what role, if any, do you see for Congress to 
        play in this international process?

    Answer (f). As noted above, it is an open question whether the 
Paris outcome will be of a nature that requires Senate approval before 
the President may ratify it. In any event, the administration will 
continue to consult with the committee regarding the negotiations.

    Question. What progress has been made on the ballistic missile 
issue? Has Iran even been willing to engage on its missile program?

    Answer. The Joint Plan of Action (JPOA) has created time and space 
for the negotiation of a comprehensive deal that would prevent Iran 
from acquiring a nuclear weapon and ensures that its nuclear program is 
exclusively peaceful. During these negotiations, all U.N. Security 
Council resolutions (UNSCR) prohibitions and sanctions related to 
Iran's ballistic missile program, as well as relevant U.S. sanctions on 
Iran's ballistic missile program, remain in full force.
    We have taken up the issue of how to deal with ballistic missiles 
capable of delivering a nuclear warhead as part of the P5+1 
negotiations. This issue has been discussed and will continue to be 
discussed.
    Even as we work to achieve a comprehensive solution, the United 
States will continue to vigorously enforce all sanctions not covered by 
the narrow categories of relief provided for under the JPOA. Moreover, 
we will continue to work with our allies and partners to enforce the 
proliferation-related sanctions against Iran's nuclear and ballistic 
missile programs.

    Question. Democratic Republic of Congo.--In September 2013, the 
Democratic Republic of Congo stopped issuing exit permits for Congolese 
children adopted by foreign parents. The suspension of exit permits for 
legally adopted children is having a terrible impact on hundreds of 
American families. In fact, there are several families in Wyoming who 
have shared their experiences with me and are still trying to bring 
their children home. In July 2014, 167 Members of Congress sent a 
letter to President Obama asking for his direct engagement on this 
issue and to press for an expeditious resolution. In October 2014, 183 
Members of Congress wrote to the President of the DRC asking to 
expedite the process of medical fragile children and allowing the 
hundreds of American families who have legally completed the adoption 
process to bring their children home.

  <diamond> Will you commit to providing the resources and focus needed 
        to resolve this terrible situation?
  <diamond> What is the administration's strategy to get these adopted 
        children home to their loving American families?
  <diamond> What is being done to ensure that these families are 
        grandfathered into the new adoption legislation being 
        considered by the Parliament of the DRC?

    Answer. Our strategy in the DRC has been threefold. First, we have 
pressed the government at every occasion and at the very highest 
levels, including during my meetings with President Kabila last May and 
August, to lift the suspension immediately for families who have 
already completed the adoption process in good faith under existing 
Congolese adoption laws. Second, we have pressed the DRC Government to 
consider the issuance of exit permits on an expedited basis for those 
adopted children requiring urgent, life-saving medical care abroad. 
Third, to address Congolese concerns about significant flaws under 
their current system, we have offered technical consultations aimed to 
improve the Congolese intercountry adoption process.
    Since the start of the suspension in September 2013, our efforts 
have led to the issuance of exit permits to over 30 families that had 
completed their adoptions prior to the start of the suspension or had 
children with life-threatening medical conditions that required 
immediate treatment outside of the DRC. But the list of families that 
are adopting in the DRC despite the suspension continues to grow, and 
the Department will not cease its efforts until all the families 
receive relief.
    Ambassador Swan and the team at Embassy Kinshasa continue to work 
regularly on this issue with the government as well as with the 
families. They are currently pressing the DRC Government to hold a 
previously promised interministerial aimed at addressing the adoption 
suspension, including the question of how to manage already completed 
adoptions once new adoption legislation is enacted. Embassy Kinshasa 
recently submitted to the DRC Ministry of Foreign Affairs a list of 
children whose adoptions were full and final prior to the enactment of 
the exit permit suspension. The accompanying diplomatic note reiterates 
that our families have already legally adopted their children and that 
the rigorous process and investigations completed by the State 
Department and USCIS mitigate any deficiency in the DRC system. The 
note requests that these children receive exit permits to join their 
adoptive families in the United States immediately. Special Advisor for 
Children's Issues, Ambassador Susan Jacobs, led a delegation in 
December to the Democratic Republic of the Congo (DRC) to discuss 
pending adoption cases and proposed adoption reforms. In March, the 
State Department and USCIS plan to send a followup technical team to 
consult on adoption reforms in the DRC and to encourage the DRC 
Government to pass and implement new adoption-related legislation. 
Consular Affairs and Embassy Kinshasa also continue to press for 
already completed adoption cases to move forward without restarting the 
DRC process from the beginning.

    Question. Accountability Review Board's Recommendations.--In a 
response to a question for the record during the confirmation process, 
you stated that ``Secretary Clinton accepted all 29 recommendations 
from the Benghazi Accountability Review Board.'' You also assured this 
committee that you would personally oversee the implementation of the 
Accountability Review Board's recommendation and have your senior 
leadership make it a top priority.

  <diamond> How many of the Accountability Review Board's 
        recommendations have not been completed and why have they not 
        been completed? What budgetary resources are needed to complete 
        those recommendations? What is your timeline and plan to ensure 
        they are completed quickly?

    Answer. The Department has closed 26 of 29 Benghazi ARB 
recommendations and has made significant progress in implementing the 
remaining 3. One recommendation is expected to be closed shortly, while 
the other two involve long-term overseas construction projects. As we 
move to close these remaining recommendations, we remain focused on the 
enduring implementation of all closed Benghazi ARB recommendations.
    Recommendation 7, which we expect to close shortly, stated, ``All 
State Department and other government agencies' facilities should be 
collocated when they are in the same metropolitan area, unless a waiver 
has been approved.''
    To implement this recommendation, the Department conducted a 
worldwide review of all facilities to determine which could be 
collocated and which could not. For those that could not, the 
Department worked to ensure that a collocation waiver was warranted and 
on file. It was determined that collocation waivers were needed for 
several facilities; those waivers are almost completed. Before closing 
this recommendation, the Department is reviewing its policies, 
procedures, communications, and training to ensure that the 
institutional processes are in place to maintain the waiver process 
going forward.
    Implementation of recommendation 20 is still in progress. This 
recommendation stated, ``Diplomatic Security (DS) should upgrade 
surveillance cameras at high threat, high risk (HTHR) posts for greater 
resolution, nighttime visibility, and monitoring capability beyond 
post.''
    The Department is upgrading all High Threat, High Risk facilities 
with more modern surveillance cameras. The Department does not require 
additional funding to implement this recommendation.
    The third recommendation that is still in progress is classified. 
Implementation requires a multiyear construction effort, and design and 
procurement details are still being assessed. The Department can brief 
the Congress on implementation in an appropriate location.

    Question. What is the total amount spent on professional, 
educational and cultural exchange programs in fiscal year 2014 and 
fiscal year 2015 by the U.S. Government?

    Answer. The Department of State's FY 2014 Bureau of Educational and 
Cultural Affairs (ECA) was $576.4 million in FY 2014 and FY 2015 
enacted level is $589.9 million. These figures do not include exchange 
programs conducted by other agencies, such as USAID, the Department of 
Defense, the Department of Agriculture, or the Department of Commerce.

    Question. Why is the U.S. Department of State requesting a $33 
million increase in the educational and cultural exchange programs? 
What gap would this money fill in the current programming?

    Answer. As the world becomes ever more networked, and youth 
movements increasingly influence the course of their nations' policies, 
the U.S. Government has greater needs and opportunities to reach 
growing and increasingly activist audiences to advance U.S. policies 
and exert lasting influence. Exchanges are a powerful tool of foreign 
policy--often the most effective in reaching those key audiences 
outside of governments. We can advance many of our highest priority 
policy goals most substantially with exchanges, for example, in 
countries and regions undergoing profound transformations. We often 
don't have enough exchanges capacity to meet the high demand from our 
own senior policymakers as well as from partner governments, 
international civil society groups, and the U.S. educational and 
nonprofit sectors. ECA's FY 2016 request of $33.2 million is a 5.6-
percent increase over last year's budget. Such a level would allow us 
to continue strong U.S. support for Fulbright, the International 
Visitor Leadership Program, the Citizen Exchange programs, the Mandela 
Washington Fellowship for Young African Leaders, the Young Southeast 
Asian Leaders Initiative, and the J. Christopher Stevens Virtual 
Exchange Initiative. It would provide new funding to support a Young 
Leaders Initiative in the Americas. We also request funding for an 
Exchanges Rapid Response (ERR) capability to allow ECA to respond 
quickly when a crisis like Crimea, a transition like the Arab Spring, 
or a transformation like Burma opens opportunities for the U.S. 
Government to engage quickly and support policy objectives. The 
Department of State's exchanges funding is mostly granted out to U.S. 
partners a year and more in advance of the exchange program. This long 
lead time does not give us sufficient agility to respond to immediate 
and critical priorities. This increased funding request also places a 
high priority on supporting the policy rebalance to Asia.
    ECA's FY 2016 request also includes $66.8 million for Exchanges 
Support, a $8.6 million increase from the FY 2015 enacted level. While 
Congress has generously funded programs, ECA's operational budget has 
not kept pace and inflation has also eroded the bureau's operational 
capabilities. In FY 2015, Congress cut ECA's operational budget by $1.7 
million, requiring the bureau to use a great deal of recoveries money 
on basic operational expenses. (ECA normally uses the great majority of 
recoveries to fund pilot or experimental exchanges.) The drastic cut in 
administrative funding means that ECA does less monitoring of the 
health and welfare of young participants who come from various corners 
of the world, less oversight of the contributions of foreign 
governments to the Fulbright program, less use of new technologies for 
virtual exchanges, and less interaction with program participants and 
more ceding of the connections to participants to the U.S. program 
partners (which decreases the participants' perception that the U.S. 
Government is responsible for the benefits which accrue from the 
exchange program).

    Question. In order to prepare for a U.S. Department of State 
reauthorization, please provide the following information regarding the 
professional, educational, and cultural exchange programs for fiscal 
year 2014 and fiscal year 2015. Please identify and provide the 
following information on every academic program, professional and 
cultural exchange, and youth leadership initiative funded by the U.S. 
Department of State or jointly with other U.S. agencies.
    For each of the programs and exchanges, please provide:

    a. The official name of the program or exchange;
    b. The objective and goal;
    c. Total amount of funding;
    d. Number of participants;
    e. Length of time; and
    f. Countries represented and number of people from each country in 
            the program or exchange.

    Answer. The goal of Department of State's exchange programs is to 
bring Americans together with people from across the world to build 
lasting relationships that bridge political and cultural divides, in 
support of U.S. foreign policy. These exchanges range from 10-day 
professional exchange programs, to 1-year high school exchanges and 
full graduate degree programs. Please see the two documents attached 
for details. The first document lists the budget by program for FY 2014 
and FY 2015, a description of each program, length of time, number of 
participants and countries. The second document is a list of exchange 
participants by country.


                                                                        EDUCATIONAL AND CULTURAL EXCHANGE PROGRAMS (ECE)
                                                                                Detailed Allocation--FY 2014-2015
                                                                                         ($in thousands)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                     FY 2014                   FY 2015                           Program Description                     Participants*      Length of time          Regions
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Academic Programs                          $316,511                  $331,636   ....................................................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fulbright Program                          $236,974                  $236,485   ....................................................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fulbright Program                          $185,074                  $184,585   The Fulbright Program offers grants to study, teach               8,000   2 weeks to 1 year        Global (150+
                                                                                 and conduct research for U.S. citizens to go abroad                                                 countries)
                                                                                 and for non-U.S. citizens to come to the United
                                                                                 States.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Hubert H. Humphrey                          $11,000                   $11,000   One-year program of non-degree academic study,                      150              1 year        Global (100+
 Fellowship Program                                                              leadership training, and professional development                                                   countries)
                                                                                 for young and mid-career professionals from
                                                                                 developing countries.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Teacher Exchanges                           $10,600                   $10,600   Professional development programs for K-12 teachers                 350   2 weeks to 1 year          Global (75
                                                                                 focused on improving teaching and language skills,                                                  countries)
                                                                                 leadership development, and integrating educational
                                                                                 best practices
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Study of the U.S.                            $8,600                    $8,600   Five- to six-week academic programs focusing on U.S.                700        5 to 6 weeks          Global (80
  Institutes                                                                     studies for groups of foreign undergraduate                                                         countries)
                                                                                 students, scholars, and secondary educators.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
UGRAD                                        $6,800                    $6,800   One semester and academic year scholarships to                      250     1 semester to 1          Global (60
                                                                                 outstanding undergraduate students from                                               year          countries)
                                                                                 underrepresented sectors in many countries for non-
                                                                                 degree full-time study combined with community
                                                                                 service internship.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Community College                            $5,900                    $5,900   One-year scholarships at U.S. community colleges to                 150              1 year          Global (12
  Initiative                                                                     talented, underserved students and young                                                            countries)
                                                                                 professionals overseas and builds international
                                                                                 capacity at U.S. host institutions.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Critical Language                            $9,000                    $9,000   Intensive summer language institutes in thirteen                    550       8 to 10 weeks         EAP, EUR, SCA,
 Scholarships                                                                    critical foreign languages.                                                                  NEA (13 countries)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Global Academic                             $55,017                   $58,351   ....................................................
  Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Educational Advising and                    $12,241                   $12,241   400+ EducationUSA advising centers in 170 countries                  na                  na        Global (170+
 Student Services                                                                provide accurate info to international students                                                     countries)
                                                                                 about U.S. higher education through in-center,
                                                                                 virtual and outreach sessions. EducationUSA also
                                                                                 assists the 4500+ accredited U.S. institutions with
                                                                                 recruitment.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
English Access                              $25,750                   $24,250   After-school English language and American cultural              $5,000             2 years         Global (80+
  Microscholarships                                                              programming for bright, economically disadvantaged                                                  countries)
                                                                                 13- to 20-year-olds in-country
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
English Language                            $10,000                   $10,000   Teaching English to Speakers of Other Languages                     240       2 weeks to 10        Global (100+
  Fellows/Specialists                                                            Fellows are sent overseas to strengthen teaching                                    months          countries)
                                                                                 and promote English language learning
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
RELOs                                        $5,100                    $5,260   Local programming, travel and mandatory expenses for                 na                  na              Global
                                                                                 Regional English Language Officers overseas
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
E-Teacher                                    $1,800                    $2,500   Uses innovative distance learning technology to           virtual 1,200            10 weeks        Global (150+
                                                                                 improve the quality of English Language Teaching                                                    countries)
                                                                                 overseas
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Materials                                      $126                      $100   Online and print resources for English language                      na                  na              Global
                                                                                 teachers and learners overseas
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
American Overseas                                                      $4,000   American Overseas Research Centers are located                       na                  na           Global (x
  Research Centers                                                               throughout the world -- in Europe, Latin America,                                                   countries)
                                                                                 the Near and Middle East, South and Southeast Asia,
                                                                                 and West Africa -- and provide services to
                                                                                 scholars, including assistance with research and
                                                                                 publication.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Special Academic                            $24,520                   $36,800   ....................................................
  Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
American Overseas                            $4,000                             American Overseas Research Centers are located                       na                  na           Global (x
  Research                                                                       throughout the world -- in Europe, Latin America,                                                   countries)
  Centers                                                                        the Near and Middle East, South and Southeast Asia,
                                                                                 and West Africa -- and provide services to
                                                                                 scholars, including assistance with research and
                                                                                 publication.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
South Pacific                                  $435                      $350   The USSP Scholarship Program was established by the                   4          four years          EAP (South
  Exchanges                                                                      United States Congress to provide opportunities for                                                   Pacific)
                                                                                 U.S. study to students from the sovereign island
                                                                                 nations of the South Pacific in fields important
                                                                                 for the region's development. Public Law 103-236
                                                                                 authorized academic scholarships to qualified
                                                                                 students to pursue undergraduate and graduate study
                                                                                 at institutions of higher education in the U.S.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Timor Leste Scholarship                        $435                      $350   The USTL Scholarship Program was created in FY 1999                   3          four years   EAP (Timor Leste)
 Program                                                                         in response to Public Law 103-236, which directed
                                                                                 the Bureau to provide scholarships for Timorese
                                                                                 students. The objective of the program is to
                                                                                 provide academic scholarships to potential leaders
                                                                                 from Timor-Leste for undergraduate study at U.S.
                                                                                 universities in selected areas of critical
                                                                                 development to help strengthen the human resource
                                                                                 capacity of the Timorese people
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Mobility (Disability)                          $450                      $450   The Clearinghouse works to encourage people with                     na                  na              Global
  Exchange                                                                       disabilities to participate in international
  Clearinghouse                                                                  exchange and to provide technical assistance to
                                                                                 international exchange practitioners, including
                                                                                 colleges and universities and other institutions/
                                                                                 organizations, on how to increase the number of
                                                                                 people participating with disabilities in their
                                                                                 exchange programs and ensure that they have
                                                                                 successful experiences.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Gilman Scholarship Program                  $12,100                   $12,500   The Benjamin A. Gilman International Scholarship                  2,850   2 weeks to 1 year        Global (100+
                                                                                 Program offers grants for U.S. citizen                                                              countries)
                                                                                 undergraduate students of limited financial means
                                                                                 to pursue academic studies or credit-bearing,
                                                                                 career-oriented internships abroad.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Young African Leaders                        $5,000                   $15,000   The Washington Fellowship for Young African Leaders                 500   6 weeks study + 6   AF (49 countries)
 Initiative                                                                      is the flagship program of the Young African                              weeks internship
                                                                                 Leaders Initiative (YALI) that empowers young
                                                                                 people through academic coursework, leadership
                                                                                 training, and networking. Fellowships provide
                                                                                 outstanding young leaders from Sub-Saharan Africa
                                                                                 with the opportunity to hone their skills at a U.S.
                                                                                 university and support for professional development
                                                                                 in the U.S. and after they return home.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Youth South-East Asian                           na                    $5,000   YSEALI includes academic and professional exchanges                 250   4 to 5 weeks study  EAP (10 countries)
 Leaders Initiative                                                              for Southeast Asian youth to deepen their knowledge                          or internship
                                                                                 about economic development, education, environment
                                                                                 and civic engagement issues and to develop a
                                                                                 regional network.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fulbright University:                            na                    $2,500   Fulbright University Vietnam (FUV) will be the first                 na                  na       EAP (Vietnam)
 Vietnam                                                                         independent, non-profit, U.S. affiliated university
                                                                                 in Vietnam, and will embody core principles of good
                                                                                 governance, including academic freedom,
                                                                                 meritocracy, transparency, and equal access.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Tibet Fund                                     $710                      $650   The program's goal is to foster mutual understanding                 16        1 to 2 years                   SCA (India/Nepal)
                                                                                 between the Tibetan people and the people of the
                                                                                 United States and to educate future Tibetan
                                                                                 leaders.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Study Abroad Capacity                        $1,390                        na   Awards to U.S. institutions to help develop new                      na                  na              Global
 Building                                                                        study abroad programs and opportunities
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Professional and                           $192,617                  $195,240
  Cultural
  Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
International Visitor                       $91,007                   $89,665   ....................................................
 Leadership Program
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
International Visitor                       $91,007                   $89,665   A short term professional exchange for foreign                    4,665        2 to 21 days         Global (181
 Leadership Program                                                              participants to travel to the U.S. to network with                                                  countries)
                                                                                 their counterparts.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Citizen Exchange                           $101,035                  $100,000
  Program
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Professional Fellows                        $18,049                   $18,049   ECA's Professional Fellows Division provides grants         approx. 844
                                                                                 to U.S. non-profit organizations to conduct two-way
                                                                                 exchange programs that provide substantive
                                                                                 professional development and support to emerging
                                                                                 leaders from the U.S. and foreign countries. The
                                                                                 purpose of each exchange program is to engage with
                                                                                 foreign leaders in critical professions, to
                                                                                 demonstrate respect for foreign cultures and to
                                                                                 promote mutual understanding between the people of
                                                                                 the United States and other countries.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Youth Programs                              $67,292                   $66,257   The Youth Programs division primarily programs             approx. 4190        3 weeks to 1        Global (100+
                                                                                 academic-year and short-term exchanges with U.S.                             academic year          countries)
                                                                                 and international high-school aged youth that
                                                                                 promote leadership skills, civil society and
                                                                                 democratic ideals, volunteerism, and community
                                                                                 service.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Cultural Programs                           $10,199                   $10,199   The Cultural Programs Division partners with the            approx. 800   5 days to 9 months          Global (x
                                                                                 American arts community and U.S. missions abroad in                                                 countries)
                                                                                 the creation of arts-based people-to-people
                                                                                 exchanges that advance a variety of U.S. foreign
                                                                                 policy goals, including outreach to youth and
                                                                                 promoting opportunities for women and girls and
                                                                                 underserved audiences.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Sports Programs                              $5,495                    $5,495   SportsUnited works with public and private partners         approx. 530        4 to 30 days           Global (x
                                                                                 to provide international exchanges for athletes and                                                 countries)
                                                                                 coaches. These exchanges address key themes such as
                                                                                 countering violent extremism and HIV/AIDS education
                                                                                 and reach key audiences including women and girls,
                                                                                 underserved/underprivileged youth, and persons with
                                                                                 disabilities in an effort to bring people together
                                                                                 and foster greater understanding through sports.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Special Professional and                       $575                    $5,575
 Cultural
  Exchanges
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Ngwang Choephel                                $575                      $575   This grant competition supports exchange projects              Tibet 27
  Fellows (Tibet)                                                                involving ethnic Tibetans in Tibet and in the                  U.S. 16
                                                                                 Tibetan regions of China.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
J. Christopher Stevens                           na                    $5,000   A virtual exchange for youth in the Middle East/                     na
 Virtual Exchange                                                                North Africa and the U.S.
  Initiative
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Program and                                  $3,500                    $4,752
  Performance
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Alumni Affairs                               $2,282                    $3,500   Advances U.S. foreign policy by programs that are           > 1 million
                                                                                 mutually beneficial to the people of the United              > 140,000
                                                                                 States and the people of other countries. The        registered on IEA
                                                                                 International Exchange Alumni website (https://                website
                                                                                 alumni.state.gov) is among these programs. Alumni
                                                                                 engagement is integral to public diplomacy and
                                                                                 generates maximum return on the U.S. government's
                                                                                 investment in exchange programs.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Program Evaluation                           $1,218                    $1,252   The Evaluation Division is dedicated to enhancing                    na
                                                                                 the effectiveness of ECA's exchange programs
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


    Question. Please outline the total U.S. contributions to the United 
Nations from the U.S. Department of State and all other U.S. 
Departments and agencies including the total amount of all assessed and 
voluntary contributions, including in-kind, of the United States 
Government to the United Nations and United Nations affiliated agencies 
and related bodies.
    For each such contribution, please provide:

    a. The amount of the contribution;
    b. A description of the contribution (including whether assessed or 
            voluntary);
    c. The department or agency of the United States Government 
            responsible for the contribution;
    d. The purpose of the contribution; and
    e. The United Nations or United Nations affiliated agency or 
            related body receiving the contribution.

    Answer. The Department is currently preparing a report to Congress 
that will provide this information, as directed by House Report 133-
499, which accompanied the House State, Foreign Operations, and Related 
Programs Appropriations Bill, 2015. The Department is also preparing an 
annual report to Congress on U.S. contributions to international 
organizations as required by section 405(b) of the Foreign Relations 
Authorization Act, Fiscal Year 2003. The Department is planning to 
submit these reports by July 1, 2015.


            Educational and Cultural Exchange Programs (ECE)
                     U.S. and Foreign Participants*
                        Country/Regional Summary
                                 FY 2013
------------------------------------------------------------------------
                             U.S.           Foreign           Total
------------------------------------------------------------------------
East Asia and Pacific  ...............  ...............  ...............
 
  Australia            78               61               139
  Brunei               ...............  10               10
  Burma                32               251              283
  Cambodia             45               193              238
  Federated States of  5                14               19
   Micronesia
  Fiji                 4                29               33
  French Polynesia     1                ...............  1
  Hong Kong            46               27               73
  Indonesia            205              875              1,080
  Japan                360              155              515
  Kiribati             1                ...............  ...............
  Korea, Democratic    ...............  ...............  8
   People's Republic
   of
  Laos                 17               166              183
  Macau                8                ...............  ...............
  Malaysia             147              230              377
  Marshall Islands     6                8                14
  Mongolia             30               129              159
  New Zealand          48               55               103
  Niue                 ...............  ...............  1
  Palau                9                6                15
  Papua New Guinea     1                13               14
  People's Republic    760              664              1,424
   of China
  Philippines          38               436              474
  Republic of Korea    423              197              620
  Samoa                37               14               51
  Singapore            34               39               73
  Solomon Islands      ...............  ...............  1
  Taiwan               111              74               185
  Thailand             117              299              416
  Timor-Leste          6                103              109
  Tonga                1                3                4
  Vanuatu              ...............  ...............  1
  Vietnam              59               375              434
------------------------------------------------------------------------
    Total              2,629            4,437            7,066
------------------------------------------------------------------------
Europe/Eurasia         ...............  ...............  ...............
 
   Europe/Eurasia      3,513            5,465            8,978
  Albania              8                38               46
  Andorra              5                3                8
  Armenia              20               225              245
  Austria              53               48               101
  Azerbaijan           38               338              376
  Belarus              20               89               109
  Belgium              18               53               71
  Bosnia and           39               221              260
   Herzegovina
  Bulgaria             48               74               122
  Croatia              22               35               57
  Cyprus               17               86               103
  Czech Republic       62               62               124
  Denmark              40               28               68
  Estonia              14               40               54
  Finland              41               59               100
  France               156              117              273
  Georgia              22               260              282
  Germany              688              558              1,246
  Greece               40               54               94
  Hungary              39               58               97
  Iceland              14               24               38
  Ireland              61               59               120
  Italy                151              95               246
  Kosovo, Republic of  15               86               101
  Latvia               26               25               51
  Lithuania            21               29               50
  Luxembourg           5                7                12
  Macedonia            16               46               62
  Malta                7                7                14
  Moldova              21               199              220
  Montenegro           4                33               37
  Netherlands          41               47               88
  Norway               35               60               95
  Poland               44               109              153
  Portugal             12               37               49
  Romania              24               66               90
  Russia               341              1,136            1,477
  Serbia               26               120              146
  Slovakia             17               37               54
  Slovenia             22               22               44
  Spain                287              90               377
  Sweden               38               40               78
  Switzerland          17               21               38
  Turkey               253              251              504
  Ukraine              48               645              693
  United Kingdom       243              112              355
------------------------------------------------------------------------
    Total              6,692            11,314           18,006
------------------------------------------------------------------------
Near Eastern Affairs   ...............  ...............  ...............
 
  Algeria              40               347              387
  Bahrain              5                170              175
  Egypt                33               647              680
  Gaza Strip           ...............  1,382            1,382
  Iran                 ...............  7                27
  Iraq                 27               555              582
  Israel               86               755              841
  Jordan               165              670              835
  Kuwait               3                115              118
  Lebanon              10               749              759
  Libya                1                302              303
  Morocco              292              975              1,267
  Oman                 107              176              283
  Qatar                4                27               31
  Saudi Arabia         14               124              138
  Syria                ...............  5                35
  Tunisia              12               521              533
  United Arab          25               28               53
   Emirates
  West Bank            21               154              175
  Yemen                1                496              497
------------------------------------------------------------------------
    Total              846              8,255            9,101
------------------------------------------------------------------------
South Central Asia     ...............  ...............  ...............
 
  Afghanistan          24               1,025            1,049
  Bangladesh           64               248              312
  Bhutan               4                11               15
  India                445              1,450            1,895
  Kazakhstan           37               458              495
  Kyrgyzstan           36               382              418
  Maldives             ...............  3                63
  Nepal                62               251              313
  Pakistan             29               986              1,015
  Sri Lanka            28               138              166
  Tajikistan           86               284              370
  Turkmenistan         5                70               75
  Uzbekistan           22               248              270
------------------------------------------------------------------------
    Total              842              5,614            6,456
------------------------------------------------------------------------
Sub-Saharan Africa     ...............  ...............  ...............
 
  Angola               2                55               57
  Benin                6                47               53
  Botswana             20               30               50
  Burkina Faso         10               189              199
  Burundi              6                39               45
  Cabo Verde           ...............  ...............  5
  Cameroon             4                120              124
  Central African      ...............  ...............  5
   Republic
  Chad                 ...............  45               145
  Comoros              1                8                9
  Congo                1                19               20
  Congo, Democratic    9                123              132
   Republic of the
  Cote d'Ivoire        7                118              125
  Djibouti             ...............  ...............  9
  Equatorial Guinea    1                3                4
  Eritrea              ...............  1                11
  Ethiopia             27               234              261
  Gabon                1                25               26
  Gambia, The          4                13               17
  Ghana                132              118              250
  Guinea               5                27               32
  Guinea-Bissau        ...............  ...............  3
  Kenya                30               164              194
  Lesotho              1                8                9
  Liberia              6                53               59
  Madagascar           7                85               92
  Malawi               22               55               77
  Mali                 ...............  3                93
  Mauritania           1                138              139
  Mauritius            7                21               28
  Mozambique           11               76               87
  Namibia              13               22               35
  Niger                1                93               94
  Nigeria              24               212              236
  Reunion              1                ...............  ...............
  Rwanda               29               107              136
  Sao Tome and         ...............  ...............  6
   Principe
  Senegal              33               74               107
  Seychelles           1                2                3
  Sierra Leone         4                39               43
  Somalia              ...............  ...............  3
  South Africa         172              483              655
  South Sudan,         1                20               21
   Republic of
  Sudan                1                66               67
  Swaziland            2                15               17
  Tanzania, United     38               104              142
   Republic of
  Togo                 4                82               86
  Uganda               35               96               131
  Zambia               24               62               86
  Zimbabwe             43               144              187
------------------------------------------------------------------------
    Total              747              3,677            4,424
------------------------------------------------------------------------
Western Hemisphere     ...............  n                ...............
 Affairs
 
  Antigua and Barbuda  ...............  ...............  1
  Argentina            127              459              586
  Bahamas, The         ...............  8                18
  Barbados             7                8                15
  Belize               28               16               44
  Bolivia              43               194              237
  Brazil               325              729              1,054
  Canada               50               66               116
  Chile                115              279              394
  Colombia             93               440              533
  Costa Rica           142              189              331
  Cuba                 4                8                12
  Dominica             ...............  ...............  1
  Dominican Republic   23               108              131
  Ecuador              79               201              280
  El Salvador          9                247              256
  Grenada              1                1                2
  Guatemala            30               646              676
  Guyana               9                5                14
  Haiti                20               76               96
  Honduras             12               252              264
  Jamaica              19               32               51
  Mexico               104              593              697
  Netherlands          2                1                3
   Antilles
  Nicaragua            19               402              421
  Panama               25               412              437
  Paraguay             47               171              218
  Peru                 77               287              364
  St. Lucia            ...............  ...............  2
  Suriname             14               13               27
  Trinidad and Tobago  15               25               40
  Turks and Caicos     1                ...............  ...............
   Islands
  Uruguay              31               211              242
  Venezuela            43               243              286
------------------------------------------------------------------------
    Total              1,514            6,336            7,850
------------------------------------------------------------------------
* Participant totals include support from foreign partner governments.


    Question. United Nations Peacekeeping.--Why is the administration 
requesting a significant increase of almost 38 percent above fiscal 
year 2015 funding for the Contributions for International Peacekeeping 
Activities Account for Fiscal Year 2016? What other countries have 
committed to a similar increase in their peacekeeping contributions, 
and what is the dollar amount for those additional commitments?

    Answer. The request is $2.93 billion, of which $2.55 billion would 
fund the U.S. share of U.N. peacekeeping assessments during FY 2016 for 
14 ongoing U.N. peacekeeping missions, a war crimes tribunal, and 
logistical support for U.N. Support Office for the African Union 
Mission in Somalia (UNSOA) as well as the monitoring of mission 
effectiveness. An additional $380 million is included to partially 
cover projected FY 2015 shortfalls.
    The Department recognizes that this request represents an increase 
of $811 million (or 38.2 percent) over the amount Congress appropriated 
in the Department of State, Foreign Operations, and Related Programs 
Appropriations Act, 2015 (``FY 2015 Act'') for the Contributions for 
International Peacekeeping Activities (CIPA) account. However, the FY 
2016 request is based on an assumption that our U.N. peacekeeping 
assessment will be about equal to the FY 2015 estimated requirements of 
$2.55 billion.
    Peacekeeping missions are critical tools to maintain international 
peace and security, and to advance U.S. interests around the world, 
including in Somalia, South Sudan, the Democratic Republic of Congo, 
Mali and Haiti. International peacekeeping efforts are cost-effective 
means for countries to work together toward the same ends, resolve 
conflicts, contribute to international stability, and mitigate 
humanitarian crises. We continue to regularly review missions to 
determine where we may be able to downsize, close, or transition them 
to a peace-building or other arrangement, as appropriate, as well as 
encourage the U.N. to further pursue cost saving measures and 
efficiencies.
    Every U.N. member state pays a percentage share of the U.N.'s 
peacekeeping costs according to the U.N. peacekeeping scale of 
assessments. Overall U.N. peacekeeping costs are increasing 
significantly, not just for the United States. Every member state is 
committed to paying its share of the peacekeeping costs under Article 
17 of the U.N. Charter.

    Question. Evaluations.--In January 2015, the U.S. Department of 
State made changes to its program evaluation policy and guidance.

  <diamond> Please explain the changes, why they were made, and how the 
        agency plan to effectively evaluate both foreign assistance and 
        diplomacy programs at the U.S. Department of State.

    Answer. After analysis of the first 2 years of implementation, the 
Department's evaluation policy has been updated to simplify its 
language and structure and to clarify requirements for evaluation. The 
policy update clarifies that the evaluation requirement is not bound by 
dates and that it covers the full spectrum of activities, projects and 
programs the Department engages in. As a result, it will be more 
sustainable than the original policy.
    The updated policy makes plain that efforts and interventions 
funded by Diplomatic-Engagement (DE), such as those carried out by CA, 
FSI, HR, R/PPR, OBO, H, L, IRM, etc., are covered. In addition, other 
types of DE-funded evaluations, such as an organizational assessment 
carried out by a regional bureau, would also be covered. The intent is 
for bureaus and independent offices to look at the full spectrum of 
activities, programs and processes they perform and determine where 
more information is needed for improvements, developing priorities, or 
making decisions. The policy sets a consistent threshold for each 
bureau and independent office to conduct at least one evaluation per 
year and does not include any new requirements from the previous 
policy. It does:

  <bullet> Include a general requirement for all bureaus and 
        independent offices to conduct at least 1 evaluation per year, 
        with more expected of offices managing more than $1 million;
  <bullet> Clarify that it includes not only programs, but the 
        activities and processes most prevalent in the Department;
  <bullet> Include all bureaus and offices, with the expectation that 
        all have a process or activity that could benefit from review;
  <bullet> Expand the kinds of evaluations and methods available, 
        including low and no cost evaluations done internally;
  <bullet> Introduce collaborative evaluation to minimize duplication 
        of effort;
  <bullet> Incorporate the new foreign assistance policy guidance on 
        transparency and public dissemination of evaluation report 
        summaries as a requirement;
  <bullet> Eliminate the requirement for overseas post to comply with 
        the policy; and
  <bullet> Include expanded guidance, which will be issued annually.
                                 ______
                                 

        Statement From Administration on No Boots on the Ground 
                   Submitted by Senator Barbara Boxer

PRESIDENT OBAMA
--``I think we always have to guard against mission creep, so let me 
    repeat what I've said in the past: American combat troops are not 
    going to be fighting in Iraq again.''
    <all>  June 19, 2014

--``As I have said before, these American forces will not have a combat 
    mission--we will not get dragged into another ground war in Iraq.''
    <all>  September 10, 2014

--``. . . nor do we intend to send U.S. troops to occupy foreign 
    lands.''
    <all>  September 24, 2014

--``Instead of getting dragged into another ground war in the Middle 
    East, we are leading a broad coalition, including Arab nations, to 
    degrade and ultimately destroy this terrorist group.''
    <all>  January 20, 2015

SECRETARY KERRY
--``That is to say that we need to do kinetic, we need to attack them 
    in ways that prevent them from taking over territory, that bolster 
    the Iraqi security forces, others in the region who are prepared to 
    take them on, without committing troops of our own, obviously. I 
    think that's a redline for everybody here, no boots on the 
    ground.''
    <all>  September 5, 2014

--``This is not the prelude to another U.S. ground war in the Middle 
    East. President Obama has said repeatedly that U.S. ground troops 
    will not engage in combat roles. He means it. I volunteered to 
    serve and fought in a war I came to believe was a mistake. I take 
    that lesson seriously. This will not be another one of those 
    interventions.''
    <all>  September 26, 2014

--``The President has been crystal-clear that his policy is that U.S. 
    military forces will not be deployed to conduct ground combat 
    operations against ISIL and that will be the responsibility of 
    local forces, because that is what our local partners and allies 
    want, that is what we learned works best in the context of our Iraq 
    experience, that is what is best for preserving our coalition, and 
    most importantly, it is in the best interest of the United 
    States.''
    <all>  December 9, 2014
                                 ______
                                 

             CRS Memorandum on the Meaning of ``Enduring'' 
                   Submitted by Senator Barbara Boxer


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                  [all]
</pre></body></html>
